<html>
<title> - VIOLENT ISLAMIST EXTREMISM--2007</title>
<body><pre>[Senate Hearing 110-178]
[From the U.S. Government Printing Office]


<DOC>
[110 Senate Hearings]
[From the U.S. Government Printing Office via GPO Access]
[DOCID: f:34411.wais]

                                                        S. Hrg. 110-178
 
                    VIOLENT ISLAMIST EXTREMISM--2007 

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 14, 2007
           THE THREAT OF ISLAMIST RADICALISM TO THE HOMELAND

                              MAY 3, 2007
          THE INTERNET: A PORTAL TO VIOLENT ISLAMIST EXTREMISM

                              MAY 10, 2007
      VIOLENT ISLAMIST EXTREMISM: GOVERNMENT EFFORTS TO DEFEAT IT

                             JUNE 27, 2007
          VIOLENT ISLAMIST EXTREMISM: THE EUROPEAN EXPERIENCE

                            OCTOBER 30, 2007
   THE ROLE OF LOCAL LAW ENFORCEMENT IN COUNTERING VIOLENT ISLAMIST 
                               EXTREMISM

                               ----------                              

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




















                    VIOLENT ISLAMIST EXTREMISM--2007




















                                                        S. Hrg. 110-178

                    VIOLENT ISLAMIST EXTREMISM--2007

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2007
           THE THREAT OF ISLAMIST RADICALISM TO THE HOMELAND

                              MAY 3, 2007
          THE INTERNET: A PORTAL TO VIOLENT ISLAMIST EXTREMISM

                              MAY 10, 2007
      VIOLENT ISLAMIST EXTREMISM: GOVERNMENT EFFORTS TO DEFEAT IT

                             JUNE 27, 2007
          VIOLENT ISLAMIST EXTREMISM: THE EUROPEAN EXPERIENCE

                            OCTOBER 30, 2007
   THE ROLE OF LOCAL LAW ENFORCEMENT IN COUNTERING VIOLENT ISLAMIST 
                               EXTREMISM

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

34-411 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 











        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                         Todd M. Stein, Counsel
              Eric P. Andersen, Professional Staff Member
                    Tracey Silberling, FBI Detailee
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                    John K. Grant, Minority Counsel
                 Melvin D. Albritton, Minority Counsel
                  Leah Q. Nash, Minority GAO Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................   1, 51, 83, 113, 135
    Senator Collins..............................   4, 53, 84, 115, 137
    Senator Akaka................................................    14
    Senator McCaskill........................................   16, 173
    Senator Voinovich...................................    19, 54, 147
    Senator Tester...............................................    21
    Senator Coleman..............................................    23
    Senator Warner...............................................    25
    Senator Carper...............................................    29
    Senator Pryor................................................    31

                               WITNESSES
                       Wednesday, March 14, 2007

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security.......................................................     6
Charles E. Allen, Assistant Secretary for Intelligence and 
  Analysis, Chief Intelligence Officer, U.S. Department of 
  Homeland Security..............................................    34
Daniel W. Sutherland, Officer for Civil Rights and Civil 
  Liberties, U.S. Department of Homeland Security................    37

                         Thursday, May 3, 2007

Michael S. Doran, Deputy Assistant Secretary of Defense for 
  Support to Public Diplomacy, U.S. Department of Defense........    55
Lieutenant Colonel Joseph H. Felter, Ph.D., Director, Combating 
  Terrorism Center, U.S. Military Academy, U.S. Army.............    59
Frank J. Cilluffo, Associate Vice President for Homeland 
  Security; Director, Homeland Security Policy Institute, The 
  George Washington University...................................    63

                         Thursday, May 10, 2007

Jeremy F. Curtin, Coordinator, Bureau of International 
  Information Programs, U.S. Department of State.................    86
Chip Poncy, Director of Strategic Policy, Office of Terrorist 
  Financing and Financial Crimes, U.S. Department of the Treasury    88
John J. Miller, Assistant Director, Office of Public Affairs, 
  Federal Bureau of Investigation, U.S. Department of Justice....    91
Jeffrey J. Grieco, Acting Assistant Administrator, Bureau for 
  Legislative and Public Affairs, U.S. Agency for International 
  Development....................................................    95

                        Wednesday, June 27, 2007

Judge Jean-Louis Bruguiere, First Vice President, Investigating 
  Magistrate, France.............................................   116
Lidewijde Ongering, Deputy National Coordinator for 
  Counterterrorism, Ministry of Justice, Netherlands.............   119
Marc Sageman, M.D., Ph.D., Principal, Sageman Consulting, LLC....   123
Hon. Lynn M. Martin and Farooq M. Kathwari, Co-Chairs, Task Force 
  for Muslim American Civic and Political Engagement, Chicago 
  Council on Global Affairs......................................   126

                       Tuesday, October 30, 2007

Lawrence H. Sanchez, Assistant Commissioner, New York City Police 
  Department.....................................................   139
Mitchell D. Silber, Senior Intelligence Analyst, Intelligence 
  Division, New York City Police Department......................   140
Michael P. Downing, Deputy Chief, Counterterrorism and Criminal 
  Intelligence Bureau, Los Angeles Police Department.............   154
Major Michael R. Ronczkowski, Homeland Security Bureau, Miami-
  Dade Police Department.........................................   157
Major Thomas Dailey, Homeland Security Division, Kansas City 
  Police Department, Kansas City, Missouri.......................   162

                     Alphabetical List of Witnesses

Allen, Charles E.:
    Testimony....................................................    34
    Prepared statement...........................................   181
Bruguiere, Judge Jean-Louis:
    Testimony....................................................   116
    Prepared statement with attachments..........................   326
Chertoff, Hon. Michael:
    Testimony....................................................     6
    Prepared statement...........................................   177
Cilluffo, Frank J.:
    Testimony....................................................    63
    Prepared statement...........................................   248
Curtin, Jeremy F.:
    Testimony....................................................    86
    Prepared statement...........................................   291
Dailey, Major Thomas:
    Testimony....................................................   162
    Prepared statement with an attachment........................   645
Doran, Michael S.:
    Testimony....................................................    55
    Prepared statement...........................................   231
Downing, Michael P.:
    Testimony....................................................   154
    Prepared statement...........................................   627
Felter, Lieutenant Colonel Joseph H., Ph.D.:
    Testimony....................................................    59
    Prepared statement...........................................   239
Grieco, Jeffrey J.:
    Testimony....................................................    95
    Prepared statement with attachments..........................   313
Kathwari, Farooq M.:
    Testimony....................................................   126
    Joint prepared statement with Lynn Martin....................   476
Martin, Hon. Lynn M.:
    Testimony....................................................   126
    Joint prepared statement with Farooq Kathwari................   476
Miller, John J.:
    Testimony....................................................    91
    Prepared statement...........................................   304
Ongering, Lidewijde:
    Testimony....................................................   119
    Prepared statement...........................................   460
Poncy, Chip:
    Testimony....................................................    88
    Prepared statement...........................................   295
Ronczkowski, Major Michael R.:
    Testimony....................................................   157
    Prepared statement...........................................   635
Sageman, Marc, M.D., Ph.D.:
    Testimony....................................................   123
    Prepared statement...........................................   470
Sanchez, Lawrence H.:
    Testimony....................................................   139
Silber, Mitchell D.:
    Testimony....................................................   140
Sutherland, Daniel W.:
    Testimony....................................................    37
    Prepared statement...........................................   191

                                APPENDIX
                Additional Copy Submitted for the Record

``Congressional Oversight of Intelligence,'' Congressional 
  Research Service Memorandum, dated September 14, 2006, 
  submitted by Senator Akaka.....................................   205
Charts on Student Data submitted by Secretary Chertoff...........   210
Organization for Security and Cooperation in Europe (OSCE) 
  testimonies submitted by Secretary Chertoff....................   212
``NETworked Radicalization: A Counter-Strategy,'' Report 
  submitted by Mr. Cilluffo......................................   257
``Prevailing Against Terrorism,'' White Paper on Domestic 
  Security Against Terrorism, submitted by Judge Bruguiere.......   342
``Strengthening America: The Civic and Political Integration of 
  Muslim Americans,'' Report of the Task Force on Muslim American 
  Civic and Political Engagement, Farooq Kathwari and Lynn M. 
  Martin, Co-Chairs, and Christopher B. Whitney, Project Director   478
``Radicalization in the West: The Homegrown Threat,'' Report from 
  the City of New York Police Department, prepared by Mitchell D. 
  Silber and Arvin Bhatt.........................................   537

            Questions and Responses Submitted for the Record

Post-Hearing Responses to Requests from Secretary Chertoff for 
  Senators John Warner and George V. Voinovich...................   663
Mr. Curtin.......................................................   666
Mr. Poncy........................................................   691
Mr. Miller.......................................................   699
Mr. Grieco.......................................................   707
Dr. Sageman......................................................   715
Ms. Martin and Mr. Kathwari......................................   719

                Committee Report Released on May 8, 2008

``Violent Islamist Extremism, the Internet, and the Homegrown 
  Terrorist Threat,'' Majority and Minority Staff Report.........   724


           THE THREAT OF ISLAMIST RADICALISM TO THE HOMELAND

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, 
McCaskill, Tester, Collins, Voinovich, Coleman, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning, everybody.
    I want to say just a word of internal housekeeping about a 
new seating arrangement that our Committee will follow. I hope 
the new seating arrangement has not discouraged people from 
attending today. [Laughter.]
    Here is how this happened. A small group of us Senators, a 
bipartisan group, were sitting together last week talking about 
the unfortunate extent to which partisanship interferes with 
our getting the people's business done, with a lot of the 
things that we all really want to do. This is a subject that I 
am sure does not only occur among Senators, but as we hear 
increasingly from our constituents, it does occur among them. 
They are fed up with the prevalence of partisanship that stands 
in the way of us getting things done for them.
    And one of the Senators in the discussion, who was a 
Republican Senator, said, ``The whole place is organized in a 
way that encourages partisanship. We have separate lunches. We 
even sit separately, one side and the other, at our Committee 
meetings and hearings.'' So with the freshness that comes with 
being a freshman member, Senator McCaskill said, ``I have been 
thinking about that ever since I arrived. Why do we sit with 
Democrats on one side and Republicans on the other side at the 
Committee hearings?'' And then someone else said, ``Maybe we 
ought to try it a different way.''
    So I mentioned this to Senator Collins, and in the 
entrepreneurial, innovative spirit in which we have tried to 
characterize our leadership of this Committee, we immediately 
decided to implement Senator McCaskill's idea. And we do so 
with some seriousness, though not wanting to overstate the 
significance of this, for two reasons. One is that this 
Committee has operated in a wonderfully nonpartisan way over 
the time that Senator Collins was Chairman, and I have 
committed myself to continue that as well. And I think it is 
part of the reason why we have been able to get some things 
done for the country.
    So in beginning to sit Democrat, Republican, Democrat 
instead of either side, we are carrying forward the spirit that 
has guided this Committee, and I hope we are sending a message 
to you out there who are watching us that we are together, that 
when we confront and deal with a problem such as we are going 
to talk about, which is the threat of domestic, ``homegrown'' 
Islamist terrorism, we obviously do not think of ourselves 
primarily as Democrats, Republicans, or even Independents. We 
think of ourselves as Americans, as Senators, who have a 
responsibility to try to protect our people.
    So the first message we hope to send is to you, that this 
Committee works together across party lines. And the second is 
to us because it gives us an opportunity to chat with one 
another as the hearings go forward.
    I said at the beginning, a while ago, that I do not take 
this to be an enormous step. You might say, if I may paraphrase 
an earlier comment, this new seating arrangement of the 
Homeland Security Committee is a small step for the Committee. 
We hope it will lead to larger steps of nonpartisan 
accomplishment for the Senate.
    Senator McCaskill. Mr. Chairman.
    Chairman Lieberman. Yes, Senator McCaskill.
    Senator McCaskill. I would just like, if you would allow 
me, to briefly comment. This has been really an interesting 
experience from my perspective. When your e-mail went out on 
Friday announcing this change, I was gleeful and excited, and I 
think that my constituents at home in Missouri approve heartily 
of the idea that we would maybe change some things to try to 
embrace bipartisanship. But it was fascinating to me the 
reaction internally in the Senate that it was as if lightning 
had struck the building and that the glass and the panes were 
shaking.
    I have learned in the short time I have been here that when 
they say in the U.S. Senate ``It has always been done that 
way,'' they really mean it. [Laughter.]
    And so I think for the staffs particularly, and I want to 
say to the staffs, I do understand how much work staffs do in 
the U.S. Senate and what great work they do, and to whatever 
extent that this has caused stress among the staff, I apologize 
to the staffs of all of the Senators for that. And I want them 
to know that it really was just a suggestion and I did not 
stomp my feet or demand change. And I am hopeful that we will 
all adjust to this new seating arrangement and that it does not 
cause any undue work or consternation on behalf of the staffs 
that work so hard on all of our behalf.
    Chairman Lieberman. Thanks, Senator McCaskill. Don't let 
the rapid response discourage you from any other innovative 
ideas. [Laughter.]
    Now let's go to the subject of the hearing, and in a sense, 
in a very real sense, to begin this new seating arrangement 
sending exactly the message that we all feel about the topic of 
this hearing.
    This is the first in a series of hearings our Committee 
will conduct as part of a broad investigation into the threat 
Islamist extremism inside the United States poses to the 
American people. In doing so, I am continuing and building on 
an investigation that began when Senator Collins was Chairman 
last year, particularly looking at radicalization of inmates in 
American prisons.
    Today we are going to focus on what we are doing to detect, 
deter, and defeat this threat. I thank Secretary Chertoff, and 
Mr. Allen and Mr. Sutherland of the Department of Homeland 
Security, who will be on the second panel, for being here today 
to share with us the Department of Homeland Security's views 
and plans on this important subject.
    The Department's own Homeland Security Advisory Council in 
a recent report reached some sobering conclusions about the 
challenges ahead. It called radical Islam the ``most 
significant terrorist threat to the homeland today,'' said that 
it is spreading, and predicted that the number and magnitude of 
attacks on the United States will increase.
    We Americans obviously have already been attacked several 
times by these terrorists: At the Marine barracks in Beirut as 
far back as 1983; the World Trade Center in 1993; Khobar 
Towers; the bombings at the embassies of ours in Kenya and 
Tanzania; the attacks on the USS Cole as it lay in port in 
Yemen; the bombing of Khobar Towers again; and, of course, the 
attacks that woke us up and began the war against Islamist 
terrorism on September 11, 2001.
    Those attacks that I have mentioned either occurred outside 
the United States or, as on September 11, were carried out 
inside the United States by people, terrorists, who had come 
here from abroad with that evil intention. We are going to 
focus in these hearings on the threat of homegrown terrorism in 
the United States, but we are focusing on it because it is part 
of a larger global threat.
    I believe that this series of hearings is justified and 
important because of what we have already seen happen not just 
here in the United States, but much more graphically and 
devastatingly in Europe. The London subway terrorist bombings 
and the Madrid bombings were carried out by either citizens or 
long-time residents of the United Kingdom and Spain, 
respectively. Similar plots by citizens or residents of the 
Netherlands, Denmark, and France have been foiled. In fact, the 
Director of MI5 in Great Britain intensified my interest, and I 
would guess the interest of many others here in this country, 
in investigating this kind of threat to our homeland when she 
said last year that her agency had identified more than 200 
cells, with a total of more than 1,600 individuals within the 
United Kingdom who were plotting or facilitating acts of 
terrorism there.
    Is the same thing happening here in the United States? 
Could it happen? And, most importantly, what should we be doing 
about it? Those are the questions that this hearing and the 
longer investigation it begins will ask and hopefully answer in 
cooperation with the Department of Homeland Security and the 
other relevant agencies of our government.
    There are, of course, differences between Europe and the 
United States, which some people believe are quite relevant to 
the threat that we are discussing. American society has 
welcomed Muslim Americans, just as it has embraced generations 
of new immigrant Americans before. There certainly appears to 
be a greater level of integration and assimilation of Muslims 
into American society than into many other countries, including 
some in Europe. But last fall, Steven Simon of Georgetown 
University testified before this Committee at a hearing on the 
fifth anniversary of September 11, 2001, that, ``Muslims are 
increasingly choosing not to assimilate into American society, 
finding solace in their religious identity instead.''
    Assuming for a moment that there is some validity to the 
notion that there is a growing divide occurring here, one 
possible cause is the use of the Internet to promote the 
terrorist's dark age and hateful vision. It gives their 
multimedia campaigns of alienation and violence a global reach, 
including right into American homes and offices.
    As part of this investigative series, our Committee will 
look at the impact of extremist propaganda on the Internet, on 
the Islamist terrorist presence in the United States, and how 
our government and people combat it. We will also look at what 
Mr. Allen calls ``other nodes'' where radicalization may be 
occurring, including the prisons, perhaps universities, perhaps 
mosques. The domestic threat to our safety will require a 
strong, comprehensive, and creative strategy of homeland 
security.
    Remember that the 9/11 Commission said that one reason 
September 11, 2001, happened was a failure of imagination, and 
by that they meant our failure to imagine that people could do 
what the terrorists did to us on September 11. So I think we 
all want to make sure that our imaginations do not fail us 
again as we counter the possibility of this new threat of 
Islamist extremist and terrorist groups within our own country. 
The Homeland Security Advisory Council, which I mentioned 
earlier, charged by Secretary Chertoff with assessing the 
threats to the United States in the next 5 years, has recently 
given us some guidance on this. The task force is chaired by 
Lee Hamilton and Frank Cilluffo, the former homeland security 
assistant to President Bush, and in January it found that, 
``Understanding the future of terrorism requires our 
understanding threats and developments in a wide range of 
areas.'' And ``just as al-Qaeda has demonstrated their 
flexibility and capabilities to adapt their tactics and 
procedures, we must maintain the same level of flexibility and 
unpredictability.'' It then recommended that ``Countering 
homegrown radicalization must be one of the Department's top 
priorities.''
    I agree, and that is why we will be holding these hearings.
    This is going to be an important, complex, and at times 
difficult or awkward investigation and conversation. I 
understand that and Senator Collins does, too, but we must have 
this conversation and then act sensibly on it if we are to 
preserve our security and our freedom.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, and let me first 
say that I am happy to sit either on your left or on your 
right, whichever you prefer. And I am proud of the bipartisan 
work of this Committee which culminated just yesterday in the 
passage of major homeland security legislation.
    Mr. Chairman, when you were talking about the 9/11 
Commission's admonition that we not experience a failure of 
imagination, it brought to mind what the mandate and approach 
of this Committee has been. Over the past 2 years in 
particular, this Committee has made an effort to look ahead to 
identify emerging threats and to avoid the trap of pursuing 
only reactive measures to the dangers that face our Nation. We 
responded with landmark legislation to strengthen our 
intelligence analysis, to improve security at our seaports and 
our chemical facilities, and to reform our national 
preparedness and response systems.
    The homegrown terrorists who bombed the London subways, as 
well as those who plotted against the airliners flying out of 
the United Kingdom last summer, focused our attention on 
domestic radicalization. In England, we observed extremist, 
alienated Muslim citizens targeting their fellow citizens as 
well as our country for attacks. This Committee anticipated the 
threat of domestic radicalization in our country and responded 
with an investigation into this emerging threat, examining 
first radicalization in our prisons.
    For the past 5 years, the Federal Government has attempted 
to prevent terrorists from entering our country from abroad. 
Our homeland security efforts have made it increasingly 
difficult for foreign terrorists to infiltrate and operate in 
the United States. Increased border security and screening of 
overseas airline passengers, while critical to help keep out 
foreign terrorists, do not, however, protect us from homegrown 
terrorists. The rise of domestic terrorist cells inspired by 
but not necessarily directly linked to al-Qaeda is an emerging 
threat to our Nation's security.
    After the first hearing that this Committee held last year, 
Senator Voinovich and I wrote to the White House expressing our 
deep concern about the threat posed by the extremist 
misrepresentation of the Muslim faith. Our letter said, ``We 
believe countering this threat domestically as well as 
internationally is a critical element of our plan for victory 
in the war on terrorism.
    ``We are convinced that to prevent domestic radicalization, 
which has been identified as the precursor to terrorism, the 
Federal Government must prioritize outreach to American Muslims 
to foster positive relations and build strong community ties.''
    Mr. Chairman, I am very pleased that under your leadership 
the Committee is continuing its examination of this issue and 
continuing the quest for positive outreach as well as direct 
measures against this new threat. The Department of Homeland 
Security has undertaken efforts to assess the threat posed by 
those who want to radicalize Americans in order to promote 
attacks on this Nation and our allies. I also want to commend 
the Department for its awareness of the need to reach out to 
mainstream Muslims and to reassure them that they are valued 
fellow citizens, but most of all to ask for their help in 
countering this threat.
    When Secretary Chertoff testified before us last fall, he 
wisely stressed, ``We must not only work across Federal, State, 
and local government to prevent domestic terrorism, but we must 
also build a new level of confidence and trust among the 
American Muslim community who are our critical partners in 
protecting our country.''
    I am, therefore, very pleased that DHS, the FBI, the 
Department of State, and Department of the Treasury are 
supplementing their homeland security defense activities with 
an analysis of the concerns of Muslim Americans and with 
outreach and engagement programs. We must make the hearts and 
minds of our Muslim neighbors a constant focus of our 
attention, and the Department of Homeland Security has done 
some valuable work along these lines. Its threat assessment 
effort has included analyses of matters that cause concerns 
among some Muslim Americans, such as aviation watchlists, 
immigration processing, and perceptions of the selective 
application of laws and procedures.
    Now, I do want to emphasize that identifying sources of 
concern does not mean that we should abandon essential security 
activities, but it does obligate us to ensure that the 
rationales are well explained and that implementation is fair 
and reasonable.
    Mr. Chairman, as you well know, faithful Muslims are our 
allies in promoting tolerance and protecting all of our 
citizens against attacks. Our enemy is the violent absolutism 
of any stripe, whether its recruiting efforts are directed at 
Muslim Americans, at non-Muslim prisoners who could be 
converted and then radicalized, or at other citizens.
    I look forward to learning more today about the 
Department's efforts, and I also very much appreciate the 
Chairman extending this investigation to look at the use of the 
Internet as a recruitment and radicalization tool.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins, for that 
excellent statement.
    Secretary Chertoff, thanks again for being here. We really 
do look forward to working with you on this question and look 
forward to your testimony now.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman, and thank you, 
Ranking Member Collins. I think it is terrific that this 
hearing has been scheduled and this investigation is underway, 
because I think as you said, Mr. Chairman, this requires us to 
examine a subject that can be awkward at times. But I think it 
is important, and I think the American people need to be 
confident that we look at difficult problems square in the face 
and not merely easy problems.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 177.
---------------------------------------------------------------------------
    In asking why this issue of radicalization and homegrown 
terrorism is of such concern, it seems to me there are two 
elements that come to mind. The first is, as Senator Collins 
said, we spend a lot of effort trying to keep dangerous people 
out of the country and making sure we know who is coming into 
the country. But, of course, that set of measures does not work 
if we are dealing with American citizens or lawful permanent 
residents who have become instruments of terror. So we 
recognize that there is an additional vulnerability we have to 
address.
    Second, I think if you look at the experience that they 
have had in Europe in which people who appear to be well 
settled in the community, second and third generation citizens 
of the United Kingdom or other Western European countries, in 
some instances are people who are married and had children who 
then became either actual suicide bombers or at least plotted 
to become suicide bombers, I think it shakes our sense of what 
the threat is. There is a little bit of a tendency to assume 
that the people who become suicide bombers are teenagers or 
people who are unstable or disenfranchised. And yet when we see 
people who at least on the surface seem to be full stakeholders 
of society and, frankly, when we see people who have families 
prepared to strap on bombs or carry bombs onto airplanes, it 
does rock our sense of what human psychology is. And, of 
course, it raises the question whether we ourselves should be 
self-conscious about threats within our own communities and our 
own neighborhoods.
    So I think this is a very anxiety-provoking question and 
one which will benefit from some sober analysis and some 
serious conversation.
    Let me begin by asking the question--and I have a full 
statement which I request be made part of the record.
    Chairman Lieberman. Without objection.
    Secretary Chertoff. But what do we mean by 
``radicalization''? And I want to begin by saying that I think 
what we are trying to address here is a form of ideology of 
violent extremism, and I want to choose those words carefully, 
because to me the word ``ideology'' suggests a whole 
comprehensive system of beliefs, whether it is misplaced or 
not, but one that has a certain integrity. And, of course, the 
``violent extremism'' suggests it is not merely an ideology, 
but one that people are prepared to put into practice through 
the extreme use of violent measures.
    Now, it ought to be clear, based on this definition, that 
we cannot equate an ideology of violent extremism with an 
entire religion such as the Muslim religion. In fact, we know 
that the vast majority of Muslims in this country, like the 
vast majority of Jews and Christians, are not violent, are not 
adherents to an extreme ideology, and are full participants in 
the United States. So we have to make sure we do not ever make 
that improper connection or equation of this ideology and any 
religion.
    On the other hand, we have to also recognize the historical 
reality and the current reality that there is a subset of 
individuals who we have to characterize as ``violent Islamist 
extremists,'' meaning that they are adherents to an ideology 
that is distinctive and has a narrative of the world; it is one 
that at least uses the language of Islamic symbols. It may be a 
perversion of the language, but it uses that rhetoric. And it 
has as a goal acts of violence that are aimed at creating a 
society that will ultimately be radically different from the 
one we have now, one which is not characterized by democracy, 
freedom, and tolerance, but one that is characterized by 
intolerance and totalitarianism. And whether we believe that 
this goal of a totalitarian world or totalitarian part of the 
world is a realistic goal, it is one that is deeply believed in 
by the people who are adherents to this ideology.
    So the question becomes: How do people who are born in the 
United States or have been raised here from a young age, how do 
they become recruited into this ideology and indoctrinated to 
the point that they are actually prepared to kill themselves in 
order to carry out acts of violence against Americans? I think 
there are a lot of forces that come into play, and there is a 
lot we do not know. But there are some things we do know.
    We do know, for example, that you cannot simply say it is a 
matter of those who are poor, uneducated, or isolated from 
society. Actually, if you look at some of the September 11 
hijackers, they were among the most privileged members of their 
own generation and people who had access to Western ideas and 
Western education.
    How do people become willing to be swayed toward violence? 
Well, some of that is psychological and probably requires an 
individualized analysis, and part of what I think we are trying 
to do in our intelligence gathering and questioning is to get a 
sense of what moves people down this path of recruitment. But I 
do think there are some generalizations we can make.
    First, people have to be persuaded if they are going to 
become part of this ideology that there is some need to effect 
radical political or social change, and that may come from 
their own sense of inadequacy or indignity.
    Second, they have to be presented with a comprehensive 
world narrative, something that explains both their own sense 
of being troubled and what the ideology wants to achieve, and 
presents it as a coherent story line. And we know in the case 
of Osama bin Laden and his adherents, they have a vision of the 
world and a narrative that they propagate.
    And, third, people have to at some point be willing to 
believe in that narrative to such a degree that they are 
prepared to give their lives for it.
    Now, what are the prospects for this kind of radicalization 
and recruitment inside the United States? Well, it does seem at 
this point we have less of this homegrown radicalization here 
than we have seen in Western Europe. I think it reflects in 
part our free market economy, our pluralistic culture, our 
democratic ideals, and the fact that part of the spirit of this 
country is that we have no group that considers itself the host 
and no group that considers itself the guest. Every American--
including the four Americans I escorted into citizenship a 
couple of days ago at Walter Reed--becomes a 100 percent 
stakeholder as soon as they are born into this country or as 
soon as they are naturalized into this country. So those are 
some real advantages that we have.
    Among other things because of the nature of our society, I 
think the Muslim-American community here is better educated and 
more affluent than perhaps their counterparts in other 
countries. Nevertheless, we would make a mistake to assume that 
we can rest on our laurels. The use of the Internet and 
radicalization in places like prison does appeal to people who, 
for whatever reason, feel either isolated individually or in 
groups, and that compelling narrative is one which will attract 
people to acts of violence. So we need to figure out how to 
address this, and at DHS we have three elements to a strategy: 
First, continue to develop a better understanding of 
radicalization; second, enhance the capacity of the Department 
and its partners at all levels to counteract radicalization; 
and, third, engaging with key communities to promote our civic 
engagement and protect civil liberties. And let me talk very 
briefly about each of these.
    First, on the issue of understanding, we have identified 
and devoted 30 of our intelligence analysts specifically to 
discuss the issue and study the issue of patterns of 
radicalization and to work with others in the intelligence 
community, State, and local partners to detect potential 
homegrown threats. The analysts are divided among five regions 
across our country, so we look at the particular challenges in 
each region. We are investing resources in science, technology, 
and research through a DHS Center of Excellence for the Study 
of Terrorism and Response to Terrorism, and we have devoted 
money to research on other elements of what leads to 
radicalization. So we are trying to get some good social 
science and hard science analysis.
    Second, we are trying to enhance our own capacity to 
counter this. We have a Radicalization and Engagement Working 
Group that we set up in the fall of 2005 that is looking across 
all of our agencies and with our partners at the Bureau and the 
Department of State to see how we can identify threats and also 
opportunities to counter those threats. Among other things, 
last September, the working group hosted an interagency 
roundtable on the problem of radicalization in prisons, 
including representatives from the Justice Department, the FBI 
Joint Terrorism Task Force, and the Bureau of Prisons. We 
continue to push forward on this, working with State and local 
partners.
    Third, and perhaps most important, we are promoting civic 
engagement. Within a matter of days after September 11, 2001, 
the President was very forthright in making sure that he told 
the American public this was not about a war between Islam and 
the United States and that Muslim Americans had to be treated 
like all other Americans, as full partners. We have continued 
that substantial outreach, including my own personal outreach, 
to Muslim communities across the country, and we have regular 
community roundtables in cities all across the Nation.
    Most important, we have assembled an Incident Management 
Team and identified community leaders that we can reach out to 
at a time of stress, like last August when we had the London 
plot, so we can, first of all, check the pulse of the 
community, inform them about what we are doing, and then 
obviously give them whatever information they need to 
communicate with their constituents. So I think those are very 
important measures we want to build on.
    I want to conclude by making a general observation. This is 
unlike some of the challenges we face when we are dealing with 
the possibility of people smuggling terrorists in from overseas 
or bad things in cargo, because here we are dealing with a 
network threat. The spectrum of terrorism extends from the very 
highly organized and almost state alter ego type of terrorism 
you get in Hezbollah, all the way down to the self-initiating 
type of terrorists you get when people recruit themselves over 
the Internet and then come together in small groups to carry 
out terrorist acts.
    Therefore, this is not going to be solved simply by 
creating a big Federal program and a bureaucracy to deal with 
it. This is a true instance where to fight a network, we need 
to have a network, and that means working not only with 
government agencies but with communities and non-government 
agencies to deal with this issue.
    Second, and last, I would say this is preeminently and 
ultimately a battlefield of ideas in which we have to be able 
to identify what are the ideas and the elements that are 
bringing people into these networks of terror and how do we 
counteract that. And there we have some strong social 
strengths, but we are going to have to do some creative 
thinking.
    So I welcome this investigation. We look forward to 
cooperating with the Committee and moving forward on it. Thank 
you.
    Chairman Lieberman. Thanks very much, Mr. Secretary. It was 
a very thoughtful statement. I would like to do 7-minute rounds 
of questions. Let me pick up on your last point because it is a 
critical point, both in terms of the specific subject we are 
facing and the larger war on terrorism.
    This is, like all wars, a war for security, but it really 
is a war about ideas, and we will win the war ultimately by 
confronting the extremist, inhumane, regressive, repressive 
ideas that the Islamist extremists peddle with our own 
reactions, our own much better ideas, and much better value 
system. And in this sense, I thank you also for what you and 
Senator Collins said about the Muslim-American community, 
because in a very real way, the best idea we have going for us 
is America at its best, is the openness and opportunity of our 
society. And you said it, the President said it, all of us feel 
it. We are not involved in a war against Islam and are 
certainly not making Muslim Americans somehow the enemy. The 
enemy is extremism, Islamist extremism, and terrorism. And, in 
fact, one of the most significant reactions to it, I think most 
potentially constructive, successful reactions, is to build on 
the American ideal, the American reality, and if I may put it 
this way, to draw the American family closer together, 
including the Muslim members of the family, as opposed to 
somehow making them feel as if they are ``the other.'' This is 
not the way America is, and it would be a stupid and un-
American thing to do. So I thank you for your comments.
    Generally speaking, I take your testimony to say--and I 
will question Mr. Allen on this, too--that at this point we 
know enough to conclude that the problem of radicalization and 
homegrown terrorism is less than it is in Western Europe, for 
instance, but we would be naive to assume that there are not 
forces out there that are, in fact, trying to radicalize 
people, and bring people into the Islamist terrorist movement 
in this country.
    I know that under Mr. Allen, who is your Chief Intelligence 
Officer, you are building a crew of 30 analysts that will be 
devoted to this problem. You mentioned dividing them into five 
regions. At some point in this investigation, I know we would 
like to have a closed, classified hearing. But to the extent 
that you can in open session, tell us what the Department has 
learned thus far about the status of domestic terrorism and the 
efforts at radicalization of American citizens and permanent 
legal residents.
    Secretary Chertoff. Well, let me begin by saying that 
although I agree that it is less than Western Europe, that is 
not to say that it is non-existent. We do have an issue of 
homegrown radicalization. Some of it is pretty evident 
publicly. We have Adam Gadahn, who is over in South Asia 
somewhere, an American-born convert to some form of Islam, or 
what he characterizes as Islam, who is a propagandist for bin 
Laden.
    We do see instances--and I will leave some of it for a 
classified hearing--where we do see radicalization. Some of it 
is self-generated and some of it may be linked to connections 
to South Asia, where Americans, either born Muslim or some who 
convert, become recruited to an ideology and at least begin a 
discussion of carrying out acts of violence against the United 
States.
    One of the areas we did focus on early was prisons because 
we know that is a population that is a little bit more perhaps 
isolated than the rest of the country. It tends to be a group 
that has a higher percentage of people who are willing to be 
violent from the get-go. And it is a traditional breeding 
ground for all kinds of extreme ideologies, from the left to 
the right, Christian, Muslim, or whatever.
    So those are some of the principal areas we are focused on.
    Chairman Lieberman. So this is less than Europe, but it is 
real here, and we cannot close our eyes to that.
    Let me ask you a little bit more about where you place the 
threat of domestic Islamist radicalism in the list of threats 
to our homeland today.
    Secretary Chertoff. I would say that it is not--in terms of 
the consequence and in terms of the likelihood of success, I 
would still say the greater threat comes from either a group 
coming from outside the country or a group that is in the 
country but is being guided by and working with a group outside 
the country, what I would still call international or 
transnational activity.
    I think there is no question that there are groups inside 
the country, self-generated, that could carry out acts of 
violence. I think the sophistication would likely be a lot less 
than we saw on September 11, 2001. And I think their chances of 
success would be somewhat less. But that will change, and 
particularly if--I go back to the prisons again. If we get 
people who have proven that they are capable of carrying out 
acts of violence, buying into this ideology, their capabilities 
will begin to improve.
    Chairman Lieberman. Do we have any evidence at this point 
of participants in the global Islamist extremist terrorist 
network coming into the United States with the specific 
intention of radicalizing American citizens or residents?
    Secretary Chertoff. I guess I would separate two things. We 
obviously know from September 11, 2001, that we had people 
coming into the country, and I do think we have reason to 
believe that there are efforts to--I want to be careful how I 
say this--work with reliable people embedded in the country, if 
possible, to carry out plots.
    In terms of recruiting, though, and the ideology, I would 
say that the principal way to enter the United States is 
through the Internet. I do not think it is necessary to send 
radical recruiters into the United States. I think there is a 
risk of doing that, but I have no question about the fact that 
bin Laden and al-Zawahiri and others like them quite 
consciously use the media, including the Internet, as a 
recruiting tool.
    Chairman Lieberman. And also a communication device.
    Secretary Chertoff. Absolutely.
    Chairman Lieberman. Once somebody signs up.
    We are talking here about radicalization, domestic 
homegrown terrorism, and naturally thinking about acts of 
violence. I assume that part of what the Department is also 
focused on with other agencies of our government are people who 
would not be considered capable of or intending to carry out 
violent acts but who may be supportive enough to, for instance, 
provide safe houses or financial support or access of some 
other kinds. Is that correct?
    Secretary Chertoff. Absolutely. And, in fact, a lot of the 
efforts undertaken over the last few years in domestic 
enforcement are focused precisely on people who are 
facilitators, although they may not be operators.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary, I want to follow up on the conversation that 
you just had with Senator Lieberman. Our last hearing showed 
that radicalization can be accomplished in the prison system, 
both through what I would call self-radicalization, where a 
prisoner gets radical literature or access to the Internet and 
self-radicalizes, and then seeks to convert and radicalize 
others. We also saw examples of radical recruiters where 
radical imams were going into the prisons and trying to convert 
and radicalize.
    As the Department has learned more about the radicalization 
process, which are you seeing more of? Are you seeing the 
presence of radical recruiters or does the evidence suggest 
self-radicalization perhaps using the Internet or radical 
literature as the more predominant method?
    Secretary Chertoff. I do not know if I can quantify it. I 
would say the presence of a radical imam is probably more 
dangerous because it is a more dynamic recruiting environment. 
And it may precipitate then an interest in the literature or 
further self-radicalization. I do not know how easy it is for 
someone by themselves sitting in a prison to start to get 
interested in this, although experience in other areas shows me 
almost anything gets into prison because people have a lot of 
ingenuity in smuggling things in. But I would say that probably 
the most effective, quick way to radicalize is putting an imam 
in.
    Senator Collins. We have talked a lot in this Committee 
about radicalization within a prison, and obviously, a prison 
population is fertile ground--alienated, anti-government, more 
prone to violence. Are you looking at other possible sites for 
radicalization, whether it is college campuses or madrassas or 
even perhaps some radical mosques?
    Secretary Chertoff. Let me preface it by saying this is one 
of those discussions that falls in the category of awkward.
    Senator Collins. Right.
    Secretary Chertoff. Because, on the one hand, we do know 
that universities and madrassas can be sites for 
radicalization. On the other hand, we have a very strong 
tradition in this country of not getting into the business of 
moderating people's religious activities. And I will be honest. 
That is a real issue of delicacy for us, and that is why I 
think in some ways--I am concerned about those things, but I do 
not know that the way to address it is by having the 
authorities start to get intimately involved. I think the 
solution is to get the community itself involved, and if I 
could take a moment just to tell a really quick story about how 
this works.
    When I was in Germany about a month or so ago, the 
Ambassador kindly, at my request, set up a meeting with Muslim 
community leaders in Germany. I wanted to see how they were 
dealing with the issue of radicalization. And they said to me 
that they had experienced a case where a person had come in 
from outside to their community and was recruiting people to a 
radical Islamic ideology. And they said, first of all, this 
person was a complete ignoramus, had no idea of even the most 
basic elements of Islam, but was persuading young people that 
this was a narrative they ought to sign onto. And so they 
themselves went out and counter-programmed and countered that.
    So in some ways, the answer to your question is yes, but I 
want to be careful to say I am not advocating a heavy Federal 
footprint on this.
    Senator Collins. Nor am I, and that is why I think that the 
outreach to the Muslim community is so critical and that we 
need to step up even further our outreach in that area.
    The third issue that I want to touch on is what is perhaps 
a false sense of security in this country that domestic 
radicalization and homegrown terrorists are simply not a threat 
here, that we are different from Western Europe, that 
fortunately our Muslim community is more integrated, more 
mainstream, more prosperous than what we see in Great Britain 
and France.
    But the fact is that should be a very small comfort to us, 
not only because it can and is happening here, but also because 
radicalized extremists from Great Britain, from France, who are 
citizens of those countries can travel here pretty easily.
    Do you have concerns about our Visa Waiver Program--we 
tried to tighten that up in the bill that the Senate just 
passed--making it relatively easy for an extremist to travel 
from Great Britain, a British citizen, after all, without 
undergoing the kind of scrutiny that would occur if that same 
individual were not a citizen of a country with which we have 
the Visa Waiver Program?
    Secretary Chertoff. We are very concerned, and that is why 
we supported the effort that this Committee made to allow us to 
dramatically tighten up, even for visa waiver countries, the 
criteria for entry and giving us some more information, because 
we are worried that, notwithstanding the best efforts of our 
friends and allies overseas--and they have been tremendous 
friends and allies--by their own admission there is an 
increasing pool of what we call ``clean skins,'' people who 
have no obvious record, who are citizens of the country, who 
could come in and become a problem here.
    So that is why homegrown radicalization over there creates 
a greater vulnerability in the Visa Waiver Program.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    I do want to explain to my colleagues that, consistent with 
the new seating arrangement, what we will do in terms of 
calling on Members is that we will call on Members who arrive 
before 9:30, that is, when the gavel goes down, in order of 
seniority regardless of party, and then we will call on Members 
who arrive after 9:30 in the order in which they arrive 
regardless of party.
    That logic now leads us to Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Secretary, I join with my colleagues in welcoming you 
to this Committee on the threat of Islamist radicalism to our 
homeland. Of special interest to me, Mr. Secretary, is the 
issue of improving our intelligence collection and information 
sharing environment in the Department of Homeland Security. I 
have been very concerned since the creation of this Department 
that, first, its creation not jeopardize the effectiveness of 
existing intelligence agencies and, second, that the creation 
of a new Department focused on domestic threats would not 
endanger the legitimate rights of privacy and civil rights of 
American citizens.
    This is a major challenge. I introduced S. 82, the 
Intelligence Community Audit Act of 2007, which reaffirms the 
authority of the Comptroller General to perform audits and 
evaluations of the intelligence community to improve 
congressional oversight. I would ask unanimous consent at this 
time, Mr. Chairman, that a memorandum prepared for me by the 
Congressional Research Service entitled ``Congressional 
Oversight of Intelligence'' be included as part of the hearing 
record.\1\ This memorandum makes clear the role and authority 
of the Standing Committees of the House and Senate to oversee 
the intelligence community, of which the Department of Homeland 
Security is now a member.
---------------------------------------------------------------------------
    \1\ CRS memorandum submitted by Senator Akaka appears in the 
Appendix on page 205.
---------------------------------------------------------------------------
    Mr. Secretary, the Director of National Intelligence (DNI) 
wants to increase collaboration among the 16 intelligence 
agencies that it oversees. He is doing that by trying to 
integrate information technology, procurement, and human 
resources.
    From your perspective, how well is the collaboration and 
integration of functions progressing with the DNI?
    Secretary Chertoff. I think it is progressing quite well 
across the Federal environment. Even in the couple years I have 
been on the job, I have seen significant increases in the 
degree and quality of cooperation.
    I think everybody in the community buys into the idea of 
sharing. We do find sometimes people either do not recognize 
the significance of the information they have as intelligence, 
so they kind of unwittingly fail to share it, and we try to 
correct that. In our own Department, I issued a directive 
recently, mirroring one that the Justice Department had issued, 
that makes it very clear that within our own house there is a 
heavy presumption in favor of sharing, and we are not going to 
allow people to decline to share based on such customary 
phrases as ``That is operational information.''
    So I think we have made an awful lot of progress. I think 
the next area where we have to continue to make progress is in 
sharing at the State and local level. We are trying to do that 
with the Fusion Centers which will give us a point of contact 
with States and localities so that we can move information back 
and forth. We are also expediting, and I think dramatically 
increasing, the security clearances for State and local 
officials. We are establishing a fellowship program for State 
and local officials to come and work on intelligence here. The 
idea is to really thicken that set of relationships.
    Senator Akaka. It is difficult to build a sense of 
community when several agencies have existed for decades and 
have their own culture and expertise. With Homeland Security, 
you have both legacy agencies and a new Office of Intelligence 
and Analysis trying to create its own culture to serve the 
Secretary's needs.
    From your perspective, what are the major challenges 
remaining for the Office of Intelligence and Analysis?
    Secretary Chertoff. I think recruitment is always a 
challenge. We are competing now not only with the other 
agencies but with the private sector to recruit translators and 
people who are analysts, so that is always a challenge; 
continuing the process of building our information technology 
that allows sharing in a more expedited and more efficient 
fashion. I think those are two areas where it takes a little 
bit of time and effort, but they are critical if we are going 
to continue to mature our information and intelligence 
collection and analysis department.
    Senator Akaka. Senator Voinovich and I have also been 
working to resolve issues on expediting security clearances, 
and we look forward to working with you on that.
    Let me ask another question here. Are you satisfied with 
the Department's ability to recruit and retain intelligence 
personnel?
    Secretary Chertoff. Well, again, as I say, the problem is 
we are competing with other agencies and with the private 
sector, so I would like to see, first of all, more young people 
being interested in being public servants. When I have been out 
with Muslim community leaders, I have talked specifically about 
how I think it would be beneficial from a number of standpoints 
for them to encourage people in their community coming out of 
college or out of graduate school to look to public service as 
a career path.
    So I want to make sure we continue to have a pool of 
recruits that is sufficient to let us satisfy our needs, and I 
think we are in a very competitive environment.
    Senator Akaka. Senator Voinovich and I have been working on 
human capital. I am very concerned about future recruitment as 
well.
    What additional tools do you need to be successful in 
meeting your recruitment goals?
    Secretary Chertoff. Well, as I say, I think first we need 
to expedite and streamline the process of clearing people. 
Right now the FBI and contractors have an enormous burden in 
terms of background checks. It may be that--and I think the OMB 
has talked about this--we need to look more fundamentally at 
what we are doing in background checks to see which of the 
things we are doing are really legacies of the Cold War that we 
do not really need to continue to use, and what new things we 
ought to do.
    I had a circumstance where I was talking to a person we 
were recruiting for a senior position who, by dint of the fact 
that he had served overseas in the Foreign Service in a lot of 
different posts, was told that a background check was going to 
take months because he had been overseas a lot, so there was a 
lot of investigation. Even when they were overseas with a top-
secret clearance for the U.S. Government. So I confess there 
are times that kind of does boggle the mind a little bit, and I 
think we probably need to break a little china in the 
background-checking organizations to inject a note of common 
sense.
    Senator Akaka. Well, thank you very much, Mr. Secretary, 
for your responses.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
McCaskill, you are next.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman. Thank you for 
being here, Secretary.
    Having visited with a number of American Muslims over the 
last 2 years, my heart hurts for them. And as I look at the 
radicalization around the globe and the threat it poses to our 
country, I want to echo the sentiments of other Members that 
have talked about using the American-Muslim community as maybe 
our strongest tool against the radicalization that is being 
attempted in various venues.
    I am curious. What kind of structure do you have in your 
Department to embrace this community? And have you made an 
effort to employ in the highest levels of the Department of 
Homeland Security American Muslims so that their perspective 
and their view of this problem--and, frankly, I think they have 
the key to more solutions than we may have--and they are deeply 
offended at this movement and what it represents to their 
faith. Do we have American Muslims at the highest level of the 
Department of Homeland Security?
    Secretary Chertoff. I am a little bit at a handicap because 
I usually do not ask people what their faith is. But I know in 
one instance we had a senior person in the intelligence 
function who was--I believe he was Muslim. I think he has now 
moved to another intelligence agency.
    We obviously have the Civil Rights and Civil Liberties 
Office, which is very committed to outreach. I know that Mr. 
Allen--and I am sure he will speak to this--is very interested 
in recruiting. And as I say, I have gone out when I have been 
in the community and made a point of trying to encourage people 
to come forward.
    I want to be a little careful because, again, I do not want 
to--there is a little bit of a tendency sometimes--you used to 
see it in the area of human resources where minorities were 
kind of given that as their portfolio and almost like limited 
to that. I want to make it clear when we bring Muslims into the 
Department, it is not simply to be ``experts on Islam.'' It is 
to do the whole range of things.
    Senator McCaskill. Sure.
    Secretary Chertoff. And I have said I want it to be Border 
Patrol agents, Coast Guard cutter skippers. I just think that 
in general we benefit from having--it is not just talking the 
talk. It is walking the walk in terms of that integration.
    Senator McCaskill. I agree. I think it would be, frankly, 
counterproductive to put them just in the civil rights and 
outreach department.
    The other thing I have noticed since visiting with this 
community is I hear so much misinformation across the media. It 
is amazing to me when I will listen to one of these talking 
heads on cable television refer to being Muslim as if that is 
something that is wrong, inappropriate, scary, or something 
that we should be fearful of.
    Do you all have a program within your Department where you 
track those kinds of comments in the public media? And have you 
ever found an occasion after one of those statements--I am 
thinking particularly when there was press about Senator Obama 
and where he had been schooled and the incredible 
misinformation that was put out there, trying to make it look 
like that he was in some terrorist recruitment camp or 
something. It was wildly inappropriate.
    I was hoping at that moment that you or someone at your 
level in government would step forward and say: Wait a minute. 
What you are doing here hurts America. It hurts the way we are 
viewed in the rest of the world by the Muslim community. It 
hurts with American Muslims and how they feel and how they are 
treated.
    Secretary Chertoff. Well, I did not say it publicly because 
it did not come up publicly. What I said, when I spoke to a 
large group in Detroit, was I thought there was a bit of a 
brouhaha about a Member of Congress who got sworn in and chose 
the Koran. And I said, I thought that was actually a good thing 
that the--I will probably get in trouble for saying this, but I 
am going to say it because I believe it. We respect all 
religious faiths, and you ought to take your oath of office 
using the holy book that you believe in. And I did it on a 
Jewish Bible when I got sworn into this job or being a judge, 
and Muslims ought to do it on the Koran and Christians ought to 
do it on the Bible. And I think that is a positive thing.
    In terms of the misinformation on the media, that is a 
subject of a whole separate hearing. We do not track 
misstatements on the media. I would get into a whole ton of 
trouble from the First Amendment advocates if I were to start 
to do that. I guess I have to subscribe to Justice Brandeis' 
view that the best--or Justice Holmes' view, the best cure is 
more discussion and more debate. But I think everybody of good 
faith ought to step on efforts to demonize particular 
religions.
    Senator McCaskill. Well, I understand that you would never 
speak out in terms of trying to limit the speech on the media. 
But correcting their speech from your position of authority I 
think would be tremendously powerful. And I think in the long 
run the signals that the top levels of our government send 
around the world about the way we view the Muslim faith may be 
the most powerful weapon we have against terrorism.
    Secretary Chertoff. I agree with that. The President 
himself has been very--not only public, but passionate about 
making it very clear that he respects the Muslim faith. And I 
think all of us at every level of government, when the 
opportunity presents itself, in an appropriate way should make 
that point very clear. I agree with you.
    Senator McCaskill. Since it is under your hat, so to speak, 
students that come here to get educated--in visiting with an 
American friend of mine who is originally from Iran, he has 
been in this country as an engineer for a number of years. He 
talked about within his generation that the best work that 
America did in terms of diplomacy was allowing these students 
to come from other countries and then them going home, because 
when they live here and they learn here and they get to 
participate in the American dream, I might argue, and maybe at 
our best, because I think I certainly look back at my time in 
college as some of the best times I had, maybe not for all the 
right reasons, but I really am worried about what we are doing 
in the name of homeland security as it relates to this very 
important deportation of democracy, because the young people 
who come here to learn in terms of college education go back 
home at the highest levels of their government, at the highest 
levels of the world of medicine or engineering, and they bring 
back what they saw of this wonderful experiment called 
democracy in America.
    I worry about what we are doing in terms of the visas and 
the educational opportunities, and if you would speak to that, 
ways that you could maybe take responsibility to making sure 
that we continue to export democracy through these educational 
exchange programs.
    Secretary Chertoff. Well, I agree with you, that is a very 
powerful benefit to the United States, and Secretary Rice and 
I, about a year ago, announced an initiative to try to 
emphasize again how we want to welcome people, and the vast 
majority of people are good people who want to come to the 
United States. We did make some adjustments to the student visa 
process to allow somewhat longer visas and people to come a 
little bit early or ahead of schedule.
    At the same time, we still do, as Senator Collins said, 
have the fundamental responsibility to check the people who 
come. And there are people who want students visas that, 
believe me, you do not want to have come into this country. It 
is only a small minority, but regrettably, a small minority can 
do a lot of damage.
    So it does mean we have up front in the visa process a 
certain amount of vetting and checking, which I think is 
appropriate. But we have tried to smooth the process and make 
it more efficient, and also to give a longer period so that 
there is not a need to go through the process, just 
bureaucratically a lot of different times.
    Part of this is we want also to send a positive message 
out. I know Karen Hughes and others are really working very 
hard to make sure we are not allowing negative stereotypes that 
people get from the media to infect the willingness of people 
to come over here.
    Senator McCaskill. I would appreciate it if you could get 
my office or the Committee the numbers of students that are 
coming to get educated in America from countries that are 
primarily Muslim and how those numbers have tracked over the 
last several years.\1\
---------------------------------------------------------------------------
    \1\ Charts on student data submitted for the record by Secretary 
Chertoff appears in the Appendix on page 210.
---------------------------------------------------------------------------
    Secretary Chertoff. We will do that.
    Senator McCaskill. Thank you very much, Secretary Chertoff. 
Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCaskill. Next is 
Senator Voinovich to be followed by Senator Tester.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman and Senator 
Collins. I commend you both for your leadership in conducting 
hearings to consider if there is a security threat of homegrown 
radicalization of American Muslims. And as this Committee has 
already learned at previous hearings, radicalization can be a 
precursor of terrorism and is, therefore, a significant 
homeland security concern.
    I think that one of the things that people have to 
understand is that we are at war against a transnational 
terrorist movement fueled by radical extremists. These 
individuals seek to exploit the religion of Islam through 
violent means to achieve ideological ends. I like to say that 
we are in the fourth world war against Islamist extremists, 
religious fanatics who have hijacked the Koran into making 
people believe that the way to heaven is jihad against the 
United States and other people that share our values.
    In my work on this Committee and on the Foreign Relations 
Committee, one of my chief concerns has been how to combat the 
spread of radical jihadist ideology. This struggle transcends 
borders. We need to be proactive about combating extremism at 
home in the United States and as well as abroad.
    I think Members of the Committee might be interested that 
for the last several years we have been trying to get the 
Organization for Security and Cooperation in Europe (OSCE) 
through the Office of Democratic Institutions and Human Rights 
to do a survey of the OSCE members regarding anti-Semitism, 
Muslim xenophobia, existing laws, how are they being enforced, 
and, perhaps most important, developing an infrastructure of 
understanding so we bring people together and prevent incidents 
like we experienced in England last summer.
    While I am pleased that the Department is taking this issue 
seriously, I am convinced that if we are going to be 
successful, we need to better engage Muslim communities across 
America and facilitate interfaith dialogue to prevent 
isolation.
    This is a book that I shared with the members of the 
Foreign Relations Committee, Geneive Abdo's book ``Mecca and 
Main Street.'' Ms. Abdo conducted a year survey of the Muslim 
community in the United States. The fact of the matter is that 
Muslim Americans feel a lot more isolated today than they did 
before September 11, 2001.
    We have got to be very careful about developing this 
infrastructure of understanding between Jews, Muslims, and 
Christians so that we make sure existing walls do not get 
larger. I know the President has recognized this problem. He 
has tasked Karen Hughes with improving our public diplomacy. 
Ms. Hughes has worked to establish more dialogue with America's 
Muslim communities and to empower American Muslims to act as 
American ambassadors in other countries. The Ambassador to 
Brussels, for example, brought Muslims from the United States 
to Belgium to talk with Muslims there to try and do his part in 
trying to bring people together and to discuss how Muslims are 
treated in our country.
    The real issue here gets back to the same old story in this 
government: Who is the orchestra leader? Do you know what he or 
she is doing? Does he or she know what you are doing? Is 
anybody looking at the big picture.
    Secretary Chertoff. We actually are quite well coordinated. 
I think on most of these issues, they fall within either my 
domain or Justice or State, and we all talk regularly among 
ourselves about these issues. Sometimes there are more formal 
interagency coordinations through the National Security Council 
or the Homeland Security Council, but a lot of times on some of 
these issues, it is a question of my just going over and having 
lunch with Secretary Rice or Attorney General Gonzales, and we 
coordinate that way, or we do it at lower levels.
    Senator Voinovich. If I asked you for an organizational 
chart that showed who is working on this issue, what their 
responsibilities are, and how they are being coordinated, is 
that available today?
    Secretary Chertoff. I do not think there is an 
organizational chart just on the issue of who coordinated 
radicalization. We do have a group within our own agency, a 
working group, and there is an interagency working group in 
which we participate with the other departments. I can get you 
those.\1\
---------------------------------------------------------------------------
    \1\ Organization for Security and Cooperation in Europe (OSCE) 
testimonies submitted for the record by Secretary Chertoff appears in 
the Appendix on page 212.
---------------------------------------------------------------------------
    I would not want to say that is the full measure of 
everything that we do, but those are probably the two most 
systematic, institutionalized mechanisms for driving forward on 
this.
    Senator Voinovich. Well, I would like to have that, and I 
am sure the Members of the Committee would as well.
    Secretary Chertoff. Sure.
    Senator Voinovich. We must be sure that someone has looked 
at the big picture, how agencies are working together, and who 
is responsible for what.
    The other thing that you mentioned in your testimony is the 
recruitment of a talented workforce and security clearances. 
Both are items on GAO's high-risk list, and our oversight is 
designed to address these long-term management challenges.
    I would hope that you would share the frustration that you 
have with the folks over at the Office of Management and Budget 
because we are pushing them very hard to resolve the backlog. 
Reciprocity of clearances is a major challenge.
    Secretary Chertoff. Well, at least at the higher levels of 
OMB, I think there is agreement with what you are saying, and I 
agree with you, too.
    My experience has been is you start to grow into it at the 
level of the people who actually have the responsibility. They 
are always hesitant and perhaps overcautious, the feeling being 
that it is always safer to continue doing what you are doing.
    I always take a little bit of pleasure in trying to 
revolutionize in those areas. For example, we laid down a 
mandate recently that if you are TS/SCI, top secret-sensitive 
compartmented cleared, in another intelligence agency at the 
Federal level, that is good enough for us. We should not 
require you to go through another background check. That is 
crazy, absent something new that arises and maybe you need to 
be updated.
    So we are, I think, turning the battleship around on this, 
but it is frustrating and it is hurting us.
    Senator Voinovich. We will try and help.
    Secretary Chertoff. Yes, and I am kicking some you-know-
whats. [Laughter.]
    Chairman Lieberman. Keep kicking. Thanks, Senator 
Voinovich. Good questions.
    Next is Senator Tester, to be followed by Senator Coleman, 
if he returns, or Senator Warner.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. And, Secretary 
Chertoff, thank you for being here today. I think we are very 
fortunate that the message of Islamist radicalization has not 
nearly found the audience in this country that it has in the 
Middle East or even Europe, and I would like to know more about 
why you think that is and whether you can identify any factors 
that might change that dynamic. But as we look at the problem 
of radicalization, it is clear to me that specific events can 
have major impact on individuals' decisions to engage or be 
sympathetic to radicalism. Events like September 11, 2001, and 
the U.S. invasion of Iraq were moments that clearly drove some 
in other countries to identify with al-Qaeda and similar 
organizations--September 11 because it promoted in the Middle 
East the notion that al-Qaeda had achieved some kind of 
success. Fortunately, our troops in Afghanistan made sure that 
success was extremely brief and did a good job keeping al-Qaeda 
on the run.
    I mention Iraq as well because the war seems to have raised 
suspicions about America and its motives in the eyes of many on 
the Arab street. It has not had the positive impact that many 
had hoped for, and that is why we had foreign fighters pouring 
into Iraq after the invasion to try to commit jihad against 
American forces.
    But I do think we do ourselves a disservice if we believe 
that Iraq is some sort of flypaper, that our involvement there 
makes extremists less likely to do harm in the United States.
    Mr. Secretary, as we think about what might happen in Iran, 
do you expect there could be further impact on Islamist 
extremism if there is some kind of military confrontation with 
Iran? As you know, the Vice President and others in the 
Administration have said that all options remain on the table. 
What are your views in regard to military confrontation versus 
diplomatic solutions in Iran as it applies to radicalization?
    Secretary Chertoff. Let me take your two separate 
questions.
    First, there was a lot of social science analysis of why 
the problem seems to be greater in Western Europe than in the 
United States, and I think there is less assimilation in 
Western Europe. I think there is less fluidity in the economy 
in some of those countries. As I said, I believe that compared 
to their counterparts in Western Europe, American Muslims are 
better educated and more prosperous, and I do not think we 
have, with maybe a few exceptions, large pockets of people 
where you have foreigners essentially being the only residents 
in a particular community, as they do have in some places in 
Western Europe. So I think we are much more assimilated.
    Now this is a little bit more speculative on my part. I 
think there is a fundamental difference with the way we deal 
with people who come in to become American citizens or people 
who are second and third generation American citizens. I think 
the dominant spirit of this country is every American is as 
much a participant and stakeholder as every other American. You 
are not here as a colonial legacy or because of the fact that 
you used to be part of the American empire. You are here 
because you have chosen to come here. And I think that sense of 
social mobility has been a really positive benefit. I think 
some of the European countries have had to struggle with that.
    So I think those are advantages, but they are not things to 
be taken for granted or to be treated as an indication we are 
absolved of the need to look at these other issues.
    I guess on the other question I am going to say this: I do 
not believe that one can appease oneself out of problems with 
violent extremists or ideologies of hate or terrorists. I think 
that once the ideology exists, it will fasten onto any excuse 
and that you cannot bargain with it or barter away with it or 
try to mollify it by avoiding necessary action that you need to 
do to protect yourself.
    Bin Laden declared war on the United States well before 
September 11, 2001, well before Iraq, well before Afghanistan. 
He was offended by the fact that we had American troops in 
Saudi Arabia. He was offended by the fact that women soldiers 
walked around with their faces revealed. Well, that is too bad 
for him. We are not going to compromise our values or our 
national security simply because we are afraid that exercising 
our values or promoting our national security is going to 
offend somebody.
    That is not to say we ought to take measures like this 
lightly or that we ought to do it in a way that is dismissive 
of other cultures or the dignity of other people. But the 
bottom line is I do not think that there is any amount of 
propitiating radical extremists that is going to make them less 
intent on killing us. And I think at some level resolution, 
determination, and strength are very powerful, positive 
messages for the United States, because I do think it is an 
antidote to those who believe that radical extremists have 
discovered the key to victory.
    Senator Tester. Just a quick follow-up. I do not want to 
put words in your mouth, but using force against radical 
extremists tends to work better than diplomacy?
    Secretary Chertoff. I cannot tell you in the abstract. I 
can tell you that I think that you need to make the decision 
based on what you think is going to be most effective. But I 
would say renouncing force in the hope that is going to buy you 
peace is a huge mistake, a historically demonstrated mistake, 
vividly brought to mind with that charming picture of Neville 
Chamberlain announcing peace in our time.
    I think at the end of the day, you have to make a decision 
about what the right approach is based on circumstances and 
based on what is in the best interest of the United States, not 
trying to figure out what is going to make the enemy less angry 
at you.
    Senator Tester. OK. A couple things. You listed three 
things: Understanding why radicalization occurs, enhancing your 
ability to respond, and promoting civic engagement. And I think 
in the beginning you talked about protecting civil liberties, 
but you did not expand on that in your speech. Could you tell 
me what you meant by that and how that can be effected?
    Secretary Chertoff. What I meant is that it is very 
important--and I guess I view this as part of civic 
engagement--that we make clear that we are not racially 
profiling people, we are not imputing to people that they are 
dangerous or threatening because of the fact that they happen 
to be Muslim or because of the fact that their ethnic heritage 
happens to be a particular type of ethnic heritage.
    We have to continue to treat every American with the same 
respect that our Constitution requires regardless of their 
heritage, regardless of what their religion is. And I think 
when that is not honored, that actually has a counterproductive 
effect.
    Senator Tester. Well, my time has run out. Thank you very 
much.
    Chairman Lieberman. Thank you very much, Senator Tester.
    Senator Coleman, to be followed by Senator Warner.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Secretary, I do appreciate your comments in response to 
Senator Tester's question. I have written the word 
``Chamberlain'' that you spoke about. I think it is important 
to make clear we are talking about radical extremists. We are 
not talking about Muslims. We are not talking about Islam. We 
are talking about radical extremists. And by definition, those 
are folks who do not want to negotiate with us. They want to 
kill us. And so how do you deal with that?
    I would suspect that the battle, the need for resolution, 
for determination and strength against radical extremists is so 
that in the end, talking internationally, you have India, the 
largest democracy in the world, I think perhaps the largest 
Muslim population in the world, but the Muslim population there 
does not see radical extremists, say that they have defeated us 
and this is the path, because if that becomes the path, then we 
all face even greater challenges than we face today.
    Talking about the international--reflecting on this from 
reading Secretary Allen's testimony, he may want to delve into 
it--but it appears that one of the differences between what we 
face in Britain where radical extremists were able to move 
folks, part of the population and part of British society to 
step forward, was support from al-Qaeda, support from other 
groups. That may be operational support, maybe--but a range of 
support.
    Which leads me then to the question in this country, be it 
Iran, be it groups that fund al-Qaeda, can you talk about the 
cooperation with the State Department and with other agencies 
on the international side to help us measure whether that 
support is coming in and whether we are doing things that are 
effective in blocking it?
    Secretary Chertoff. Obviously a major focus of what we do 
in the intelligence community as well as the Homeland Security 
Council, which always involves the intelligence agencies and 
the Department of State and the Department of Defense, is to 
assess where the international dimensions of the threat are. We 
have various strategies we have put together on how to address 
that threat in what was at one--and the acronym is global war--
or the kind of shorthand is global war on terror, and a 
dimension of that strategy which was formulated is focused in 
particular on how we can deal with international connections as 
they facilitate or further terrorist action in this country. So 
we do coordinate through the interagency process with all of 
the agencies in a common strategy.
    Senator Coleman. Are you satisfied, Mr. Secretary, that the 
silos are broken down? One of the great problems of September 
11, 2001, was to get the FBI and the CIA--there was not the 
coordination. And I say this because I think it is a fair 
statement. On other levels in Iraq itself, folks at times see, 
when we are dealing in some areas of the Middle East, the State 
Department approach and the Defense Department approach. I have 
actually had folks on the ground say that at times they are in 
conflict.
    On the intelligence side, do we have the level of 
integration, the absence of conflict, so that you are 
comfortable that we have truly broken down the silos that exist 
or that have existed?
    Secretary Chertoff. I think we have done an awful lot. I 
can measure it based on what I saw when I was here on September 
11, 2001, and what I saw when I came on the job, my current 
job, in February 2005, and what I see now.
    Certainly at the policy level, at the senior level, I think 
those silos have all gone. I think when you delve deep in the 
organization, you sometimes find either people do not 
understand what they have has intelligence significance so they 
do not think to share it, not out of ill will but because they 
just do not realize its value, and you do find some people who 
just still cannot get around the idea that you do not own the 
information, you have to share the information. So, as we 
recruit people, as we educate people, I think this problem is 
diminishing.
    We do need to take care that we do not reintroduce the 
silos. Something that is ironic about Europe is the Europeans, 
because of their data protection rules, actually affirmatively 
place very powerful barriers to information sharing in their 
own governments. So they erect silos. That is an approach which 
I think, if it were ever to be introduced into this country, 
would actually slide us all the way back to where we were. So 
we have to be vigilant against backsliding.
    Senator Coleman. Just talking about data very briefly, do 
we have common databases between the State Department and DHS 
to track international and domestic trends?
    Secretary Chertoff. We have interoperable databases. It is 
not one single database, but we do integrate and move across 
our various databases for the same type of information.
    Senator Coleman. The British were very effective--and thank 
God they were very effective--in thwarting a plot to destroy 
aircraft that was headed to the United States, including the 
situation of a family, suicide terrorist bombers, being willing 
to take their child to do that.
    As you look at how Britain accomplished that, are there 
tools that they have that we do not have that we should put in 
place to make sure that we would have been able to do the same 
thing? Is there something you need from us for us to rest easy 
knowing that if the same thing had occurred in this country, we 
would have had the same capacity to stop it before the terror 
and destruction did take place?
    Secretary Chertoff. They are different than we are. They 
have some tools that we do not have. We have some tools they do 
not have. They are very nimble in their ability to do 
electronic surveillance. They are capable of getting the 
authority to do it in a very rapid and efficient way, which 
allows them to get coverage very quickly. I think we have a 
good system. Again, one wants to guard against something that 
would make that system less efficient.
    On the other hand, we have the capability of using our 
electronic surveillance in court. They do not. And I can tell 
you from personal experience actually that is a tool we have 
that probably they would benefit from having.
    So, I think we have a good set of tools. I would be more 
worried about losing the tools we have than anything else.
    Senator Coleman. Thank you. And if we are in a situation 
where it appears that we are going to lose those tools----
    Secretary Chertoff. I will speak up.
    Senator Coleman. Make sure you speak up.
    Secretary Chertoff. Believe me, I will.
    Senator Coleman. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Coleman.
    Senator Warner is next, to be followed by Senator Carper. 
Senator Warner, good morning.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Good morning, Mr. Chairman. I thank you and 
our distinguished Ranking Member for scheduling this meeting. I 
think it is extremely important.
    I always enjoy listening to you, Secretary Chertoff. I like 
to think of the days when you were a circuit judge, but I think 
you have done very well adapting to this new position. And I 
have read through very carefully your opening statement, and I 
want to commend you on one or two phrases in there worth 
repeating: ``It is critical that we recognize that American 
Muslims have been and will continue to be a highly valued part 
of the fabric of our Nation.'' There is a vast understanding 
about the radical extremists. Yes, they are a small segment 
within a very large framework of the Muslim religion and one 
that has been respected worldwide for many generations and that 
we must always continue to focus on that, because I think to 
the extent that our own citizens of the Muslim faith in this 
community are willing to come forward and help us in this 
rather arduous but important learning process, so much the 
better.
    I wanted to follow-up on Senator Coleman's questions. I 
listened to bits and pieces, but I would like to ask you: Do 
you feel there is a centralization of all the pertinent 
information in the Administration to which you have access? You 
said informally you visit with your counterparts, heads of 
agencies and departments and sometimes at a Cabinet meeting. 
But is there a single source to which you or your subordinates 
can go, given sometimes time is short, to access the 
information that you feel you need?
    Secretary Chertoff. Yes, it is all fused at the Federal 
level at the National Counterterrorism Center (NCTC).
    Senator Warner. I would hope that would be the case.
    Secretary Chertoff. And that is the kind of one-stop shop, 
and when we dealt with the August threats or when we deal with 
threats now, the place we go to for the kind of bottom line as 
well as the comprehensive analysis is the NCTC. They do, 
however, when there is disagreement or dissent among various 
agencies, they will make a note and present the fact that there 
may be a competing or a somewhat different point of view.
    Senator Warner. Now, you make reference to a video that you 
prepared, and I presume elsewhere I can infer that you may have 
some written material. I would suggest to our leadership that, 
if not, would you provide copies to the Committee. I personally 
would like to look at that video and examine the written 
material.
    Chairman Lieberman. A very good suggestion. Please do.
    Secretary Chertoff. We will do that.\1\
---------------------------------------------------------------------------
    \1\ List of materials in DHS response submitted for the record from 
Secretary Chertoff appears in the Appendix on page 663.
---------------------------------------------------------------------------
    Senator Warner. In that context, is there someone within 
our framework of government, like the NCTC, that reviews that 
material such that what you promulgate is consistent with what 
other departments and agencies are promulgating? I am not 
suggesting a censored system or to lose the dynamic 
individuality which you express at all times. But it seems to 
me we want to make certain that one publication out of one 
agency is consistent with others.
    Secretary Chertoff. I think we do--I cannot tell you the 
precise mechanism because I was not involved in preparing the 
material. But we do work on an interagency basis, particularly 
with the State Department, the Office of Public Diplomacy. If I 
was going to identify one place where the expertise in terms of 
public outreach to the Muslim community is most likely 
centered, it would be in the Office of Public Diplomacy.
    Now, some of what we did--different videotapes have 
different purposes. Some were internal consumption in terms of 
training our own inspectors about certain kinds of cultural 
things so they did not mistake behavior that is perfectly 
normal cultural behavior for something that was sinister.
    So we have to adapt it to our own purposes, but I think we 
do generally coordinate our communications and messaging on an 
interagency basis.
    Senator Warner. You say you think you do. Can we have it 
verified for the record?
    Secretary Chertoff. I will verify it. I will provide for 
the record what the mechanism is.\2\
---------------------------------------------------------------------------
    \2\ DHS responses submitted for the record from Secretary Chertoff 
appears in the Appendix on page 663.
---------------------------------------------------------------------------
    Senator Warner. I really think it is extremely important, 
right down to how your various operators on the front lines in 
the airports and elsewhere have to deal with this material. 
There should be a consistency.
    Secretary Chertoff. Right, and certainly within the agency 
I can tell you that we--I mean, the purpose of the training 
program was to give all the inspectors who encounter Muslim 
travelers a sufficient understanding about the way you treat 
certain forms of dress so that they were respectful. And we 
wanted, in fact, to make sure they were consistent.
    Senator Warner. Well, consistency is important, but also it 
appears to me that each of our Federal departments and agencies 
should have a structure, but not build it to the point where it 
is duplicated in each of them and we have an inefficiency in 
government and government expenditure of taxpayer funds. So to 
the extent we can have a consolidation, to not lose your 
individuality but have that consolidation and dissemination and 
review process, so much the better. And you think the NCTC is--
--
    Secretary Chertoff. The NCTC does the intelligence. We have 
an interagency working group which does coordinate on the issue 
of what we are doing with radicalization across the government. 
I was only hesitant because the particular video you are 
talking about, since it was an internal video, I do not know 
exactly what the vetting process for that was. But it may be 
that Mr. Sutherland knows or Mr. Allen knows. If not, we will 
get it to you.
    Senator Warner. So often that internal material finds its 
way externally. People just hand it out.
    Secretary Chertoff. That is true.
    Senator Warner. So we have to be careful that it is correct 
and it is right.
    Do you find the same level of cooperation with the other 
nations? You say on page 3, ``In this regard, the Department is 
working with our foreign partners to share information and, 
where feasible, to identify trends and patterns in 
radicalization.''
    Can you expand a little bit on that?
    Secretary Chertoff. Yes, and this is, not surprisingly, a 
concern not only for our own country, but a concern for Western 
Europe, and actually Asia as well. Countries with substantial 
populations of Muslims are looking at the issue of 
radicalization, and we do get the benefit of some of their 
experiences in how to combat radicalization, recognizing that 
there are some cultural differences. Some countries do things 
that I think we probably would have difficulty doing. They will 
have institutionalized, government-run programs to deprogram 
people who are religious fanatics. I think that would be 
problematic for us from a cultural and maybe a legal 
standpoint.
    But we do a lot of cross-border discussion. When I have 
gone over to Europe the last few times, we have had discussions 
about this, and they are doing research and we are exchanging 
research on this particular issue.
    Senator Warner. Last, if I may say, as we on the Armed 
Services Committee constantly review these very important 
perspectives on the radical extremists, we are reminded that 
when we went into this operation in Iraq, we had less than 
adequate planning on having our actual soldiers, right down to 
the privates and so forth, understand the culture. And, 
therefore, I urge that you dwell on history.
    If you go back and study history, some of the problems that 
we are experiencing today were experienced by other nations. I 
mean, Great Britain went into Mesopotamia and divided up these 
areas into Iraq and Syria and so forth. They thought they could 
do it over a very short period of time, but it ended up a very 
prodigious, difficult task, and at the end they were not sure 
they had done it properly. And now we are seeing some of the 
wrongs that are being inflicted.
    So do encourage your folks--I spend a lot of time now 
trying to read a lot of books on this subject. I must confess I 
had not really understood the complexity of this really 
extraordinary, magnificent religion, but how it can fracture 
and what the cultural differences are.
    Secretary Chertoff. I do, too. I certainly hope that the 
academic arena--this is a very fertile field of study, and it 
is going to be for the 21st Century, probably the dominant 
international challenge. And I think it is one well worth 
spending time looking----
    Senator Warner. Well, that is a proper note on which to 
discontinue my questions. Thank you very much.
    Chairman Lieberman. Thank you, Senator Warner.
    Senator Warner. Would the Chairman advise us with regard to 
the vote that was scheduled?
    Chairman Lieberman. Yes, we are waiting to hear. Apparently 
around 11:15, so my hope would be that Senator Carper and 
Senator Pryor--well, Senator Carper could ask his questions. 
And then if the vote is called, we will break and come back and 
hear Mr. Allen and Mr. Sutherland. Mr. Allen is one of our 
Nation's natural assets, so I would urge everyone to return for 
his testimony.
    Senator Warner. I would share those views about Mr. Allen.
    Chairman Lieberman. I know you do.
    Senator Warner. In my 29 years here, we have had our paths 
cross many times. We are fortunate that he has remained in 
public service.
    Chairman Lieberman. Amen. I want to say very briefly that 
the exchange, Senator Warner, you had with Secretary Chertoff 
in which he mentioned the National Counterterrorism Center I 
found very gratifying because it is one of those cases where 
the 9/11 Commission recommended creation of the NCTC, we 
brought it out of this Committee through the Congress, and it 
actually exists. One of the most thrilling moments I have had 
when Senator Collins and I went out to visit it, somehow 
located in your State of Virginia, Senator. I do not know 
whether you----
    Senator Warner. I know where to find it.
    Chairman Lieberman [continuing]. Arranged that. But I would 
urge all the Members to go visit it. It is quite remarkable. I 
remember getting home that night and saying to my wife, 
``Sweetheart, I saw something today that should make you and 
everybody else in our country feel just a significant degree 
safer.'' So I thank you for that.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. You mentioned that was one of the most 
thrilling moments. Not a cheap thrill. [Laughter.]
    Chairman Lieberman. No. NCTC is quite expensive. That is 
right.
    Senator Carper. Judge, how are you?
    Secretary Chertoff. Very good. Thanks, Senator.
    Senator Carper. Nice to see you. I was with some of your 
old compadres earlier this month. Judge Jane Roth has moved 
from active status to senior status on the Third Circuit Court 
of Appeals, and we were having a swearing-in for her successor, 
and she remains very active, as you might imagine. But a couple 
of your old colleagues, I was talking about their degree of joy 
and serving on the Third Circuit Court of Appeals, and they all 
told me to a person, they said the job they really would like 
would be Secretary of Homeland Security. [Laughter.]
    Secretary Chertoff. That is not what they said at the time, 
but I appreciate the sentiment.
    Senator Carper. I told them that I did not know if there 
would be an opening there anytime soon, so we will see.
    King Abdullah was here the other day and spoke to a joint 
session of the Congress, and I had the pleasure of spending 
some time with him over in his country a little over a year ago 
and then here last year when he was visiting at the White 
House. He brought really one central message in the joint 
address to the Congress, and I do not know if you had a chance 
to listen, with everything else that you are doing. But his 
message was that to the extent that we want to tamp down the 
threat of terrorism here and around the world, we need to focus 
on the Middle East, not just Iraq, not just Iran, and those 
countries, but we need to focus on Israel, we need to focus on 
the longstanding enmity between Israel and the Palestinians, 
and just put a whole lot of time and energy around getting a 
solution there that we have talked about forever, but to get it 
not next year, not next decade, but this year.
    Your thoughts, please?
    Secretary Chertoff. I think that this is a moment in the 
Middle East of great challenge but also great opportunity. I 
think that some of the regimes now recognize that they are 
facing a threat to their own existential survival, whether it 
be from Sunni extremists or Shi'ite extremists or Iran. And 
that is causing them perhaps to be willing to take a second 
look at maybe changing some of their positions.
    On the other hand, I also think that when you are in a 
period of danger and flux, it tends to make you all the more 
conscious of making sure you are not buying a pig in a poke and 
that, if you are going to reach agreements and you are going to 
change position, you are confident you are not going to 
compromise your own existence.
    I know the Secretary of State, in whose domain this lies 
and who has much more expertise than I do, is very aggressively 
working on this. I think this is, as I said earlier, the No. 1 
area, I think, of international engagement for the foreseeable 
future.
    Senator Carper. President Abbas, the President of the 
Palestinians, was here in Washington. I want to say it was June 
2005. Whenever it was, it was like 5 months after his election 
as President. Some of us had the chance to talk with him over 
lunch, and I asked him a question. I said to him, ``In terms of 
a timetable that you would recommend to this country, to our 
Administration, for putting a full-time, high-level envoy in 
the Middle East to work 24/7 on trying to help foster an 
agreement between the Palestinians and the Israelis, when would 
be a good time to begin to do that?'' This was again, I 
believe, June 2005. He had been in office 5 months. He said, 
``Five months ago.'' And I applaud the efforts of Secretary 
Rice, but she has a lot on her plate. I have suggested to 
others in the Administration and I would suggest to you is you 
have your conversations with the President and others that we 
make this the kind of priority that King Abdullah has reminded 
us again that it should enjoy.
    I had a visitor in my office, a fellow who works for you, 
the other day. Kip Hawley came by and spent some time with us 
to talk about the work that they are doing at TSA. I arranged 
to have on the telephone a constituent of mine from Delaware 
whose last name is Kelly, a fairly prominent businessman, a 
highly regarded family, and a lot of times when he goes to the 
airport to try to get on a plane, he gets detained. And it has 
happened to him repeatedly, and his family gets detained. And 
his name is Kelly. And I think there are folks who--his name 
keeps popping up because there must be some Kellys that are 
involved with, I do not know, the Irish Republican Army or some 
kind of terrorists there. And it is sort of difficult for him 
to get out of that loop. And as one who has rushed through 
airports--and I am sure we all have--trying to get through 
security, get to our plane, and make our connections, to have 
that kind of thing happen again and again repeatedly is more 
than an annoyance. It is an incredible aggravation.
    And I thought, if that happens to him, I wonder how often 
it must happen to people who happen to be from the Muslim 
community, who may live here, are citizens here, work here, and 
contribute in their communities.
    I would just say, to what extent has this kind of thing 
come to your attention and does it receive your concern?
    Secretary Chertoff. It comes to my attention very 
frequently, and often from, surprisingly, well-placed people 
who have had relatives who get put into secondary screening. We 
are in the process now of scrubbing the TSA list and removing a 
bunch of names which will, to some degree, alleviate the 
problem. But it is actually a mechanical problem.
    The difficulty is that we can remove people from the list, 
based on information like name and date of birth if they are 
not the person that we are concerned about. But because we have 
not yet completed the process of migrating the actual 
implementation from the airlines into TSA, the airlines are 
uneven in whether they correct their lists or not. We leave it 
in the hands of the airline employee at this point as the one 
who does that check. So we are, unfortunately, a hostage to the 
failures of some of the airlines.
    You also have to distinguish between cases where someone 
goes into secondary based on a name issue or versus based on a 
behavioral characteristic, which they may not be aware of, but 
it may have to do with something about their travel that 
tripped a wire that put somebody into secondary. And it may 
also be that people are carrying things in, and they wind up 
getting caught in the checkpoint. They may go into secondary 
from that standpoint.
    So we are working to make it more efficient, but we still 
are basically operating a name-based system, and in a name-
based system, people with identical names, you are going to 
have to make some kind of an adjustment to allow you to take 
people out of that field.
    Senator Carper. Let me just ask that you continue to focus 
hard on this one, if you would, please.
    Since September 11, 2001, many Americans have developed, as 
we have heard, biases of negative feelings toward Muslims, 
unfortunately. In my visits to countries such as Jordan, 
Kuwait, and Saudi Arabia last year, we learned that many of the 
citizens there no longer want to come to America because of the 
kind of prejudices that they have experienced here. I think 
this means that fewer Muslims have the opportunity to come here 
and learn the truth about the benefits of living in a 
democratic society. I think it also hurts the counterterrorism 
partnerships we are attempting to develop with those countries 
because when the citizens return home and tell about their 
negative experiences at our airports and other places, it helps 
reinforce the negative beliefs about America.
    You talked a little bit about this. I would just ask you to 
go back and maybe recap. But what are some of the things being 
done at the Federal level, particularly under your purview, to 
develop the infrastructure of understanding and human relations 
that is necessary around this country to ensure that Americans 
do not develop, further develop Muslim, I will call it, 
xenophobia?
    Secretary Chertoff. I think briefly two things. In terms of 
what happens overseas, we have been working with Secretary Rice 
over the past year plus on an initiative to be more welcoming 
and more efficient in the way we deal with people all over the 
world, of course, also in Muslim countries, to encourage them 
to come in.
    As far as domestic attitudes, the President has been very 
forceful, and Attorney General Gonzales, Director Mueller, I, 
and others have taken multiple opportunities to stress how 
important it is not to confuse the ideology of violent 
extremism with all Islam. And it is only a very small number of 
people who are using the rhetoric of Islam as a way of 
packaging an ideology of hate.
    This is an issue which should require the engagement of the 
media. And it has not being Pollyanna-ish; it is just being 
accurate. So I think all of us can carry that message forward.
    Senator Carper. Thanks very much.
    Chairman Lieberman. Thanks, Senator Carper.
    Senator Pryor, I think we have about 7\1/2\ minutes left on 
the votes. You have a good, solid 7 minutes.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman. I appreciate that. 
I will try to keep it under that, if I can.
    Thank you, Secretary Chertoff, for being here. Some of the 
Senators today have touched on this issue of how many Muslims 
in this country feel isolated, they feel disconnected to this 
country and our society and our culture. How should the United 
States foster relationships with the Islamic community in the 
United States? And how can we encourage the more moderate 
elements of American Islam to come forward and have a 
meaningful role in our society?
    Secretary Chertoff. I think it is an undertaking that 
requires Federal, State, and local participation, including a 
lot of local participation, because the truth is most people of 
whatever community, their principal experience with government 
is at the local level. So part of it is setting the tone from 
the top, as the President has done and others have done, in 
getting out and visibly engaging with and supporting the Muslim 
community, promoting recruitment of Muslims into all elements 
of what we do and publicizing that. And then a lot of it is 
educating State and local governments. They need to reach out 
as well to their communities because the face of the government 
to most people is your city or town government.
    Senator Pryor. I think that is true, and you talked about 
the ideology of hate and how that is really inconsistent with 
the religion that they practice. And so I think, though, that 
is a real challenge for you, and one question I would have for 
your Department is: Do you have any sort of--I do not know what 
you would call it--Islamic advisory council where you have a 
selection of people from around the country that can give you 
input, give you feedback as you are looking at your efforts in 
the United States? Do you have anything like that?
    Secretary Chertoff. I would tell you we do it in two ways. 
One is we do have an Incident Management Team, which is an 
identified group of influential leaders in the Muslim community 
that we can reach out to at the time of an incident and engage 
with in terms of, first of all, giving them information they 
can communicate and, second, hearing back from them what they 
are hearing in their community.
    Second, I and others in the senior leadership take the 
opportunity, with Mr. Sutherland's facilitation, to meet with 
significant groups of Muslims. I have done it here in the 
National Capital Region on a number of occasions. I did it in 
Detroit recently. I have done it in Germany. And that is a way 
of getting feedback from a wider pool of people, and it is 
something that I want to continue to do so I get a lot of 
different perspectives.
    Senator Pryor. The reason I say that is because we do not 
have a large Muslim community in the State of Arkansas, but we 
do have some presence there, and I have had a few reach out to 
me and say that they feel like second-class citizens. Many of 
these are U.S. citizens. They feel like second-class citizens, 
and they feel like because they are practicing Muslims that 
they have given up a lot of their privacy rights and they have 
given up--they just feel, as I said, like second-class 
citizens.
    So I just want you to be mindful of that. I am sure you 
hear some of that as well, but I think some sort of continuing 
dialogue between your Department and the community at large 
would help.
    Let me move on, if I can, to another point, and that is, we 
all remember the Oklahoma City bombing in 1995. One thing I 
have reminded fellow Members of the Committee on a couple of 
occasions previously is that when Timothy McVeigh made the 
decision to bomb Oklahoma City, apparently he had it narrowed 
down between Oklahoma City and Little Rock. And so terrorism 
and the threat of terrorism is very real to us in our State.
    How does the Department of Homeland Security differentiate 
between terrorism motivated by radicalized Islam versus other 
types of extremist ideologies?
    Secretary Chertoff. We do not really distinguish in the 
sense that we look at and we are concerned about protecting 
against terrorism, whether it is motivated by an extremist 
ideology on the right, the left, religious or secular. In terms 
of the current threat environment, I think it is pretty clear 
that violent Islamist extremism poses more of an actual threat 
than some of the white supremacist groups and things of that 
sort, partly because we have been very successful in 
prosecuting and dismantling some of the purely domestic 
organizations.
    Senator Pryor. Are you trying to address those threats as 
well?
    Secretary Chertoff. Yes, we do, and that comes in the 
threat reporting, and it is part of what we and the Department 
of Justice focus on.
    Senator Pryor. I have one last question, and I know we have 
a vote, and both Senators here need to run to the floor very 
shortly. When we look at our border officials, our law 
enforcement investigators, Justice Department, your folks, to 
identify members of a terrorist group, for example, al-Qaeda--
when you walk into this country, you do not have an ID card 
that says, ``I belong to al-Qaeda.'' How good are we at making 
those determinations at the border or inside the country? How 
good are we at identifying members of al-Qaeda?
    Secretary Chertoff. We are good, although not perfect. But 
how good we are depends in significant part on whether we can 
continue to get the information we need to assess whether 
someone is linked to terrorism. Some of the passenger name 
record data that we get that shows linkages with suspicious 
phone numbers or travel arrangements or credit cards has been 
critical in identifying people that we have to turn away at the 
border. We turned away a guy a few years ago based on that kind 
of information who later blew himself up in a suicide truck 
bomb in Iraq.
    We sometimes have to struggle, particularly with the 
Europeans, who are a little bit reluctant to give us that 
information. But we think it is critical in pulling that needle 
out of the haystack.
    Senator Pryor. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Pryor.
    Secretary Chertoff, thanks for your testimony. I think it 
has been very thoughtful, educational, which is what these 
hearings are about, at least at the outset, and balanced. I 
think you particularly struck a very important balance on that 
sensitive and awkward question that we are dealing with, and it 
is sensitive and awkward because that is the kind of country we 
are. We do think of ourselves as a family, so that the enemy in 
this war is Islamist extremism. It is most definitely not 
Muslim Americans. Muslim Americans are allies in that war 
because we are part of the American family.
    But your testimony also tells us that there are Islamist 
extremists in the United States, and there are attempts to 
expand their numbers and radicalize others, both within the 
country and via the Internet from outside. And we would not be 
using the imagination, as the 9/11 Commission challenged us to 
do, to avoid another September 11, 2001, if we did not focus on 
this problem.
    So I appreciate the extent to which you and your Department 
have begun to do it. We want to work together with you. I do 
not know that this series of hearings, which will go on for 
some period of time, will ever lead to legislation. It may 
simply be a process of our oversight of the Executive Branch of 
our government and working with you and others there to make 
sure that we are deterring, detecting, and defeating this 
internal enemy.
    But I thank you very much for your testimony. It has been 
very helpful.
    Again, I urge people to remain. I will come back as quickly 
as I can to hear Mr. Allen and Mr. Sutherland. For now, the 
hearing will stand in recess.
    [Recess.]
    Chairman Lieberman. The hearing will reconvene. I thank 
everyone for your patience while the Members of the Committee 
went to vote. I thank Senator Voinovich for remaining here.
    Charles Allen has had a long and distinguished career in 
service of our government, working for more than three decades 
for the Central Intelligence Agency, and really, if this was 
sports, Mr. Allen, I would say you are a major acquisition for 
Team Homeland Security, and I thank you very much for taking 
this on.
    Someday, if they make a movie of your life, I have been 
thinking you look a lot like the late Jason Robards. Too bad he 
is not around to portray you, but we will probably find 
Leonardo DiCaprio or somebody like that. [Laughter.]
    OK. So, anyway, Mr. Allen is now the Chief Intelligence 
Officer at the Department of Homeland Security. He is joined on 
this panel by Daniel Sutherland, who heads the Office of Civil 
Rights and Civil Liberties at the Department, who draws from a 
career as a civil rights attorney at the Departments of Justice 
and Education, which has, I know, been a real help to him in 
the Department in carrying out the important work that he is 
doing.
    So we look forward to the testimony from both of you. Mr. 
Allen, please begin.

   TESTIMONY OF CHARLES E. ALLEN,\1\ ASSISTANT SECRETARY FOR 
  INTELLIGENCE AND ANALYSIS, CHIEF INTELLIGENCE OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Chairman Lieberman, and thank you, 
Senator Voinovich, for the opportunity to share perspectives on 
the threat of Islamist radicalization to the homeland from our 
intelligence point of view.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Allen appears in the Appendix on 
page 181.
---------------------------------------------------------------------------
    This really is a pleasure to appear with Mr. Sutherland, 
who is the Department of Homeland Security's Officer for Civil 
Rights and Civil Liberties. Talk about a major acquisition, I 
think the Secretary has absolutely one in Mr. Sutherland.
    The issue of radicalization has been a clear priority for 
the intelligence and law enforcement communities, but engaging 
with local communities I think is key if we are to deter 
Islamist radicalization in the homeland. I have just a few oral 
remarks, and, of course, I have submitted a longer written 
statement, if you will let that be entered into the record.
    Chairman Lieberman. It will be in the record, without 
objection.
    Mr. Allen. Yes, sir. Terrorist attacks in Western Europe 
over the past several years, especially the aviation threat 
that was disrupted by the United Kingdom in August, as well as 
disruption of extremist cells in North America, highlight the 
threat that the radicalization process poses. Increasingly, we 
are facing the threat of homegrown terrorists. The U.S.-U.K. 
aviation plot, occurring a year after the subway attacks in the 
United Kingdom, was a wake-up call to the British in terms of 
the breadth and depth of Islamist radicalization there. We 
believe that the radicalization threat we face in the homeland 
is different from that currently confronting Western Europe, 
but we remain concerned that radicalization will eventually 
spawn operational attacks in the homeland if we do not gain 
deeper insights into the phenomenon and actively work to deter 
it.
    Today the extremist individuals in the United States have 
proven to be involved primarily in aspirational plotting, 
hatched largely by isolated actors who lack the will or the 
capability to carry out large-scale attacks. In contrast, plots 
involving homegrown extremists in the U.K. and Western Europe 
have been linked to al-Qaeda and other terrorist networks. We 
have yet to find such deep linkages in the United States, but 
we remain vigilant and we recognize we are not immune to the 
threat.
    To address Islamist radicalization, my office is taking a 
geographical and collaborative approach to assessing 
radicalization in the homeland. Working with our State and 
local partners, we initially have focused on assessing 
radicalization in California and in the New York City 
metropolitan area, to include New Jersey. We are now focusing 
on the Midwest, the National Capital Region, and Texas. We will 
conduct additional regional or State assessments, and our goal 
is to build a baseline that addresses the how and the why of 
radicalization at the local level. Again, with our State and 
local partners, we will use this baseline to develop a national 
assessment of radicalization.
    Each regional assessment frames a local picture by drawing 
on local unique information and expertise. We share our 
analysis with Federal, State, and local law enforcement and 
intelligence and homeland security professionals during face-
to-face meetings to gain their insights and refine our 
assessments. To date, we have held analytic exchanges on 
radicalization with State and municipal representatives in 
multiple communities, the results of which have helped to 
strengthen and broaden our perspectives and insights.
    Our work on radicalization is preliminary and is by no 
means complete. Thus far, we have noted that the process of 
radicalization varies across ideological and religious 
spectrums, geographic regions, and socioeconomic conditions. We 
have determined that radicalization has numerous diverse 
pathways. We have yet to identify a single path or a set of 
shared signatures. Individuals and groups are radicalizing or 
de-radicalizing based on a variety of factors. We have found, 
however, that radicalization consistently is tied to a 
charismatic individual such as an imam or an Islamic organizer. 
I should emphasize that my office is basing our intelligence 
analytic approach to radicalization on collaboration with State 
and local analysts.
    In addition to continued meetings with analysts and other 
professionals, we have also developed a virtual community of 
interest on our Homeland Security network to encourage and 
support dialogue and collaboration among my analysts and their 
colleagues at the State and local levels.
    Chairman Lieberman. Excuse me for interrupting, but just 
for the record, just say a bit about the Homeland Security 
network.
    Mr. Allen. This is a community of interest, a COI, that we 
run over the Homeland Security network, intelligence which can 
move out and move information back and forth at official-use-
only levels. And it works.
    Chairman Lieberman. Great. Thank you.
    Mr. Allen. Los Angeles and New York have real specialists 
in this area, really young, brilliant people that we can reach 
out to.
    Chairman Lieberman. Good. Thanks.
    Mr. Allen. We have also held an analysts conference on 
radicalization, and we plan to hold additional conferences on a 
regular basis. Certainly in those conferences we would like to 
invite your staff to come to those.
    We are seeking to develop the capability to identify and 
track emerging radicalization trends before they manifest into 
violence. As we collect additional data on radicalization, we 
are going to look for indicators of the process here in the 
United States. Our initial assessments have focused on 
establishing a baseline, but we are now seeking to identify 
radicalization indicators that can be measured over time. These 
indicators could be disseminated to State and local partners in 
an effort to identify and measure elements of radicalization. 
Ideally, we hope to develop a warning capability of 
radicalization that can support departmental efforts such as 
Mr. Sutherland's outreach and engagement activities, as well as 
State and local efforts.
    In conclusion, we recognize that radicalization is a key 
threat to the homeland and analytic challenge for homeland 
security. Determined to ensure that we develop insight into 
radicalization and that we remain sensitive to its actors, both 
in the United States and abroad, we have dedicated ourselves to 
fortifying and sustaining our analytic capabilities that are 
critical, I believe, in preventing and mitigating terrorists 
and extremist elements from Islamist extremism.
    Members of the Committee, thank you again for the 
opportunity to speak. I look forward to your questions.
    Chairman Lieberman. Thank you very much. Excellent opening 
statement. Mr. Sutherland.

TESTIMONY OF DANIEL W. SUTHERLAND,\1\ OFFICER FOR CIVIL RIGHTS 
   AND CIVIL LIBERTIES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Sutherland. Thank you, Chairman Lieberman, Senator 
Collins, and Senator Voinovich, for the opportunity to testify 
today. It is certainly a privilege to testify alongside 
Assistant Secretary Allen, and we hope that our testimony today 
will demonstrate how closely our offices work together on these 
projects.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sutherland appears in the 
Appendix on page 191.
---------------------------------------------------------------------------
    I have a written statement, again, that I will just 
summarize here, but hopefully it will be made a part of the 
record.
    Chairman Lieberman. It will be.
    Mr. Sutherland. Let me just tell you briefly about our 
office and what we are responsible for. In accordance with 6 
U.S.C. 345, our mission is to help the dedicated men and women 
of the Department of Homeland Security to enhance the security 
of our country while also maintaining respect for the 
Constitution, Federal civil rights laws, and departmental 
policies. In essence, we provide advice at the intersection of 
homeland security and civil rights and civil liberties. So we 
are involved in a wide range of issues, for example, developing 
redress mechanisms to watchlists, integrating people with 
disabilities into the Emergency Management System, adopting 
equal employment opportunity policies, and ensuring that 
information technology is accessible to people with 
disabilities. Those are all issues that come within our area.
    One of the things that we have done since the beginning of 
our office, that we began when the Department started, was to 
try to help our colleagues in the Department establish and 
cement positive relationships with a variety of ethnic and 
religious communities that represent them. So we have worked 
with Catholic and Protestant organizations who are concerned 
about immigration law and policy, with Sikh Americans who are 
concerned about different screening policies, with leaders of 
the Amish community who have been concerned about 
identification issues, with Jewish community groups on a wide 
variety of issues, and with other communities as well.
    But I want to specifically address, of course, today the 
Department's work with American-Arab and American-Muslim 
communities, but I think it is important to understand that the 
work is part of a broader fabric of work that we are trying to 
develop.
    With regard to these particular communities we are talking 
about, we decided as a Department to embark upon a project to 
develop, cultivate, and maintain strategic partnerships with 
key leaders of the American-Arab, American-Muslim, Sikh, and 
South Asian communities. We believe that a critical element of 
our strategy for securing the country has to be to build a 
level of communication and trust and confidence that is 
unprecedented in our Nation's history. I think that echoes a 
lot of the comments that were made earlier today. We believe 
that we will be a much safer country if we better connect the 
government to these communities, if we learn to improve our 
work through listening to their concerns and their ideas, if we 
convince more young people from these communities to join us in 
public service, if we receive their help in educating us about 
the challenges that we face, and if we receive their help in 
educating the community about the challenges that we face in 
our security mission.
    So we have been very active in trying to engage with these 
communities. Within just the past several months, leaders of 
these communities have met not only with Secretary Chertoff but 
with other Cabinet officials--the Attorney General, Secretary 
of Treasury, the Director of the FBI, and others--and we are 
making sure that this engagement is part of the structure of 
our work that we are doing across the country. We are actively 
participating in meetings in cities like Detroit, Houston, 
Chicago, Los Angeles, and other cities.
    We are also working to build the capacity of our workforce 
to better understand the challenges that face us. Through a 
project that we call Civil Liberties University, we are 
developing a wide range of training that will help our 
colleagues, and we have just released a training DVD for our 
personnel who interact with Arab Americans and Muslim Americans 
as well as travelers from the Arab world and the Muslim world.
    Senator Warner asked about it earlier, and he asked whether 
the project was one that was coordinated. And all of the work 
that we do in this area I want to stress is very well 
coordinated with our colleagues from the FBI, the Justice 
Department, the State Department, the Treasury Department, and 
others. We work in an interagency fashion, have an excellent 
level of cooperation. That particular project featured--one of 
the experts features was from the National Security Council, a 
Muslim woman on the National Security Council. So it is 
something that we hope was beneficial to our colleagues who 
have asked for that kind of training, as well as for the 
community who believes that if our personnel better understand 
their cultures and traditions and values, they will be treated 
with more dignity and professionalism.
    Secretary Chertoff also mentioned another initiative we 
have undertaken in terms of engagement, which is what we call 
an Incident Management Team, which would be convened if and 
when there is another terrorist attack on the country. We 
actually did convene the group in the wake of the London 
arrests in August and had a very good and helpful dialogue 
between a number of government agencies, not just Department of 
Homeland Security, but also a number of over two dozen Arab-
American and Muslim-American leaders around the country.
    Let me just mention in my last few moments four steps that 
we think need to be taken at this time in terms of these 
issues.
    The first is we believe we need to deepen this level of 
engagement. We need leaders from all branches of government to 
take steps to engage with these communities, meet them, learn 
about them, listen to them, and open lines of communication. We 
need government leaders to make public statements that drive 
the debates. The statements that I think have been made here in 
the previous few hours are very much needed and extremely 
significance. We need to have leaders that state publicly that 
words like ``imam'' and ``mosque'' are not bad words. Those are 
good words. Those are people who are part of our community, as 
Senator Lieberman has said. So the first thing is that we 
really need to deepen the engagement.
    Second, we must institutionalize the engagement effort for 
success over the long term. We need to redouble our efforts to 
ensure that all the relevant agencies in the Executive Branch 
and, by the same token, in the Legislative Branch are equipped 
to play a really significant, long-term, and successful role in 
these issues.
    The third is we need to continue to address policy issues 
of concern. When we prepare for our community roundtable 
meetings, we always remind ourselves that a lot of talk and no 
action will not produce the results that we want. We have got 
to be credible. The government must listen to issues of concern 
and address issues of concern and report back to the community 
when progress is made.
    And, finally, the next step I wanted to mention is we must 
challenge the communities to get involved. We know that these 
communities are anxious to roll up their sleeves and get 
involved. It is important at this time for us to say loudly and 
clearly, ``You are welcome to sit at the table with us. We need 
your help and want it.'' And I will just give a few ideas of 
some areas where we need to encourage their involvement with 
us.
    We need community leaders to convince more of their young 
people to consider public service as a career. Secretary 
Chertoff talked about that earlier. We desperately need their 
language skills, but we also need their cultural insights. We 
need them in jobs that would be front-line counterterrorism, 
but we also need them in IT jobs and budget jobs and all the 
sorts of jobs that you find in the Federal Government. So we 
just need to have people from these communities to see 
government service as a place where they can build a successful 
career.
    We also need people from--another area of challenge I think 
is for these communities to help us increase the integration of 
new immigrants, particularly those from the Arab and Muslim 
world. We also need to challenge community leaders to help 
explain within the community our security mission. There are 
times when we must deport someone who has come to the country 
illegally, and we need to have community leaders who will help 
explain that to people in the community and try to help in 
terms of tensions.
    The last thing I want to mention is we need to challenge 
community leaders to influence Muslim perspectives in other 
parts of the world. But in all of these areas, community 
leaders are already stepping up to the plate, so as a 
government we simply need to recognize the efforts that have 
already been made and then step up our support and 
encouragement for even more significant efforts in all of these 
areas.
    So I thank you for the opportunity to testify, and I 
welcome your questions. Thank you.
    Chairman Lieberman. Thank you very much, Mr. Sutherland. 
Very helpful.
    Mr. Allen, I take it from your testimony, which builds on 
Secretary Chertoff's--and I am paraphrasing what you said--that 
there is a problem of homegrown terrorism here in the United 
States now. We are increasingly facing a threat from it. It is 
different from Western Europe, but as you said, you remain 
concerned that it may spawn greater attacks on us from within 
our country in the time ahead.
    I was interested that you said, and I appreciate it, the 
information that you have is at this point preliminary and 
incomplete, though the work goes on.
    I wanted to ask you, based on the state of knowledge that 
you have now identified--and as I said earlier, I like your 
word ``nodes.'' What are the nodes that you are looking at with 
most concern about areas where radicalization of Muslims may 
occur?
    Mr. Allen. Well, as we said, there is no one single 
pathway, but we did identify nodes; in some cases it was an 
extremist mosque. There are scattered, very small but scattered 
mosques, where there are charismatic leaders. Sometimes it is a 
university group, very rare but you can find that.
    Prisons, as the Secretary said, certainly is a matter of 
great concern, both here at our level with the Federal Bureau 
of Investigation and, of course, State and local levels. 
Certainly Los Angeles and the New York police departments are 
looking at those issues.
    It can be a storefront. It can be a small group of people 
who are discontented or alienated getting together.
    It is my view that we have great opportunity as a country 
to really begin to deal with this issue, and I think deal with 
it in ways that Mr. Sutherland outlined, I think so eloquently. 
I think that is what is required because I think what we really 
need to do, Mr. Chairman, is to counter what I call the single 
narrative of al-Qaeda, a violent, ideological, extremist point 
of view that preaches only violence. And we have golden 
opportunities to preclude it.
    I think we will learn a lot more in the coming days, in the 
coming weeks. The Bureau is working on this issue. We find a 
tremendous amount of talent down at the local level--in every 
State that we visited, the prison officials, social workers, 
police departments have detectives looking at this question. 
There is a lot of enlightenment out there at the local and 
State levels, and we want to take advantage of it.
    Chairman Lieberman. That is an interesting and helpful 
answer. For instance, I hear that if you are looking for the 
key places where this may be occurring, one of the more 
important things to do is to find a charismatic individual, and 
that individual may be in a mosque or in a jail or in a 
storefront. Obviously, that excludes the Internet, which is a 
different and more private area.
    I noticed that you said that you were focusing, Mr. Allen, 
initially on California and New York City for a more intensive 
review, including New Jersey.
    Mr. Allen. And New Jersey, yes.
    Chairman Lieberman. Is that because you have reason to 
believe there is more reason to be concerned about 
radicalization going on there?
    Mr. Allen. I think there are pockets of radicalization, and 
we have seen that. We had the Lackawanna episode. We have had 
problems in California, at Lodi. We had the Torrance, 
California, issues.
    I just think that we have such enormously good knowledge. 
When you go into New York City and you talk to the intelligence 
division of Commissioner Kelly's organization, you talk to 
Deputy Commissioner Cohen, there is just so much wisdom there 
and so much personal knowledge, not only of New York City but 
the Northeast. And you go out to Los Angeles and you go to the 
Joint Regional Intelligence Center out in Los Angeles and you 
talk to Chief Bratton, Sheriff Baca, you talk to the FBI, Steve 
Tidwell, who is the FBI out there, you see that there is a lot 
of wisdom there. And you talk to prison officials.
    So those are probably reasons, but we are looking at Texas, 
we are looking at other States, as you know, and even Detroit, 
of course. We are going to look at the Southeast as well.
    So we have got to criss-cross the country with our 
analysts, and as the Secretary said, we have dedicated quite a 
number of analysts to this, and they are learning as they go, 
too.
    Chairman Lieberman. Very important.
    Mr. Sutherland, let me ask you, from your outreach to the 
Muslim community, to speak a little bit about the comments that 
I made and read from others about one of the reasons America's 
different than Western Europe is that fortunately it has been 
our tradition to integrate and assimilate succeeding 
generations of new immigrant Americans, and so that is 
affecting the Muslim-American community. I hear it myself in my 
own interactions with the Muslim-American community. I do not 
want to denigrate our friends in Europe too much, but I have 
had more than one conversation with somebody whose family went 
to Europe first, said to me they never felt like--whatever the 
country it was they were in--they were French or British or 
German or otherwise. But then when they came to this country, 
after a period of time they felt like Americans. It is 
something we should be proud of.
    The other side of it is this warning that Mr. Simon of 
Georgetown University gave last year that there is perhaps an 
increasing divide occurring between the Muslim-American 
community and the broader American family of which it is part.
    What is your sense of that as you conduct your outreach to 
the Muslim-American community now?
    Mr. Sutherland. Well, Senator, I think your comments are 
directly on point. We spent some time in Europe, and we spent a 
lot of time with allied governments talking through these 
issues. We do believe there really can be no doubt that the 
life that Muslims find in America is a good life. And you find 
that in public opinion polling and other surveys. They know 
this is a country where they can raise families the way they 
want to raise them. They can worship freely. They can pursue 
education and business careers if they want to. They have 
opportunities here in America that they do not have in other 
countries.
    I think it is typical, as Secretary Chertoff said, of the 
immigrant integration that we have had in our country. One 
factor I think to mention, too, is housing patterns. Here in 
this country people spread out, and you do not find 
neighborhoods of people who are, let's say, Muslim who speak 
just Urdu. That just does not happen in our country. It does 
happen in other countries. So housing patterns is a major 
factor.
    Those are strengths. We have a very strong, rich, well-
connected Muslim community in this country that we can build 
from. We need to maintain that, and I think that really gets to 
where your comments are about the future and the alienation.
    Chairman Lieberman. Do you see a growing divide, or is that 
not a justified statement? I am quoting from the professor.
    Mr. Sutherland. I have some misgivings about that 
statement, I think in part because I know what we are doing. I 
know what Secretary Chertoff is doing. I know what my 
colleagues at the FBI are doing. There is a lot of work going 
on in government trying to establish those connections.
    I do feel at times like events run past us. There is so 
much bad on TV. Every night you turn it on, you see something 
bad. There are pressures that seek to pull us apart.
    So I think that gets back to my argument on next steps. We 
really have to work hard to deepen the engagement, and I feel 
like we have an opportunity now. I do not know how long the 
time period is, the next couple of years, to make that happen.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you. Mr. Sutherland, you mentioned 
that immediately after the London plot last summer, DHS created 
an Incident Management Team to reach out to Muslim community 
leaders to exchange information. How often did that team meet?
    Mr. Sutherland. If I can just clarify, the team was created 
much in advance of that particular incident. We had to have the 
structure in place in advance, and the nice thing is, if there 
is another incident, a reason to call the group together, we 
are in place. We know what we are doing. We have each other's 
contact information. We know where to go. We have a charter for 
the group.
    We have only met formally that one time because luckily, in 
the past year or 18 months since we have organized in that way, 
there has been only that one particular incident.
    Senator Collins. I knew that was the answer, obviously, and 
the reason that I raise that issue is our investigation into 
the failed response to Hurricane Katrina clearly demonstrated 
the benefit of joint exercises, joint training, ongoing 
communication among all those involved in the response.
    Would it be beneficial, do you think, even if there is not 
an immediate incident that you are responding to, to convene 
this group periodically to make sure that the communication 
avenues are well established? The last time you want to be 
exchanging business cards is in the midst of a crisis. And I 
wondered what the Department's approach was to making sure--I 
am concerned that this group has only met once. It was 
obviously set up in advance, but it has only convened once.
    Do you have any intention of regularly bringing this group 
together to make sure that everyone knows each other, 
understands each other's roles, and that you are not trying to 
operate on the fly after an incident?
    Mr. Sutherland. I have two answers. One is these are people 
that all work together quite regularly. So we are in regular 
communication, both in government and outside government. But 
your point is a very good one, and we actually have a staff 
member who is smiling back there because she is working on 
creating an exercise where we will work with the team in an 
exercise context, exactly as you are referring to, because we 
see exactly what you are laying out. We need to know exactly 
how we would respond if there is a particular incident.
    Senator Collins. She is smiling. I can see that. 
[Laughter.]
    But that really was one of the lessons that we learned from 
our in-depth investigation into Hurricane Katrina, that all the 
paper plans in the world do not substitute for a hands-on 
exercise. So I do hope that you will pursue that.
    I also want to ask you about these community roundtables 
that the Department with its partners is convening that have 
been held in Detroit, Houston, Los Angeles, and, it is my 
understanding, four or five other cities, because I think they, 
too, offer tremendous promise as far as outreach to the Muslim 
community, because that outreach is going to be absolutely the 
most important thing we can do to counter homegrown terrorism 
in my view.
    What have been the results of those roundtables?
    Mr. Sutherland. Well, they are just such a fascinating set 
of discussions. It is hard to even summarize where they go. We 
just had one, for example, in the city of Houston just a few 
days ago, Chicago the week before that. So these meet every 
other month or at least once a quarter. We are involved in six 
different cities, but we know that our colleagues in DHS are 
involved in three or four other cities, and the FBI is involved 
quite regularly.
    Just in terms of results, one of the results is we always 
try to start one of the meetings by giving a report on some 
initiative, some government initiative that is a significant 
initiative that they probably have not heard about and they 
want more details about.
    For example, the Department just started this project 
called Department of Homeland Security's Travel Redress Inquiry 
Program (DHS TRIP), which is a redress mechanism, somebody who 
is a traveler who is having difficulty traveling. Senator 
Carper mentioned someone earlier. This is a mechanism for them 
to file the issue in front of the government and for us to 
resolve it. It is a big development in terms of redress, and we 
are going to the communities and explaining that, and then this 
is information that is very valuable to them as they go back to 
their groups and their communities to explain how to use this.
    So we give them information about a significant project and 
get their feedback on it. Then in the meetings, they will raise 
specific issues with us. Sometimes there are large policy 
issues about immigration processing, security clearance 
questions. Sometimes it is about a specific individual having a 
security clearance problem.
    So we try to work through specific problems as well. There 
is accountability built into the system because we always have 
a segment to discuss old business. What was raised last time? 
Do you have an answer this time? So it is a dynamic, ongoing 
process that gets better and better as times goes by.
    Senator Collins. Thank you.
    Mr. Allen, I want to join with my colleagues in thanking 
you for all your years of service to the intelligence 
community. I think we are extraordinarily fortunate to have you 
in the position that you now occupy.
    I want to raise an issue that I raised with Secretary 
Chertoff that came out of the hearing that our Committee held 
last year to look at radicalization within our prisons, and 
that is, we found evidence both of what I call self-
radicalization, where a prisoner using radical literature sent 
into the prison and access to radical Web sites on the 
Internet, essentially self-radicalized and came up with a 
bizarre form of Islam--that is what happened in the Torrance 
case, essentially. But we also found evidence of what I would 
call radical recruiters, extremist clerics coming into the 
prison without the prison officials' understanding that they 
were extremists, and attempting to convert and then radicalize 
prisoners.
    As you look at those two avenues, what is your assessment 
of which poses the greatest threat to us? It seems to me self-
radicalization is far harder for us to get a handle on, but I 
have no feel for how prevalent one versus the other is. Do you 
have a sense of that at this point?
    Mr. Allen. Senator, I think it probably is a combination of 
the two. I am and have been surprised, because I worked in 
foreign intelligence most of my career, to come to the 
Department and then work and shape and inform the intelligence 
of the Department, in talking to local officials in New York 
and other places that there is radical literature that finds 
its way into our prison systems, particularly at the State and 
local levels. Efforts are being made, of course, by the Bureau 
of Correction officials in the States to preclude this because 
this is truly a virulent type of literature.
    The Internet--and I should have mentioned it earlier--is a 
major driver. That is such a powerful way of self-
radicalization. We see people in other countries, in Europe 
particularly, there have been cases where people have primarily 
become radicalized through the Internet. When you know that 
there are several hundred Internet--there are extremist Web 
sites, several hundred of them that, of course, the 
intelligence community has to follow to see what is on that, 
there are just hundreds and hundreds of those that are very 
virulent, that come from around the world.
    The radical recruiters has been another surprise to me, 
coming primarily from foreign intelligence and hard targets, 
the fact that religious workers prior to September 11, 2001, 
were given quite a bit of latitude in who they were. As you 
know, the Department of Homeland Security and the Secretary are 
engaged in regulatory actions, and already tremendous work has 
been done by the Department of State and Consular Affairs to 
thoroughly look at anyone applying on a R-1 visa, religious 
worker visa. So that has been tightened because we do not need 
radical imams coming and creating problems in certain 
communities, and they have. They have come in on R-1 visas.
    So I think it is a combination of the literature, the 
Internet, and the radical recruiters, who frequently are in the 
form of so-called religious workers, although what they are 
preaching is hatred of the West and hatred of what this country 
stands for.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Voinovich.
    Senator Voinovich. In the bill we just passed, S. 4, the 
Improving America's Security Act of 2007, one of the things 
that I amended the bill with was a nonbinding sense of the 
Senate to enhance our efforts against radicalization. My 
amendment recommended to utilizing subject matter experts to 
better understand the cycle of radicalization; fostering a 
culture of understanding and mutual respect; and recruiting 
professionals with diverse worldviews, cultural backgrounds, 
and foreign language expertise. I think you are trying to do 
that but that you have some problems. For example, you must 
ensure that the lexicon used in public statements is precise 
and appropriate, and does not aid extremists by offending the 
Muslim community.
    Mr. Sutherland, I would like you to comment on how we 
handle the use of language. I think that is something that we 
should be concerned about. We should pursue broader avenues of 
dialogue with the Muslim community. Mr. Sutherland, you said 
that you are working on educating State, local, and community 
leaders on the threat of radicalization, sharing best practices 
for community outreach and developing interfaith partnerships, 
and addressing prisoner radicalization and post-sentence 
reintegration. That covers the waterfront.
    One of the things that is of concern to me is despite the 
fact that you have met with various groups, there is still a 
need to provide information to a lot of cities around the 
country about what they can and should be doing. In other 
words, you need to share best practices. It appears to me that 
you have been working fundamentally with your law enforcement 
agencies to interface with leaders from the Muslim community.
    In Cleveland, for example, we have a group called Ishmael 
and Isaac, and they are bringing young Jewish and Muslim people 
together to start talking to each other, which is great. But 
there does not seem to be a vehicle to bring together the 
leaders of the Muslim, Jewish, Christian community, and I just 
wonder: Have you identified in some of these areas vehicles 
that you could use to convene people?
    I was talking to one of your staff members, Mr. Sutherland. 
We discussed the Ohio Civil Rights Commission, which has been 
in place for a long time. Quite frankly, I am not sure we have 
a Muslim on the Civil Rights Commission in Ohio.
    We have another organization in Cleveland I created when I 
was mayor. It is the Cleveland Roundtable. It is designed to 
deal with racism and religious tolerance and so forth. I am 
sure they would like some information about how do you go about 
bringing people together.
    You have community relations boards in probably almost all 
of the major cities. I suspect that you may have them in other 
parts of the country. You should identify who they are and make 
them aware of your efforts.
    This type of effort will help encourage these communities 
to start talking to each other. As I mentioned earlier, there 
seems to be more of an isolation today of the Muslim community 
than there was before September 11, 2001. Somehow we have got 
to break that feeling and start turning it the other direction. 
I would like your comments on how do you do that.
    Mr. Sutherland. Senator, I think that there is a lot of the 
kind of work you are talking about that is already going on all 
over the country, and it is a snowball that is starting to go 
down a mountain. I will give you an example.
    Every one of the cities we work in, there are really 
interesting engagements like those you mentioned. For example, 
in the city of Los Angeles, the new Deputy Mayor for Homeland 
Security is a Muslim American. There are developments like that 
in nearly every city. In Dearborn, Michigan, where I spend 
quite a bit of time--I am really getting frequent flyer miles 
from Northwest Airlines--there are so many things that we are 
invited to.
    Senator Voinovich. Ms. Abdo spends a lot of time discussing 
Dearborn in her book.
    Mr. Sutherland. Right. It is a fascinating and important 
community. I think Cleveland and others are as well.
    But the difficulty, I think, with it is that while there is 
so much of this engagement, particularly between Jewish and 
Muslim and Christian groups, it is not broadcast, it is not 
known. And I know the Muslim community organizations are always 
asked, Why don't you denounce terror? They have denounced 
terror so many times, they do not know what to do or how many 
different angles can they denounce it from. But for some 
reason, that is not reported in the media, it is not getting 
through to people.
    So I think a lot of what you are talking about is 
happening. We need to try to strengthen it. But we also as a 
country need to figure out ways to promote what is, in fact, 
happening. Muslims in this country are well engaged and well 
connected.
    Senator Voinovich. Is there coordination between you and 
Karen Hughes?
    Mr. Sutherland. Yes, sir. We have an interagency working 
group that Karen Hughes' office asked us to chair that focuses 
on domestic engagement. It is a very collaborative effort 
between FBI, Justice, Treasury, her office, NSC, NCTC, and a 
wide variety of agencies who all have parts to play in this. As 
Secretary Chertoff was saying, it is a network problem, and 
there is a network solution. Certainly that is true at the 
Federal level.
    Senator Voinovich. Can you give me an example of cases 
where you have listened to a group and have made changes? 
Because I am sure the people you are meeting with will say, 
``This is a dog-and-pony show. These people are bringing us in. 
They are going to go through the motions and probably not going 
to listen to us.'' Can you give us some examples of cases where 
you have listened and changes have been made?
    Mr. Sutherland. Yes, sir. I will give you an example. A 
couple of years ago, the American-Arab Antidiscrimination 
Committee brought us about a half a dozen complaints of 
children, juveniles, who were prevented from flying, apparently 
because their names were similar to ones on the watchlist. It 
was obvious this child, this 7-, 8-, 10-year-old child, is not 
the problem, but they brought a package of these complaints to 
us.
    We took them to our colleagues at the Transportation 
Security Administration, and we worked on them together. TSA 
realized that they could help solve some of that problem by 
issuing new guidance to the airlines, which they then did. We 
reported that back to the American-Arab Antidiscrimination 
Committee that these complaints had been resolved, and policies 
have been put in place, and the American-Arab 
Antidiscrimination Committee then issued a press release 
congratulating TSA for improving its work in this particular 
area.
    There are other examples like that, but that is one that I 
can suggest. We have a lot of interchange on policy issues.
    Senator Voinovich. I am glad you did that, but I keep 
getting complaints from people that feel they are being 
profiled just because of their name. I think that can really be 
an irritant to them.
    The other thing is that I do not know whether or not your 
Customs and Border Patrol agents are increasingly more 
aggressive.
    Mr. Sutherland. Yes, and those are the exact issues that 
are raised with us all the time, and we are confident that they 
will be with us for a long period of time. But one thing that 
we try to say to people is: If you have complaints like that, 
bring them to us. We really will work on them and try to 
resolve them. And we have a fairly good success rate of getting 
these things resolved. And I would make that specific offer to 
your office, Senator. When you get those complaints, please 
have people call our office, forward them to us, and we will 
get to work on them. We have an excellent relationship, for 
example, with Customs and Border Protection. They see over a 
million people a day. And they know that every once in a while 
there are issues, and they want to solve those problems. And so 
they really appreciate that kind of feedback and the 
opportunity to resolve them.
    So that is one thing, I think, that we can say to these 
communities. Yes, you probably feel and you experience some 
more difficulties than you did prior to September 11, 2001, but 
one of the answers is the government really is engaged to try 
to solve those problems as well.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich.
    I want to discuss one or two quick questions, and if 
Senator Voinovich has another one or two, then we will let you 
go.
    Mr. Sutherland, it strikes me that we have not asked one of 
the fundamental fact questions, which is: What is your best 
estimate of the size of the Muslim-American community 
population?
    Mr. Sutherland. Senator, I am not a demographer. We hear 
the number 7 million. We also hear 3 million. Typically in 
speeches I say there are between 3 and 7 million Muslims in 
America. But the Census does not ask a religion-based----
    Chairman Lieberman. Right.
    Mr. Sutherland. It is a little hard to answer.
    Chairman Lieberman. So it is hard to judge.
    Mr. Sutherland. Yes, sir.
    Chairman Lieberman. I do not think anyone would argue with 
the statement that the total, whatever it is--3 or 7 million--
that it is a very small number, a very small percentage of that 
certainly, but a very small absolute number who would be 
categorized as Islamist extremists.
    I want to ask you a tough question. It is a subjective 
question, but it is relevant to what we are talking about. To 
the best of your knowledge, based on the interaction you have 
had with the Muslim-American community, what is the attitude of 
the overwhelming majority--who are obviously law-abiding, good 
Americans, contributing to the country, peaceful, etc.--toward 
the Islamist extremists? In other words, is it anger? Do they 
feel threatened? Is it that these are members of our community 
who have gone in the wrong direction, but we understand why? 
Are there some who feel some understanding? I do not mean they 
support but, say they understand why they are angry and it is a 
kind of benign reaction to it?
    Mr. Sutherland. Senator, I have had these conversations a 
number of times with Muslims around the country, and Arab-
Americans as well, they get lumped in there. Of course, you 
know the vast majority of Arab-Americans in this country are 
Christian not Muslim.
    Chairman Lieberman. That is a very important fact that most 
people do not appreciate.
    Mr. Sutherland. I think that people from these communities, 
when you talk about al-Qaeda and you see a statement from Adam 
Gadahn on TV, they feel--I just jotted down a few phrases: 
``Threatened.'' More Muslims are victims of this kind of 
terrorism than anyone else, more Muslims, far more Muslims.
    Chairman Lieberman. That is exactly what I had in mind.
    Mr. Sutherland. They feel perplexed. I have asked, ``Why do 
you think they do the things that they do?'' And they do not 
know any better than any of the rest of us. And the last thing 
I wrote down is they do not feel that is ``part of us. They are 
not part of our community that has gone''--``they were never 
part of us. That has nothing to do with us.'' And I think it is 
difficult. Sometimes you ask a cardiologist at the Cleveland 
Clinic, ``Why don't you denounce terrorism?'' And his reaction 
is, ``Why would I denounce terrorism? That is not part of me. 
That has nothing to do with me. Yes, I am Muslim, but that has 
nothing to do with me.''
    And so I think that is a sentiment that I get from the 
Muslim community as well: ``This is not us. It has nothing to 
do with us. And we are Americans. We want to be on safe 
airplanes, and we want to help with the security mission of 
this country.''
    Chairman Lieberman. Thanks for that answer. I appreciate 
it.
    Mr. Allen, in the work that you are doing, you are putting 
together a whole new operation, part of which is to focus on 
this radicalization and homegrown terrorism. We know that the 
FBI is doing a lot of work in this area as well. There are 
other governmental agencies, too. Is there, in your opinion, 
adequate coordination or are we seeing overlap?
    Mr. Allen. There is remarkable collaboration. We hold 
regular analytic exchanges with the Bureau analysts. Under 
Willie Hulon in the National Security Branch, they are looking 
at the radicalization phenomenon. We are looking at it in a 
very bottoms-up approach, which I think is just a little bit 
different, trying to understand the phenomenology and trying to 
look at indicators so we can warn--I do not think we can 
predict where we are headed, but I think we can develop warning 
indicators, as I said in my statement, and also metrics. 
Eventually we have got to look at the metrics from an 
intelligence perspective.
    So our relationship with the Bureau is very strong, very 
rich. Deputy Director Pistole and I recently testified before 
the Senate Select Committee on Intelligence on how we integrate 
intelligence, and it was a rich session with Senator 
Rockefeller.
    Chairman Lieberman. Thank you very much.
    Senator Voinovich, do you have any other questions?
    Senator Voinovich. No, I do not. I just want to say thank 
you very much Mr. Chairman for having this hearing, and I have 
to say that I am very comforted by what I have heard from Mr. 
Sutherland particularly, because he sits where the rubber hits 
the road.
    Mr. Allen, we are grateful to have you at the Department 
given your experience, and you have laid things out in a very 
understandable way about what you are doing. I want to 
congratulate both of you on the work that you are doing. You 
have got to do a lot more of it for sure, but it is nice to 
know somebody is over there thinking about some of these things 
that have been on my mind. I was wondering is anybody doing 
anything, and the fact of the matter is there is a whole lot 
being done. I want you to know that this Committee will do 
everything it can to be supportive of your efforts, including, 
and I want to underscore this, ensuring you have the personnel, 
of having the personnel to get the job done that we have asked 
you to do.
    Mr. Chairman, I am very concerned about the Department of 
Homeland Security having the resources it needs to get the job 
done. All too often we ask you to do things, but we do not 
provide the resources that are necessary, and sometimes the 
people over at OMB do not ask for the resources. Thank you.
    Chairman Lieberman. Thank you, Senator Voinovich.
    Senator Voinovich is a rare person around here. He not only 
sees the problem and legislates, but he actually wonders about 
how that legislation is being carried out and whether we have 
given the departments enough resources to do what we want them 
to do before we come back to conduct oversight hearings and 
accuse them of not doing what we have asked them to do.
    Today's hearing has been very helpful. We have a problem 
here. We have a threat, and it is probably going to grow. But 
we are also marshalling our forces, both in terms of 
investigative and law enforcement work, and critically 
important outreach to the Muslim-American community, which 
ultimately not only are going to be the foremost targets of 
global Islamist extremism, but also are going to be the best 
opposition that we have to the radicalization within America 
from the American family.
    So we are going to keep in touch on this. We will probably 
ask both of you to come back again if you have anything that 
you want to tell us before we call you back or you need any 
help, because George Voinovich and I are from the Federal 
Government and we are here to help. [Laughter.]
    Even people who work for the Federal Government. Mr. Allen, 
did you want to say something else?
    Mr. Allen. Thank you, Mr. Chairman. I am very grateful for 
your comments.
    Chairman Lieberman. Thank you both. Our record will stay 
open for 15 days for additional comments. We may frame some 
questions to you in writing.
    For now, the hearing is adjourned.
    [Whereupon, at 12:49 p.m., the Committee was adjourned.]


          THE INTERNET: A PORTAL TO VIOLENT ISLAMIST EXTREMISM

                              ----------                              


                         THURSDAY, MAY 3, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The Committee will come to order. Good 
morning. This morning we are going to focus on a most important 
and, I would say alarming, subject, ``The Internet: A Portal to 
Islamist Extremists.''
    I want to thank our witnesses for being here. One is still 
on the way, caught in Washington traffic.
    I looked over the testimony that you have submitted to the 
Committee and I must say that I find it both riveting and 
chilling, and something that we have a responsibility to not 
only pay attention to, to acknowledge that it is there, but as 
a National Government do something about.
    This is the third hearing that our Committee has held 
during the last half year on the topic of Islamist 
radicalization and recruitment within the United States of 
America.
    The first hearing, held September 19, 2006, under Senator 
Collins' leadership, addressed Islamist radicalization 
recruitment in America's prison system.
    Then a few months ago, in March, Secretary Chertoff and 
other witnesses from the Department of Homeland Security told 
us about the threat they see that we face from Islamist 
extremists right here at home and what they are doing to 
protect us from that threat.
    At that hearing, Secretary Chertoff testified that Islamist 
extremists posed the greatest threat to our homeland security 
today and that those extremists are using the Internet as their 
primary recruiting tool, not to mention using it for 
organization and communication, as well.
    This morning we are going to hear from three witnesses who 
will testify more specifically about how these extremist groups 
are using the Internet against us.
    The Committee plans to continue to focus on this critical 
threat next week with another hearing, where we will ask what 
other agencies of the Federal Government, including 
particularly the FBI and the Department of State, are doing to 
assess and confront the threat of Internet-based terrorist 
activity.
    It is another irony of the digital age that the Internet, 
which was invented by the Defense Advanced Research Projects 
Agency (DARPA), at the Department of Defense as a way to ensure 
undisrupted communications in the event of an enemy attack, is 
now being used to recruit and train terrorists who are plotting 
enemy attacks against America and other targets throughout the 
world.
    As we are hearing today, the Islamists, who have made a 
global political ideology now out of a religion, use the 
Internet as a way to reach across national boundaries to 
recruit new soldiers, sympathizers, and financial supporters. 
They are involved in a focused campaign using the Internet to 
broadcast news from their own point of view, needless to say to 
propagandize, to conduct online classes in terroristic tactics 
and ideology. They also use the Internet to transcend gaps in 
space and time, to research potential targets, and to share 
information with each other about planned operations.
    We will hear today from Frank Cilluffo, Director of George 
Washington's Homeland Security Policy Institute. Along with Dr. 
Gregory Saathoff of the University of Virginia's Critical 
Incident Analysis Group, Mr. Cilluffo co-chaired a task force 
on Internet radicalization that has just completed a study of 
the problem and is releasing a report as part of this hearing 
today. And we thank him and his colleagues for doing that.
    The task force's report tells us that the people who create 
these Web-based extremist propaganda and recruitment operations 
have a slogan. It is ``keyboard equals Kalashnikov,'' a 
contemporary twist on the old adage that the pen is mightier 
than the sword, but really about how the magnificent 
capabilities that the Internet provides us can also be turned 
into a weapon against us.
    Perhaps the most macabre example of their exploitation of 
the Internet is one that we are going to hear today from 
Lieutenant Colonel Joseph Felter, Director of the Combating 
Terrorism Center at the U.S. Military Academy at West Point. In 
an effort to raise its visibility and recruit new members, as 
Colonel Felter will tell us, an Iraqi insurgent group held a 
Web site design contest open to anyone in the world with an 
Internet connection. And what was the prize given to the winner 
of that contest? The opportunity to launch a rocket attack 
against American forces in Iraq with just the click of the 
mouse from the winner's computer.
    These are obviously not the efforts of amateurs. Terrorist 
groups run their own professional media production companies 
that produce video and audio for Internet broadcast. They 
create Web sites, chat rooms, online forums, libraries, and 
video games that promote the Islamist agenda. They are a clear 
and present danger.
    Our country must take the challenge posed by these Internet 
terrorists very seriously and launch our own aggressive 
coordinated and effective response. We simply cannot cede 
cyberspace to the Islamist terrorists because, if we do, they 
will successfully carry out attacks against us in our normal 
environment. We have to do everything we can as quickly as we 
can to disrupt their Web sites when appropriate and necessary, 
and compete with them for the attention of those who frequent 
their sites. We need to monitor the sites constantly for 
information and use them to exploit divisions among different 
sects and factions. And we need to recruit ``trolls' who can 
sow seeds of doubts in the different extremist Web sites and 
chat rooms.
    Obviously in the end, we need to develop the ability to 
shut down these sites when they represent an actual danger to 
us. It's tragic that the Internet has become a twisted tool for 
those who want to kill innocent people and aim to sow fear and 
division in the free world, but that is the reality that this 
hearing will reveal and it is why we must commit ourselves to 
meeting the challenge that it represents head on.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, for holding this 
important hearing today.
    Radical movements bent on violence are nothing new. The 
Internet, however, has dramatically expanded the ability of 
radical groups to recruit, train, motivate, and coordinate 
terrorists over vast distances without any direct contact. No 
matter how secure we make our borders, no matter how 
effectively we track traditional communication methods, the 
Internet provides terrorists with a powerful tool to reach new 
recruits and to spread their message of violence and hatred.
    Just last week, for example, three British Muslims went on 
trial in London on charges that included using Web sites and e-
mails to urge terrorist attacks both inside and outside the 
United Kingdom. The prosecutor noted, ``Each of them was adept 
at the use of computers and the Internet and primarily by that 
means they each demonstrated . . . an avid adherence to the 
need for violent holy war.''
    At the same time, a Federal court in this country, in 
Toledo, Ohio, heard charges against five men that included 
distributing information on bomb making that they have 
downloaded from the Internet. They await trial.
    Since the development of browser software in the early 
1990s that allows the easy access to text, image, sound, and 
video files, the Internet has become a potent tool for 
delivering radical materials to target audiences in distant or 
hostile locations. These materials can be stored on any server 
connected to the Internet, ready for instant access by the 
curious or the committed.
    The recruiting and reference materials on the Web for 
violent extremists are truly disturbing. Our enemies can 
consult Web sites to learn techniques for shooting down 
helicopters. They can watch videos of hostage beheadings, read 
letters left by suicide bombers, or listen to messages from 
militant leaders.
    Consider this: Most of the 42 groups on the U.S. State 
Department's 2005 list of foreign terrorist organizations have 
Web sites to promote their violent message. Those Web sites can 
also serve terrorist groups as forums to plan and coordinate 
operations as well as to finance their murderous attacks.
    And even if there were no Web sites, the Internet would 
still allow radicalizing messages as well as operational 
instructions to be passed along by e-mail.
    We do not yet know if the use of the Internet rivals or 
even exceeds the importance of community-based and personal 
recruitment. It does, however, represent a troubling extension 
of their reach: Easy, inexpensive, immediate, and powerful. As 
one journalist has observed, ``The conjunction of 21st Century 
Internet speed and 12th Century fanaticism has turned our world 
into a tinderbox.''
    Our witnesses today can help this Committee understand some 
urgent questions. What is the role of the Internet in 
radicalizing, recruiting, and financing terrorists? What 
techniques and appeals are used? Are Internet sites targeting 
potential recruits right here in our own country? How can we 
shape effective countermeasures?
    Mr. Chairman, I hope that what we learn today will help us 
resist the perversion of the World Wide Web into a weapon of 
worldwide war. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich, thanks for being here this morning. 
Since there is only the three of us, would you like to make an 
opening statement?
    Senator Voinovich. If I may.
    Senator Collins. Please.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Mr. Chairman, I commend you for holding 
this series of important hearings examining the threat of 
Islamist radicalization in our homeland. You have shown courage 
and leadership in choosing to tackle a complex and divisive 
issue which I think is really very important to our future 
security.
    The United States is at war against a transnational 
terrorist movement fueled by radical extremists. The struggle 
transcends borders and the Internet has exponentially increased 
the reach and operational capabilities of terrorist networks.
    When we speak about the issue of radical Islam, we must 
continually draw the distinction between the religion of Islam 
and the manner in which the religion can be exploited and 
distorted by violent extremists to inspire and justify their 
actions. We must never associate the reprehensible behavior of 
violent extremists with the Muslim faith.
    Particularly, today I would like to recognize Frank 
Cilluffo for his extensive work on the issue of radicalization. 
Mr. Cilluffo has been among the first to present constructive 
recommendations of actions the Federal Government can take to 
address and prevent extremism domestically. His work on the 
Homeland Security Advisory Council Future of Terrorism Task 
Force was very influential in my recent Sense of the Senate 
Resolution on combating domestic radicalization.
    The Federal Government has an important role to play in 
fostering positive relations and building strong community 
ties. I am convinced that to prevent radicalization we must 
work to better engage Muslim communities across America and 
facilitate interfaith dialogue to prevent isolation.
    I am pleased to note that in my home state of Ohio there is 
a strong multicultural relations outreach in effect and I, Mr. 
Chairman, am personally involved in it to see if we cannot use 
some of our communities in our State as a role model for other 
places in the country.
    There is a theological debate that must take place within 
Islam regarding modernity. We have an opportunity to influence 
this debate by upholding American values of democracy and 
tolerance and by ensuring that American Muslims are engaged 
rather than alienated.
    Although the U.S. Government cannot prevent use of the 
Internet by extremists, we have an opportunity to thwart their 
operations through the use of intelligence. We must also 
encourage the development and availability of a peaceful 
counter-narrative to challenge the extremist's message.
    I look forward to the testimony of our witnesses today. And 
again, Mr. Chairman, thank you very much for holding this 
important hearing.
    Chairman Lieberman. Thank you very much, Senator Voinovich, 
for that opening statement.
    Again, I thank the witnesses for being here. Mr. Doran, 
thanks for making it through the traffic. I am going to call on 
you now.
    Michael Doran is the Deputy Assistant Secretary of Defense 
for Support for Public Diplomacy at the Department of Defense. 
I am counting on you at the outset to talk a little bit about 
your office and then about the specific problem.

STATEMENT OF MICHAEL S. DORAN,\1\ DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR SUPPORT TO PUBLIC DIPLOMACY, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Doran. Thank you very much. I apologize for being 
caught in traffic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Doran appears in the Appendix on 
page 231.
---------------------------------------------------------------------------
    Mr. Chairman, Members of the Committee, I welcome the 
opportunity to testify today regarding the use of the Internet 
by terrorist organizations.
    The President has said that ``the war against this enemy is 
more than a military conflict. It is the decisive ideological 
struggle of the 21st Century and the calling of our 
generation.''
    This struggle differs from past ideological conflicts in 
that the Internet allows relatively small organizations with 
limited resources, such as al-Qaeda, to broadcast messages 
across the globe instantaneously. Al-Qaeda and its associates, 
in particular, use the Internet to attempt to influence the 
global political environment, to spread their political 
ideology, to disseminate the extremist interpretation of 
religion that supports it, and to coordinate their operations.
    The focus of my office's efforts is on foreign language 
insurgent Web sites believed to be operated by non-U.S. 
persons. We work closely with the Department of State, the 
National Counterterrorism Center, and other agencies to remain 
abreast of how our adversary uses this medium.
    Our deep commitment to a free society and the very nature 
of the Web make it virtually impossible to prevent terrorists 
from using the Internet altogether. From a handful of sites in 
2000, today there are many thousands of such Web sites in 
existence with more appearing each week. Through the deft use 
of members only user groups and password-protected bulletin 
boards terrorist groups such as al-Qaeda manage to maintain the 
integrity of their brand, instructing sympathetic audiences as 
to the whereabouts of their authoritative communications.
    At any given moment, in any given language, only a limited 
number of sites post original material produced directly by 
terrorist organizations or by religious authorities to whom the 
organizations have pledged loyalty. The majority of terrorist 
Web sites in operation are either mirrored versions of these 
existing sites or simply bulletin boards that disseminate 
material that originated on the Web sites under the direct 
control of the terrorist organizations.
    Terrorism experts have long analyzed terrorist attacks as a 
form of communication. A primary goal of a terrorist attack is 
to attract attention so as to disseminate information. The 
Internet ensures the terrorists have the means to communicate 
their message to the world immediately and directly without 
being filtered through the prism of mainstream media.
    The anonymity of the Web and the ready availability of a 
virtual space for posting material in large quantities make it 
easy for terrorist-related sites to pop up temporarily, publish 
new material, and then move to another address when necessary. 
Once the material has been published, it is immediately 
duplicated on a large number of sites located on servers across 
the globe. The speed with which this dissemination process 
occurs poses a serious challenge to those in the U.S. 
Government working to locate hostile sites and to assess their 
content.
    In fact, the Web has created conditions that make it 
possible for us to imagine a wholly new type of terrorist 
network, one that is almost entirely virtual, composed of 
individuals who are not personally known to each other, but who 
are animated by the same ideology and willing to coordinate 
actions in pursuit of it.
    In addition to easing communication, for some groups 
terrorists use of the Internet may increase the difficulties 
that law enforcement authorities face in tracking and 
apprehending potential terrorists aided by the Internet and 
other communication technology. Terrorists can operate in a 
variety of different jurisdictions, each with their own 
specific laws and regulations governing the monitoring of the 
Internet and the prosecution of online crime.
    The Internet is more than just a tool of terrorist 
organizations, however. It is also the primary repository of 
the essential resources for sustaining the culture of 
terrorism. It houses hundreds of thousands of pages of books 
that define the extremist interpretation of religion that feeds 
the global terrorist movement.
    For instance, the followers of Abu Muhammad al-Maqdisi, who 
at one time served as the spiritual guide to Ala Musab al-
Zarqawi, have compiled on a Web site dedicated to their mentor 
a considerable library of downloadable books that treat 
subjects covering all aspects of religious life. A large part 
of this material is devoted to debunking the moderate critiques 
of the extremist interpretation of religion. Sites such as this 
allow the Internet to function as a kind of virtual extremist 
madrassa.
    Terrorist organizations such as al-Qaeda use the Internet 
for a variety of organizational purposes, including propaganda, 
recruitment, fundraising, training and instruction, and 
operational planning. Thanks to the Internet, terrorists now 
have direct control over their message and the means of 
disseminating it with the ability to disperse their propaganda 
directory to sympathetic audiences without the filter of third-
party media.
    Terrorists also post violent images such as decapitation 
videos to invoke fear and to deliver threats. But intimidation, 
for all that it grabs attention, is not the main theme of 
terrorist propaganda which, more often than not, generally 
focuses on the perceived wrongs that Muslims have suffered at 
the hands of non-Muslims, led by the United States. It also 
stresses the religious justifications for taking violent action 
against them as a matter of defense.
    Terrorist propaganda seeks to delegitimize the adversaries 
of the extremists, to spread disinformation about enemy actions 
and intentions, and to bolster the morale of the followers, all 
ultimately to persuade potentially sympathetic audiences that 
jihad is a fundamental component of religion and the only 
effective means for redressing grievances.
    The Internet is also a useful tool for recruitment. In 
addition to other social influences, potential recruits are 
flooded with propaganda, training manuals, and religious 
justification for joining the jihad via the Internet. It is 
difficult to say how much direct recruitment takes place on the 
Web. While it is likely that direct invitations to take part in 
terrorist organizations are usually delivered face-to-face, 
there is no doubt that the Web plays an important role in 
indoctrinating recruits before they are drawn in directly. 
Probably for this reason, extremist Web sites will not attempt 
to recruit overtly for violent action, but will instead 
legitimate the actions of terrorists and encourage readers to 
support the jihad however they can.
    Terrorist Web sites, chat rooms, and other forums make use 
of the Internet for fundraising. These Web sites often use the 
argument that every Muslim has a duty to support jihad, but 
that participation on the ground is not required of everyone. 
The appeal for financial support alone is a method of 
permitting an individual to feel that they have done their duty 
as a Muslim, but do not need to change their life in order to 
join the actual flight.
    Terrorist use of the Internet also includes operational 
training. Would-be terrorists can find training information in 
the use of small arms, mortars, rockets, and artillery, 
guidance on where to fire at U.S. military vehicles in order to 
inflict the greatest damage, sniper training, and detailed 
instructions about the construction of improvised explosive 
devices, suicide vests, etc.
    Training is also available for guidance on how, when, and 
where to cross the borders of Iraq to join the jihad and how to 
avoid detection as a jihadist.
    As I have endeavored to illustrate, terrorists use the 
Internet for a wide variety of purposes and their use of the 
technology continues to evolve. I have provided the Committee 
with compact discs containing audiovisual material from some of 
these terrorist Web sites for these Committee Members who are 
interested in seeing a demonstration of some of the typical 
content found on these Web sites.
    The briefing on this CD was produced by the Department's 
Center for International Issues Research (CIIR), an innovative 
center focused, in part, on observing terrorist activity on the 
Internet in order to provide policymakers and agencies with a 
greater understanding and awareness of the strategic 
communication campaign being waged by extremist groups across 
cyberspace. CIIR was established precisely out of the 
recognition that al-Qaeda and its affiliates use the Internet 
with alacrity on a global scale and that such a threat required 
a team of monitors located in one place capable of following 
the day-to-day expression of extremist ideology across national 
and linguistic barriers.
    When recognizing the nimble use that al-Qaeda makes of the 
Internet, it is tempting to call for us to counter it directly 
on the Internet. Ultimately, the key to countering the 
terrorists use of the Internet is not solely a reciprocal set 
of actions by the U.S. Government on the Web, though that 
should not be ruled out.
    As the President has reminded us, we will counter the 
terrorist ideology most effectively by using the strongest 
weapon in our arsenal, the power of freedom. The Internet is a 
tool of a free society and, as such, it can sometimes be used 
as a tool to undermine freedom. Nevertheless, the answer to the 
terrorist message of tyranny, intolerance, and violent 
extremism is to effectively communicate the alternative vision: 
Freedom, tolerance, and mutually beneficial cooperation.
    Precisely in order to address the challenges presented by 
the war of ideas and to communicate our message of freedom and 
opportunity in the information age, in December 2006, the 
Undersecretary of Defense for Policy created my office, Support 
to Public Diplomacy. My office's mission is threefold. First, 
we are working to create organizational change within the 
Office of the Under Secretary of Defense for Policy to ensure 
that strategic communication and information are integral to 
policymaking, implementation, and assessment. My office is not 
a public affairs office. We are working to institutionalize the 
concept that information and communication are not just what 
government officials say but also the actions that we take.
    Support to Public Diplomacy's second core mission is 
developing and coordinating key themes and messages within the 
Department of Defense to promote policies. In policy 
development and implementation, we work with the Department of 
Defense Public Affairs and Joint Staff and other policy 
offices.
    Our third core mission is to work with other U.S. 
Government partners, particularly the Department of State--the 
lead for U.S. Government in public diplomacy--to design and 
facilitate whenever possible strategic communication policies 
and plans to effectively advance U.S. national security.
    With regard to countering ideological support to terrorism 
and terrorist use of the Internet, my office seeks to enhance 
understanding of how terrorist organizations like al-Qaeda 
conduct influence campaigns, and our goal is to develop policy 
and strategies to counter them.
    The President's National Security Strategy for Combating 
Terrorism provides a strategic vision for the defeat of violent 
extremism as a threat to our way of life in a free and open 
society, and the creation of a global environment inhospitable 
to violent extremists and all who support them.
    The Department will continue to work with our U.S. 
Government partners to engage the terrorist enemy in the cyber 
battlefield as a critical domain in our efforts to win the war 
of ideas and ultimately achieve this strategic vision.
    Thank you for the opportunity speak to you today. I am 
happy to answer any questions you may have with one small 
caveat. I took over in my new position on Monday, so I have 
been on the job for 3 days.
    Chairman Lieberman. Understood. You were very knowledgeable 
and spoke well.
    Mr. Doran. My mind is not cluttered by any of the facts.
    But I do have a background in the online jihad. I was a 
professor before I came into government service and I was 
working on these Web sites.
    Chairman Lieberman. Excellent. I appreciate it.
    I know you have just come in. Your statement was a strong 
one and it really does document for us the reality and the 
extensiveness of the use of the Internet by terrorist groups. 
So it is not just to propagandize or get out their message, but 
they are using it to recruit, to organize, to plan attacks and 
that is, as I said at the beginning, both a riveting and 
chilling reality which we have got to deal with.
    We will come back with some questions for you but I thank 
you for your testimony and welcome to the job.
    Mr. Doran. Thank you.
    Chairman Lieberman. Lieutenant Colonel Felter is the 
Director of the Combating Terrorism Center at the U.S. Military 
Academy. Colonel, thank you for being here. We look forward to 
your testimony.

  STATEMENT OF LIEUTENANT COLONEL JOSEPH H. FELTER, PH.D.,\1\ 
 DIRECTOR, COMBATING TERRORISM CENTER, U.S. MILITARY ACADEMY, 
                           U.S. ARMY

    Colonel Felter. Thank you. Chairman Lieberman, Senator 
Collins, distinguished Members of the Committee, it is really 
an honor for me to provide testimony on the topic of jihadi use 
of the Internet.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Felter appears in the 
Appendix on page 239.
---------------------------------------------------------------------------
    It is also an honor to sit next to Frank Cilluffo and 
Michael Doran, whose scholarship has been a great resource for 
us at the Combating Terrorism Center (CTC).
    Coalition forces have had great success in interdicting al-
Qaeda worldwide. We have captured, we have killed, we have 
denied safe haven, we have done a great job keeping the 
pressure on al-Qaeda. But despite these military successes in 
neutralizing key commanders and denying safe havens, al-Qaeda 
and al-Qaeda's associated movements in other terrorist groups 
continue to actively target and execute terrorist attacks 
against U.S. personnel and interests and allies around the 
world.
    It is important to bring operational commanders like al-
Zarqawi and al-Masri to justice. But they are a symptom, not a 
cause of the global epidemic that we must contain. The real 
center of gravity of this violent movement are the ideas of 
radical jihadist thought. It is these ideas that insulate al-
Qaeda against U.S. pressure and enable the movement to spread, 
even as its leaders are captured and killed.
    But it is not possible to capture, kill, or incarcerate 
ideas. These ideas, spread on the Internet, have helped al-
Qaeda become a social movement beyond an organization. This 
movement would not be impossible without the power of the 
Internet and the capability it offers al-Qaeda's thought 
leaders to define the way disillusioned youth think about the 
world.
    The Internet allows thousands of disenfranchised and 
displaced individuals to build a virtual community of followers 
bound together only by a body of shared ideas and digital 
relationships. We cannot prevent all of these relationships 
from forming to stop the generation of these ideas but we can 
do a better job of understanding how these ideas are created, 
where they come from, and how the Internet facilitates the 
processes so we can monitor and thwart those who join the 
movement.
    In this testimony I am going to describe the sources of 
these ideas and how violent extremists use the Internet to 
spread their radical ideology. I would also like to show a 
video to graphically demonstrate some of these ways the 
jihadists are using the Internet to spread this ideology. And I 
will conclude with some recommendations for how we can more 
effectively combat extremist efforts on the Internet.
    If we are confronting an ideology spread online, we must 
know what this ideology looks like and its sources. We did this 
pretty well in the Cold War. Entire academic disciplines were 
stood up to understand the nature of Soviet Communism, Chinese 
Communism. We knew Marx, Mao, Lenin. We were very familiar with 
the ideologues driving the communist movement. I think we are 
doing this less well today with this new hostile ideology that 
we are confronting in this global struggle.
    For example, the most important thought leader which Mr. 
Doran mentioned earlier in al-Qaeda, they are not really the 
operational leaders like Osama bin Laden or Ayman al-Zawahiri. 
They are unknown to most Americans, people like Abu Muhammad 
al-Maqdisi. He is a Palestinian-born individual now under house 
arrest in Jordan.
    In the Combating Terrorism Center, we have mapped al-
Qaeda's ideological influence. We have looked at thousands of 
these texts again, that Mr. Doran mentioned, on their online 
library, the Tawhid Web site. Many of these idealogues are long 
dead. They died in the 13th Century. Even to me, for example, 
many are alive today. It does not matter. Once their ideas are 
out there online, they are there and they endure and they have 
an effect on the movement.
    There is clear evidence that the grand ideas developed by 
these scholars inspire terrorist attacks worldwide. For 
example, the Spanish indictment of the Madrid train bombers 
identifies more than 50 electronic books that had been 
downloaded from the Internet and were found on the hard drives 
of the bombers' computers. The authors of these books track 
very closely with the list of the most influential jihadi 
authors developed by our researchers at West Point.
    The power of the Internet is key to giving more people from 
more places more reasons to join the movement. It provides the 
opportunity to foster a sense of connection between the 
movement's supporters and its foot soldiers in the field and to 
expand its options for participation.
    In one extraordinary example, which Chairman Lieberman 
mentioned, they actually had this contest to develop the Web 
site. They made the prize of, with a mouse click, launching 
rockets into an American base in Iraq. So someone from the 
privacy of his own home anywhere in the world could click on 
the mouse and attack Americans and feel connected to the 
movement and to the foot soldiers in the field.
    A popular book available online today is entitled ``39 Ways 
to Participate in Jihad'' and it spells out a variety of ways 
to participate in jihad, short of going to Iraq and Afghanistan 
and actually fighting as a foot soldier. It is similar Marxism. 
Its main concept is from each according to his ability, to each 
according to his need. So they are expanding the options to 
participate in the movement and the Internet is making this 
possible.
    For example, if you are technically savvy or if you know 
how to use Google Earth, you can get on to Google Earth and 
provide targeting information for jihadis. They did it in 
Fallujah several years ago, where people were actually calling 
in saying, ``this is what this block looks like, move here. It 
is empowering more and more people to get involved with the 
foot soldiers in the field and connected to this movement.''
    I would like to show a video for about 2 minutes that 
demonstrates how the jihadis are using the Internet to do some 
of these things and then conclude with a few recommendations.
    [Video played.]
    Colonel Felter. This is al-Qaeda showing its operatives in 
Northern Iraq and Kurdistan, to demonstrate that they actually 
have a presence there. They are actually walking in circles. It 
is a propaganda video. But they want to advertise their success 
and make people feel good about the movement.
    Here is the example of the technical expertise that is 
being applied on the battlefield, using Google Earth, for 
example. This is from the Islamist aArmy in Iraq.
    The youth are especially at risk for being influenced by 
the Internet. If it is entertaining, they are going to keep 
watching. If you celebrate attacks and executions, you can 
inform kids about the movement through an entertainment 
mechanism.
    This is a rap video that Mr. Cilluffo had in his report by 
the same group.
    This is Abu Musab al-Suri, one of the most prolific jihadi 
ideologues giving classes online and bringing more people into 
the movement.
    Ayman al-Zawahiri, you may recognize him.
    These terrorist groups, they are learning organizations. 
This is al-Masri, who was reported to have been killed last 
week but replaced al-Zarqawi after he was killed last year, 
demonstrating how to make explosions and improvised explosive 
devices (IEDs).
    We are seeing the same technology for IED technology in 
Iraq showing up in Afghanistan now and the Internet is directly 
responsible for that.
    [Video ends.]
    Colonel Felter. I hope that provided some context for my 
earlier description.
    I would like to conclude with some recommendations. Given 
what we know about how radical Islamist extremists are 
harnessing the power of the Internet, the CTC believes efforts 
to combat the threats posed by these terrorists can be enhanced 
in a number of ways.
    One, we have got to know our enemy. We have got to read 
what the terrorists are telling us online. At West Point, we 
are very familiar with Sun Tzu's maxim of knowing your enemy. 
In this war, the enemy has often been characterized as a 
hostile ideology responsible for extremist Islamist radicalism. 
We must develop a more comprehensive and nuanced understanding 
of this ideology and what is driving it. I think our Center's 
systematic mapping of the ideology in one of our recent reports 
is a good example of doing this.\1\
---------------------------------------------------------------------------
    \1\ The CTC report is available at http://www.ctc.usma.edu/atlas/
atlas.asp.
---------------------------------------------------------------------------
    Overall, we just have to increase efforts and programs 
designed to translate and analyze the jihadi strategic texts 
proliferated online. We are very much in need of that. I know 
Mr. Doran and Mr. Cilluffo are involved in this, but we have to 
expand this greater and involve more organizations and centers.
    We need to exploit enemy vulnerabilities made publicly 
available on the Internet. There are many opportunities to 
exploit vulnerabilities and divisions identified by the jihadis 
themselves. It is made conveniently online.
    One of the most effective ways to hurt the jihadis is to 
use their own writings against them. Jihadis compete for 
membership. They do not all like each other. It is not a 
monolithic organization that everyone supports everyone. They 
are discrediting and delegitimizing their competitors online. 
We need to find those voices and empower them, identify them 
and find out what arguments are being used to delegitimize 
jihadis from the inside.
    The CTC is looking at much of al-Qaeda's internal discourse 
through a program at the U.S. Special Operations Command where 
we are mining the Harmony database, which is all of their 
internal documents captured in the course of operations. You do 
not need access to a classified database to do that. Much more 
information is available online. Areas of disagreement, 
ideological fault lines, internal riffs, and power struggles 
are all described in great detail on various Internet sites. 
These are opportunities we must better exploit.
    We also have to harness broader resources and bring them to 
bear in the fight. Just as the terrorists identified 39 ways to 
participate in jihad, we need to create greater opportunities 
for Americans with a wide array of expertise to quietly 
contribute to the fight against terrorism.
    We are doing this at West Point by being a bridge, bringing 
in some of the top academic experts in the field and bringing 
them to civilian and military decisionmakers where their 
expertise is most needed. We need to create more mechanisms and 
make it more attractive for a vast array of American expertise 
to be employed against this enemy.
    Much of this untapped talent is in the younger generation. 
At West Point we see the creative and Internet savvy potential 
of our young cadets and how they are particularly adept at 
identifying opportunities to enlist the power of the Internet 
to combat the terrorist threat. One of our cadets in the 
terrorism studies program, for instance, analyzed hundreds of 
online videos and attacks against American troops in Iraq to 
identify more effective countermeasures and tactics that can 
increase survivability of our forces. His analysis is being 
used in the field today.
    In closing, I would like to quote Douglas MacArthur in his 
farewell address to the Corps of Cadets in 1962. He admonished 
that ``Through all this welter of change, your mission remains 
fixed, determined, and inviable. It is to win our wars.'' This 
maxim remains true today. At West Point, we appreciate that the 
Internet is being used as a weapon in this generational 
conflict. We are committed to preparing our Nation's future 
military leaders to respond effectively to this threat and to 
use the same weapon to take the fight back to the enemy.
    Thank you for the opportunity to appear before this 
Committee and I look forward to answering your questions.
    Chairman Lieberman. Thanks, Colonel. Great point from 
MacArthur at the end. Thanks for your testimony.
    A vote has just gone off in the Senate but we probably have 
10 or 12 minutes before we have to leave. I hope you can do 
your opening in that time, Mr. Cilluffo. If not, we will finish 
when we get back.
    Thanks for being here. Thanks for choosing to publicize 
your findings here at this hearing.

STATEMENT OF FRANK J. CILLUFFO,\1\ ASSOCIATE VICE PRESIDENT FOR 
     HOMELAND SECURITY, DIRECTOR, HOMELAND SECURITY POLICY 
          INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Cilluffo. Thank you, Mr. Chairman. I have rarely had an 
unspoken thought, but I will try to be quick, especially since 
we agreed with many of the findings, which is quite rare.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cilluffo appears in the Appendix 
on page 248.
---------------------------------------------------------------------------
    Chairman Lieberman, Senator Collins, Senator Voinovich, 
your continued examination of the issues involved in extremist 
radicalization is central to understanding our enemies. Thank 
you for your leadership in pushing these critical issues to the 
fore.
    These are complex issues. They do not make for simple 
hearings, so I applaud the efforts that all of you put in.
    I am pleased to be before you to share the findings and 
recommendations of our report, ``NETworked Radicalization: A 
Counter-Strategy.'' \1\ The work is a joint project of GWU's 
Homeland Security Policy Institute (HSPI) and the University of 
Virginia's Critical Incident Analysis Group and was supported 
by a top-notch group of diverse subject matter experts, some of 
whom are here with me today, and I would like to acknowledge 
them quickly: Abdullah Ansary, Mary McCarthy, Steve Herrick, 
and David Heyman, a very diverse group of folks.
---------------------------------------------------------------------------
    \1\ The report submitted by Mr. Cilluffo appears in the Appendix on 
page 257.
---------------------------------------------------------------------------
    I would also like to thank my co-chair and co-sponsor, Dr. 
Gregg Saathoff, along with my wonderful HSPI team.
    We are facing a global insurgency, as we have heard. To 
prevail, we must win the battle for hearts and minds, remove 
terrorist masterminds, and offer hope and opportunity to those 
who might otherwise be seduced by the jihadi Salafist ideology. 
We need to recognize that we must enter a new phase in our 
campaign. While not discounting military actions and the need 
to hunt down individual terrorists, the war is now one of ideas 
and cyberspace is the new battlefield.
    Our adversaries currently have firm possession of this 
battlefield because they understand the shift and have created 
and disseminated a narrative that resonates, energizes, and 
expands their ranks. By incorporating and manipulating local 
political grievances, some of which are legitimate, they have 
woven an effective tale of an imaginary clash of civilizations 
in which a monolithic West is engaged in an aggressive struggle 
against a monolithic Islam.
    Internet chat rooms are now supplementing and replacing 
mosques, community centers, and coffee shops as venues for 
recruitment and radicalization. The real-time two-way dialogue 
of the chat rooms has taken the fight global, enabling 
extremist ideas to be shared, take root, be reaffirmed, and 
spread exponentially. This mutual affirmation, in turn, gives 
rise to a sense of community and belonging, in essence a 
virtual ummah.
    From Toronto to Morocco, London to Madrid, and in Holland, 
America, and beyond, we have witnessed the effects of 
radicalization. Some have termed these instances as homegrown 
terrorism, a bit of a misnomer as the Internet has created a 
largely borderless world for terrorists. Therefore terror 
networks are best understood in this global context rather than 
simply a national framework. Connecting the dots of terrorist 
activity around the world, we are able to see that this pace of 
transformation is striking and has been accelerating, as the 
British have recently identified.
    Our report focuses on radicalization in the context of this 
transnational insurgency that is a global extremist jihadi 
Salafist movement, perhaps best exemplified by al-Qaeda but 
including other terror networks, those that think global but 
act local, ascribing to the same ideology.
    Radicalization is defined as the process of adopting an 
extremist belief system, including the willingness to use 
violence as a method to effect social change. Let me note that 
we have chosen not to use the term Islamist extremism in our 
discussions. Radicalization is not unique to Islam, nor is it a 
new phenomenon. The West is not at war with Islam. Terrorism 
is, in fact, un-Islamic.
    Recent polling by the University of Maryland indicates that 
88 percent of Egyptians and two-thirds of Moroccans and 
Indonesians believe al-Qaeda attacks against civilians violate 
the principles of Islam. In addition, extremists have 
misappropriated the concept of jihad, using it wrongly to 
justify acts of violence not sanctioned by the tenets of Islam.
    Savvy use of the Internet has empowered terror networks to 
expand their reach beyond national borders by enabling wide 
distribution of this compelling narrative and social 
connectivity with new audiences. Previously, computer mediated 
communication was used for a range of terrorist operational 
activities: Communications, fundraising, planning, 
coordination, training, sharing of lessons learned 
instantaneously on the Internet, information gathering and data 
mining, propaganda, and obviously misinformation and 
disinformation.
    But the ``killer application'' of the Internet is, in fact, 
the nexus between the physical and the cyber, not so much its 
use as a propaganda and operations tool. There can be no 
compelling counter narrative until the extremist narrative 
itself is well understood, including how that message is 
couched, what is emphasized and ignored, what references and 
allusions are made, what audiences are targeted, and how 
messages are adapted to reach new audiences and respond to new 
events.
    How can the Nation that gave rise to Silicon Valley, 
Hollywood, and the Internet itself be outplayed in the realm of 
ideas? Part of the answer is that we have not really applied 
our collective talents and energies to the problem. Domination 
of the battlefield is not much of a feat when only one side has 
shown up. In this instance, it will require international 
collaboration as transnational threats require transnational 
solutions.
    The virtual world cannot be divorced from the physical 
world in which it is grounded. It is the complex iterative and 
dynamic interplay between the two that helps explain why the 
extremist narrative resonates and how it spreads. There is no 
set formula or profile that explains why someone is vulnerable 
to radicalization and goes on to become a terrorist. We do 
know, however, that social bonds play an important role in the 
radicalization process.
    This is especially true for diaspora communities which 
often turn inward for an enhanced sense of dignity. Youth in 
these communities, including second and third generation, may 
feel alienated not only from their parents' culture, but the 
culture of the very country in which they live.
    This ambivalence about their parents and new country means 
that young people may therefore rely on each other for a sense 
of community, making it easier for a single radicalized 
individual to influence others. Therefore, there may also be an 
element of youthful rebellion in all of this, and some may be 
swept in the romanticism of joining an international brigade. I 
hope we, too, do tap into our young talent to tackle that, as 
well.
    Let us not kid ourselves, American Muslims, like their 
European counterparts, may feel alienated, too, though not to 
the extent we have witnessed overseas. Perhaps the most 
striking example is Adam Gadahn, an American citizen from 
California who now serves as al-Qaeda's English-language 
spokesperson.
    Adept at building networks offline, he was able to carry 
that ability along with a sense of moral outrage to the online 
environment.
    Which raises another important issue in understanding 
radicalization, the need for social networking analysis, which 
offers a way to visualize the nodes in a network and how things 
move through that network, such as weapons, pieces of 
knowledge, or people. In other words, how networks thrive and 
grow, and how they atrophy and die.
    At least part of the solution lies within the Muslim 
community itself. Unless the counter messages come from within, 
they will fail to resonate because they will be seen as 
inauthentic and untrustworthy. The Koran and Islamic scholars 
are arguably the most important means of our response. While 
there may be a role for governments to play by helping at arm's 
length to amplify these voices at the grassroots, the challenge 
lies in figuring out how to do so without tainting the 
credibility of either the message or the messenger.
    So where do we go from here? First and foremost, we need to 
challenge the extremist doctrine by crafting a compelling 
counter narrative that debunks and discredits myths and 
falsehoods and recognizes the realities, such as the fact that 
more Muslims than all non-Muslims have been killed by terrorist 
activities in recent years, again in 2006 as well.
    Our ultimate aim is to deconstruct the al-Qaeda brand 
campaign and turn it into nothing more than a passing fad.
    The counter narrative should offer a dream focused on 
realistically attainable and alternative futures.
    One caution, however, the counter narrative is not to be 
confused with a PR campaign to improve the image of the United 
States.
    While the counter narrative must incorporate core values 
common to all, we must not shrink from using graphic visuals 
demonstrating the deadly impacts of terrorism. Where 
appropriate, we should fight fire with fire such as the 
unsanitized visuals from Beslan and Jordan. In counterterrorism 
we are always talking about terrorists and their martyrs. We 
have had our martyrs, too.
    The message must spring from authentic sources and in this 
case an authentic messenger may, in fact, be an extremist who 
has renounced terrorism. For example, ``60 Minutes,'' 2 weeks 
ago aired a segment in which Hassan Butt, once a recruiter for 
al-Qaeda in the United Kingdom, focused on how he was misled 
and became disillusioned with the movement.
    And how many times have we heard, ``Where are the moderate 
Muslims denouncing terrorism?'' In fact, the American-Muslim 
community and others issued a fatwa to this effect immediately 
following the September 11, 2001, attacks which was echoed 
again in 2005 by the Fiqh Council, but no one remembers. The 
media can play an important role by covering groups that speak 
out against the extremist elements in messaging and by using 
Islamic terms appropriately when reporting the story.
    The second element of a counter strategy involves cross-
cultural dialogue and understanding. This dialogue includes 
addressing the perceptions and realities of American-Muslim 
alienation and marginalization. It is important to note that 
all of this takes place in a very public square where, as 
recent studies have shown, cultural and religious knowledge in 
general is lacking.
    Greater civic engagement of the Muslim communities will 
further enable integration. Senator Voinovich, I thank you for 
taking up these efforts yourself.
    If we accept that premise, then we need to align our means 
with our ends. Clearly there is something wrong when the DHS 
office responsible for engaging with American-Arab and 
American-Muslim communities nationwide has only a director and 
two full-time employees.
    Real traction will be generated outside government, though. 
People-to-people exchanges are critical to be able to actually 
strengthen the ties that bind us all.
    We also need to do our homework when it comes to the 
scientific aspect of all this.
    Chairman Lieberman. Because your recommendations are every 
important to us, I do not want you to rush and I want us all to 
be here to hear them. So I am going to ask you to hold. We will 
go right back to you to finish when we return.
    The hearing will stand in recess and we will return as soon 
as we can. Thank you.
    [Recess.]
    Chairman Lieberman. The hearing will reconvene.
    I apologize to the witnesses, particularly to you, Mr. 
Cilluffo. But thank you for your testimony so far. Proceed, 
please.
    Mr. Cilluffo. Thank you, Mr. Chairman.
    To pick up where we were, we also believe it is essential 
to do our homework when it comes to the scientific aspects of 
all of this. Our counter strategy will only be as powerful as 
the depth of our understanding of the process of radicalization 
both online and offline. Until we recognize and address the 
need for more behavioral science research in this area, we will 
be missing opportunities to intervene and stop the process dead 
in its tracks. And by that I mean the life cycle of terrorism. 
What is the cycle from sympathizer to activist to being willing 
to engage in indiscriminate violence, including potential 
suicide violence?
    Performing and exploiting the type of research that is 
needed will take time, of course, but there are many other 
steps that we can take in the interim. For starters, legal 
means to disrupt extremist use of the Internet must be deployed 
against Web sites that directly advocate violence or provide 
material support to known terrorist organizations, crossing the 
line from protected speech to illegal acts of violence. 
Technical means could also be used to knock our adversaries off 
balance. Practically speaking though, it is difficult to 
squelch an extremist presence online. Like a game of Whac-A-
Mole, you knock one site down only to find it pop up elsewhere.
    Work in the shadows, where appropriate, may also yield 
results, as is true in the context of other criminal 
investigations. As chat rooms have replaced the smoke-filled 
bars of the Le Carre novels, we must have a greater footprint 
and presence here.
    More intelligence officers are needed to exploit the 
convergence of human intelligence and cyberspace to actively 
undermine the trust that binds enemy networks and to better 
inform our counterterrorism and counter narrative efforts.
    ``Honey pots'' offer one way to achieve these goals. Among 
other things, they could allow us to better understand how 
local political grievances may become appropriated by the 
larger extremist movement which, in turn, could help us drive 
wedges and blast open existing fault lines between and among 
factions. While unintended, some of our counterterrorism 
actions have had the net effect of uniting our adversaries. We 
must pursue a course of disaggregation and facilitate rifts and 
dissension among terrorists, their organizations, organizations 
from other organizations, that from a movement and that from 
society writ large. And along each step of the way there are 
different elements of statecraft that need to be brought to 
bear.
    Finally, we need to build capabilities at the Federal 
level. We have known for more than a decade that we need to 
shore up language skills and cultural knowledge in the Federal 
workforce. Moreover, we need to harness intergovernmental 
efforts to generate a strategic communications plan, one that 
is comprehensive, well informed, and that allows us to 
effectively articulate an anti-extremist message. We are not 
suggesting the sort of centralized approach that we adopted 
during World War II with the Office of War Information.
    Today, no single organization or institution, either within 
government or outside of it, is capable of managing this effort 
alone. Instead we need a decentralized approach, a network of 
networks that links and coordinates the efforts of both public 
and private actors to use all elements of statecraft to counter 
our adversaries.
    In closing, thank you, Mr. Chairman, and I stand ready to 
try to answer any questions you may have.
    Chairman Lieberman. Thank you, Mr. Cilluffo.
    You are making a real contribution with your work. I thank 
you for it and I hope you will continue.
    Mr. Cilluffo. It is a group effort, Mr. Chairman, not me.
    Chairman Lieberman. Thanks. Let me start with a few factual 
questions about what you have told us.
    Am I correct that predominately these Web sites are in 
Arabic, Mr. Doran?
    Mr. Doran. I cannot give you exact numbers, but I think 
that they are in many different languages. I would say that, as 
far as al-Qaeda is concerned, the key Web sites are probably in 
Arabic originally, but this is a global phenomenon.
    Chairman Lieberman. To bring it closer to home, do they 
have Web sites that are in English, that people in the United 
States who do not speak Arabic can go up on?
    Mr. Doran. Yes.
    Mr. Cilluffo. Unequivocally.
    Colonel Felter. Yes.
    Chairman Lieberman. They do.
    There was one mention, I think maybe by Mr. Doran, about 
the use of a password or a code system to enter conversations. 
How difficult is it to break that system?
    Mr. Doran. It is very difficult because the people who are 
controlling access are familiar to each other. I think it was 
Colonel Felter who said that we are talking about social 
networks working with, incorporating the Internet into their 
non-Web-based activities.
    So if you have a group of people that know each other and 
are communicating through cyberspace, they can decide whether 
to let people in or not on the basis of word of mouth and not 
just what they see on the Internet.
    Chairman Lieberman. But am I correct, Mr. Cilluffo, in 
assuming that if one went to a Web site and got on one of these 
Web sites, and got engaged or drawn in, is there an obvious way 
in which that person would be recruited?
    Mr. Cilluffo. It is, in part, self-enlistment and it is, in 
part, recruitment.
    Chairman Lieberman. So you would click to a particular 
portal if you wanted to do more than just read the propaganda?
    Mr. Cilluffo. Absolutely. The Web sites themselves are 
static. It is the dynamic side where, just like every day use, 
my four children use the Internet and they have dolls, Webkinz, 
and they use it to interact with one another.
    It is a very similar process in this case. But obviously 
they are going to be distrustful of individuals they do not 
know. So there actually are known cases of where they test 
individuals. They actually put them--just like you are 
initiating to join a secret club or whatever it may be--they 
actually put them through tests to see how tough their skin 
really is, in terms of----
    Chairman Lieberman. Right. In your testimony, Mr. Doran, 
you said that there were core Web sites that produce additional 
material and that there were others, perhaps thousands, that 
simply repeat what are on those core Web sites? If I got you 
right, for instance, al-Qaeda maintains five significant Web 
sites? Was that from your testimony?
    Mr. Doran. I did not use the number five.
    Chairman Lieberman. So talk to me about the impact of the 
core Web sites.
    Mr. Doran. These are Web sites that are controlled by 
people who are known to each other and they will post 
authoritative information on the Web site. And then it will be 
disseminated out by loyalists all across the Internet.
    On these bulletin boards, these are bulletin boards where 
they are password-protected. Certain individuals user names 
will become known as authoritative individuals. I will give you 
an example.
    There was this American, Johnson, who was kidnapped in 
Saudi Arabia and killed. Within hours of his kidnapping his 
wallet with his ID appeared, a photo of it appeared on this Web 
site. So from an event like that, you can then conclude that 
Web site is directly connected to the kidnappers and it is an 
authoritative Web site.
    Then an individual on that Web site, whenever an al-Qaeda 
related event would take place, would tell you if you want to 
see our statement about the event go to the following address. 
Then you go to that address. Once it is out there and 
authenticated, then it just spreads like wildfire.
    Chairman Lieberman. Colonel Felter, is there any way that 
you or either of the other panelists can answer for us how many 
hits these Web sites receive from within the United States of 
America?
    Colonel Felter. I think they can be tracked. I do not have 
an exact figure. But there are tools, like with any Web site, 
you can identify how many hits.
    Mr. Chairman, one thing that is important to know on the 
Internet, you may get one download from one terminal and then 
that individual may burn 1,000 CDs. So it is hard to say one 
download of a particular piece could go to--many more people 
have access to computers than Internet connection. So it is 
hard to know how many people are actually getting access to 
some of this information.
    Chairman Lieberman. Mr. Cilluffo or Mr. Doran, do you have 
any basis for estimating how active these Web sites, the 
terrorist Web sites, are within the United States from within 
the United States?
    Mr. Cilluffo. I don't have a clear answer in terms of the 
domestic activity. But to get to one of the points that Colonel 
Felter made, not only do they burn CDs, but they will actually 
move from sites to other sites to other sites, many of which 
are what you call parasiting, they are on innocent or innocuous 
sites. So it does make it difficult.
    One point you had mentioned earlier, al-Qaeda does have a 
formal media arm, a production arm. And that is as-Sahab. If 
you were to actually look at the video quality from 2002 to 
2007 today, it has improved exponentially. In addition to its 
production facilities and efforts, it actually has a 
clearinghouse. The Global Islamic Media Front serves as the 
clearinghouse not only for as-Sahab, but others as well.
    So they actually do have a traditional production entity. 
And maybe Colonel Felter wants to build on that.
    Chairman Lieberman. Do they have a single major Web site, 
al-Qaeda, that is theirs?
    Mr. Cilluffo. They have had many different Web sites. But 
one of the challenges, I think, is how do we delineate al-Qaeda 
classic from all the other groups it spawned? It does have its 
own sites, al-Zawahiri sites. But most of those we are also 
aware of and clearly they take operational security very 
seriously themselves.
    Chairman Lieberman. Colonel, did you want to add anything?
    Colonel Felter. No, that is fine, sir.
    Chairman Lieberman. My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Doran, Colonel Felter in his testimony has said that 
the government should not waste resources trying to take down 
the Web sites of extremist groups. He says, ``Attempts to shut 
down Web sites have proven as fruitless as a game of Whac-A-
Mole.'' In other words, you shut down one place and another 
just pops up to take its place.
    But others argue that when you have Web sites, such as the 
one that you have talked about, that are broadcasting on the 
best way to shoot down a helicopter that you should shut it 
down. I would like to get your assessment of that. Some have 
argued that shutting down those Web sites, even if it is 
temporary, at least prevents others from accessing information 
that could be used to kill Americans and other innocent 
individuals. Others say that what we should do is just track 
those Web sites because it is useful to us and helps us 
understand how terrorists think.
    What is your judgment on that?
    Mr. Doran. I am going to come right down the middle between 
the two. I think it is a discussion that needs to be ongoing 
and we should not take a categorical position on either side. 
We need to talk about which Web site and for which purpose in 
terms of shutting down.
    But as Mr. Cilluffo was saying, al-Qaeda has this brand 
name, as-Sahab, its production facility. It has a number of 
other brand names, al-Faja'a, al-Borak, and so forth.
    It has engaged in this online branding precisely to get 
around the problem of not being able to present material on one 
single Web site. So you do run into this Whac-A-Mole problem, 
you whack it here and it pops up in another place. But keeping 
this branding, maintaining the integrity of its brand precisely 
to get around this problem. So they are quite adept at getting 
around it.
    Now that is not an argument not to do it, but it has to be 
an ongoing discussion. And it has to be an ongoing discussion 
on both the classified and unclassified level. So I would not 
like to get into that too deeply.
    Senator Collins. Mr. Cilluffo, what is your advice? Should 
we try to shut down the most violent and extremist of these Web 
sites? Or should we just monitor them carefully, try to devise 
countermeasures? What do you think we should do?
    Mr. Cilluffo. We, too, did not see it as an either/or 
proposition, that we can and must use all means and instruments 
that we have. But for the most part, you do have a Whac-A-Mole 
problem because the Internet is international by its very 
nature. You do not need to be a major country to be able to use 
some of those capacities.
    But I would like to recognize we do need to also look to 
how we can work with other countries. The United States hosts a 
number of these sites but so do others. The Saudis actually 
recently came up with a very aggressive plan on cyber crime. 
They actually have just put forward a bill that prohibits any 
Web sites that are linked to a terrorist organization with both 
prison time and financial penalties. So maybe there are some 
issues we can look at there.
    I am more interested not only in the Web sites themselves, 
but I think we have to go to where the action is, and that is 
the chat rooms. That is where the ideas themselves are 
propagating. We need to get our arms around this, roll up our 
sleeves, and engage here. This is where the battle of ideas 
are.
    The static issue, you know what? To some extent, there is 
not all that much we can do there. But what we can do is get 
people who are versed in the Koran, to be able to identify how 
these ideas are just flat wrong. And that is where I believe 
some of our activity should really be focusing.
    I also think in the intelligence business we need to put 
the same effort and resources we do for cultivating human 
sources in the physical world in the cyber environment and 
exploit advances in technology to be able to further enhance 
our capacities there.
    Senator Collins. Thank you.
    Colonel, I was intrigued by your recommendations when you 
talked about the need to create opportunities for more 
Americans to ``quietly participate'' in the fight against 
terrorism. And you talked about the Cold War and how there was 
a tremendous academic focus. We brought a lot of resources to 
bear across disciplines, not just in the military. What are 
your further thoughts on that? How can we engage more 
Americans, particularly those in the Muslim community, to as 
you put it ``quietly participate''?
    Colonel Felter. Thank you, Senator.
    I can use the example of our Center at West Point where we 
actively enlist the cooperation of a variety of academics 
around the country. They will not work for the U.S. Government. 
They will not work for the Army. They will not work for the 
intelligence agencies. But we found they were comfortable 
working with us as an academic institution.
    So I think if we could find these bridges, these 
appropriate bridges, to bring the tremendous expertise that is 
out there in our country that is not getting to your office, to 
the offices of the military leaders and the other policy 
makers, I think that would be a useful effort to make. Make 
people more comfortable joining the fight.
    We have been surprised, at West Point, where these 
academics may be a little gun shy to say do not put my name on 
that product because I do not want to lose academic 
credibility. Several months into that they realize that the 
U.S. Government is not such a bad organization to support and 
they have even come out and become more visible.
    But I think giving people more opportunities to contribute 
in the ways that they are comfortable with and in a way that 
gets to the people that really make the decisions and can take 
action on I think is a useful thing to pursue.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you, Senator Collins. Senator 
Voinovich.
    Senator Voinovich. This problem that we have is 
multifaceted. I just was reading the recent issue of The 
Economist, ``Recent opinion polls suggest that three-quarters 
of Iraqis think America plays a negative role in their country 
and most want American troops to go.''
    Then it went on, but America's troubles there do not stop 
at Iraq's borders. ``An opinion survey in four Muslim 
countries, Egypt, Morocco, Pakistan, and Indonesia, this week 
shows 79 percent of the respondents believing that America aims 
to divide and weaken the Muslim world. Big majorities want 
American troops out of Muslim countries, most strikingly in 
Egypt, one of America's closest Arab allies--91 percent endorse 
attacks on American troops in Iraq and Afghanistan.''
    So that's one problem that we have. There is a feeling, I 
think, in the Muslim world that somehow we are there to 
undermine the Muslim world, which we are not. But that is what 
is being propagandized out there.
    Then the next issue you have is how do you get moderate 
Muslims or even fundamentalist Muslims who believe that what 
terrorists are doing is not consistent with the Koran to speak 
out? And I have read several books regarding the fact that in 
those countries, it is very difficult for someone to speak out 
and say that you can be a good Muslim and be for freedom, 
democracy, and rule of law. Because if you do, you risk harm. 
So where do you find the folks that have the credentials to 
come out and say what these violent extremists are giving you 
is inconsistent with what Mohammad would want you to do in 
these circumstances?
    There is some reluctance for people to speak out. It cannot 
be us. It has got to come from those people who have got the 
credentials to be listened to.
    The thing that concerns me is, whether anybody has, really 
sat down and developed a strategic plan about how we go about 
counteracting this particular issue. For example, the Internet. 
How do we bring all of our resources to bear? What are all the 
aspects about it? How do we develop a critical path, with 
identified tasks and a detailed plan for implementation?
    You are doing it at West Point. You have got the Defense 
Department. We have got Homeland Security. Mr. Cilluffo you 
said that we have only one key person at Homeland Security and 
two individuals to help them to work on radicialization? I 
would like the witnesses' comments. Have we really taken this 
seriously? And in your opinion, what is it that we need to do 
to bring our resources together to counteract this and make a 
difference?
    Mr. Doran. Is that to me?
    Senator Voinovich. It is to all of you.
    Mr. Doran. Yes, we are taking it extremely seriously. And 
it is a centralized effort of the President's Counterterrorism 
Strategy. The President has also charged Karen Hughes with 
leading the effort in this regard. And in my Department the 
seriousness with which we are taking it is evidenced by the 
creation of my office.
    Senator Voinovich. Have you ever seen a strategic plan 
about how we are going to institutionalize this and make a 
difference?
    Mr. Doran. With the problem of radical Islam?
    Senator Voinovich. Yes, the overall issue and its various 
components, such as dealing with the Internet problem.
    Mr. Doran. The Internet problem is part of a larger 
terrorism problem. And so I think it needs to be seen in that 
regard. We do not regard our answer to the Internet problem as 
just things that we do on the Internet, but it is our entire 
policy and the entire freedom agenda.
    Senator Voinovich. Do you coordinate with Homeland 
Security?
    Mr. Doran. Yes, we coordinate with Homeland Security, with 
the State Department, and all agencies.
    Senator Voinovich. And you are saying Karen Hughes, at the 
State Department, is the one in charge, she is the orchestra 
leader?
    Mr. Doran. She is the interagency lead on public diplomacy 
countering extremism.
    Colonel Felter. Sir, as an academic institution we are a 
little bit off the hook for this. But I would say we try to 
support the efforts of our colleagues that are on the hot seat 
by providing content to what may be the strategic plan might 
look like. I think it is important, from the academic side if I 
can speak for that, to identify these opportunities to identify 
the divisions within the movement.
    We are limited in what we can do, as Americans and 
Westerners, to discredit and delegitimize the movement. But we 
can find voices within the movement that are delegitimizing and 
discrediting the movement from within. Sometimes these voices 
are within the jihadis themselves. Sometimes they are on the 
margins of support for jihadis, within the Salafist community, 
in the broader Islamist community.
    From the academic perspective, Senator, I think we can find 
those dissenting voices in those divisions and empower them, 
amplify them. Make sure that voices within the movement are 
getting the air time that they need. Because I think the most 
damaging thing that can happen to the jihadis and these 
extremists is to have folks within their movement or slightly 
on the fringes discredit them, say hey, Muslim on Muslim 
violence is not good. Attacking the sources of a Nation's 
wealth, do not want it. These forces are out there. They are 
out there online and we can find them, as Mr. Cilluffo said, in 
real time in the chat rooms.
    Mr. Cilluffo. Senator Voinovich, if I could build on that, 
because I am very much in line with Colonel Felter's thinking 
here. I am not sure there is the possibility to have a single 
agency that should be--that can be held accountable for this 
issue. Quite honestly, I think government is only part of the 
solution. But government does have a role in recognizing some 
of the problems, amplifying the voices that are out there 
already in a way that does not discredit them. We can look at 
organized crime models.
    For example, by that, I look back to the Falconi 
assassination, the judge in Sicily. Prior to that there had 
been a number of assassinations. But this was a judge that 
actually tried to help the Sicilian people. He had a good 
working relationship with the United States, tried to bring in 
opportunities that were usurped by the Mafia to provide 
services.
    Once he was assassinated, the hearts and minds of the 
people turned overnight against the Mafia.
    Abu Nidal organization, this was super terrorist No. 1, we 
seem to forget. He was the big mover and shaker. He did not get 
defeated through external means. He was defeated because he 
started losing trust and confidence in his own minions, not to 
use--since we used the Mafia, not to use the wrong term, but he 
whacked them because he lost confidence in his own people. We 
need to look to other unconventional means to be able to look 
at that.
    Now part of that is in the national security environment. 
The more important set of issues is how do we get the 
communities that are out there? How do we amplify that? How do 
we make that message sticky? Part of it is the stickiness of 
the message. Their message is sticky to a certain constituency. 
Sometimes the status quo is not sticky. So we have to find new 
ways to be able to provide stickiness.
    One of the ironies we are seeing here is that they are 
revolting, as I mentioned in my oral remarks, part of them do 
not feel part of their first and second generation, the parents 
who moved to, whether it is Western Europe. Nor do they feel 
part of their own country that they sort of have reaffirmed 
these aberrant attitudes among themselves.
    Well, education has an important role here. There are 
people who are out there, their messages are not necessarily 
getting heard. But I would suggest that we have a lot to learn 
from other countries.
    I am impressed with the United Kingdom--they have got their 
hands full. And maybe their issue is a little more focused. It 
has got a much stronger Pakistan connection than some of the 
other areas. And you cannot generalize France, Germany, they 
all have their own unique attributes.
    But they proposed an effort called the Radical Middle Way 
which is a program, I think we heard from them publicly, they 
were willing to be recognized in our report, as were other 
Islamic scholars or Sharia law experts, too. I would recommend 
that is one place to give some thought to. They are putting 
together a counter radicalization strategy. The British 
Government is there.
    Only part of it, though, is in the security services. The 
other part is in other civil departments within the British 
Government that are sometimes at odds with one another. But we 
never have that problem here, do we?
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich.
    Let me pick up a little bit on Senator Voinovich's last 
question because the three of you have laid out a picture here 
which is serious, that the enemy that attacked us on September 
11, 2001, the enemy that we declared war against shortly 
thereafter, is using the Internet to propagandize, radicalize, 
recruit, and in some cases actually to operate.
    I hear one thing clearly, which is that--well, we ought to 
develop a counter narrative, which is a way to try to compete 
with the propagandizing radicalizing recruiting part of it.
    Is the U.S. Government doing enough to counteract the use 
of the Internet for radicalization and recruiting to the 
Islamist extremist cause? Mr. Cilluffo.
    Mr. Cilluffo. Unequivocally, no.
    Chairman Lieberman. Colonel Felter.
    Colonel Felter. I think we have a lot of other 
opportunities that we could take advantage of.
    Chairman Lieberman. That we are not doing. Mr. Doran.
    Mr. Doran. I think we are taking it very seriously and our 
policy is evolving on this. As I said, the creation of my 
office is one of the signs of the seriousness with which we are 
taking it.
    Chairman Lieberman. Right.
    Mr. Doran. If I could say one word about that----
    Chairman Lieberman. But you would not say that we are doing 
enough yet to meet this Internet threat?
    Mr. Doran. That is a tricky question because what is 
enough? We will have done enough when al-Qaeda is defeated, but 
we are taking it extremely seriously.
    Chairman Lieberman. What I hear is we have a lot more to 
do.
    I want to ask you, Mr. Cilluffo, a brief question to lead 
to this because in your testimony you touched on this. I want 
you to draw it out for a minute or two. Are we seeing evidence 
that the Internet is actually accelerating the radicalization 
process? Is it possible that virtual relationships are 
replacing human relationships that we once thought were 
essential to the radicalization process?
    Mr. Cilluffo. That is an excellent question and we do need 
to focus a little more on small and large group psychology here 
in terms of what is happening. But what is unique and we have 
seen is people on the Internet will say things to one another 
that they would never say face-to-face. There is a bravado. 
They are already like-minded in some way that they are drawn to 
one another.
    I can get my news RSS if I want to look at it through a 
political filter or a religious filter, I will always be 
reaffirmed in that particular perspective that will never have 
context.
    We are seeing that same challenge on the Internet and there 
is that reaffirmation. Now at some point they need to go from 
the cyber to the physical. Whether it is the Toronto 18 case, 
which this is our backyard. This was Canada and the United 
States. It starts on the Internet but then at some point they 
go and bond in a physical sense.
    There are also studies in terms of counterintelligence that 
are interesting to look at where people commit espionage, those 
that are more into the technology will do things in that sense 
that they will never do person to person. So I think if you are 
jogged in the right way, jotted in the right way, and I am sure 
I have written e-mails I wish I did not and probably would not 
say person to person. But you do see that.
    Now the psychology there, I think it is more of a 
reaffirmation right now.
    And kiddie porn, I am sorry, but child predators as well. 
It is not just terrorism. You look at other environments, 
suicide in Tokyo, the group suicide----
    Chairman Lieberman. I want to ask you a question about that 
and pose it in this way. The child predator is exactly what I 
had in mind. Let me use the terrorists.
    If we knew that a group of terrorists was meeting in an 
apartment or even a mosque, and they were meeting with some 
regularity, presumably our government would--hopefully, our 
government would try to either infiltrate that operation with a 
covert agent or would try to use electronic devices to hear 
what was going on so that we could stop it before it actually 
acted.
    You have testified to us today that there are some 
operations that are occurring, that is work on operations, 
actual terrorist operations are occurring over the Internet. 
What can we do to disrupt them? We talked about the passwords 
before and are we doing enough?
    The example that I had in mind as I read your testimony is 
that we know that there are many police departments around the 
country today that are having members pose as child predators 
in chat rooms--excuse me, pose as the potential victims of 
child predators in chat rooms, to entice the predators into a 
situation where they can be arrested.
    Is the U.S. Government doing any of that now? And should 
we? Mr. Cilluffo, go ahead.
    Mr. Cilluffo. Mr. Chairman, we actually played with--and my 
team will probably now turn pale--but I used that exact example 
as something we might want to consider. Not the government, but 
if media does it. But it actually may be against the law for 
media to do that if they actually talk about terrorist 
activities.
    Chairman Lieberman. What we are talking about here, and you 
understand it, is I am using the child predator example.
    Mr. Cilluffo. We actually looked at it even further.
    Chairman Lieberman. What I am saying is somebody, an agent 
of our government would go on one of these Web sites, attempt 
to be recruited, and then infiltrate the operation as a way to 
get information before they strike.
    Mr. Doran, do you have a thought about the wisdom of such 
action?
    Mr. Doran. No, I do not because that is an operational 
issue.
    Chairman Lieberman. Which would fall under the FBI?
    Mr. Doran. It is best discussed in a classified setting.
    Chairman Lieberman. Colonel, do you want to add anything?
    Colonel Felter. Sir, I echo Mr. Doran's comment. I would 
hope that we are exploring all opportunities to interdict the 
terrorists but I imagine that the details of something like 
this would probably be best talked about in a classified 
environment.
    Chairman Lieberman. I do want you to know that after the 
open session of the hearing is concluded, we are going to have 
a closed session with a representative of the Director of 
National Intelligence to ask these questions.
    You know I, for one, would like those who are operating 
these terrorist Web sites to worry that we are working very 
hard at infiltrating them just to create a bit of imbalance and 
caution.
    My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Cilluffo, one of the challenges that we face as we deal 
with such a powerful tool as the Internet is whether or not we 
understand sufficiently the radicalization process. Do you 
think that we do understand that? I mean radicalization has 
gone on for decades with different groups. But the Internet 
allows radicalization to reach people who in an earlier pre-
Internet age never would have been exposed to the message that 
could radicalize them. Do we understand the process of 
radicalization sufficiently?
    Mr. Cilluffo. Not well enough. The limited insights we do 
have actually come to conclude that there is no single profile. 
We do need to understand, forgive the bad pun, but what makes 
them tick. We have come to recognize that there is not a one-
size-fits-all.
    And that is important because if you look at the message 
itself, it has something that everyone can agree to and it 
resonates with the individual. But then it is tailored to the 
very specific constituencies, communities that they are trying 
to address. And I actually look at the physical threat in this 
way. It is actually a transnational insurgency, but it has got 
very local sets of issues, as well, that are being exploited by 
those that can use it for their aims.
    So no, we do not. The United Kingdom is a little different 
from Germany, which is a little different from France, which is 
very different from the United States. But I think we are 
getting a better sense of what that is. I do not think we will 
ever have a cookie-cutter, we know when they do this, this, 
this, and this, that those are all the indicators that they are 
going to go blow themselves up. Because I am not sure that they 
know. And I am not sure they have actually thought it through 
as much as we always say.
    But one thing we would like to do and should be doing, as 
much as we can be interviewing everyone, not just those in the 
U.S. custody, but others what is that process? And we need to 
get a better understanding of what that is.
    Senator Collins. Because there may be certain triggers that 
we can identify along the spectrum that would help us develop 
more effective countermeasures.
    Mr. Cilluffo. That I agree with fully.
    Senator Collins. Mr. Doran, in addition to having 
sufficient knowledge and understanding we also need sufficient 
resources, the point that Senator Voinovich was making. I am 
struck, as I read about these Web sites and as I look at them, 
very few of them are in English. Do we have a sufficient number 
of translators who can help us translate these Web sites, as 
well as understand the nuances that might be lost even to 
someone who understands Arabic, for example, but does not have 
the cultural awareness of why certain images are powerful?
    Mr. Doran. It was precisely in recognition of that fact 
that the Department set up, in 2003, the Center for 
International Issues Research. The Center combines people who 
are fluent in different Arabic dialects and different languages 
around the world, but specifically on the Arabic side, people 
who are fluent in different dialects together with English 
speaking analysts, to convey to an English-speaking audience 
some of these nuances of dialect and culture and so on. And 
they examine the images and they try to understand what it 
means when somebody in an Iraqi dialect says something as 
opposed to somebody in a Saudi dialect and so forth.
    So we are working very hard on that.
    Senator Collins. Colonel, I am still struck by your idea of 
trying to get more participation by Americans. We are never 
going to be able to hire a sufficient number of translators. We 
obviously could do much better than we are doing now, but it is 
unlikely that we will ever be able to have a sufficient number 
of government employees to act as translators.
    But undoubtedly, in the American population at large, we do 
have individuals who have the language and cultural knowledge 
that we so desperately need.
    Are you aware of any efforts to try to enlist Americans who 
are not members of the government or affiliated with West Point 
to assist in this important task?
    Colonel Felter. Senator, thank you. I have one example that 
we just sponsored at West Point in our Center. We are having a 
contest. In sending this contest out, the question is can 
terrorists be deterred? A big question. We are adding a little 
prize money and sending it out to schools around the country. I 
think we are going to tap into some creative expertise that we 
otherwise would never have thought.
    I think we have a tremendous amount of expertise in our 
country that is not being tapped.
    I think like the jihadis use many people to further the 
interests of their movement, we can do the same. I think people 
would get involved given the right opportunity and provided the 
right mechanism. It does not have to be government. It does not 
have to be a burden on the taxpayers. I think there are ways to 
bring more people into the fight, so to speak. We just have to 
be creative and think a little out of the box.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you. Senator Voinovich.
    Senator Voinovich. I have been very active over the last 
several years with the Organization for Security and 
Cooperation in Europe (OSCE) and trying to work with an 
organization called the Office of Democratic Institutions and 
Human Rights (ODIHR), to elevate the issues of anti-Semitism 
and xenophobia to a serious undertaking by the Organization for 
Security and Cooperation in Europe. We are finally making some 
progress. They finally established a core budget after 4 years.
    One of the things that I discovered as we went through the 
process is that in other countries it does not seem that these 
kinds of groups have the access to the Internet that they have 
here in the United States. Abe Foxman, in his book, ``Never 
Again,'' outlines specifically what some of these countries are 
doing.
    Is there something that we can do that other countries are 
doing within the framework of our Constitution that could limit 
Internet use for recruiting and propaganda purposes by 
extremists here in the United States? And are other countries 
doing a better job of monitoring what is on the Web and 
somehow, through technology, making sure that it does not get 
through?
    Mr. Cilluffo. I think that is actually a fascinating set of 
issues. Rather than shutting down and closing, maybe the best 
solution is greater transparency and openness and further--
first, part of it is making sure they have access to the 
Internet.
    But we can also circumvent their filters and get down to 
individuals and try to change their minds there. So that, to 
me, should be an important part. And it should not be 
government. It should be through multicultural, multireligious 
denominational groups, because a lot of the--because we 
cannot--I think it should be in a multi-denominational kind of 
way.
    That is where I think the British are doing some unique 
work. And that is this Radical Middle Way where I may not agree 
with 90 percent of it. But do you know what? That is 
irrelevant. But it does denounce and it supports and agrees 
with certain principles that I think we all value. I think that 
is a way to get around that.
    Senator Voinovich. So other countries screen out more than 
what we do.
    Mr. Cilluffo. And this is a way we can touch them, too, is 
to use the Internet as an advantage.
    Senator Voinovich. You are basically saying because of our 
freedom of speech and so forth that we should let it come 
through?
    Mr. Cilluffo. Let us get to them, too. I am actually saying 
using it in a positive way where more transparency on our side 
can touch constituencies that maybe are being filtered by their 
own----
    Senator Voinovich. So improve our monitoring? But the fact 
of the matter is that at this stage of the game we are not 
doing the job.
    Mr. Cilluffo. From my perspective, not enough.
    Senator Voinovich. So there is a wonderful opportunity 
there to get the best minds together and say how do we 
counteract this? And then start to have a plan to get that 
done?
    Mr. Cilluffo. In both the cyber but also the physical 
world. Ambassador Korologos, when he was in Belgium, he briefed 
our group. I thought he had a very neat----
    Senator Voinovich. I had dinner with Tom Korologos. He is 
fantastic. He brought Muslims from the United States to 
Brussels to talk about how Muslims are treated here in the 
United States and to generate ideas on how they could do a much 
better job in Belgium in terms of integration and dialogue.
    Mr. Cilluffo. It was positive, too.
    Senator Voinovich. One thing I think that the Committee 
ought to know is that Senator Akaka and I have been zeroing in 
on the need for more people becoming fluent in Arabic and 
Farsi. We have something called the National Virtual 
Translation Center that is working on this. And in the 
competitiveness bill the Senate passed last week, we are 
talking about putting more money into foreign language 
capabilities. So there is some real concentration on seeing if 
we cannot get more people to be made available to you, Mr. 
Doran, and West Point, and so on for foreign language.
    The real issue is--Mr. Cilluffo maybe you can answer this--
what are we doing to try on the local level to get groups 
together to start talking with each other within the Muslim 
community itself and also in terms of the Muslim community with 
the rest of the community so you develop a dialogue?
    We had testimony that the FBI is sitting down with various 
organizations and having them vet their concerns about their 
civil rights being violated--profiling and all of that.
    But the next level down is, how do you reach individuals 
who are really starting to feel like they are becoming 
isolated. How do we break them out of that, so that we tear 
down the walls and there is more dialogue going on?
    Mr. Cilluffo. At the local level, I recently came back from 
Los Angeles. I think there are some models with Sheriff Baca 
and Chief Bratton at the Los Angeles Police Department that are 
well worth the effort and time. These are not things that are 
instantaneous. If you go in with only a counterterrorism 
mindset, it is going to create a distrustful environment to 
begin with. If you come in with a community policing 
environment where--we had some of this dialogue in our own task 
force effort where people did come in with totally wrong 
stereotypes, within the Muslim community, thought that the 
PATRIOT Act was meant to do specifically this, this, and this, 
and law enforcement who thought oh, everyone has got to be on 
the wrong side of the issue, they have to be terrorists 
themselves.
    Once you actually sat them around the room, we were able to 
diffuse myths on both sides. And these were very knowledgeable 
senior people. I am not talking necessarily the other citizens.
    So I think that is part of it. I think that Los Angeles has 
done a very good job there. And I think you have had Sheriff 
Baca up here to testify recently. It might be worth getting 
Bill Bratton out, as well.
    Colonel Felter. Sir, if I could highlight an example from 
academia again. At West Point we have a course called ``Winning 
the Peace,'' where the culminating exercise is we take a group 
of cadets, many of whom will be deployed within months to Iraq 
and Afghanistan, down to Jersey City where there is a 2-day 
exercise where they go to a mosque, they meet people of a 
variety of faiths, Jewish, Christian, Coptic Christian, Muslim, 
and Hindu. And they do exactly what you are describing, a 2-day 
dialogue.
    And it is amazing the stereotypes that are dispelled, both 
from the cadets who may have stereotypes as they deploy into 
these areas of similar faiths, and from the representatives of 
the different faiths that they are talking to soldiers about 
the U.S. military.
    I think it is those grassroots efforts that are going to 
make a difference.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, to Senator Voinovich.
    I want to thank the witnesses. You have been extremely 
helpful. You have educated us in a lot of ways. I want to come 
back to what Senator Collins noted from your testimony, Colonel 
Felter, which is it is quite interesting that we have not 
really developed the body of knowledge and academic interest in 
these critical subjects in this next period of our history as 
we did at the outset of the Soviet era and the Cold War.
    Though it is reassuring that the three of you actually are 
involved, or have been before you came into the government in 
such studies, both of Islam and what I have come to call 
Islamism, by which I mean a political ideology that has grown 
out of Islam, but is clearly not Islam. So I thank you for 
that.
    My conclusion is, and it is hard to reach anything other 
than this conclusion, that we have a real problem here on both 
levels, both on the level of the counter narrative to the 
propaganda and radicalization that the Islamist terrorist Web 
sites are putting out. And then the second part, which we are 
going to pursue both in the closed session we are going into 
now and next week with witnesses from the FBI, as to what we 
can and are doing to disrupt the more operational use of the 
Internet for actual terrorist activities.
    But you have greatly assisted our work here. This Committee 
is going to stay on this because I think it is critically 
important to carrying out our responsibility as the Homeland 
Security Committee.
    So I thank you. The record of the hearing we will keep open 
for 10 days in case you have any additional testimony or 
responses you would like to submit or we may have a couple of 
more questions we want to give to you.
    Senator Voinovich. Mr. Chairman, can I just add something?
    Chairman Lieberman. Please. Senator Voinovich.
    Senator Voinovich. It just came to me. When I was mayor and 
when I was governor, we had major diversity sessions. In other 
words, we ran our people through a diversity training because I 
thought that they would better understand each other, it would 
help management, and they go back in their respective 
communities and have--particularly emphasis on African-
Americans and Hispanics.
    But it just hit me, there was not anything at all about the 
Muslim religion or the Jewish religion or some of the 
Christians. And I just wonder if the people that do that kind 
of work have added that as a new dimension.
    Because we really do not understand each other. I got this 
book by Esposito on the Muslim religion, a very good book. I 
bought it for the members of the Foreign Relations Committee 
and said will you read it?
    Because, the fact is, we are Members of the Senate. I do 
not think any of us, a lot of us, understand what the Muslim 
religion is talking about. There are stereotypes about that. I 
think that more Americans understand that, I think the better 
off we are all going to be. I think that maybe that is 
something that we ought to really give some thought to.
    Chairman Lieberman. I agree and what the appropriate role 
for government is here, I think we have to determine. It is 
both. It is the long rich remarkable history of Islam and it is 
the shorter, but now very real, history of Islamism, which 
itself has an intellectual history that you all know about and 
we have begun--there have been some very, I think, helpful and 
good TV documentaries on this in the last half year or so.
    But in a constructive way, person to person, Senator 
Voinovich, you are absolutely right, that a lot of the work 
that we have put into race relations in this country and trying 
to better understand each other has to now go into the same 
kind of mutual understanding among religious groups.
    Senator Collins, do you want to say anything in closing?
    Senator Collins. I am fine, thank you.
    Chairman Lieberman. Thanks again to the three of you. The 
hearing is recessed.
    [Whereupon, at 12 p.m., the Committee was recessed, to 
reconvene in closed session.]


      VIOLENT ISLAMIST EXTREMISM: GOVERNMENT EFFORTS TO DEFEAT IT

                              ----------                              


                         THURSDAY, MAY 10, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Collins, and Stevens.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I thank 
our witnesses and members of the public for being here.
    Today's hearing--our fourth on Islamist radicalization 
within the United States--takes on a special sense of urgency 
with the arrests Tuesday of six would-be terrorists who are 
accused of plotting to force their way into Fort Dix with 
automatic assault rifles to kill as many American soldiers 
there as possible. According to the FBI's affidavit in the 
case, the perpetrators thought that the death toll from their 
action could reach into the hundreds.
    This was obviously a chilling story. A part of it that I 
want to focus on at the outset of this hearing is this: These 
six were not radicalized in faraway extremist madrassas, nor 
did they receive their weapons or tactical training at al-Qaeda 
camps in distant mountains. According to the FBI affidavit, the 
accused New Jersey terrorists were radicalized and planned and 
trained for their attacks right here in the United States. They 
were propagandized and instructed with videos either downloaded 
from the Internet or passed from computer to computer on DVDs. 
Though there is no evidence at this time of an operational link 
to al-Qaeda, there quite clearly is an ideological link. Osama 
bin Laden's radical message reached across cyberspace and 
traditional borders, and poisoned the hearts and minds of these 
six men in New Jersey.
    This is not the first terrorist plot against the United 
States since September 11, 2001, that has been stopped before 
it could be carried out, and it most surely will not be the 
last to be attempted. It is another wake-up call to the 
American people that there are people in this world who so hate 
our American way of life that they are intent on wantonly 
killing Americans. These arrests in New Jersey remind us that 
the work we have done since September 11, 2001, through this 
Committee to create the Department of Homeland Security, reform 
our intelligence agencies, protect our borders, and strengthen 
our law enforcement agencies' anti-terrorist capabilities has 
been absolutely necessary. But there is much more we still need 
to do.
    The topic of today's hearing is ``Violent Islamist 
Extremism: Government Efforts to Defeat It.'' It follows on our 
Committee's earlier hearings into Islamist radicalization 
within United States, particularly in U.S. prisons and over the 
Internet. Today we want to ask representatives of Federal 
Government agencies what they are doing to combat such 
radicalization at home, and in the case of two of the agencies 
represented here whose responsibilities are largely abroad, 
what they are doing to reach out to build bridges into the 
Muslim world that will present an alternative path to the 
future than the one the Islamist extremists present. And this 
is relevant because of the role that foreign Islamist 
terrorists' thinking has on the radicalization of Americans, as 
we have seen in the allegations in the New Jersey case.
    The other thought that struck me in response to what 
happened in New Jersey is that most of us have taken some 
comfort since September 11, 2001, from confidence that our best 
hope for preventing Islamist radicalization and terrorism 
within America by Americans was America itself--the openness 
and opportunity, the freedom of speech and religion that our 
country provides to all who live here.
    We have thought that the American Muslims were more fully 
integrated into American society than Muslim communities, for 
instance, in Europe and therefore that the threat of homegrown 
Islamist extremism was small or nonexistent here, certainly 
much less than elsewhere.
    I personally believe that remains true but, obviously, not 
for all Muslims in America, as the case of the Fort Dix six 
shows. These were young men working their way up in America, 
owning businesses, buying homes, going to college, and raising 
families. And yet, according to the affidavit filed by the FBI, 
they became so hostile to this country that welcomed them and 
gave them opportunities that they planned to attack it and kill 
a large number of its citizens.
    This morning we are going to ask our witnesses why they 
believe this happened, how we can prevent such radicalization 
here at home, and if we cannot in all cases, how can we stop it 
before it strikes us. This is an important hearing and 
painfully timely. I again thank the witnesses for being here, 
and I look forward to their testimony.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, and thank you for 
holding this very timely and important hearing. As you 
mentioned, earlier this week the plot by the six men in New 
Jersey who planned to attack Fort Dix and kill hundreds of 
American soldiers was uncovered. These violent extremists were 
living within our borders, three of them legally. They appear 
to have had no direct contact with foreign terrorists, but were 
inspired and motivated in some measure by violent messages and 
videos available over the Internet.
    The New Jersey conspirators serves as a chilling reminder 
that no matter how secure we make our borders, no matter how 
effectively we track foreign terrorist groups, America remains 
exposed to the threat of ``homegrown terrorism.'' The planned 
attack on Americans at Fort Dix is a stark warning to citizens, 
to law enforcement officers, and to homeland security and 
intelligence officials of the urgent need to be alert to this 
domestic threat.
    The thwarting of the conspiracy against Fort Dix offers 
hope, however. A concerned citizen--an alert store clerk--told 
local police about a video with gunfire and extremist rhetoric. 
This clerk followed the slogan that one sees in New York City 
on the subway of ``See something, say something.'' Through the 
local police partnership with the FBI's Joint Terrorism Task 
Force, this report was passed along to Federal officials, 
including the FBI. Cooperation among citizens and officials 
defeated a potentially lethal plot.
    Today's hearing focuses on Federal efforts to counter this 
violent extremist ideology. What are we doing to encourage 
citizens to remain attentive to the threat of homegrown 
terrorism? What steps can we take to work more closely with 
peaceful, law-abiding Muslim Americans--the vast majority--to 
understand the process of radicalization and to counter the 
violent messages spread by terrorist groups? What are Federal 
agencies doing to explain to other nations that America wants 
peace, protects religious freedom, aids its friends, and 
opposes intolerance and tyranny?
    Last fall, Senator Voinovich and I expressed our concerns 
in a letter to the White House in which we inquired about the 
administration's strategy for confronting the threat of 
homegrown terrorism, especially by seeking assistance from 
America's Muslim communities.
    The challenge is to engage Muslim-American leaders in the 
battle against an extremism that distorts their faith to 
justify violence. Their outreach and assistance are essential 
to counter radical messages that can lead some to adopt a 
violent ideology.
    The agencies represented before us today have many 
worthwhile initiatives underway to combat this violent and 
hateful movement. These efforts are directed not only at 
terrorists and their plots, but also at the misperceptions and 
distortions that terrorists exploit to attract and energize new 
recruits and donors. There are several such programs: The FBI, 
the Treasury Department, the State Department, U.S. Agency for 
International Development (USAID)--all have worthwhile programs 
and policies. I will not repeat them in my opening statement 
because we are going to hear about them today.
    Let me just conclude by saying that I hope that today's 
hearing will help us better understand what needs to be done 
and to evaluate the successes of these and other measures and 
to consider opportunities for new initiatives.
    Again, Mr. Chairman, thank you for holding this very 
important hearing.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Senator Stevens, thanks for joining us.
    We will now go to our witnesses. First, Jeremy Curtin is 
the Coordinator, Bureau of International Information Programs, 
U.S. Department of State, and obviously we understand that you 
are focused on public diplomacy abroad, but I know you have 
been grappling with the central question that we are asking 
about homegrown radicalization, which is how do we prevent it, 
and the challenge to prevention here is how do we build bridges 
to the people who otherwise would become radicalized and 
perhaps commit terrorist acts. Thanks for being here. We look 
forward to your testimony now.

   TESTIMONY OF JEREMY F. CURTIN,\1\ COORDINATOR, BUREAU OF 
  INTERNATIONAL INFORMATION PROGRAMS, U.S. DEPARTMENT OF STATE

    Mr. Curtin. Thank you, Mr. Chairman, Senator Collins, and 
Senator Stevens. I appreciate being here and the connection you 
are making between our work in public diplomacy and national 
security. Even though we take different perspectives on the 
challenge, we are very much working towards the same end, to 
make the United States safer.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Curtin appears in the Appendix on 
page 291.
---------------------------------------------------------------------------
    The mission of my particular bureau, the Bureau of 
International Information Programs (IIP) in the State 
Department, includes countering violent extremist ideology 
overseas. We have specific programs dedicated to this 
objective, including a new Counterterrorism Communication 
Center intended to coordinate interagency public diplomacy 
activities in this area. I will describe these programs briefly 
in a moment, but first I would like to put our work in the 
broader context of public diplomacy because, as Under Secretary 
Karen Hughes has said, meeting this challenge is not a question 
of an immediate threat today, but rather it is the work of 
years and generations. We have to reach out to the next 
generation and to broader populations overseas that might be 
vulnerable to extremist lies and messages of hate.
    Focusing on the longer term, our sister bureau, Educational 
and Cultural Affairs (ECA), under Assistant Secretary Dina 
Powell, has extended our exchange programs and educational 
programs overseas to younger and more diverse participants in 
order to reach them earlier than ever before and in order to 
provide opportunities to people who earlier had been outside 
the circle of opportunity provided by our exchange programs. 
ECA is creating a strategic continuum for engaging future 
leaders and at-risk populations. English ACCESS micro-
scholarships and other programs reach people as young as 14 
years old, definitely the next generation.
    On the nearer horizon, Under Secretary Hughes is focusing 
our information resources on populations and programs important 
to the ideological struggle. Citizen Dialogues, which is part 
of a new Strategic Speaker Program, sends teams of American 
Muslims abroad to engage Muslim communities in other countries. 
We also send individual speakers to talk about Muslim life in 
America, as well as about religious freedom, diversity, 
tolerance, and other core values.
    IIP's Digital Outreach Team and Arabic Web-based programs 
have established a U.S. Government presence in Arabic 
cyberspace, ensuring that we are ``present for the debate,'' as 
recommended by Ambassador Edward Djerejian. Our Persian-
language Web site serves as a virtual embassy to Iran and 
allows U.S. officials and others to discuss issues like nuclear 
non-proliferation with the Iranian people. The Public Affairs 
Bureau's Rapid Response Unit monitors foreign media and 
provides embassies and military commands with background and 
talking points. New media hubs in Dubai, Brussels, and London 
facilitate engagement by U.S. officials with Arabic and other 
foreign media, especially television, in real time.
    The Internet is the central focus of my bureau's engagement 
strategy, as exemplified by our Digital Outreach Team and our 
Arabic and Persian electronic outreach programs. We have 
increased our presence on Internet discussion forums and 
increased our Webchat and Webcast activities. We are exploring 
the applicability of other new cybertechnologies like the 
virtual world of Second Life. In cooperation with other 
agencies, we are monitoring and analyzing Internet activity, 
especially in Arabic and English, more vigorously than ever 
before.
    Even in this high-tech age, our diplomats in the field are 
the linchpins to everything we do. They know what works 
locally. They deliver the message to editors and appear on 
local television. They manage our in-country Web sites, in 
local languages. And they also manage our exchange and 
educational programs. Under Secretary Hughes has put together a 
pilot country initiative, the purpose of which is to bring new 
resources to our diplomats in the field specifically working on 
these issues of countering the ideological message.
    Over the 20 months of Under Secretary Hughes' tenure, we 
have created or expanded exchanges and information programs. 
Much of what we have done, we have done out of existing funds, 
and we are depending heavily on the fiscal year 2007 emergency 
supplemental appropriation and on increased requests in the FY 
2008 budget so we can continue these programs.
    I want to speak for a moment about our Counterterrorism 
Communication Center. It is an interagency initiative to 
develop and deliver effective messages to undermine ideological 
support for terror and to counter terrorist propaganda. The 
Center provides leadership and coordination for interagency 
efforts in the war of ideas and seeks to integrate and enhance 
the U.S. Government's diverse public diplomacy counterterrorism 
activities. The Center issued its first product this past 
weekend--counterpoints to al-Zawahiri's tape which was released 
on Saturday.
    All these programs are brought together under the Policy 
Coordination Committee on Public Diplomacy and Strategic 
Communication headed by Under Secretary Hughes. This is a 
process that involves engagement with many of our partner 
agencies, USAID in particular, but also DOD and others.
    Just very briefly, I would say this cooperation and 
coordination is improving all the time. We have daily 
discussions, and we have many specific forums for discussion 
and for action now, which I would be glad to discuss later if 
you would like.
    The main point I want to make, in addition to the details 
of what we do, is that we do have to see it all as part of the 
whole. Public diplomacy and our information programs must be 
seen as part of the broader global response to terrorism, which 
also includes the domestic side as well as our international 
and global side.
    Thank you, Senator.
    Chairman Lieberman. Thanks, Mr. Curtin. We have a lot of 
questions for you, but that was a good opening statement.
    Next we are going to hear from Chip Poncy, Director of 
Strategic Policy, Office of Terrorist Financing and Financial 
Crimes at the Department of Treasury.

   TESTIMONY OF CHIP PONCY,\1\ DIRECTOR OF STRATEGIC POLICY, 
   OFFICE OF TERRORIST FINANCING AND FINANCIAL CRIMES, U.S. 
                   DEPARTMENT OF THE TREASURY

    Mr. Poncy. Chairman Lieberman and Ranking Member Collins, 
thank you for the opportunity to appear before you today to 
discuss the efforts of our Department, the Department of the 
Treasury, to conduct charitable sector outreach and to develop 
a better understanding of Muslim-American communities. It is 
also an honor to testify with friends from the FBI, from the 
Department of State, and from USAID.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Poncy appears in the Appendix on 
page 295.
---------------------------------------------------------------------------
    Since September 11, 2001, and under the direction and 
leadership of the Administration and the Congress, Treasury has 
tackled terrorist financing issues together with its partners 
from these and other agencies across the Administration, as 
well as with our international counterparts from finance 
ministries around the world, State and local governments, and 
the private sector.
    In 2004, the Congress and the Administration improved 
Treasury's ability to contribute to the counterterrorist 
financing campaign through the creation of the Office of 
Terrorism and Financial Intelligence (TFI). TFI's overarching 
mission is to: One, safeguard the financial system from illicit 
finance; and, two, develop and apply economic and financial 
measures to combat rogue nations, terrorist organizations, 
weapons of mass destruction proliferators, and other national 
security threats. It is the only office of its kind in the 
world.
    To advance our counterterrorism financing campaign, we must 
aggressively apply the authorities and the resources that we 
have to identify, disrupt, and dismantle terrorist 
organizations and their support networks. A critical component 
of this campaign is combating terrorist exploitation of 
charities. These efforts form the basis for our outreach to the 
charitable sector and to the Muslim-American communities. Our 
efforts in this regard must begin with a clear understanding 
that terrorist organizations consistently establish and 
infiltrate charities to raise funds and support.
    Charities are an attractive target for terrorist 
organizations for a variety of reasons, two of which bear 
emphasis: First, the legitimate activities of charities 
operated by terrorist organizations, such as establishing and 
operating schools, religious institutions, and hospitals, 
create fertile recruitment grounds, allowing terrorists to 
generate support for their causes, and to propagate violent and 
extremist ideologies. Second, by providing such genuine relief 
and development services, these terrorist-related charities 
engender broader public support or sympathy, thereby making 
many governments reluctant to take enforcement action against 
them.
    The ongoing nature of such terrorist exploitation of 
charities is well documented and is described in the annex to 
Treasury's recently revised Anti-Terrorist Financing 
Guidelines. Two prominent examples are: The critical role of 
Hamas charities in building popular support for the Hamas 
terrorist organization in the Palestinian territories, and 
Hezbollah's effective and substantial control of the charitable 
distribution networks in southern Lebanon.
    In response to this ongoing abuse of charity, TFI has 
worked with its interagency partners to develop and implement a 
four-pronged approach that includes: One, more effective 
oversight; two, preventive measures, such as targeted 
sanctions; three, comprehensive and sustained outreach; and, 
four, international engagement.
    These comprehensive efforts to combat terrorist 
exploitation are particularly important in countering violent 
Islamist extremism for two reasons: First, such efforts cut off 
a primary means of terrorist financing; and second, these 
efforts prevent terrorist organizations and violent Islamist 
extremists from leveraging charitable assistance in order to 
recruit and radicalize additional members and operatives for 
terrorist organizations.
    This aggressive strategy also requires sustained outreach 
to charitable and Muslim communities. Our outreach underscores 
the four following fundamental points: First, strong U.S. 
support for charity in Muslim, American, and global societies; 
two, the ongoing, deliberate, and effective exploitation of 
charity by terrorist organizations; three, the comprehensive 
approach that the United States is applying to overcome this 
exploitation; and, four, the need for strong communication and 
collaboration between the U.S. Government and the charitable 
sector to overcome such abuse.
    Although these four fundamental points may seem somewhat 
self-evident at first glance, they present substantial 
challenges upon further examination. One good example can be 
seen in examining and communicating the nature of terrorist 
exploitation. Such exploitation may involve the narrow 
diversion of funds intended to support charitable activities 
but actually redirected for terrorist purposes. This type of 
abuse, although difficult to detect, can be easier to 
understand and accept by many in the charitable and Muslim-
American communities as a threat.
    A more common and difficult problem arises when explaining 
the broader exploitation and deliberate use of charity that 
well-organized terrorist groups, such as Hamas and Hezbollah, 
employ. Often charitable and Muslim communities are not aware 
of this form of broader exploitation because their charitable 
funds are actually used for charitable purposes. A fundamental 
problem arises, however, when a terrorist organization controls 
and administers such charity in ways that radicalize 
communities and recruit support for terrorist organizations. 
This broader form of exploitation is difficult to detect, and 
it is not broadly understood.
    Other significant challenges in our outreach involve 
explaining the actions that we are taking to combat this 
exploitation, including our use of targeted economic sanctions. 
As this Committee has noted in prior hearings, sustained 
outreach is critical to ensure that the rationale for our 
policies is well understood, is well explained, and that 
implementation is fair, reasonable, and effective.
    Treasury engages in such sustained outreach in a variety of 
ways. A core component of our outreach program involves 
coordinating with and joining our interagency partners from the 
FBI, the Departments of Justice and Homeland Security, to 
organize and participate in public meetings, discussion groups, 
and conferences around the country, including in cities such as 
Boston, New York, Chicago, Los Angeles, Detroit, and Dearborn, 
Michigan. These efforts are organized with and directed 
specifically towards Muslim-American and Arab-American 
communities to discuss our counterterrorism policies.
    Another aspect of our outreach involves participating in a 
similar range of engagements with the charitable sector. Our 
engagement with the charitable sector is both direct and often 
in partnership with the IRS, the National Association of State 
Charities Officials, the National Association of Attorneys 
General, and the American Bar Association and the American 
Legal Institute.
    Through such outreach to Muslim communities in the 
charitable sector, Treasury has developed numerous working-
level relationships to address of particular concern and to 
develop guidance that these communities can use to promote and 
to protect their charitable giving. One good example of this 
can be seen in the development of Treasury's voluntary anti-
terrorist financing guidelines. These best practices outline in 
detail a range of financial, programmatic, organizational, and 
specific counterterrorist financing practices that charities 
can employ to protect themselves from terrorist abuse. 
Treasury's guidelines and other helpful materials are publicly 
available on TFI's Web site.
    Treasury, in coordination with its interagency partners, is 
also discussing with the charitable sector and with Muslim-
American communities ways that we can build upon these efforts. 
A particularly important challenge is developing safe and 
effective mechanisms for charitable and Muslim communities to 
deliver assistance to places of evident need but where 
terrorist groups are known to operate extensively. We will 
continue to explore ways to help address such particularly 
challenging circumstances in consultation with the private 
sector and our interagency partners.
    In closing, I would like to underscore the importance of 
maintaining a comprehensive approach to countering violent 
Islamist extremism. This approach must include the continued 
and aggressive application of our clinical trial financing 
authorities. It must also include sustained outreach to the 
charitable and Muslim communities about the threats we face and 
the actions we are taking to combat these threats, with the 
recognition that the moderate Islamic community is our most 
important asset in these efforts.
    Thank you for the opportunity to discuss these issues with 
you. I would also like to publicly thank my family for being 
here today, and particularly my wife, Jane, for their 
unwavering personal support.
    I would be happy to answer any questions you have. Thank 
you.
    Chairman Lieberman. Thanks a lot, Mr. Poncy. I think you 
made them all proud, and you helped our work here. I have been 
very impressed by the work of your office, but I must say I did 
not appreciate until hearing your testimony the outreach that 
you are doing to the Muslim community, and I would like to ask 
you more about that when we get to the questions.
    Next we have John J. Miller, Assistant Director, Office of 
Public Affairs, Federal Bureau of Investigation, Department of 
Justice. Thank you. You are not the first person I have seen 
from the Bureau since Tuesday, but the first I have seen in 
public, so I therefore want to express the gratitude of all of 
us here, and of, I am sure, the American people, for the 
extraordinary work that the Bureau did in breaking up the group 
in New Jersey.

 TESTIMONY OF JOHN J. MILLER,\1\ ASSISTANT DIRECTOR, OFFICE OF 
     PUBLIC AFFAIRS, FEDERAL BUREAU OF INVESTIGATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Miller. Well, thank you, Mr. Chairman, and thank you, 
Ranking Member Collins, and it is good to see you again. It is 
very good to have the opportunity to discuss the FBI's 
Community Outreach Program in my capacity as the Assistant 
Director for Public Affairs of the FBI. I am happy to join with 
my colleagues here from the State Department, the Department of 
Treasury, as well as USAID, to discuss the important efforts of 
the U.S. Government to strengthen our relationship with 
segments of the community and to better allow us to recognize 
and prevent violent and other illegal activities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 304.
---------------------------------------------------------------------------
    This past Tuesday afternoon, just as the affidavit and 
complaint were being unsealed in the Fort Dix terrorist plot 
case, the FBI's Community Relations Unit initiated a conference 
call from FBI headquarters to organizations representing 
American-Arab and American-Muslim communities across the 
country. We briefed them on the background of the case, as was 
laid out in the affidavit, which was extraordinarily detailed. 
I have seen the material outside the affidavit, and most of the 
case is contained in that public record. We also referred them 
to places where they could access that public record and study 
the documents themselves.
    This kind of spontaneous dialogue, which would have been 
remarkable, has become part of our set operations plan when 
there is a breaking event involving terrorism, especially in 
the context that we know that can bring stress on the Arab-
American and Muslim communities.
    In our discussions, they asked what they could do to be 
helpful in terms of messaging. They asked, would it be helpful, 
for instance, if they reiterated from those mainstream and 
large national groups their prior public messages condemning 
terrorism and radicalization? We discussed, from our side, 
about law enforcement's message being measured and deliberate 
to say the indictment charges a group of individuals, not a 
religion, not an ethnic group, not a community, but individuals 
for discrete and specific alleged acts.
    We do this because we want to be aware of and responsive to 
any potential backlash in terms of hate crimes, rumors, 
suspicions directed at that community. It is a key part of our 
outreach effort, especially when we know there is going to be 
intensive publicity surrounding those events.
    Allow me to give you some background on why these 
conference calls have become a key tool in our efforts. Over 
the past 2 years, the FBI has worked very hard to strengthen 
and refocus our community outreach efforts in general, but with 
some specificity towards the Muslim-American and Arab-American 
communities. We began these efforts by strengthening our 
outreach to the leaders of the key national groups. We brought 
in the key leaders to meet with the Director of the FBI, with 
the Deputy Director, and with the Office of Public Affairs on a 
number of occasions over the last 2 years, and we maintain 
regular contact with those groups.
    While that gives us a good view of the larger national 
picture, what it was not giving us from FBI headquarters' 
standpoint was a grassroots view. So we set out very quickly 
after developing that to work our way down really to the street 
level.
    Every one of the FBI's 56 field offices has a community 
outreach specialist or someone with that responsibility. What 
we first tried to do was to marshal those forces and leverage 
their ability to reach out into the key communities in those 
cities. We started that by using our secure video 
teleconferencing system at FBI headquarters, by breaking the 
community outreach specialists by field division up into 
regions, and then by engaging them on the teleconferencing to 
assess what their community outreach efforts and issues were.
    We also brought in the community leaders from the national 
groups into a 1-day conference that touched each one of the 56 
field offices, and they were able to question the community 
outreach specialists, the assistant special agents in charge, 
supervisors of various programs who attended this, to say, 
``Tell us about your community. Are you aware of this community 
here or that community there? Can you outline for us the 
efforts?'' In some places, they were able to provide real added 
value. In other places, they were candidly surprised at the 
level of positive outreach efforts that were going on in the 
field that they as national members of their groups just were 
not aware of. So it was a generally positive experience.
    Last year, nationally the FBI held approximately 85 
outreach events in the community. These events are attended in 
the field by FBI executive management, in most cases the 
special agent in charge, in other cases the assistant special 
agent in charge, in some cases the Assistant Director in charge 
when it comes to large offices. I would like to share a few of 
the other focused events we have done in different forums.
    We have tried to set a goal nationally of trying to achieve 
a 25-percent participation from these communities in our FBI 
citizens academies. This is a very successful program, one that 
is geared at bringing the FBI closer to the community and 
demystifying the FBI for the community through a series of 
classes that will go in some cases over 8 weeks.
    We have also found that there are barriers between certain 
communities where there are serious trust issues to bringing 
them into an FBI office, getting their names and backgrounds, 
and engaging them for that long a period of time. So we 
developed the Community Relations Executive Seminar Training, 
which is the CREST program, and that is focused on taking the 
program out, whether it is to a mosque, a meeting hall, a 
restaurant, a community meeting place, and asking them to help 
us develop the curriculum. What are the areas they are 
interested in? Maybe we want to talk about counterterrorism and 
radicalization. Their concerns may be are their kids safe on 
the Internet, are their businesses safe from credit card fraud, 
and are they safe from identity theft? But when we develop the 
program in partnership, it has a much more user-friendly feel, 
and I think we are breaking barriers with that program.
    In New Jersey, the field office based out of Newark 
developed a Children's Day, which was held at Giants' Stadium, 
involved recruitment efforts towards making youngsters up 
through even high school-aged children, largely from the 
Egyptian community, aware of opportunities in the FBI, even if 
that is a long look forward for some of them. There were 
recruiters there. There were FBI agents with FBI gear, even a 
helicopter. It received very good reviews from the community in 
terms of opening doors, opening eyes, and very good press 
coverage from the media.
    In November, the New York field office did a day-long 
conference focused on the youth of the Pakistani-American 
community based in Queens. The event featured speakers from the 
community, as well as religious leaders, as well as FBI 
officials, as well as other well-known figures within the 
Pakistani-American community, including Hamid Mir, a very well-
known television journalist from Pakistan, someone who as a 
journalist has interviewed Osama bin Laden, who is familiar 
with many of the issues and spoke to some of them.
    Chairman Lieberman. Mr. Miller, I am going to interrupt. 
What did they talk about? What was the program?
    Mr. Miller. Well, it was a little cutting edge, Senator, 
and I say that because they talked about community impressions, 
about law enforcement and the government. The government talked 
about its outreach efforts to the community, and it was 
spirited throughout the day, but I would say useful in that it 
opened a door of dialogue, particularly into the younger 
Pakistani-American community that, before the conference, had 
not yet fully been opened, and that is something that the New 
York office is trying to continue.
    It was no small feat. We had to reach into the Finance 
Division and really cobble together $33,000 to get the hotel 
space, fly people in, get the right people to get the amount of 
attention to make it successful. But I think on balance it 
worked in a very positive way.
    Far from New York City in a very different environment in 
Springfield, Illinois, the special agent in charge there, 
Weysan Dun, did a similar day-long conference, bringing in 
statewide leaders to a Holiday Inn, serving a Halal meal, and 
discussing many of the same issues, although with a more 
mature, older crowd. But the issues fell along some of the same 
lines.
    Several divisions have benefited from cultural diversity 
training given by our partners in the Arab-American Anti-
Defamation Committee, including an attorney who is staffed 
there named Noar Shor, who has been a good friend of the FBI 
and a good training partner. We have stepped up our outreach to 
Arab-American media, including appearances by FBI executives on 
al-Jazeera, Bridges TV, and others.
    In the big cities, in New York and Los Angeles, 
particularly in Los Angeles, and especially here in the 
Washington field office, they have leveraged their 
relationships with the community by putting together cultural 
diversity committees from the Arab-American, Sikh, Muslim 
communities and having monthly meetings, whether there were 
burning issues or not, to discuss the regular dialogue between 
them. And I look back on Los Angeles, in particular. They had 
some very serious issues between the office and the community, 
and they hashed them out at those meetings. And even though 
they did not achieve full agreement on every issue every time, 
the meetings continue. They still come back. The dialogue 
remains open. And we think that is a key.
    The Muslim leaders we have been talking to have 
acknowledged that there is a growing discussion here in the 
United States about fears of radicalization. From their sense--
and this is based on a recent conference call we had--they do 
not believe that their community is as ripe for radicalization 
as many of the observers in this discussion suggest. 
Additionally, what we got out of that call is there is a good 
deal of concern among Muslim and Arab-American leaders that the 
increasing volume of this discussion may have an unintended 
consequence in that there could be a further backlash of 
suspicion against the Muslim community, which they feel they 
have suffered under since September 11, 2001, on some level or 
another. They emphasize that, in their view, if we overlook the 
progress we have made, we do so at our own peril.
    It is hard to say, I will submit right now, whether putting 
the spotlight on this issue is more helpful or reinforces a 
negative stereotype. I think the conference calls we have been 
doing serve as a good example of the frank and candid 
discussions that we have going on because I do not think we can 
begin to attack, deal with, or stem the real root problems of 
radicalization or turning that around if we do not have these 
clear and open and regular two-way lines of communication 
between the FBI, the Department of Homeland Security, the 
Department of the Treasury, the State Department, and these 
communities. And our approach has been in the national meetings 
to bring the other agencies in with us and to attend their 
meetings so that the government approach to this is a whole 
government approach, to the extent we can make it that way. 
Thank you.
    Chairman Lieberman. Thank you, Mr. Miller. Again, 
impressive outreach, and I want to ask you a little bit more 
about what the content of it is and what your goals from it 
are.
    The last witness on the panel is Jeffrey J. Grieco, Acting 
Assistant Administrator, Bureau for Legislative and Public 
Affairs, U.S. Agency for International Development.
    Thank you for being here, Mr. Grieco.

      TESTIMONY OF JEFFREY J. GRIECO,\1\ ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LEGISLATIVE AND PUBLIC AFFAIRS, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Grieco. Thank you, Mr. Chairman, Senator Collins, and 
the Committee for inviting me today to testify on behalf of the 
agency and its work to help counter violent Islamist extremism 
and our efforts to coordinate our public diplomacy efforts 
overseas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Grieco with attachments appears 
in the Appendix on page 313.
---------------------------------------------------------------------------
    The President's National Security Strategy is emphatic in 
calling for a more robust role for development in our national 
security architecture. Development reinforces diplomacy and 
defense, it reduces the long-term threats to our national 
security, and it is essential at bringing hope and opportunity 
to societies that are subject to terrorist subversion and 
vulnerable to terrorist messaging.
    To support the strategic policy positions that were set 
forth by President Bush in both the 2002 and the 2006 National 
Security Strategies, the Department of State and USAID have 
collaborated on publication of two Joint Strategic Plans--the 
2004 and 2007 editions--which set forth the Secretary's 
direction and policy priorities for both organizations in the 
coming years.
    Under Secretary of State for Public Diplomacy Karen Hughes 
has been tasked by the President with leading the efforts to 
promote America's values and to confront ideological support 
for terrorism around the world. She has spoken about her 
strategy involving a diplomacy of deeds as among the most 
effective means for defusing the hostile propaganda purveyed by 
extremist enemies of the United States.
    As the principal agency of the U.S. Government delivering 
development assistance and humanitarian aid around the world, 
USAID performs deeds every day--day in, day out--in over 80 
missions around the world. We play a critical role in the 
diplomacy of deeds that Under Secretary Hughes has talked 
about. USAID has missions in 27 of the 49 countries that have 
more than a 50-percent Muslim population. Significantly, 
approximately 50 percent of our funding goes to predominantly 
Muslim countries. This agency has extended a lifeline in many 
cases to countries in the Muslim world that would have been 
devastated by natural disasters, unprecedented droughts, 
tsunamis, and earthquakes. Development funds are allocated, as 
you know, to a wide range of programs that include health, 
education, job creation, etc.
    It may come, though, as somewhat of a surprise to learn 
that most of the employees at USAID are not American citizens. 
Over 5,000 of our employees are what we term ``Foreign Service 
Nationals''--that is, they are citizens of the country in which 
we are operating. They are the backbone of our missions 
overseas, especially in the Muslim countries, and they are 
regarded among our richest assets. They often work in some of 
the most dangerous and forbidding regions--regions that our 
expatriates cannot go into.
    Last year, the agency lost two of these heroes. One was 
assassinated by terrorists in Baghdad for simply working for 
our USAID mission. The other, Dr. Bijnan Acharya, worked for 
our USAID/Nepal office and was an environmental officer there 
for more than a decade. He died last year in a helicopter crash 
traveling to a site to conduct public diplomacy and outreach on 
a project in the Himalayas.
    Many Foreign Service Nationals (FSNs), in the agency go on 
to serve their countries in important government roles. For 
example, Dr. Mohammed Mubaid used to work at the USAID mission 
in West Bank/Gaza doing democracy and governance programming. 
Today Dr. Mubaid is one of the most prominent leaders in 
Palestinian civil society. He successfully led the largest ever 
civil society and democracy-strengthening project ever done in 
the West Bank and Gaza during a very challenging and 
politically sensitive time. He established and worked together 
to strengthen the capacity of over 100 other Palestinian civil 
society organizations throughout the West Bank and Gaza. Our 
engagement with FSNs is a capacity-building measure of a wholly 
different sort. Our hope, though, is that we will not forget 
the public diplomacy benefit that we gain from them and we will 
not forget to engage, empower, and support that effort.
    The Department of State has the lead in America's public 
diplomacy activities. They have direct authority over the 
communications vehicles that the United States has at its 
hands, including the full range of public affairs, 
international information programs, and educational and 
cultural programs that Mr. Curtin has summarized. USAID's 
authorities in this regard are a little more narrowly drawn, 
but not fully exploited as of yet.
    Section 641 of the Foreign Assistance Act requires us to 
clearly identify to foreign audiences where we are working, 
that the assistance is ``American aid.'' USAID's role in public 
diplomacy has been focused on telling America's foreign 
assistance story to the world. However, in the aftermath of 
September 11, 2001, USAID decided to expand its activities 
under this authorization in several ways:
    First, we organized and implemented a new comprehensive 
U.S. branding and marking effort across the foreign assistance 
landscape. I will be discussing each of these points briefly.
    Second, we established a professional and trained 
communications field capacity that we never had before.
    Third, we developed and produced a targeted public affairs/
information campaign in targeted countries that receive U.S. 
foreign assistance.
    Let me first talk about the branding and marking. This has 
come up even this morning in the Secretary's testimony at the 
Senate appropriation Committee on Foreign Operations (SACFO) 
hearing.
    USAID has established detailed policies and regulations and 
guidelines for marking and publicizing our assistance to ensure 
that the U.S. taxpayer receives full credit for the assistance 
that we are delivering overseas. USAID has established a 
universal brand that conveys that the assistance is from the 
American people. To help focus this image abroad, USAID, under 
the supervision of our administrator, developed a new brand 
that was updating our traditional USAID logo or seal, and 
combined it with a new U.S. foreign assistance brand name and a 
tagline. We have provided a sample of one of our humanitarian 
flour bags. You can see how the new branding looks. It says in 
big, bold letters, ``From the American People.'' This campaign 
included the development of clearer graphic identities and 
other assistance in terms of graphic standards manuals that 
helped the field to understand how to implement the changed 
rules.
    In January 2006, we revised the foreign assistance 
regulations at the agency to include new branding and marking 
requirements for USAID staff and all non-governmental 
organizations (NGOs) that receive funding either through grants 
or cooperative agreements. These regulations require that all 
of our programs, all of our projects, our activities, our 
public communications, our commodities, whether they be 
partially or fully funded by a USAID grant or cooperative 
agreement, must now be marked appropriately overseas. USAID's 
Food for Peace program, which is our Public Law 480 
humanitarian food assistance program that is feeding Darfur and 
many other regions, also has requirements for marking on all of 
the food bags and other materials that go in. The regulations 
require that, to the maximum extent practical, public 
recognition be given that Title II-funded commodities have been 
``provided through the friendship of the American people as 
food for peace.''
    Overall, the agency believes that the marking and branding 
effort that we have undertaken has finally brought credit in 
the field, and we see that on our trips for the foreign 
assistance generosity that the American people have bestowed. 
Just a quick example is the Pew Research study that was done 
after the tsunami in Southeast Asia where they stated that the 
U.S. tsunami aid effort was widely hailed there, with over 79 
percent of Indonesians saying they have a more favorable view 
of the United States now as a result of the relief efforts and 
having seen the relief efforts on television and in other ways.
    Second, talking about USAID's new field capacity, in 2004, 
in order to improve the public knowledge of our foreign 
assistance in developing countries, we established new 
communications guidelines for the agency and began building a 
network of over 100 communications specialists located at each 
of our missions around the world. Their job is to help promote 
the foreign assistance message abroad and to serve as a key 
humanitarian and development assistance content provider to the 
Department of State. These specialists are complementary to the 
State Department's public affairs officers in the field. They 
oversee the agency's branding and marking efforts; they provide 
vital coordination with the U.S. Embassy Public Affairs 
offices; they provide content for the Ambassador and other VIP 
representatives' speeches on various foreign assistance 
matters; and, more importantly, they provide well-written and 
understandable local language support and cultural support for 
our activities.
    Third, our targeted public affairs campaigns. Another pilot 
activity that was funded by USAID headquarters was conducted by 
our mission in the West Bank and Gaza. In late 2004, we 
concluded that efforts to increase awareness among Palestinians 
of U.S. foreign assistance could potentially achieve a 
measurable, positive change in the awareness of the populations 
toward the United States. In November 2004, our research showed 
that only 5 percent of Palestinians were even aware that the 
American people provided assistance to the Palestinian people. 
USAID designed a first-ever comprehensive public affairs 
campaign. We designed a combination of television, radio, 
print, and billboard advertising. The campaign was designed to 
highlight and explain how American assistance was provided to 
the Palestinian people and to tie that assistance directly to a 
core theme of the focus groups that we ran in advance of the 
campaign. The tag lines that we had in this West Bank/Gaza 
campaign read, ``From One Human Being to Another: U.S. Aid From 
the American People.''
    In April and May 2005, the campaign was launched. The 
public opinion research we conducted shortly thereafter by an 
independent public opinion polling agency demonstrated the 
effectiveness of this kind of campaign. Over 46 percent of the 
Palestinians that were surveyed said they saw the advertising; 
54 percent of the Palestinians surveyed confirmed they now had 
awareness of contributions of the United States to the well-
being of their people and to the development of the West Bank 
and Gaza; 33 percent could now identify--which is a pretty big 
number--that the United States was now their largest donor for 
West Bank and Gaza affairs; this is also a very big number for 
us: 61 percent of the respondents indicated that their views 
toward the American people had become more positive because of 
the campaign.
    We have undertaken similar pilot campaigns now. We funded a 
pilot activity in Indonesia following the tsunami. In Jordan, 
we did a modest public affairs campaign using print ads and 
bulk e-mails in 2006 and 2007, and that resulted in over half 
of Jordanians polled showing that they were aware that the 
United States was the largest provider. That is the largest 
recognition level of any bilateral donor.
    With these modest public affairs pilot projects overseas, 
we have shown at the agency than you can have United States aid 
efforts have a meaningful impact on public opinion, both 
towards the U.S. Government and towards the American people. 
What has proved successful for us is: Using generally accepted 
commercial advertising practices, which in the government 
sometimes may be difficult; tailoring our public affairs 
campaigns to individual audiences with carefully tested 
messages; using local firms to do the production and the 
advertising who know the local environment and know the 
cultural issues involved; and, lastly, using standard private 
sector practices of monitoring, polling, and focus group 
follow-up.
    In closing, Under Secretary Karen Hughes likes to say that 
she views her job every day as ``waging peace.'' The word 
``waging'' is used deliberately, she says, because she believes 
we have to be very intentional about what we are doing in our 
public diplomacy activities.
    I hope this testimony makes clear that USAID is waging 
peace every day in the field and that we are taking very 
proactive steps to brand, mark, communicate, and inform our 
audiences about how our humanitarian and our development 
assistance from the American people is helping them every day.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Mr. Grieco. That was very 
interesting. Obviously, foreign aid programs begin for a host 
of reasons, but insofar as American credibility and the 
attitude toward America in foreign countries, particularly in 
this case predominantly Arab or Muslim countries, the better 
the attitude is toward us, presumably the less appeal there 
will be for radicalization. So I am really intrigued and 
encouraged that you have done some before-and-after surveying 
and that you find that the branding and marketing you have done 
has worked. I appreciate that.
    Mr. Curtin, USAID is out there in the way described trying 
to do good, but also to create a more positive attitude 
generally toward America. How do we confront the competitive 
challenge of al-Qaeda and the other Islamist extremists? At the 
same time that this general attempt by the United States to 
help develop more positive feelings toward us is going on, how 
do we try to intervene in the negative campaign to poison the 
minds of people in the Islamic world against the United States 
and against everybody who does not follow their extreme views?
    Mr. Curtin. In the public diplomacy context, the first step 
we try to take is to offer an alternative vision, and some of 
that is the sort of thing that Mr. Grieco was talking about. We 
offer them opportunities that they might not have in their 
lives to focus on the future instead of a message of death and 
hatred.
    Chairman Lieberman. How do you do that?
    Mr. Curtin. Well, through offering education programs, 
through programs like the English teaching programs which the 
State Department sponsors, training programs that USAID fosters 
through some of our NGO partners, but also basic things like 
digging wells. I mean, Mr. Grieco digs the wells and we talk 
about them. But it is not only a matter of image. It is not 
only a matter of making sure people know what we are doing, 
although that is an important part of it, but it is actually 
putting in place things that can change people's lives.
    The terrorists' messages per se, which tend to be 
introduced in a small way through the Internet or otherwise and 
then spread through more traditional media, especially 
television, we are trying to confront directly through some of 
our programs like our Digital Outreach Team, which----
    Chairman Lieberman. In those same media?
    Mr. Curtin. Not in the extremist media, but in, for lack of 
a better term, mainstream Arabic media--Internet, television.
    One of the things Under Secretary Hughes has done is to 
insist that our people are out there appearing on television, 
including in Arabic. Ambassador Djerejian made the point in the 
study about public diplomacy in the Arab and Muslim world. The 
first thing is to be in the conversation. If you are not there, 
you cannot have an effect. So we are there now, I would say, in 
a way that we have never been before. But we also have to be 
engaged across the board. There are no single answers. There is 
broadcasting, there is Internet, which is our area. We send 
speakers out. We send Muslim Americans out.
    Chairman Lieberman. Do you reach out into the mosques, 
which we know in some cases are centers of the radicalization?
    Mr. Curtin. We do. We do not send people to preach.
    Chairman Lieberman. Right.
    Mr. Curtin. But we send Muslim Americans to go into the 
mosque communities and engage with Muslims overseas. That 
approach comes from a very specific incident that Under 
Secretary Hughes encountered in Germany with a Turkish woman. 
Under Secretary Hughes asked her, ``Can I come and visit your 
community?'' And this woman said, ``No. We don't invite our 
government there. Why would we invite an American Government 
official?'' ``Well, what if we sent Muslim-American citizens?'' 
And the Turkish woman said, ``Yes, that person would be 
welcome.'' And we do that. We do that on a fairly broad scale.
    It is not to say this is right, this is wrong, but to tell 
people about America so that we can overcome some of the 
negative images they are painting.
    Chairman Lieberman. Now, you have a harder job doing what 
Mr. Grieco did or USAID does with polling before and after. But 
how do you determine whether these programs are working?
    Mr. Curtin. We have taken seriously the need for 
evaluation. In our exchange programs in particular, we have 
what I think is a good process for measuring the effects of 
exchange and educational programs and it has been going on for 
a couple of years. It is through interviews before, during, 
after; interviews with groups that are not participating so we 
have a standard. And with our OMB process, which requires us to 
have evaluation programs, that specific evaluation process has 
been judged very highly, among the top in the government.
    We are trying to develop now ways to measure, in similar 
fashion, our information programs. We are doing studies for 
American Corners, which is one of our programs. We are going to 
undertake them with our hard language Web sites. Honestly, we 
are less well along in that process than we have been in other 
areas, but we do take it serious, and we are applying expertise 
in that area. We have a separate office now for public 
diplomacy evaluation. I have an office in my bureau that does 
it too.
    Chairman Lieberman. I happened to have a meeting this 
morning with a man--not an American--who has been active in 
international efforts to combat terrorism, and I asked him, 
``Just step back globally, how do you think we are doing?'' And 
he said, ``I think we are doing much better at protecting the 
borders, at coordinating international intelligence, at some of 
the homeland security measures that have been taken.'' He said, 
``But what we have not figured out yet how to do is public 
diplomacy.'' And he acknowledged that it is a totally different 
realm than the other work.
    How would you respond to that?
    Mr. Curtin. I would never want to say we are satisfied, but 
I think, in fact, that we have put into place a number of very 
strong and meaningful programs on the information side, the 
education side, and exchanges and otherwise. It is a new ball 
game. Even though September 11, 2001, was 6 years ago, we are 
playing on a very different field from the Cold War. It is a 
much more competitive international information environment.
    If we look at the polls, we are not doing very well at all, 
but I think we have to take those snapshots in time and also 
snapshots in place. And we take them seriously, but I do not 
think it is a good measure of how well we are doing.
    Chairman Lieberman. OK. Thank you. My time is up on this 
round. Senator Collins.
    Senator Collins. Thank you.
    Mr. Poncy, I was particularly interested in your testimony 
about the use of certain Islamic charities as conduits for 
terrorism financing. Back in 2003 and 2004, I chaired a series 
of hearings looking at terrorism financing, and I remember in 
particular a report from the Council on Foreign Relations that 
found that individuals and charities based in Saudi Arabia were 
the most important source of funds for al-Qaeda.
    I was struck, as I listened to your testimony, by the 
difficulty in dealing with Islamic charities which may have a 
dual purpose. In other words, some of these charities may well 
be conduits for charitable contributions and for good works, 
and yet may also be a source of funding for terrorists' 
activities. And that dual purpose makes it very difficult to 
counter the terrorism financing aspects because these charities 
at the same time are doing some good works for the Muslim 
community.
    Could you talk a little more about how you are countering 
donations to charities that may be doing good, legitimate 
charitable works at the same time they are supporting terrorist 
attacks?
    Mr. Poncy. Thank you, Senator. I think you have put your 
finger on the most challenging aspect of this component of our 
terrorist financing strategy, which is the charities that we 
are talking about that are engaged in terrorist financing are 
not charities that live in a black-and-white universe. Out of 
the 44 charities that we have designated since September 11, 
2001, on account of terrorist financing activity, I am not 
familiar with a single charity out of that group that was 
actually not engaged in some charitable assistance. So if we 
look at----
    Chairman Lieberman. You have designated them as supporting 
terrorist activities?
    Mr. Poncy. Exactly. We have subjected 44 different 
charitable organizations to sanction under our Executive Order 
13224, but none of these charities was exclusively engaged in 
terrorist financing activity. Every one of these was engaged 
also in legitimate charitable assistance, and that is exactly 
the difficulty that we are facing.
    So, again, I think the way that we can combat this most 
effectively is first by education, explaining to the donor 
communities, to the charitable communities, and to the Muslim-
American communities that this is the nature of the problem we 
face. And, therefore, if you see the U.S. Government and its 
allies taking steps to shut down these charities, then a 
defense cannot be, well, these charities actually were engaged 
in some charitable assistance, because that is not the issue. 
The issue is whether or not these charities are, in fact, 
engaging in terrorist support. They may be doing a number of 
other things, some of which may be laudable. But the view that 
we have always taken is that if any aspect of a charity's 
organization is engaged in terrorist support, then the 
charitable organization is a problem.
    Now, it does raise operational issues as to whether or not 
we can look at minimizing collateral damage when we look at 
shutting down a charity that may be engaged in legitimate work 
in addition to terrorist financing support, and that is a very 
difficult challenge. I would say that our approach so far has 
been to look behind the charity, at the individuals in addition 
to the organization, and at those branches of international 
organizations that may be engaged in this and to try to get an 
analysis that allows us to distinguish potentially those 
elements that may not be engaged versus those that are engaged. 
And in some instances, for example, we have been able to 
designate an entire global network of charities. Al-Haramain is 
a good example. In other instances, we have only gone after 
certain branches. IIR is an example of that.
    So it will just depend on where we see the abuse happening, 
but going back to the outreach to the sector, it has to start 
with a fundamental recognition of the problem, which is the 
complicated mix that you have alluded to, rather than the 
unfortunate fiction that there are charities that pretend to be 
charities and are not, and there are charities that actually 
just do charitable work.
    Senator Collins. And, in fact, the vast majority of the 
ones that are problems are doing both.
    Mr. Poncy. Exactly.
    Senator Collins. And I do think that makes this so 
challenging, and that is what our hearing showed when we had 
this series of hearings in 2003 and 2004. And it sounds like 
the situation is much the same now.
    If you move to close down a branch of a charity because you 
know that it is a conduit to terrorists and is providing 
financing, and yet in the community, the local community's 
eyes, that charity is doing all good works, providing a 
community center, programming, a health clinic, I think that 
makes the case for why outreach and having a relationship with 
the community is absolutely vital, because otherwise all you 
are going to get is suspicion about the actions our government 
is taking and a feeling that something good is being taken away 
from the community rather than, in fact, that it is something 
that is a source of evil.
    Mr. Curtin, you mentioned in your testimony the Digital 
Outreach Team that is engaged in Arabic language forums and 
chat rooms, and that certainly is very helpful. The previous 
hearing we held looking at the use of the Internet was very 
illuminating as far as what kinds of radical messages you could 
access on the Internet, including--and I just found this 
horrifying--explicit and accurate instructions on how to shoot 
down a helicopter.
    I am, however, concerned about the level of resources that 
we have dedicated to that task of the Digital Outreach Team. 
How many people do you actually have engaged in this?
    Mr. Curtin. The team itself has three people on it. It is 
brand new. It is backed up by our broader Arabic team and we 
are expanding it now, practically as I speak, to 10 people. But 
we are also--through this Counterterrorism Communication Center 
which I mentioned, of which the Digital Outreach Team will be 
part--connecting to DOD in a more operational way so we will be 
able to draw on their resources.
    But it is a very small operation. We want to expand it 
more. We hope we will be able to do that through the 
supplemental appropriations, first of all. But it is an effort 
to get inside people's heads. Instead of just spouting--not 
that we spout talking points--but instead of just making 
speeches to them, we will get into conversations and rebut what 
they are talking about. I am optimistic that it will have an 
impact over time. We are starting and I think it is going to 
make a difference over time.
    Senator Collins. Thank you. I think that is absolutely 
critical, and it is an effort that we should fully fund and not 
shortchange. I know initially you had only two people involved. 
I am glad it is up to three.
    Mr. Curtin. Well, there are two analysts, but it is run by 
a Foreign Service Officer who knows the policy and is very 
careful about what we are saying, even though we say it more 
informally than we normally would.
    Senator Collins. It is just if you look at those sites and 
you look at the prevalence of the Internet in our society 
today, and that it is a means of radicalization and 
recruitment, that does not involve, as the Chairman said, 
having to go to Pakistan for training or even face-to-face 
contact at all, it seems that it would be foolhardy for us not 
to invest in countermeasures, and that is certainly an 
important one.
    Mr. Curtin. If I might just say, what we are doing is one 
level and it is a public diplomacy response. There are other 
agencies that are very heavily involved in these issues.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    Mr. Poncy, let me ask you a few follow-up questions. Of the 
44 charities that the Federal Government has sanctioned since 
September 11, 2001, because they are, to some extent, involved 
in terrorist financing, are any of them effectively 
subdivisions or wholly owned subsidiaries of a terrorist 
organization abroad?
    Mr. Poncy. The relationship between the charities and the 
terrorist organizations is very much fact specific, but the 
general theme that we have seen is that these charities operate 
as an essential element of the organization. One way to look at 
this historically that some countries have adopted and that we 
have resisted is to look at terrorist organizations and to try 
to distinguish--break the organization down into different 
components: A political party, a militant wing, a social 
services and charitable organization component. And we have 
resisted that, and we have very strongly advocated to our 
partners overseas that that sort of a division with terrorist 
organizations does not work for a couple of reasons.
    The fact that the money is fungible to the extent that you 
are giving money for the social welfare services of a terrorist 
organization, it frees up money to build bombs and conduct 
militant activity.
    There is also a level of control with respect to these 
organizations, and, again, it will differ by organization and 
by the facts of particular charities. But the level of control 
that a terrorist organization exerts across all elements of its 
operations, including its charitable operations.
    So those are the facts that we look at.
    Chairman Lieberman. Right. So I assume, therefore, that of 
the charities that you have closed, certain ones had a unique 
and close relationship to, for instance, Hezbollah or Hamas.
    Mr. Poncy. Absolutely.
    Chairman Lieberman. So these are not charities that started 
out as legitimate charities and then just started inadvertently 
to contribute to terrorist-related organizations, correct?
    Mr. Poncy. The fact patterns are most often where terrorist 
organizations actually establish these charities.
    Chairman Lieberman. Right.
    Mr. Poncy. That does not always happen. Sometimes you can 
see a charity or a particular branch become infiltrated through 
management----
    Chairman Lieberman. Right. Yes, that is very important. 
And, obviously, they are playing on the good will or ethnic 
identity of people that they are trying to raise money from. 
But the connection, therefore, between the local charities, 
American-based charities, and foreign terrorist groups is 
knowing. I mean, they are not being duped by, for example, 
Hamas or Hezbollah. They intend to support them. Correct?
    Mr. Poncy. That is certainly our view of it.
    Chairman Lieberman. OK. Let me just ask you very briefly 
about your outreach to the American-Muslim, and American-Arab 
communities? What is the purpose of it? Is it to explain why 
you have sanctioned the 44 organizations? Is it to say that we 
think these 44 are up to a lot of no good but there are others, 
obviously, in your community that are OK and so--we know that 
giving charity is one of the great sort of religious mandates 
of Islam--if you want to fulfill that religious responsibility, 
there are a lot better ways to do it? Or is it to gain 
information that will help you determine whether to take 
action?
    Mr. Poncy. The way that we have conducted all of our 
outreach I think is under an umbrella, a very broad objective, 
which would be to assimilate, to integrate the Islamic 
community, the Arab-American community into American society, 
into the global economy, not just through our engagement on 
terrorist financing issues, but more broadly. There are other 
elements of the Treasury Department that are engaged in 
economic dialogue on financial markets, etc., that attempt to 
integrate more than anything.
    Our engagement on the terrorist financing issues, it really 
goes back to the four fundamental points that we consistently 
find are not evident out in these Islamic, Muslim-American 
communities. One, the fact that the U.S. Government does 
support charity, as self-evident as that seems, I think the 
numbers from Mr. Grieco, my colleague over at AID, are telling. 
There are, in my view, a surprising number of people that are 
not aware that the U.S. Government, in addition to the American 
people, are among the most generous sources of charity in the 
world.
    Chairman Lieberman. Right.
    Mr. Poncy. So just that is a fundamental message that we 
take to the community.
    Second, the nature of the abuse that we have been talking 
about, what Senator Collins was referencing in terms of the 
mixed bag that we find in these charities, that is often a 
surprise. There is an assumption that there is this black-and-
white picture, and it never is black and white. And that does 
help with the third point, which is to explain why the U.S. 
Government acts the way we do when we see these problems and 
the fact that if a charity is engaged in legitimate services in 
addition to financing terrorism, that is not a defense. That 
also can be surprising to the broader community.
    And then, last, the very good work that we can do if we are 
working together, and I think that the guidance that we have 
put together from the Treasury Department with the Muslim-
American community and the charitable sector about what are the 
steps they can take to avoid this typology from happening to 
them, to protect their operations, not only with their own 
organizations but, frankly, with their overseas recipients, and 
what should they be looking for, what kind of questions should 
they be asking, that kind of information is now available 
through our guidance that we were not able to put together but 
for working closely with the charitable sector and the 
community.
    So those four elements would be really the touchstone of 
our outreach.
    Chairman Lieberman. Mr. Miller, let me ask you a similar 
question. Obviously, since September 11, 2001, was one of the 
main missions of the FBI--and we have invested a lot of money 
in beefing up your ability to do this--has been to prevent 
terrorist attacks against the United States, here in the United 
States particularly. Can you explain for us how the Bureau's 
outreach programs to the American-Arab and American-Muslim 
communities support that mission? And you have described a lot 
of the context, which has been quite impressive. But what is 
the purpose? Is it to, in the most direct law enforcement 
sense, gain information, and even to engage informants? Is it 
to just have an understanding of what we are about, that the 
government is not anti-Muslim, it is anti-Islamist terrorists? 
Tell me what the purpose is and how it relates to the mission?
    Mr. Miller. It is to try and open the doors to the FBI to a 
community where, as I have indicated--and I think we all 
understand--there is a certain level of suspicion from the 
fallout in the post-September 11, 2001, world. I think I would 
also separate those two issues.
    Chairman Lieberman. Which two?
    Mr. Miller. When you mix community outreach with informant 
development, you almost doom both to failure. There are people 
at the FBI who are very skilled at developing sources and 
informants, sources in their communities of interest, whether 
it is Chinese espionage, organized crime, or terrorism, 
informants as they develop through their cases. And they will 
continue to do that. Community outreach is to develop better 
citizens who have a confidence in their government, and 
particularly their FBI.
    The corollary I would use is if a person is walking down 
the street and they see two guys in hooded sweatshirts running 
out of a bank with a big bag with money signs on it and one is 
stuffing a gun in his pants and jumps into a car and gets away, 
we all expect that person to walk to the phone on the corner 
and call 911.
    One of the difficulties we have in engaging some 
communities is when they are more suspicious of or afraid of 
the FBI or their government than they are of what they are 
seeing in the community, we do not have that dialogue. We are 
pushing very hard to try and allay those suspicions, to try and 
relax those tensions by becoming more transparent more 
accessible, and accessing the community on a more grassroots 
level, not just the national groups here in Washington--that is 
very helpful--but in the street. So when somebody turns to 
somebody in the community and says, ``I think I am concerned 
about something, and I want to tell somebody, but I am afraid 
to just call up. Do you know somebody?'' That person they turn 
to might have been in the CREST program, a citizens academy, 
and now have a face and a name at the FBI that they have a bond 
of trust with, some confidence in that they will go to. That is 
part of the goal of this program.
    Chairman Lieberman. Very interesting. I am just going to 
ask Senator Collins' indulgence to ask one more related 
question, which is, as I listen to your testimony, it is hard 
not to draw the conclusion, which probably is surprising to 
most people, that it is the FBI that has the most extensive 
contact of any agency in the Federal Government with the 
American-Arab and American-Muslim communities. Do you think 
that is right? I cannot think of another offhand.
    Mr. Miller. I would say that we are operating at a certain 
advantage because, among agencies at this table and other 
agencies now, we have 56 field offices and 104 resident 
agencies (RAs).
    Chairman Lieberman. Yes, exactly. Right.
    Mr. Miller. Over the last 2 years, seeking to leverage 
those field components into this discussion, to activate them, 
to monitor them, to push them, I think we have positioned 
ourselves that way. But I have to say quickly after that, when 
we go to a community meeting, a town hall event, the questions 
that come back at us come from communities that look at the 
government as a monolith.
    Chairman Lieberman. Right.
    Mr. Miller. And Steve Tidwell, our Assistant Director in 
charge of the Los Angeles office, only half-jokingly has a sign 
for community meetings that says, ``I don't do foreign 
policy.'' Eventually, the questions go beyond FBI issues into 
immigration issues, into Treasury issues, State Department 
issues, and then into foreign policy. They want the FBI 
official there as a U.S. Government official to defend our 
policies with Israel and answer to those concerns for that 
community.
    So what we have sought to do--and Mr. Poncy is nodding 
because I have pulled him into this, and he has pulled me into 
Treasury's--is when we hold these meetings, even if they are 
not in Washington, we try to get the component agencies to get 
somebody to go out and be at the big long table at the front of 
the room. So rather than blow off those questions by saying, 
``Well, that is not an FBI issue,'' we are able to say, ``Well, 
we have the right person here.'' And that is a further part of 
that development of opening channels to the government from 
people that we are going to want to hear from.
    Chairman Lieberman. Ideally, the hope would be that with 
this kind of outreach--and maybe it should be augmented by 
other groups in building these bridges, you may actually be 
doing something to reduce the possibility that the people in 
that community will become radicalized and fall into the path 
that these six in New Jersey apparently did.
    I am going to stop there and yield to Senator Collins, and 
you have a lot of time now. It is part of a balance-of-payments 
system.
    Senator Collins. Thank you, Mr. Chairman.
    I actually just have one final question that I want to 
raise with Mr. Miller, and it follows along with the 
conversation that you just had with our Chairman. We have heard 
of the great success that the Los Angeles FBI field office has 
had with developing relationships with Muslim and Arab 
communities in the region. And you mentioned that you have 56 
offices; each of them is required to establish outreach 
programs.
    Give us your assessment of that effort nationwide. It 
clearly is going well in L.A. What about in other communities 
with large Muslim populations, such as Detroit, for example?
    Mr. Miller. I think the Detroit office--and that is an 
obvious one for the reasons you point out--even before 
September 11, 2001, had that level of engagement and has a very 
good relationship. Dan Roberts, the former SAC, or special 
agent in charge, of the Detroit office, has been very engaged. 
And even to the extent in charity cases where they have had to 
execute search warrants, they have brought in community leaders 
and briefed them very quickly, and they have kind of graded 
their procedures in such a way to maintain community relations 
when they do enforcement actions out of sensitivity.
    I think when you look at 56 field offices or 104 RAs, you 
are going to see some have a large community, some have a small 
community. What we found was, because the community was off to 
itself and fairly quiet, some were not aware of their community 
before we engaged them on the video teleconferences with the 
community leaders, and they said, ``We do not really have any 
issues here.'' And one of the community leaders said, ``Well, 
do you know about this neighborhood? It is just 10 miles 
outside the city, but it is part of your area.'' So we created 
that awareness or stimulated that awareness and engaged.
    In the smaller offices, we urged them to use the citizens 
academy because it is a good way to bring people in and then to 
get them to go forth and share that message. In the larger 
offices, we asked them to step up to something much closer to 
what L.A. and Washington do with the advisory boards and the 
regular meetings with the same individuals.
    Senator Collins. Have these outreach efforts had an impact 
on recruitment, since obviously the Bureau does not have as 
many Arabic speakers or Muslim field agents as you would like?
    Mr. Miller. I do not think we can see the full effects of 
it because we have only nationally realigned and focused this 
really in the last just under 2 years, starting in December 
2005. But I think when you see the recruitment of our linguists 
in the Arabic languages and the other dialects, it has been 
going very well and continues; 95 percent of them are native 
speakers, not people who learned the language to get a job. 
That is working.
    We still have a lot of work to do on the special agent side 
of that, but I think that these programs as they go forward are 
making the FBI more attractive to those people who may start 
off with a town hall meeting, maybe attend a CREST, end up in a 
citizens academy, and leave saying, ``I should be with these 
people.''
    Senator Collins. Thank you, and let me just end my 
questions by echoing Senator Lieberman's praise of the Bureau. 
The case at Fort Dix really is heartening because it was an 
alert, average citizen who brought the information to the 
attention of local law enforcement, which in turn turned it 
over to the Joint Terrorism Task Force. It was our hope when we 
created or encouraged the creation of the Joint Terrorism Task 
Force that we would have that kind of cooperation and synergies 
among all levels of government, and in this case it appears to 
truly have happened. And I really believe that is key to our 
successful efforts in dealing with homegrown terrorism as well.
    Mr. Miller. I thank you for that, Senator, and if you will 
allow me, I would like to add that we have seen that. We have 
seen in the Toledo case, a member of the community came 
forward. We have seen in the Miami case, it was a member of the 
community, and specifically a member of the Muslim community 
who came forward, even though the group behind the plot was not 
a Muslim group. And we see that again here. So we know those 
efforts are having some effect.
    Senator Collins. Great. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Mr. Miller, let me build on this. I want to ask you whether 
there are any conclusions we can draw from the Fort Dix case or 
other information you have about the trend lines in homegrown 
terrorism. And I come back to what I said in my opening 
statement, which I think is still largely true from my 
experience, that America's best defense to terrorism by 
Americans is America.
    We were shaken by the fact that the subway bombings in 
London, of course, were carried out by British--a lot of them 
British citizens, certainly long-time residents, who turned 
against the government, and the facile American response is, 
``Well, they have never been allowed to really integrate into 
British society, but that is different here.'' Yet we saw in 
this case that these were immigrants to the country, three here 
illegally, three not, who were seen ostensibly to be making 
their way up in America and yet got radicalized and were 
allegedly planning this terrorist act.
    From the large interaction that the Bureau has with the 
American-Arab and American-Muslim communities, should we expect 
more homegrown terrorist acts?
    Mr. Miller. I think if you look at the cases of the last 
couple of years, let's say starting on August 31, 2005, with 
the Torrance case, followed by the case in Toledo, followed by 
the case in Miami, up through the case in Atlanta where you had 
the connections between those two operators and the group in 
Canada, and then others in London and in Denmark, through the 
case in mid-December with Derrick Shareef, in Chicago, planning 
the hand-grenade bombings of the mall, you see a certain tempo 
of activity, of U.S.-based, self-initiating, self-radicalizing, 
self-financing groups coming together.
    Now, when you look at them within the context of the larger 
Muslim population, there is a very few number of individuals. 
So the questions that we ask are--and now we ask them again and 
in a different way with the Fort Dix case--where did they 
become radicalized, how did they become radicalized.
    If you go back to the incident you cited, the July 7, 2005 
bombings, the House of Commons report concluded, after a pretty 
good look at the circumstances of the individuals, as you 
pointed out, Mr. Chairman, some of them second-generation 
British citizens----
    Chairman Lieberman. Right.
    Mr. Miller [continuing]. That there was no accurate profile 
across the cases that said that this is the type of person or 
the single set of dynamics that will cause radicalization.
    If you pull up the Torrance case as an example, what you 
see is a mix. You have a piece of prison radicalization 
involving Kevin Lamar James and prisonmate, Levar Haney 
Washington, who then gets out of jail. But when he gets out of 
jail, he does not recruit fellow criminals. He goes to people, 
one of whom is already a Muslim, the other of whom is a fairly 
recent convert, but both of whom have no predisposition towards 
criminal activity, and he takes them through a path of 
radicalization. So you see a mix there of several different 
themes.
    We are looking hard at this. We are working closely with 
the Department of Homeland Security and the larger intelligence 
community and the Director of National Intelligence to try and 
figure out if there are a set of models or anything that will 
tell us better where to lay those tripwires to look for people 
who are going over the line from radical ideas, which is legal 
in a free society, and encouraged, to going operational and 
finding where to set those tripwires has been a daunting and 
amorphous task.
    Chairman Lieberman. Well, you anticipated exactly the 
question I was going to ask, and you are absolutely right, it 
is very important to say it, always, that we are talking about 
a very small number of people, a very small percentage of the 
American-Arab or American-Muslim communities. But obviously, as 
we found on September 11, 2001, it only took 19 people, a small 
number of people, to wreak havoc on our country and really 
change our sense of ourselves for a long time. And I suppose 
ideally--I am thinking of this not from a law enforcement point 
of view, because I think you have got a lot set up now to deal 
with that, as the string of cases you have broken reveals, but 
in the ideal world you would be able to follow the profile and 
do something to prevent the radicalization of those 
individuals, almost like the work that is being done in medical 
science to try to find a mutated gene that will create cancer 
and get in there and affect that gene before it does.
    Mr. Miller. Well, let me first say, Mr. Chairman, we are 
not there yet.
    Chairman Lieberman. Right.
    Mr. Miller. But we have started down that path. I think as 
Mr. Curtin said, part of it is a competing message. That is 
probably the bulwark behind our community outreach program. 
Part of the competing message is that the FBI is there for the 
community and should be considered with confidence and trust. 
That involves transparency of the FBI. Keeping that separate 
from source development, I think, as we discussed, is key also. 
But the engagement on the community level in the towns I think 
is for the FBI's standpoint as a law enforcement organization 
probably as close as we will get to that while we continue to 
look at the model.
    Chairman Lieberman. Just a few more questions. One of the 
responsibilities of this Committee is governmental 
organization, so I need to ask whether you, Mr. Miller, and 
you, Mr. Poncy, coordinate what you are doing in any way.
    Mr. Miller. It is a closely coordinated conspiracy. 
[Laughter.]
    Chairman Lieberman. Good. In the public interest.
    Mr. Miller. I am sure that Mr. Poncy is tired of being 
hauled over to the FBI. We do not have any short meetings on 
this subject.
    Chairman Lieberman. Right.
    Mr. Miller. Our last engagement, we had Mr. Poncy and then 
people from the Terrorist Screening Center and DHS sit through 
the meeting with the community leaders and the director, which 
takes a little more than an hour, and then adjourn to a rest-
of-the-day meeting where we identified the action items. We 
have a habit in government, Mr. Chairman, of having meetings, 
writing down lists, and then going away, and the next meeting 
is in 6 months.
    Chairman Lieberman. Yes, I have noticed that.
    Mr. Miller. So we wanted to take action items out of that 
room and then sit down with the other component agencies and 
work through them. The privacy officer from the Terrorist 
Screening Center stayed through the day. The deputy there 
stayed through half the day but had to leave for another 
meeting. Mr. Poncy was there and stayed until the last bitter 
question and came up with a list of things that, come the next 
meeting--and this is a two-way street. When we come up with 
action items for them, we will go back into the community and 
try to float this balloon, ask these questions, help us on 
recruiting and so on, think of a program. Would it be an FBI 
camp for kids, more engagement with an organization like the 
Boy Scouts or a youth organization?
    When we come back together, we are all expected to have the 
answers to that.
    Chairman Lieberman. Mr. Curtin and Mr. Grieco, I assume 
that the key person in the Federal Government for outreach 
outside of the United States, to the Arab and Muslim world is 
Under Secretary Hughes.
    Mr. Curtin. That is right, on the public diplomacy side, 
and our embassies are engaged in many different ways, including 
with USAID, with Muslim communities or communities all around 
the world, including countries with significant Muslim 
population, but it is the Under Secretary.
    Chairman Lieberman. Do you all interact, that is, those of 
you who are involved in public diplomacy abroad and people like 
Mr. Miller and Mr. Poncy who are outreaching to the Arab-
American and American-Muslim community here?
    Mr. Curtin. The State Department has not been part of the 
same formal process that they are talking about. We do talk to 
one another on particular issues. We do have outreach to the 
American-Muslim communities to hear what they are thinking 
about.
    Chairman Lieberman. Through your office and Under Secretary 
Hughes?
    Mr. Curtin. Through Under Secretary Hughes, and my office 
does in order to help us--get them to help us to engage Muslim 
communities overseas. So we are not formally part of their 
process, but we do talk to one another, in fact.
    Chairman Lieberman. Based on your experience abroad--and I 
know these are two very different worlds, the world of the 
American-Arab and American-Muslim community and the world of 
the international Muslim community. But do you have any counsel 
to give your colleagues or to us about what the Federal 
Government can wisely do to try to prevent more radicalization 
within the American-Muslim community?
    Mr. Curtin. I do not really have certainly counsel to offer 
this esteemed group and my colleagues. But one thing I would 
say, for us in public diplomacy the key word has always been 
``engagement.'' And it seems to me that what we see with the 
Treasury and the FBI is centered on engagement, so that we know 
whom we are dealing with, we know what they are thinking about, 
we know what their concerns are, and we know what their 
perspective is. And overseas it is critical that we know what 
the people in different countries are thinking about and how 
they are looking at us because, as you know, it is very 
different. People in different countries look at the world in 
different ways from the way Americans do. And I think it is 
true in the United States. We have such a mix of people.
    So I would say more of the same as far as my own limited 
knowledge of what the FBI and the Treasury are doing.
    Chairman Lieberman. Well, I thank you all. We are living, 
as I said, in a post-September 11, 2001, world, which is a 
different world for us here in America and for the rest of the 
world, and we are asking the kinds of questions that we have 
not asked before. I appreciate what you are doing in this 
outreach and also in using the law enforcement tools that you 
had and that you have been given since September 11, 2001. I 
think you have used them very effectively to protect our 
freedom and our security here at home.
    We are going to leave the record of this hearing open for 
10 days if you want to add anything or we want to submit 
questions. I am actually going to send you a question in 
writing, this is the kind of question that the Federal 
Government employees love to have us ask, which is: You are 
doing such a critical mission, whose importance we saw just in 
the last few days. What are the one or two things more you need 
to better carry out the mission that we are asking you to carry 
out in our interest?
    Senator Collins, do you want to add anything more?
    Senator Collins. Thank you, Mr. Chairman. I just want to 
join you in thanking our witnesses not only for their testimony 
today, but also for their very important work. Again, I 
appreciate your leadership on this issue. Thank you.
    Chairman Lieberman. Thank you, Senator Collins. Well, you 
began it when you were Chairman.
    I thank everybody for being here. The hearing is adjourned.
    [Whereupon, at 4:08 p.m., the Committee was adjourned.]


          VIOLENT ISLAMIST EXTREMISM: THE EUROPEAN EXPERIENCE

                              ----------                              


                        WEDNESDAY, JUNE 27, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this fourth 
hearing in the Homeland Security Committee's ongoing 
investigation of Islamist radicalization within the United 
States.
    The goals of these hearings are four in number, as I see 
them: First, to determine the extent of Islamist radicalization 
within the United States; second, to learn how and why 
radicalization occurs; third, to ask what can be done to 
counter the extremist message that incites its recruits to 
violence; and, fourth, to assure that our government is doing 
everything it can to prevent Islamist extremists from carrying 
out violent attacks against the American people from within our 
country.
    With today's hearing, which is titled ``Violent Islamist 
Extremism: The European Experience,'' we look across the 
Atlantic Ocean for advice and guidance from those on the front 
lines of the battle against terrorism in Europe, as well as 
those who have studied it there and here in the United States.
    We will be hearing also from the co-authors of a new report 
on the integration of Muslims into American society who, I 
believe, will compare and contrast their findings about the 
Muslim-American community with communities in Europe.
    Let me welcome our witnesses and thank them for taking the 
time and, in the case of our two European distinguished 
visitors, making the effort to join us today to offer their 
testimony and answer our questions.
    The witnesses are: Judge Jean-Louis Bruguiere, France's 
leading magistrate for counterterrorism; Lidewijde Ongering, 
Deputy National Coordinator for Counterterrorism in the 
Netherlands; Dr. Marc Sageman, leading American researcher on 
global Islamist extremism; and Lynn Martin and Farooq Kathwari, 
co-chairs of the Task Force on Muslim American Civil and 
Political Engagement, which was created by the Chicago Council 
on Global Affairs.
    We look to Europe today because European nations have 
experienced over the last several years a sharp growth in 
``homegrown terrorism,'' terrorism that--while it may be 
inspired by the same ideology that has fueled the atrocities of 
al-Qaeda--has been perpetrated by individuals born and raised 
within Europe.
    Research tends to show that, overall, European populations 
have thus far been more susceptible to Islamist radicalization 
than those in the United States, but that may be changing. And 
that is one of the questions that we want to ask. The bombing 
attacks in London, the killing of Theo van Gogh in the 
Netherlands, and the Madrid train bombings in 2004 all were 
either carried out exclusively by or aided by homegrown 
terrorists.
    Many other Islamist terrorist plots have been disrupted 
across Western Europe, thanks to aggressive law enforcement and 
excellent intelligence, including the extraordinary attempt to 
blow up airliners on the way to the United States from the 
United Kingdom last summer, which, of course, thankfully was 
stopped.
    We look to Europe because of the decisive steps that 
governments there have taken to address these threats. Just as 
we created the Department of Homeland Security in the wake of 
September 11, 2001, and its dreadful attacks, European 
governments have altered their structures, policies, and 
procedures to adapt to the new threat. We hope today to learn 
from your experiences and your successes.
    We in the United States cannot ignore the warning signs 
within our Nation. Homegrown Islamist extremists have recently 
been arrested and accused of forming plans to attack Fort Dix 
in New Jersey, and in a separate case to set ablaze the 
underground aviation fuel lines that feed JFK Airport in New 
York.
    These are just the most recent examples. Since September 
11, 2001, the fact is that a significant number of terrorist 
plots have been thwarted by American law enforcement, often 
working with our allies throughout the world, particularly in 
Europe.
    There was a recent Pew Center report on Muslims in America 
which gave us new and unsettling reasons to be concerned about 
the threat of Islamist radicalization in the United States. The 
poll showed that, among Muslims in America between the ages of 
18 and 29, 26 percent said there were times that suicide 
bombings may be justified. A shocking 5 percent of American-
Muslim adults 18 and over had a favorable opinion of al-Qaeda; 
another 16 percent had a somewhat unfavorable view; and a 
puzzling 27 percent had no opinion at all.
    These numbers are profoundly troubling, of course, because 
September 11, 2001, showed us that it takes only a handful of 
committed terrorists, in that case 19, to carry out a 
devastating attack. And the recent arrest of the alleged Fort 
Dix and JFK plotters shows that thanks to modern media, like 
the Internet, these homegrown terrorists do not need to meet 
with an al-Qaeda operative or journey to a terrorist training 
camp faraway from the United States to plan attacks against 
Americans from within America. They can now become fully 
radicalized on virtual networks by just sitting at their 
computers. That is why it is important, as I said at the 
beginning, to understand how people become radicalized so that 
we can counter that process, if at all possible, before it 
turns into action.
    I would say finally that the evidence that I have cited, 
while some of it is very unsettling, is not cause for panic. It 
is not a time to panic or divide. It is, rather, a time to 
unite and defend the freedoms that we cherish here in the 
United States of America and, of course, among our allies in 
Europe.
    I look forward to hearing our panel's thoughts on these 
questions, and, again, I thank you all for joining us today.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, we have gotten a late start today because of 
our classified briefing that both of us attended. Your opening 
statement, as usual, gave an excellent overview of our 
investigation and the hearing today. So I am going to forego my 
opening statement, although I want to assure everyone it was 
eloquent, and I am going to ask unanimous consent that it be 
put into the record so that we can proceed with our witnesses' 
testimony.
    Chairman Lieberman. So ordered. Without objection, the 
record will note that the statement was eloquent. [Laughter.]
    As I am sure it would have been.
    [The prepared statement of Senator Collins follows:]
             OPENING PREPARED STATEMENT OF SENATOR COLLINS
    Americans have no monopoly as targets of violent extremists. We are 
not alone in our determination to defeat terrorism and to protect 
innocent lives. Many of our European allies have also felt the lash of 
hatred and murder.
    The bombings in London and Madrid and the violent protests in the 
Netherlands demonstrated that violent extremism has many targets in 
addition to Americans. Like the six men arrested last month in the Fort 
Dix case, those charged with the bombings in London and Madrid were 
home-grown terrorists. They were living and working in the countries 
whose people they chose to attack.
    In Europe, as in America, the main focus of the battle against 
violent extremists is that small but deadly group of terrorists who 
invoke a warped vision of Islam as their guide and justification. In 
Europe, as in America, violent extremists include both non-citizens and 
native-born; both the self-radicalized and those won over by outside 
messages; both the lone wolf and the group member.
    Today's hearing gives us an invaluable opportunity to learn from 
the experience of others. Europe's large Muslim immigrant populations, 
its proximity to Muslim countries in North Africa and the Middle East, 
and its demographic trends give its governments at least as much 
incentive as America has to understand the sources and targets of 
violent radicalization and to take effective action to counter the 
threat.
    What I have already learned has reinforced my belief that there is 
no universal solvent to wipe away the stain of violent extremism. 
Police work, border security, and intelligence gathering are certainly 
part of the mix, but as the office of the Netherlands Coordinator for 
Counterterrorism recently observed, ``Polarization, inter-ethnic 
violence, and xenophobia remain causes of concerns,'' because they can 
increase the sense of rejection and alienation among Muslim 
communities.
    As the French experience with riots by young Muslims from housing 
projects suggests, unemployment and poor prospects for integration into 
the economic life of a country may also foster grievances that feed the 
radicalization process. And as research among actual violent jihadists 
reveals, ties of kinship, friendship, and community can play a role in 
drawing isolated or aggrieved young people into the ranks of 
extremists.
    The work of the Chicago Council on Global Affairs task force will 
also prove useful as this Committee continues its work. Among its many 
points, the task force makes the important observation that some 
people's belief that Islam is incompatible with American values may 
simultaneously promote exclusionary attitudes in the larger population 
while undermining Muslims' receptivity to our efforts to engage them.
    I hope the Chicago Council witnesses may be able to draw 
distinctions between European and American society that will help us 
understand and address the factors that radicalize Muslim citizens and 
residents to violent extremism. In particular, I am interested to hear 
if our witnesses believe whether factors that have led to recent 
violent activity in Europe are also present in the United States. I 
also look forward to hearing what we can do proactively to prevent a 
similar cycle of radicalization in the United States.
    All of these considerations are important as we seek ways to combat 
violent extremism directly and to curb its growth by improving outreach 
efforts to our Muslim neighbors, and by promoting the inclusion of all 
resident Muslims in the peaceful and tolerant fabric of American life.
    I join you, Mr. Chairman, in welcoming today's witnesses. Their 
testimony and comments will be valuable additions to our understanding 
of the threat we are all trying to counter.

    Chairman Lieberman. Let us begin now with Judge Jean-Louis 
Bruguiere. Judge Bruguiere has been at this work for a long 
time. He is really a globally known and admired figure, and I 
am personally grateful that you took the time to be here and 
share your thoughts with us. He is a great ally of the United 
States who, I know, enjoys tremendous respect among our law 
enforcement community.
    Judge Bruguiere, welcome.

    TESTIMONY OF JUDGE JEAN-LOUIS BRUGUIERE,\1\ FIRST VICE 
          PRESIDENT, INVESTIGATING MAGISTRATE, FRANCE

    Judge Bruguiere. Mr. Chairman, Senator Collins, thank you 
very much for inviting me to be here today. I will provide a 
brief summary of my statement, but I would ask that my entire 
statement be included in the hearing record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Bruguiere with attachments 
appears in the Appendix on page 326.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Judge Bruguiere. At the judicial level in France, I have 
been responsible for the fight against terrorism since 1981. In 
France--unlike in the United States--criminal investigations 
are conducted by judges, who have sweeping judicial 
capabilities such as issuing on their own search warrants, 
seizures of evidence, intrusive measures, including 
wiretapping, and cooperating with other countries in the fight 
against terrorism.
    I do not need to convince you, Mr. Chairman and Members of 
the Committee, in a country that has also heavily suffered from 
terrorism, culminating on September 11, 2001, of the gravity 
and the severity of the terrorist phenomenon, a phenomenon that 
is at the heart of the concerns of the United States today.
    Terrorism of Islamist origin, the one conveyed by al-Qaeda, 
is a deadly poison for our democracies that we must fight 
adamantly without second thought.
    France and the United States are particularly mobilized in 
this fight against terrorism. In this fight, we must stand 
together. France has always stood by the United States. I have 
personally stood by the United States in my duties under all 
circumstances.
    Terrorism is a strategic menace, a global menace of a new, 
atypical, and asymmetrical genre. It demands recourse to all 
the State's means.
    Obviously, a counterattack strategy against terrorism 
entails the use of military means, when and where necessary, 
specifically in Afghanistan and in Iraq. But the specifics of 
this threat require other resources.
    Recourse to military means must not be exclusive to the use 
of other tools in the field of intelligence and law 
enforcement.
    This panoply of tools and measures must serve as a real 
operational strategy, anticipatory and flexible, adapting to 
the contours of the threat and aimed at preventing the 
occurrence of terrorist actions and to stay a step ahead of 
terrorist organizations. The system that we have implemented in 
France since the beginning of the 1990s has allowed us to 
effectively counter all terrorist activities aimed at our soil 
to date.
    But before outlining the main components of our strategy to 
fight terrorism, I will present briefly the evolution of the 
Islamist terrorist threat over the last 20 years.
    In Europe, and more specifically in France, the first 
manifestations of terrorist threat of Islamist origin dates 
back to 1993. After the interruption of the electoral process 
in Algeria and the banning of the Islamic Salvation Front 
(FIS), a radical Salafist movement, Armed Islamic Group (GIA), 
emerged.
    This situation has caused in Europe, but especially in 
France, the creation of clandestine structures of logistic 
support to guerrillas in Algeria. These networks were activated 
in 1995 by the GIA for its operations on French soil.
    So the GIA, a Salafist organization, evolved beyond the 
Franco-Algerian framework. This new strategy was a precursor to 
that of al-Qaeda.
    This global strategy led the GIA to hijack an Air France 
aircraft in 1994 in order to crash it over Paris, and 6 months 
later, to perpetrate a series of attacks in France. This was 
the first time an airplane was designed to be used as a weapon 
of mass destruction.
    The decline of the GIA in 1996 should have been accompanied 
by the displacement of the epicenter of terrorist activism 
towards the Pakistani-Afghan zone. It is in this context that 
we have detected since 1996, through an investigation, the 
``Ressam'' network, the Millennium Bomber. This was al-Qaeda's 
first attempt to strike the United States on its homeland.
    September 11, 2001, was the result of this continuing 
trend. It was neither an unforeseeable occurrence nor a 
historical accident.
    The period after September 11, 2001, has shown that the 
danger has not disappeared and has always been a worldwide 
dimension. The al-Qaeda network, although deprived of their 
sanctuary in Afghanistan, has demonstrated that it is still 
active.
    The European Islamist movement, composed principally of 
Maghrebis, has always been active and presents the 
characteristic of being constituted of a network of dispersed, 
polymorphic, and mutating cells. In addition, during this 
period, other lands of jihad appeared to be active: Pakistan 
and the Caucasus.
    But it is Iraq that has been the most powerful driver of 
terrorist activity, having a greater force of attraction than 
previous lands of jihad, especially in regard to radical 
European Islamist movement.
    Several phases must be distinguished. From 2003 to 2004 the 
European mujahideen left for Iraq without thinking of 
returning, but to die there as martyrs. After 2004, because of 
the influence from Abu Musab al-Zarqawi, these mujahideen were 
mostly trained to commit attacks in Europe.
    The current situation is characterized by the permanence of 
the menace, the increased globalization of Islamist networks, 
and the search for new strategies to validate the terrorist 
message.
    The terrorist menace is reoriented on two fronts: The first 
in the North and the second in the South, in the Maghreb area.
    In 2006, the GSPC, the Salafist Group for Preaching and 
Fighting, rejoined al-Qaeda after having made an operational 
alliance 2 years earlier with the al-Zarqawi network operating 
in Iraq.
    This development marked the appearance of a new terrorist 
entity called ``al-Qaeda of the Maghreb Countries,'' 
significantly increasing the terrorist threat in Europe and 
over France.
    A strategy in the fight against terrorism must meet a 
certain number of conditions to be effective. Even when there 
are no attacks, the powers of intelligence services must be 
strengthened, a criminal legal system with the appropriate 
legislative tools must be implemented, and international 
cooperation must be reinforced. In this regard, the French 
system for fighting terrorism has proved its efficiency.
    Over the years, this system, intentionally consistent with 
the law, without relying upon special legislation, has 
demonstrated that it is unrivaled in effectiveness and 
legality.
    France has a long experience of fighting terrorism which 
goes back to the early 1970s. Thus, France has developed a 
complete legal doctrine for fighting terrorism which is 
considered to be a strategic threat. This doctrine led to the 
publication of a White Paper in 2006 that I will submit for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The White Paper submitted by Judge Bruguiere appears in the 
Appendix on page 342.
---------------------------------------------------------------------------
    The White Paper describes several changes to the legal 
system, with respect to laws as well as implementing 
procedures.
    With respect to laws, the French Parliament has given the 
French system for fighting terrorism an arsenal of laws 
designed for this purpose.
    The criminal charges of terrorist conspiracy is 
unquestionably the most effective legal weapon against 
terrorist networks. It makes it possible to fight the threat at 
the top, by attacking the logistical and financial support for 
the networks. There is no need to prove that the network in 
question is linked to an organization or even to a specific 
plan. It is sufficient that the network was likely to give any 
assistance in a terrorist context to activists, even when the 
activists are unidentified.
    In addition, there are procedural laws. The cornerstone of 
our system is the centralization in Paris of prosecution, 
investigations, and trials.
    It enables us to better understand the terrorist phenomenon 
which is becoming more widespread, polymorphous, and changing.
    In addition, on this subject, the investigating judges may 
use intrusive measures, such as telephone wiretaps and audio 
surveillance of private places. However, to be effective, this 
legislative arsenal must be implemented as a part of a real 
operational strategy.
    From this point of view, the participants in the fight 
against terrorism have developed a proactive methodology in 
France that is directed to preventing the threat. This risk 
prevention strategy brings together, in a real operational 
synergy, intelligence agencies, law enforcement authorities, 
and the judiciary.
    In addition, France has significantly increased 
international cooperation, especially with the United States, 
for the sole purpose of neutralizing terrorist networks where 
they are operating.
    This legal system, which is flexible and centralized at the 
same time, has enabled us to anticipate terrorist acts for more 
than 10 years and to contain the terrorist threat and stop 
attacks on our soil and even outside of our borders, 
specifically in Australia.
    Thank you for your attention. I would be happy to answer 
any questions you might have.
    Chairman Lieberman. Thank you, Judge, for that excellent 
opening statement, and your description of the comprehensive 
French program and, in fact, the aggressiveness of both the 
laws and the implementation is something I would guess that 
most Americans do not appreciate. It is important for us to 
consider those and also to note, if I am correct, that in the 
last decade there has not been a significant terrorist attack 
in France. That is correct, yes? There has not been a 
significant terrorist attack in France in the last decade or 
more.
    Judge Bruguiere. Yes. As I explained, since 1996 we have 
not suffered any attack in France, and that is the major reason 
that we have the capacity within the system to track down all 
the sleeping cells that support such operations. For example, 
in 2000, we have succeeded to arrest groups who are intending 
to carry out a very deadly operation in Strasbourg, and we 
arrested them maybe one week before they had the capacity to do 
it. We seized all the materials, explosive materials, devices, 
and so if we didn't have this system, we would have suffered a 
very deadly attack at that time.
    Chairman Lieberman. Thank you.
    Lidewijde Ongering, we are grateful that you are here. You 
come to us after a distinguished career in a wide array of 
public service responsibilities in the Netherlands as the 
Deputy National Coordinator for Counterterrorism of the 
Ministry of Justice, a relatively new organization of your 
government. And I will say to note for the record--and perhaps 
you will tell us more--that the threat level, what we would 
call the terrorist threat level, within the Netherlands has 
been dropped since the creation and functioning of your 
department.
    So thank you for making the trip, and we look forward to 
your testimony now.

TESTIMONY OF LIDEWIJDE ONGERING,\1\ DEPUTY NATIONAL COORDINATOR 
     FOR COUNTERTERRORISM, MINISTRY OF JUSTICE, NETHERLANDS

    Mrs. Ongering. Chairman Lieberman, Senator Collins, and 
distinguished Members of the Homeland Security and Governmental 
Affairs Committee, I would like to thank you for inviting me to 
testify here today. It is a great honor for me to speak about 
our experiences with homegrown terrorism in the Netherlands.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mrs. Ongering appears in the Appendix 
on page 460.
---------------------------------------------------------------------------
    My organization was established in 2004 to coordinate and 
direct the Dutch counterterrorist policy. I have chosen to 
limit myself to the subject of jihadism. This is by far the 
greatest threat in my country at present. I would like to 
outline what we regard as the main sectors contributing to this 
threat, and then I will describe the Dutch approach to 
counterterrorism.
    The horrifying attacks of September 11, 2001, opened the 
eyes of the world to the dangers of jihadist terrorism. Even a 
small country like the Netherlands was not immune to this 
threat. This realization was soon driven home by a far smaller 
incident: The death of two Dutch Muslims in Kashmir in January 
2002. The Dutch Intelligence and Security Service was soon able 
to report that both men had been recruited for the jihad by 
Salafist militants. The two young people both grew up in the 
Netherlands.
    At that time many people were shocked that terrorists could 
be living among us. The reality that terrorists could emerge 
from our society and strike in the Netherlands was made 
painfully clear at the end of 2004 with the assassination of 
filmmaker Theo van Gogh. The murderer was a young man of 
Moroccan descent who grew up in Amsterdam and seemed to be 
fully integrated in our society. He was part of a network of 
young Dutch jihadists who had fallen under the sway of a 
Salafist from Syria.
    These examples make clear that we define radicalization as 
homegrown when the process has taken place in the Netherlands. 
Radicalization and terrorism are both domestic and 
international phenomena, interlinked and interdependent. 
Globalization has intensified these links.
    The appearance of homegrown terrorism in the West can be 
attributed to a variety of factors. Your Congress has asked 
what the Dutch Government's view is on the causes in our 
country. I would like to mention a number of ``push and pull 
factors'' that could provide an explanation.
    One pull factor is Islamic missionary activity, 
particularly sponsored by Saudi Arabia. They are propagating 
Salafism to the world's Muslims. This has in some cases proved 
to be a breeding ground for radical sympathies. The Salafist 
movement preaches a return to the earliest incarnation of the 
faith and fiercely opposes all forms of ``non-belief,'' 
including democracy, Western laws, and lifestyles. For most of 
the known Dutch terrorists, the nonviolent variety of Salafism 
was the first step towards jihadism.
    Another pull factor is the global dissemination of jihadist 
ideology. Al-Qaeda is not only a terrorist network. Al-Qaeda is 
first and foremost an ideology, which appeals to Muslims from a 
wide variety of backgrounds. Their ideas are being spread all 
over the world, thanks in large part to the Internet.
    A last pull factor is the influence of what we call trigger 
events. Modern communication technology enables us to follow 
news from the other side of the world as it unfolds. Even small 
incidents can spur people on to violence, even at an individual 
level.
    Turning to the push side of the equation for a moment, I 
believe it is relevant to understand the history of Muslim 
immigrants in our country. This has made some of them more open 
to radical influences. Large numbers of Muslims were brought to 
the Netherlands as cheap labor in the 1960s. A lack of 
education, cultural differences, and difficulties in social 
integration beset this group. Muslims' integration into Dutch 
society has not been helped by the growth of radicalization and 
Islamophobia due to the many acts of jihadist violence in the 
world. This has led to a growing polarization between Muslims 
and non-Muslims, a trend that can further accelerate 
radicalization.
    An underlying factor in radicalization is the identity 
crisis often experienced by young people trapped between two 
cultures. In their search for identity, some of these young 
people turn to radical Islam. For these young Muslims, national 
borders hardly exist anymore. For that reason, the term 
``homegrown terrorism'' is slightly outdated. Dutch Muslims 
went, for instance, to Kashmir. Spanish participation in the 
war in Iraq formed the motive for jihadists in Madrid to blow 
up several trains.
    Clearly, terrorism can manifest itself at any time anywhere 
in the world. We have decided to analyze and tackle the dangers 
of radicalization and terrorism as a coherent whole. We have 
developed a comprehensive approach, including both repressive 
measures and a strong emphasis on prevention. After all, no one 
is born a terrorist. People who set out to kill other people 
first go through a process of radicalization. We are convinced 
that there are many opportunities to intervene in this initial 
phase.
    Of course, the main goal of the comprehensive approach is 
to identify acute threats in time and prevent bloodshed. We 
have done everything possible in recent years to create the 
conditions for an effective counterterrorism policy. Our laws 
have been amended. The police and criminal justice authorities 
have been given new powers to be able to investigate and arrest 
in an earlier stage. Intelligence and security services 
received more staff and funds, and their information can now be 
used in court by the public prosecutor.
    These measures have been clearly successful. Several 
terrorist networks in our country have been broken up. A 
sizable number of jihadists have been given prison sentences. 
Jihadist recruiters have also been tackled. These government 
actions have been effective in disrupting the formation of 
jihadist networks in the Netherlands. As a result, jihadists 
are contending with a lack of leadership and major internal 
divisions. Taken together, these developments made us decide to 
lower the general threat for the Netherlands from 
``substantial'' to ``limited.''
    The lowering of the threat level has been made public. The 
Dutch Government wants to inform its citizens about the real 
threat situation to prevent unnecessary fear. A lower threat 
level, though, is no reason to be less stringent in any of the 
measures that we have taken. It does, however, encourage us to 
push ahead with the course we have been following.
    Above all, we want to prevent the formation of new 
terrorist networks. That is why we are investing so much in 
tackling radicalization in many different ways. We do it at the 
national level, but our primary focus remains our cities and 
neighborhoods and the role of police and local government. The 
Dutch approach has three main planks:
    First, we are working to integrate Muslims into Dutch 
society. Our focus is on paying more attention to the identity 
issues confronting young Muslims in a Western environment, 
combating discrimination, and encouraging Muslims to 
participate in society and politics.
    We are also trying to counteract polarization and 
Islamophobia. Dutch training programs for imams are being 
supported so that Dutch Muslims will no longer be dependent on 
imams imported from their countries of origin.
    Second, we are promoting and supporting social resistance 
to radicalization within the Muslim community. This problem 
cannot be solved without the help of our own country's Muslims. 
A crucial aspect of these efforts is ensuring the availability 
of a wide range of information. We have set out to counteract 
the radical Islamic voices on Dutch language Web sites. We are 
working on taking radical sites offline, with a notice and 
takedown procedure directed at the providers. At the same time, 
we are working with Muslim institutions to increase the 
diversity of the information available about moderate Islamic 
currents--in other words, challenging ideas with ideas.
    A third and final way we work to prevent radicalization is 
by identifying, isolating, and containing radical processes. We 
want to stop radicalization before it leads to violence. This 
requires the authorities to be proactive in detecting signals 
that an individual might be isolating themselves or even 
turning against society. Systems have now been developed in 
several major Dutch cities to report suspected radicalization 
to a local information point where it can be assessed and used 
to develop a tailor-made approach. In some cases, the police 
and security services follow radicals closely, sometimes 
openly.
    Special attention is paid to the risk of radicalization in 
prison. To protect other detainees from becoming contaminated, 
we have decided to concentrate convicted jihadists in two 
detention centers and keep them separated from other prisoners. 
Prison staff in these institutions are specially trained to 
detect signs of radicalization.
    Special attention is also paid to what we call ``hotbeds of 
radicalization.'' A small number of locations in the 
Netherlands, such as a few Salafist centers and mosques, have 
been identified as potential gateways to radical milieus. The 
Dutch authorities keep a close watch on the imams and governing 
bodies of these institutions and remind them forcefully of 
their social responsibilities. Our message is clear: We will 
not allow them to preach intolerance. They must also exclude 
jihadist recruiters and stop young people from opting for 
violence. If people in or around these centers prove to be 
promoting radicalization or spreading hatred, we do not 
hesitate to prosecute them or deport them as a threat to 
national security.
    I have given you a brief overview of the Dutch analysis and 
the approach to fighting radicalization and homegrown 
terrorism. I do not claim that our experiences and conclusions 
can be transplanted to other European countries or the United 
States. I am convinced, however, that thanks to the many 
international dimensions and interconnections, real and 
virtual, in today's world all Western countries are at risk 
from homegrown terrorism. This demands an intelligent, broad 
strategy.
    Finally, I would like to stress our outstanding cooperation 
with the United States, including this and other exchanges of 
information and experiences.
    Thank you, and I will be glad to answer your questions.
    Chairman Lieberman. Thank you very much, Mrs. Ongering. 
That was extremely helpful in all ways.
    I do want to say, having heard our two European witnesses, 
that you have been much more timely, which is to say, you have 
adhered more to the time limit than our normal homegrown 
witnesses do. So I appreciate that. [Laughter.]
    Unfortunately, the bell has gone off for a vote on the 
Senate floor, but I do believe we have enough time, Dr. 
Sageman, to hear your testimony, and then with apologies, we 
will recess so we can go and vote, and then we will come back 
quickly to hear our final two witnesses.
    Dr. Sageman, thanks for being here.

 TESTIMONY OF MARC SAGEMAN, M.D., PH.D.,\1\ PRINCIPAL, SAGEMAN 
                        CONSULTING, LLC

    Dr. Sageman. Thank you, Mr. Chairman, Senators Collins and 
Carper. Thank you for inviting me to present my views on the 
threat of violent Islamist extremists in Europe and the United 
States. There is a great disparity in the threat faced in these 
two continents. Data on arrests for Islamist terrorism indicate 
that the rate of arrest per Muslim capita in Europe is about 
five times that of the United States. In order to understand 
this discrepancy, we must analyze the process transforming 
normal young Muslims into people willing to use violence for 
political ends. I call this process ``radicalization,'' and it 
is critical to understanding and assessing the threat faced by 
the West.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Sageman appears in the Appendix 
on page 470.
---------------------------------------------------------------------------
    This is a complicated issue, and given the time constraints 
of this hearing, my remarks will necessarily sound a little too 
simplistic. I apologize for this.
    My continuing research shows that the terrorists are really 
idealistic young people who seek glory and thrills by trying to 
build a utopia. Contrary to popular belief, radicalization is 
not the product of poverty, various forms of brainwashing, 
youth, ignorance, lack of education, lack of job, lack of 
social responsibility, criminality, or mental illness. Their 
mobilization into this violent Islamist born-again social 
movement is based on friendship and kinship. Lately, over 80 
percent of arrested terrorists in Europe and the United States 
are part of the Muslim Diaspora, mostly second or third 
generation. They are radicalized in the West, not in the Middle 
East. Usually, they are small groups of friends and relatives 
who spontaneously self-organize into groups that later turn to 
terrorism. Before September 11, 2001, they were able to travel 
freely and connect to al-Qaeda. This is no longer the case, 
except for the British. So these groups are physically isolated 
and connected through Internet forums, inspired by the 
extremist ideology and hoping that they will be accepted as 
members of al-Qaeda through their operations.
    From my research both in Europe and the United States, I 
have come to think about the process of radicalization as 
consisting of four prongs: A sense of moral outrage; a specific 
interpretation of the world; resonance with personal 
experiences; and mobilization through networks. This process 
is, of course, driven by young Muslims chasing dreams of glory 
by fighting for justice and fairness as they define it. They 
are enthusiastic volunteers, trying to impress their friends. 
Unfortunately, suicide bombers right now have become the rock 
stars of young Muslim militants.
    The sense of moral outrage is really driven by Iraq at this 
point. Iraq did not cause this problem, but Iraq is now fueling 
it. As I speak to young Muslims in Europe or here, Iraq 
dominates the conversation. More locally, they also pay 
particular attention to police action, bridging the local and 
the global.
    On the level of interpretation, in order for this sense of 
moral outrage to be translated to radicalization, it must be 
interpreted in a special way, and the way they interpret it is 
a ``war against Islam.''
    Having said this, it is important to realize that the 
terrorists are not--and I emphasize ``not''--Islamic scholars. 
The defendants at the various trials in here and in Europe are 
definitely not intellectuals who decide what to do after 
careful deliberation. I believe that the explanation about 
their behavior is not found in how they think but, rather, in 
how they feel. All these perpetrators dream about becoming 
Islamic heroes in this war on Islam, modeling themselves on the 
mujahideen in Afghanistan when they were fighting the Soviets 
or seventh century warriors. Many hope to emulate their 
predecessors by now fighting in Iraq against coalition forces. 
Their interpretation, a ``war against Islam,'' occurs within a 
certain cultural tradition, and this is where Europe and the 
United States differ.
     First, our founding concept is this is a melting pot. In 
Europe, nationalism is built on an essence, and if it is built 
on an essence, this is not as welcoming to outsiders as a 
melting pot would be.
    Second, the notion of the American dream, which is the land 
of opportunity, a recent poll, the one that you mentioned, the 
Pew Research Center poll showed that 71 percent of Muslim 
Americans believe in the American dream. This is not the case 
in Europe.
    And, third, American individualism in a sense protects us 
from having Muslims interpret what is happening to them in a 
collective way hostile to the host country.
    Probably the biggest difference between the United States 
and Europe is resonance with personal experience, and here we 
are facing very different Muslim populations. The American-
Muslim population is upper class or middle class. I would say 
middle class. The ones in Europe, as was mentioned, are 
unskilled labor, and so we are facing very different 
populations because of our history.
    In terms of labor market, there is far less discrimination 
in the United States than we find in Europe, and this is very 
important because a lot of unemployed young Muslims are 
attracted by the thrill of belonging to a clandestine 
operation.
    And, finally, the fourth prong is that they mobilize 
through networks, and this is very important because, up to 
now, you have angry young Muslims but really not violent ones. 
It is really through the networks that they are transformed 
into terrorists through a process, a natural process of mutual 
support and the development of a small collective identity 
praising other terrorists. And, therefore, they become 
terrorists themselves.
    Now that I have analyzed the threat, let me make a few 
comments about what can be done.
    First and foremost, we have to remove the glory from this 
concept. We have to deglorify it. We have to really put it now 
into a law enforcement perspective as opposed to militarize the 
problem, because there is nothing more thrilling to a young 
person than to go against a uniformed person of the only 
remaining superpower.
    On the first prong, I think that we need to leave Iraq as 
soon as it is feasible.
    [Applause.]
    Dr. Sageman. Iraq is driving this process in Europe and 
around the world. We may need to be in Iraq for local reasons, 
but not for terrorism. Terrorism is a one-way street.
    In terms of policing, community policing, what you heard 
before from both the French and the Dutch is exactly right, and 
I think those two countries have done it right. But we need to 
have police forces recruit young Muslims into police forces so 
that you do not have white Caucasians patrolling South Asians 
or North Africans.
    So far Muslim Americans have shown themselves to be very 
patriotic, and this has not been well recognized by the press 
or our government. It is important that we recognize the 
patriotism.
    On the second prong, what we need to look at is not so much 
the ideology and the text, but really the images, the dreams. 
And here I think we should not really focus on the war of ideas 
as much as war of dreams. In this sense, we should learn our 
lesson from our experience with the civil rights movement when 
Martin Luther King inspired a generation with his speech, ``I 
Have a Dream.''
    On the third prong, I think we are doing much better than 
in Europe.
    On the fourth prong, it is absolutely important to disrupt 
the networks, as the French and the Dutch did. This is 
critical. But also we need to have some presence on the 
Internet where young Muslims share their dreams, hopes, and 
grievances. This is an internal Muslim discussion. However, we 
can encourage some young Muslims who reject violence to 
actively participate in these discussions in order to actively 
challenge the various calls to violence emerging from them. The 
American-Muslim community is relatively young, having mostly 
immigrated in the last half of the past century. It is a young 
generation searching for its identity and trying to define its 
role with respect to the rest of American society. It is 
important for the rest of American society to welcome them and 
help them integrate better within the fabric of our Nation. We 
are doing better than our European counterparts in this regard, 
but we must continue to promote core American values of justice 
and fairness and fight those elements in our society that try 
to single out and antagonize part of our Nation.
    Thank you very much.
    Chairman Lieberman. Thanks, Doctor. You, too, were very 
punctual and had some interesting things to say.
    I am going to recess the hearing now, and we will be back 
as soon as we can.
    [Recess.]
    Senator Collins [presiding]. The Committee will come to 
order.
    Dr. Sageman, did you finish your testimony before we broke 
for the vote?
    Dr. Sageman. Yes, I did. Thank you very much.
    Senator Collins. Thank you. It was very interesting. I had 
to leave a little bit before Senator Lieberman, so I was not 
sure.
    We will now turn to Secretary Martin for her testimony and 
Mr. Kathwari's testimony.

TESTIMONY OF HON. LYNN M. MARTIN AND FAROOQ M. KATHWARI,\1\ CO-
  CHAIRS, TASK FORCE FOR MUSLIM AMERICAN CIVIC AND POLITICAL 
         ENGAGEMENT, CHICAGO COUNCIL ON GLOBAL AFFAIRS

    Ms. Martin. Thank you, Senator, and we are honored, of 
course, to be here, too. We all listened to Dr. Sageman, 
actually, with great interest because it is always nice when 
you hear yourself reflected in data to some extent.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Ms. Martin and Mr. Kathwari 
appears in the Appendix on page 476.
---------------------------------------------------------------------------
    As some of you may know, yesterday we released a report 
called ``Strengthening America: The Civic and Political 
Integration of Muslim Americans.'' So we are not here to talk 
about the European experience, which is, as both the Europeans 
who gave such superb testimony, in my view, and Dr. Sageman 
said, really totally different than the American experience. 
But what this group has done over 18 months, a group that is 
half Muslim and half non-Muslim--and I suspect it is clear 
which part of that I probably was in--tried to see what could 
we do to make America stronger, to see a problem, the possible 
alienation, the increasing belief among many Muslim Americans 
that they were not as large a part of the American experience 
as they could be, and what could we do to accelerate that 
assimilation.
    Other groups have gone through the same things. That is no 
different. But we do not believe that there is the time, the 
leisure to let it take 10 or 50 or 100 years, as it did for my 
forebears and yours. We think it has to be accelerated, so we 
have come up with--we released yesterday a group of ideas for 
both Muslims and non-Muslims to accelerate the process and, in 
doing so, to strengthen America and its security. We divided 
it. We have six very quick points.
    First of all, start recognizing Muslim-American 
contributions, which are many. Now, this does not mean that 
Muslim Americans mustn't speak out more. They must, and it must 
be better articulated. And you will see a lot of these 
recommendations fall into each other. There are not as many 
strong Muslim organizations because they are young. They are 
babies at the organization level. And we think strong Muslim 
organizations that reflect the true feelings and beliefs of the 
citizens, of the American citizens who are Muslim, would be 
very helpful to everyone.
    We know we have to increase the civic engagement of 
Muslims. We know that we have to build a different kind of 
media coverage. Everybody can't always be bad. We have got to 
see the success stories, and you know of one who has, in fact, 
strong business in your State, Senator, and you know that, too. 
We think we have to give increasing national attention to the 
diversity of American Muslims. They don't come from one 
country. They come from all over the world, and that diversity 
is reflected in how they produce and some of their feelings and 
the level of the experiences they bring.
    We also know that they are first generation, that they tend 
to have equal or better education than the average American, 
that many of them are our doctors, our lawyers, lead our 
businesses in ways that, if we did not have them, it would be a 
loss for America.
    We also know it is the American dream, and we believe 
strongly that there are American problems with this 
assimilation, and not just assimilation, not in the sense that 
they must blend, but in ways that one can be proud of one's 
faith, can practice one's faith, and still be more than 100 
percent American.
    I would also add here that it took a year and a half. It 
was not easy. It is never easy--perhaps you recognize that, 
Senator--to get 32 very different people to agree on anything, 
especially when a few of us always know we are right. That was 
my experience, at least in the House. And the fact is we all 
stand by this report--not with every sentence, not with every 
part, not with every mention, but with both the tenor and with 
the six recommendations, which we believe are the core of it.
    Much of my learning took place because I had one of the 
great Americans and a superb Co-Chair. The CEO of Ethan Allen, 
Farooq Kathwari, is with me, and I would like to just pass the 
baton to him.
    Senator Collins. Thank you. Mr. Kathwari.
    Mr. Kathwari. Yes, thank you very much. Thank you for the 
opportunity of being here, and it was a privilege co-chairing 
with Lynn Martin over the last 15 months.
    Now, some of the things that I am going to say are, I 
think, somewhat a repeat of what Ms. Martin has said. That is, 
notwithstanding September 11, 2001, challenges faced by Muslim 
Americans, the experiences of Muslim Americans--Senator 
Lieberman, good to be here and good to see you again.
    Chairman Lieberman [presiding]. Good to see you, and thank 
you. I apologize for the strange life that we lead.
    Ms. Martin. I, too, was eloquent. [Laughter.]
    Mr. Kathwari. Well, it is a pleasure to be here, and, of 
course, our headquarters are in Danbury, Connecticut.
    Chairman Lieberman. Duly noted for the record, with thanks.
    Mr. Kathwari. I was just saying that notwithstanding 
September 11, 2001, the experience of the Muslim Americans has 
not been much different from other immigrant communities. All 
had to struggle to make America their home. In fact, there are 
two communities that are also treated with a religious 
identity. It is the Jewish Americans and the Muslim Americans. 
One does not see the religious identification with others, such 
as Italians, Irish, the Polish, and many others. This does 
create a perception of a Muslim monolith. The fact is that the 
Muslim community here in the United States and the rest of the 
world has tremendous diversity in ethnic, linguistic, 
ideological, social, economic. It is wrong and dangerous to 
think of them as one monolith.
    Now, despite the perception, Muslim Americans are 
successful. They are entrepreneurs, they are professionals, 
they are academics. They are, most of them, first-generation 
immigrants from across the globe, and a significant portion of 
the remainder is African-American.
    Muslim Americans are having issues of real and perceived 
discrimination after September 11, 2001. There is a Pew study 
which says that Muslim Americans under the age of 29, which 
happens to be about 60 percent of the population, since 
September 11, 2001, about 40 percent of them said that they 
have had some sort of a discrimination. So we have to be 
careful about it.
    In our study, we also found different perceptions. The non-
Muslim Americans perceive that Muslim Americans must speak more 
strongly against political extremism and the use of violence. 
American Muslims, on the other hand, perceive that they do 
speak, but the behavior of the minority extremists gets most, 
if not all, of the media coverage.
    As Ms. Martin has said, there are six recommendation and, 
again, for Senator Lieberman, the report called on Muslim 
Americans to get across to the broad American public by getting 
the message across that they are opposed to terrorism and 
extremism. The report called for fostering close relations with 
the media, including efforts to increase the number of Muslim-
American journalists and creating a national organization 
focused on educating the public on the diversity of Muslim 
cultures in society. It encourages civic engagement among 
Muslim Americans and greater efforts of interfaith dialogue.
    Other recommendations include building strong Muslim-
American institutions by such means as expanding engagements 
with universities and policy research institutes.
    And, finally, my strong plea to our national leadership and 
the media is that it is wrong and dangerous to think of Muslims 
and Islam as one monolith and also to associate Muslims and 
Islam with terrorists and extremists. When we do that, we help 
the terrorists and extremists, and not the Muslim Americans or 
Muslims of the world, and, more importantly, the well-being and 
the security of the country here.
    Chairman Lieberman. Thank you very much, Mr. Kathwari. I 
apologize, Secretary Martin, that I was not here for your 
comments. I appreciate the work of the task force, and I thank 
you for what you have said. And, of course, your concluding 
remarks, this is exactly what we are grappling with. In so many 
ways, the Muslim-American community is like every other 
immigrant community that has come here. And we have always 
prided ourselves on our openness and inclusiveness, and the 
fact is that a significant number of Muslim Americans, 
including yourself, are playing leading roles in this society, 
very constructive roles. And I would say, generally speaking, 
the Muslim-American community is composed of good American 
citizens.
    Incidentally, you make a very good point, very important. I 
know it, but maybe other people do not know it. The Muslim-
American community is a very diverse community, including a 
significant number of people, particularly African-Americans, 
who are not immigrants, who were born here.
    So the challenge to us, obviously, is to be true to our 
values, to recognize the truths of the broader community, while 
also trying to deal with what, unfortunately, appears to be the 
danger from a small number who are being radicalized. And that 
is exactly what this Committee inquiry is about.
    Let me start with a question I was going to get to a little 
bit later on, but it flows naturally from your testimony. In my 
opening statement--and you were not able to be here at that 
point--I pointed to some of the numbers in the recent Pew study 
on Muslim Americans. Of course, the troubling part was the 
number of younger Muslim Americans who said that suicide 
bombing in some cases was--I do not know the exact word, but 
``justifiable'' or ``understandable.'' And then a number of 
others who either had no opinion and a small number, but 
nonetheless 5 percent, thought that they had some sympathy with 
al-Qaeda.
    So how do you interpret those numbers? And what do they say 
to you, as an American, is happening here? And I ask both of 
you, really, but I would appreciate it if you would start, Mr. 
Kathwari.
    Mr. Kathwari. I think you are absolutely right that we have 
to understand that there is not one Islamic or Muslim monolith. 
You are going to have different perspectives.
    Chairman Lieberman. Right.
    Mr. Kathwari. And I think that is very important, and the 
leadership should understand it because when it filters down, 
it filters down to law enforcement, it filters down to the 
folks at immigration because without realizing it, they start 
looking upon Muslims as one. So it is very important, because 
it is very important that, God forbid, there is some radical, 
some extremist--and you are going to have--you cannot control 
everybody, do something what you do not want to have in a 
situation that all the Muslim Americans with this great 
diversity are impacted, because that is a self-fulfilling 
prophecy. And, in fact, we know that those who are radicals, 
extremists, want that kind of a thing to happen.
    So I think what needs to be done is the responsibility is 
on all sides. First, American Muslims, this very diverse 
community has to help shape the debate. They have to help shape 
the debate about educating. We also heard when Dr. Sageman was 
saying that many of the young people really are not scholars. 
And, in fact, sometimes the people that talk to them are also 
not scholars.
    Chairman Lieberman. Yes.
    Mr. Kathwari. They impact them. And young people get 
impacted. So I think it is extremely important among the 
Muslim-American community that they should have spokespeople, 
they should have people who can speak with the full 
understanding of the religion, because Islam does not preach 
extremism, does not preach violence, does not preach killing of 
innocent people. So I think that is very important.
    The second is I think the tone of the voice of our 
leadership--and I was very glad this morning, I was a little 
bit late because the White House invited me to be with the 
President, and he had decided to go to the 50th anniversary of 
the Muslim Center in Washington.
    Chairman Lieberman. Yes.
    Mr. Kathwari. And I was there, and he spoke, and with a 
tone of saying that, yes, American Muslims are diverse and they 
also are American citizens, and we have to be careful of not 
associating terrorism and extremism with them, even though that 
was the terrorists--so I think, from a leadership point of 
view, that is very important to project, and also I think that 
message and partnerships with the media has to be done, because 
it is important. And I think also efforts have to be made that 
alienation should not take place among the young, because 
alienation brings humiliation, and humiliation results in acts 
of violence. So we need to be careful about that, too.
    Chairman Lieberman. I appreciate that. I am actually going 
to go from that point back to Judge Bruguiere and Mrs. Ongering 
and ask you both to comment on the last point that Mr. Kathwari 
made about alienation, but also about Dr. Sageman's provocative 
interpretations about the motivations of young Muslims being 
radicalized.
    In other words, in particular, I was really fascinated by 
the emphasis on friendship and kinship, and, of course, the 
quest to be heroes, and the lesser role, if I might say so, of 
religious radicalization, whether that is borne out in the work 
that you have done in France and the Netherlands.
    Judge Bruguiere. It is not so easy to answer the question 
because it is a very difficult problem, a difficult issue. As 
you know, in France, we have basically about 5 million of the 
community coming from the Maghreb, especially Algerians. At the 
present, 8.5 percent of the global population, that is a lot. 
And globally it is a peaceful population. We do not have any 
problem, just with basically about 100, maybe less, who are 
directly involved in the radical operation.
    The difficulty that we have is to know in what way one--
there is no typology of the terrorist. We do not know exactly 
why such individuals shift from fundamentalism to radicalism 
and operational. Generally, it is very reactive to outside 
operations and context.
    Iraq played a major role in converts. That is true, we 
know. But also we have also incidents with the Internet, with 
all the sites, and so the capacity to discuss about choices and 
the activity of some individuals who are much more radical and 
try to recruit them.
    Chairman Lieberman. Right.
    Judge Bruguiere. And that is a very concerning problem 
because it is very difficult for us, on the intelligence level 
as well as law enforcement, to detect those because we do not 
know exactly when. And so we know that external factors--Iran, 
Afghanistan--have an impact in the process of radicalization.
    And, second, what is a key point on that is the situation 
in the prison. We can maybe have a discussion specifically 
about that. Those are powerful factors of converts.
    Chairman Lieberman. That is very interesting, because we 
touched on that in the first in the series of these hearings, 
that there is some evidence of radicalization, Islamist 
radicalization, in American prisons. So you are saying you have 
found that as well in France?
    Judge Bruguiere. Absolutely.
    Chairman Lieberman. Which is to say that a single person or 
maybe a few people are actually converting for the purposes of 
radicalization others that they are in prison with.
    Judge Bruguiere. In the prisons, there is a very high level 
of contamination. That is very difficult, because there are 
many solutions. We can separate the individual. It is difficult 
because we would need to have many prisons to do it, that we 
now know that is the best response. We have experience about 
that, regarding the recruitment of individuals. These are 
directly implied in operational cells. We saw that about one 
year ago.
    Chairman Lieberman. So then you try to break up the groups 
and separate the prisoners in the different facilities?
    Judge Bruguiere. Yes, but it is difficult. We do not have 
the capacity in France because it is necessary to build new 
prisons, and that is not so easy to do.
    But the fact that we arrest a lot of people, a very high 
rate of arrests because our system allows us to arrest anyone 
that could be implied or suspected to support anyone, as you 
know, associated with terror, has prevented many attacks. We 
have many members in the prisons, and we have difficulty in 
separating them and preventing them from actively recruiting 
new members of jihad.
    Chairman Lieberman. Thank you. Mrs. Ongering.
    Mrs. Ongering. It is hard to give a typical profile of 
extremists. What we see in our country, the children of 
immigrants from Muslim culture are likely to suffer an identity 
crisis, and sometimes that makes them vulnerable for extremist 
ideas. First and foremost, they are seeking an identity, and it 
is not religion in the first place. So on that point I agree 
with Dr. Sageman.
    But we also find the level of education does not tell us 
all. We have examples of very well educated people in our 
country who also seem very well integrated in the country, and 
then all of a sudden, they turn their back to our society. And 
the London bombers showed us the same. So that is also a 
difficult explanation.
    But we find that stronger social bonds within the groups, 
that will certainly help. We have Islamic people from Turkish 
background and Islamic people from Moroccan background. The 
Turkish people, they seem to be less affected by the extremist 
ideas because their social bonds--well, they are really close, 
so that might give an explanation there.
    On the point of the prison, we also find that 
radicalization in the prison taking place in our country, and 
that is why we decided to concentrate those extremist people 
who were sentenced to prison in certain areas, and especially 
from preventing them spreading their ideas to others.
    Chairman Lieberman. Unfortunately, they have called another 
vote, and I am going to go back. So I think I am going to ask 
one more question and then let you go. I do not want to put you 
through the torture of the life that we lead.
    Dr. Sageman, if you want to add anything, I want to ask you 
a question about how to counter the proliferation of extremism 
propaganda which plays into some of the psychological factors 
you have described, and you have talked particularly, as we saw 
at a previous hearing, that the Internet is playing an 
important role not only in facilitating the radicalization 
process, but in reducing the amount of time people take to go 
through the process. And I wonder what your thoughts are--and I 
do not know whether your task force, Ms. Martin, approached 
this--on how the government or others can counter those radical 
messages being pushed out over the Internet on radical Web 
sites to this small but vulnerable population.
    Dr. Sageman. Yes, it probably is a critical issue of the 
future because, like my son who is growing up and is on the 
Internet quite a bit. Young people are on the Internet, not my 
generation. And what we find is that it is the interactivity in 
the chat room. It is not those Web sites, those horrible Web 
sites. It is really the interactivity.
    Chairman Lieberman. Correct.
    Dr. Sageman. And before, what we had was groups, face-to-
face interaction. Now it has all migrated to the Internet.
    Unfortunately for the government, this is an internal 
Muslim dialogue. It is not one that I think the U.S. Government 
can participate in. That's why I was mentioning--I think Mr. 
Kathwari also mentioned it--that we should encourage young 
people to actually participate in that type of discussion and 
challenge the people who call for violence.
    Chairman Lieberman. Yes. So the best answers will come from 
within the Muslim communities themselves.
    Mr. Kathwari. Yes.
    Chairman Lieberman. Secretary Martin, do you want to add 
anything?
    Ms. Martin. Just very quickly, again, our thanks, first of 
all, Chairman, on this. Ultimately, it has to come from within, 
and then from all Americans. Traditionally, American solutions 
are best when we come at them together.
    Chairman Lieberman. Correct.
    Ms. Martin. But having said this, one of the parts of what 
we were looking at is how to more greatly involve young people. 
Whether they are Muslim or not, we all know teenage angst. We 
all know that some young people become more religious, some 
young people go to whole different--how do we, in the best 
sense of the word, harness that?
    So I think your point of getting young Muslims and non-
Muslims alike, I believe, conversing, talking in part of the 
Internet where they are not listening to us, because I think 
asking them to listen to us is a non-starter, if you want to 
know the truth.
    Chairman Lieberman. That is a good point.
    Ms. Martin. And so what we are looking at is the next step.
    Chairman Lieberman. That is very important. One of the 
great challenges--it is true here, and it is true in so many 
other areas of challenge in our society. How do you get 
attention for something that is not dramatic? In other words, 
how to get coverage of the majority mainstream Muslim voices? 
That is the challenge that we have.
    Ms. Martin. Could I just say this? Senator, I have never 
heard you shout, and you and I go back a long time.
    Chairman Lieberman. Well, you have not talked to my wife. 
[Laughter.]
    Ms. Martin. Well, luckily--I will stay with my statement--I 
have never heard you publicly shout.
    Chairman Lieberman. Thank you.
    Ms. Martin. And I think one of our concerns is that we have 
entered a TV, and almost exclamation point to the Internet, 
time of shouters. And it is time for the non-shouters to again 
work.
    Chairman Lieberman. Thank you. You all have not been 
shouters today. You have really shed some light. There are 
different opinions here, but it has been very helpful to our 
Committee. I thank all of you for coming. I particularly want 
to thank Judge Bruguiere and Mrs. Ongering for taking the time 
and making the effort to come here. I know you have wonderful 
relations with your peers in the U.S. Government. They 
appreciate your help and respect what you have done greatly, 
and I do as well.
    We are going to keep the record of the hearing open for 2 
weeks if any of you would like to add additional statements or 
any of the Members of the Committee want to submit questions to 
you. But I thank you very much, and with that I adjourn the 
hearing.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]


   THE ROLE OF LOCAL LAW ENFORCEMENT IN COUNTERING VIOLENT ISLAMIST 
                               EXTREMISM

                              ----------                              


                       TUESDAY, OCTOBER 30, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, McCaskill, Collins, and 
Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. I thank our witnesses for being here.
    Today we convene the fifth hearing of this year on the 
challenge of ``homegrown'' Islamist extremism right here in 
America. This is an inquiry that began under Senator Collins' 
chairmanship and that we have continued together now this year.
    This hearing focuses on the critical role of local law 
enforcement in detecting and preventing another terrorist 
attack on our homeland, not one planned, manned, and financed 
from abroad like the September 11, 2001, attacks, but one 
conceived from within our country by what one of our witnesses 
calls ``unremarkable people'' bent on spectacular destruction.
    Earlier this year, our Committee heard testimony from 
Secretary of Homeland Security Michael Chertoff, FBI Director 
Robert Mueller, and DHS Chief Intelligence Officer Charles 
Allen, and the testimony was quite clear that the threat from 
homegrown Islamist extremism is on the rise here in America and 
that the Federal Government simply cannot counter it alone.
    At our September 10, 2007, hearing, Director Mueller said, 
``The role of our local law enforcement partners is absolutely 
critical to identifying individuals and groups presenting this 
threat.'' In fact, it is the men and women of State and local 
law enforcement who both by the strength of their numbers and 
through their daily contact with the public in the communities 
they serve, including the Muslim-American communities that they 
serve, are most likely to be the first to come across homegrown 
terrorists. That makes this proud blue line of 750,000 State 
and local law enforcement officers across our country our first 
line of defense against the growing problem of homegrown 
terrorism.
    Today's two panels of witnesses will give us the 
opportunity to learn about the terrorism strategies local law 
enforcers are following and to do so from a geographic cross-
section of our Nation's police departments. We have officials 
here from North and South, East and West, and that reminds us 
that the threat of Islamist terrorism is ultimately national.
    We are first going to hear from the Intelligence Division 
of the New York City Police Department (NYPD), whose 
representatives will discuss the findings of their ground-
breaking report, which is entitled ``Radicalization in the 
West: The Homegrown Threat.'' After more than 2 years of 
investigation and research, the NYPD team has, for the first 
time, at least in this amount of detail, mapped out the 
radicalization process that is taking place in New York City, 
and certainly by inference in the United States generally, and 
elsewhere. Their conclusions are riveting, impressive, and 
disturbing.
    Violent Islamist ideology can radicalize alienated but 
otherwise, as I said earlier, ``unremarkable'' individuals who 
are not normally found on the radar screens of State and local 
law enforcement. Often the Internet is a driver and an enabler 
of the radicalization process in America, as our Committee 
learned in a hearing that we held earlier this year. Once 
radicalized, people may act on their own or in small cells 
without any direction or connection to a foreign terrorist 
organization. That is the pattern that we know has developed in 
attacks, both those that have been carried out and those that 
have been, thankfully, thwarted in the United States and 
Europe, from London, England, to Lackawanna, New York, from 
Fort Dix, New Jersey, to Portland, Oregon.
    The NYPD report also lays out the challenge for local law 
enforcement, which is to identify, preempt, and, thus, prevent 
homegrown terrorist attacks, even though--and I repeat--such 
attacks may not resemble typical criminal behavior that 
normally draws police attention before they are carried out. 
That is why neighborhood intelligence and outreach to Muslim-
American communities is so important.
    The second panel includes officials from the Los Angeles, 
Miami-Dade, and Kansas City, Missouri, police departments. They 
are going to tell us about the tools and tactics that they have 
been developing to help detect, deter, and disrupt homegrown 
terrorist plots. At the heart of their strategies, it seems to 
me, is the requirement for knowledge of and familiarity with 
violent Islamist ideology and the local Muslim communities, the 
overwhelming majority of which, of course, are not engaged in 
violent Islamist ideology. Each of these local police 
departments has reached out to their Muslim-American 
communities and established relationships with them and their 
leaders. Each has developed strategies that integrate the 
global threat of Islamist terror into local solutions, whether 
it is the LAPD's new Community Mapping Project, Miami-Dade 
County's focus on long-term intelligence gathering, or Kansas 
City's patrolling strategies and actions to stop terrorist 
financing.
    It is crucial, I think, that these and other local efforts 
be linked together so that clues to potential terrorist attacks 
are not lost through jurisdictional silos but are shared by 
local departments nationwide through national intelligence 
databases, fusion centers, and Joint Terrorism Task Forces that 
can connect the dots with information gathered at all levels 
and geographies of law enforcement. In other words, one of the 
major post-September 11, 2001, conclusions and reforms adopted 
by the Federal Government was to break down the stovepipes and 
to create places where intelligence was fused so that, to use 
the familiar phrase, we would be able to connect the dots. I 
think it is critically important now that the same reforms 
happen at local levels to keep them working together.
    I want to make a final point here. The departments 
represented before us today are doing their work in this 
critical area very well, but it is my impression at this point 
of our investigation that this is not the case nationwide. And 
that is a conclusion I want to stress. The evidence suggests we 
have a problem growing here of homegrown terrorism. I do not 
want to overstate it, and yet we would understate it at our 
peril. We have a problem. And these four police forces that are 
before us today are unique among local law enforcement in this 
country in developing the kinds of outreach, prevention, and 
detection programs that are now the exception, not the rule. 
And that reality represents a national vulnerability that we 
must together fix as soon as possible.
    So this is going to be a very important and interesting 
hearing. I thank our witnesses for coming from all across the 
country. As I said before you were here, Senator Collins, this 
is an investigation that began when you were Chairman and we 
have continued it now together, and I do not know that anybody 
else in Congress is doing anything quite like it. I think it is 
critically important for our security, so I thank you for 
initiating it, and I call on you at this time for your opening 
statement.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Mr. Chairman, I am delighted 
that you are holding this hearing today. I think it will help 
deepen our understanding of the threat of homegrown terrorism 
and the role that local law enforcement can play in countering 
it.
    The rising threat of homegrown terrorism magnifies the 
importance of local law enforcement in our efforts to protect 
our country from attacks. While some terrorists are foreign 
nationals crossing borders to operate as part of an 
international network like al-Qaeda, others may be native-born 
or naturalized Americans radicalized by a Web site advocating 
violence or in an extremist mosque or even in prison.
    As recent domestic plots against Fort Dix and the JFK 
International Airport demonstrate, local law enforcement 
officers are often our first line of defense against such 
homegrown terrorist threats. Whether local officers are 
patrolling, investigating the link between a stolen car and a 
driver's forged identification, or conducting community 
outreach, their actions can help to disrupt terrorists' planned 
attacks within our country. These officers are often present at 
the first encounter with radical elements in their communities.
    For example, four of the September 11, 2001, terrorists, 
including the one who hijacked United Airlines Flight 93, had 
earlier been pulled over and ticketed for speeding. Each of 
them had violated a U.S. immigration law, but the State and 
local officers who stopped them were not aware of that. If 
standard procedures had included checks for such infractions, 
and if we had set up an effective system to get that data to 
these front-line officers, perhaps part of the September 11, 
2001, plot might have been detected and disrupted.
    Surveilling and photographing public buildings, smuggling 
drugs or cash, buying precursor materials for bombs, making 
violent statements or threats--checking on any of these 
behaviors can turn a routine policing incident into a chapter 
of the broader fight against terrorism. Alert officers 
sensitized to the potential implications of these behaviors are 
powerful weapons in our homeland security arsenal.
    Local police are also particularly well positioned to 
understand the roots of violent extremist behavior in the 
ethnic, racial, or religious communities in their towns and 
cities and to reach out to those communities in a respectful 
and cooperative spirit. Each of the departments represented 
before us today has worked on understanding the process of 
radicalization to the point of violence and on avoiding 
attitudes or tactics that can alienate local populations and 
reduce their willingness to report suspicious events or to 
cooperate in police investigations.
    With wider awareness of threats, more extensive 
coordination, and better information sharing, the Nation's 
local law enforcement officers can play an even stronger, more 
collaborative role in our counterterrorism partnership. Today 
we will learn more about the initiatives of the New York City, 
Los Angeles, Kansas City, and Miami-Dade police departments to 
combat the threat of radicalization and domestic terrorism. I 
particularly look forward to hearing about New York City's 
study of the radicalization process based on foreign and 
domestic case studies. It offers a very useful framework for 
analyzing and intervening in this lethal process. Like the 
Chairman, I was struck by the finding that often the 
individuals who go through the radicalization process are 
``unremarkable'' citizens, living lives without any contact 
with the criminal justice system.
    Similarly, the work of the LAPD in creating a fusion 
center, which I have visited, and in developing a Community 
Mapping Project provides examples of best practices that can be 
extended elsewhere. I look forward to deepening this 
Committee's understanding of how local police departments have 
organized themselves for counterterrorism work, how they 
develop and use personnel and programs, and how they interact 
and coordinate with agencies on the Federal level, like the FBI 
and the Department of Homeland Security. They can also help us 
identify and disseminate best practices and lessons learned and 
ensure that our sharing of information and analysis provides 
effective, actionable leads.
    While our witnesses today represent major cities, we must 
keep in mind that terrorists, whether foreign or homegrown, can 
also plan, train, buy supplies, assemble bombs, or carry out 
attacks in smaller communities or rural areas. We must ensure 
that those officers in smaller departments benefit from the 
skills and knowledge developed in larger departments and that 
our Federal assistance is delivered in ways that can provide 
the greatest support for all local law enforcement efforts.
    So, again, Mr. Chairman, thank you so much for scheduling 
this very important hearing.
    Chairman Lieberman. Thanks, Senator Collins.
    We will go now to the first panel. We are glad to welcome 
Lawrence Sanchez, Assistant Commissioner, New York City Police 
Department, and Mitchell Silber, Senior Intelligence Analyst of 
the New York City Police Department. Thanks for all your work. 
I think you have broken new ground, and we are very grateful 
that you are here to talk to us about it.
    Commissioner Sanchez, I believe you are going to begin.

 TESTIMONY OF LAWRENCE H. SANCHEZ, ASSISTANT COMMISSIONER, NEW 
                  YORK CITY POLICE DEPARTMENT

    Mr. Sanchez. Thank you, Mr. Chairman, and Senators, 
Committee Members, staff, and guests. We, in the New York 
Police Department, again are very grateful for the opportunity 
to address this Committee on what this department views as a 
critical issue affecting the safety of the citizens of New York 
City.
    Since September 11, 2001, the world has witnessed dozens of 
attack plots, all highlighting the potential threat of 
radicalization by Islamist extremism, especially in Western 
democracies. In New York City itself, we have experienced this 
phenomenon up close as evidenced by the 34th Street case, the 
Fort Dix case, and the JFK case.
    Your Committee's interest in the role of local law 
enforcement relative to the Islamist extremist-based threat is 
one that the NYPD has continued to evolve since the devastating 
attacks of September 11, 2001.
    In a city of about 8.5 million, where 40 percent of its 
population is foreign born, the New York Police Department 
views its mission as going beyond that of the more traditional 
Federal mission on terrorism. In other words, rather than just 
protecting New York City citizens from terrorists, the New York 
Police Department believes that part of its mission is to 
protect New York City citizens from turning into terrorists. 
And that is a very important point because it changes the 
threshold, it changes the focus, and actually it makes the job 
a lot harder.
    That is why the understanding of all aspects of Islamist 
extremism, how it plays into radicalization, the agents 
involved, and the tactics involved, are all vital to our 
department's ability to counter the effects of this phenomenon 
across this 8.5 million population.
    As you mentioned, we published this study on the homegrown 
radicalization in the West. This analysis and compilation of 11 
cases documents a continuity of behaviors and indicators across 
all 11 cases that may--and I emphasize ``may''--be signatures 
or precursors of potential future terrorist acts.
    Mitch Silber, one of our senior civilian analysts, who has 
been actually working on this for the past 3 years, has spent a 
good part of his time traveling to the front lines of homegrown 
radicalization, which are in Europe, in the U.K., the 
Netherlands, France, Spain, and spending a lot of time actually 
looking at what has been termed ``innocuous behaviors,'' and 
plotted and documented these in his study of these 11 cases.
    I am going to turn the floor over to him so he can give you 
a brief synopsis of the highlights of what this study 
encompassed. Thank you.
    Chairman Lieberman. Thanks, Commissioner. Mr. Silber.

    TESTIMONY OF MITCHELL D. SILBER,\1\ SENIOR INTELLIGENCE 
ANALYST, INTELLIGENCE DIVISION, NEW YORK CITY POLICE DEPARTMENT

    Mr. Silber. Thank you, Commissioner. Thank you, Senators.
---------------------------------------------------------------------------
    \1\ ``Radicalization in the West: The Homegrown Threat,'' report 
from the City of New York Police Department, prepared by Mitchell D. 
Silber and Arvin Bhatt appears in the Appendix on page 537.
---------------------------------------------------------------------------
    The NYPD believes that the threat, and the nature of the 
threat, of al-Qaeda-inspired terrorism to New York City has 
evolved since September 11, 2001. While the threat from 
overseas remains, most of the terrorist attacks or thwarted 
plots against cities in the West since September 11, 2001, have 
fit a different pattern. The individuals who plotted or 
conducted the attacks were generally citizens or residents of 
the nations in which the attacks occurred. Though a few may 
have received training in al-Qaeda camps, the great majority 
did not. Although al-Qaeda claimed responsibility for each 
attack, these attacks were not under the command and control of 
al-Qaeda Central, nor were they specifically funded by al-Qaeda 
Central. Rather, they were conducted by local residents and 
citizens who used al-Qaeda as their ideological inspiration. 
This is a homegrown threat, and it is driven by radicalization.
    The current threat that homegrown al-Qaeda-inspired 
terrorism presents to Europe is on an order of magnitude 
greater than that of the homegrown threat to the United States. 
Second- and third-generation Muslim citizens, whether they are 
in Britain, Spain, Germany, Denmark, or other European nations, 
are more alienated, less accepted, and, thus, more vulnerable 
to radicalization than in America. To some degree, America's 
longstanding tradition of absorbing varied diaspora populations 
has protected the United States and retarded the radicalization 
process at home. However, one of the primary conclusions of our 
report, ``Radicalization in the West,'' is that the process of 
radicalization that led homegrown groups in Europe, Canada, and 
Australia to plot against their host countries is applicable 
and has already occurred within the United States.
    American Muslims are more resistant, though not immune, to 
the jihadi-Salafi narrative. The thwarted plot against Fort Dix 
in New Jersey in May 2007, was conceived by homegrown 
jihadists, took place less than 2 hours from Manhattan, and 
only underscored the seriousness of this emerging threat to the 
homeland.
    With this in mind, NYPD sought to better understand this 
trend and the radicalization process in the West that drives 
unremarkable people to become terrorists. Our study examined 
the trajectories of radicalization that produced operational 
cells in Madrid, in Amsterdam, in London, in Sydney, and in 
Toronto to construct an analytical framework that tracks 
jihadist recruits from the stages of pre-radicalization to 
self-identification to indoctrination through jihadization--a 
cycle that ends with either capture or death.
    It then compares this model with the trajectories of 
radicalization observed in conspiracies within the United 
States, including the jihadist clusters in Lackawanna, New 
York; Northern Virginia; Portland, Oregon; New York City; and, 
last, with the Hamburg cell that was responsible for the 
attacks on September 11, 2001.
    More recently, based on my travels to Denmark and Germany 
this past month, and based on conversations with their 
intelligence and police services, the two plots that were 
thwarted this past September in both countries also seemed to 
follow the same basic process that we have identified.
    The dissection and comparison of these plots led to the 
assessment that there is a common pathway of radicalization in 
the West. Each of the stages in this process is distinct and a 
specific signature is associated with it. All individuals who 
begin this process do not necessarily pass through all of the 
stages, and the vast majority stop or abandon this process at 
different points. Moreover, although this model is sequential, 
individuals do not always follow a perfectly linear 
progression. However, individuals who do pass through this 
entire process are quite likely to be involved in a terrorist 
act.
    Pre-radicalization: Pre-radicalization is the point of 
origin for individuals before they begin this progression. It 
is their life situation before they were exposed to and adopted 
jihadi-Salafi Islam as their own ideology. Based on our 
comparative studies of 11 cases, individuals who are vulnerable 
to this radicalization tend to be male Muslims between the age 
of 15 to 35 who are local residents and citizens from varied 
ethnic backgrounds. Significant proportions come from middle-
class backgrounds and are not economically destitute. Moreover, 
many are educated, with at least a high school background, if 
not university students. Recent converts to Islam are 
particularly vulnerable to this ideology and have played an 
important role in many of the groups. Nevertheless, the far 
majority of group members do not start out as radical, or even 
devout, Muslims.
    Self-identification: Self-identification is the phase where 
individuals, influenced by both internal and external factors, 
begin to explore Salafi Islam, gradually gravitate away from 
their old identity, and begin to associate themselves with and 
adopt this ideology as their own. The catalyst for this 
identity crisis and subsequent religious seeking is often what 
is called in behavioral science a ``cognitive opening.'' This 
is an event which challenges one's certitude in previously held 
beliefs and opens one's mind to a new perception or view of the 
world.
    Some of the crises that can jump-start this process include 
economic--losing a job, blocked mobility; social issues--
alienation, discrimination, racism, real or perceived; 
political issues--international conflicts involving Muslims; or 
personal issues--a close death in the family.
    For many Muslims in the West, especially those of the 
second and third generations, who are seeking to learn about 
their Muslim heritage, the Salafi interpretation is the version 
of Islam that they are most widely exposed to. It has become 
more mainstream and has proliferated within diaspora 
communities. This interpretation of Islam is not the cultural 
Islam of their parents or of their home countries. And while 
this may begin as an adoption of a more peaceful, apolitical, 
or political variants of Salafi ideology, it also can become a 
stepping stone to the jihadi-Salafi interpretation which paves 
a path to terrorism by its doctrines, which suggest that 
violence is a viable and legitimate means to defend Islam from 
perceived enemies, even if it means attacking one's own 
government and/or sacrificing one's own life.
    Indoctrination: Indoctrination is the stage in which an 
individual progressively intensifies his beliefs, wholly adopts 
this ideology and concludes, without question, that the 
conditions and circumstances exist where action is required to 
support and further the cause. This action is militant jihad.
    Group members leave the mosque if it is not sufficiently 
extreme and too conspicuous. Gradually, they begin to separate 
themselves from secular society, and they self-radicalize. 
Radicalization continues in the living room of the nearby 
private house or apartment. The only window left open to the 
world is the Internet. However, at this point individuals are 
interacting with like-minded others in a virtual echo chamber--
individuals who only reinforce their beliefs.
    Jihadization: This is the phase in which members of the 
cluster accept their individual duty to participate in militant 
jihad and self-designate themselves as holy warriors or 
mujahideen. Ultimately, the group will begin operational 
planning for the attack. These ``acts in furtherance'' will 
include planning, preparation, and execution. One particularly 
important observation is that this process of participating in 
autonomous jihad is very much a group phenomenon. While earlier 
stages may occur on an individual basis, this phase is closely 
associated with friends deciding to partake in an action 
together rather than as isolated individuals. Often individuals 
will seek to travel abroad to participate in the field of 
jihad, such as Afghanistan, Pakistan, Kashmir, Chechnya, 
Somalia, or Iraq--only to be redirected to the West to do 
something for the cause there.
    Frequently, the group members participate in outdoor 
activities, like rafting, camping, and paintball, to vet, to 
bond, and to train. In addition, mental preparation commences 
as jihadist videos are watched. Last, potential targets are 
chosen, surveillance and reconnaissance begins, and the group 
weaponizes with readily available components.
    It is critical to note that while other stages of 
radicalization may take place gradually over 2 to 3 years, the 
jihadization phase--the stage which defines the actual attack--
can occur quickly and with very little warning. In some cases, 
this stage runs its course in as little as a couple of weeks.
    So what explains this phenomenon? Well, it begins with 
alienation of second- and third-generation Muslims, individuals 
who are torn because of the secular West and their religious 
heritage. It also encompasses economic stagnation and perceived 
discrimination--issues that are far more concerning in Europe 
than in the United States.
    In addition, there is a search for identity. This exposes 
individuals to the Salafi-Wahhabi interpretation, and this can 
be through a variety of different conduits: Muslim student 
associations at universities, NGOs, mosques, and probably most 
importantly, the Internet.
    There is also the prevalence of jihadi subculture in most 
cities in the West; if individuals are looking for tapes or 
books they can find in a local mosque bookstore or via a 
student group. In addition, this is a vulnerable demographic. 
These individuals are at a very action-oriented age.
    And, finally, there are the current military clashes in the 
Islamic world that highlight the fault lines between the West 
and Islam. These are portrayed by some as a clash of 
civilizations or a war on Islam, and they are portrayed as 
crises that necessitate mobilization.
    The list of grievances is long, and it includes issues like 
Spanish participation in Iraq, U.S. actions in Afghanistan and 
Iraq, Canadian or Australian participation in Afghanistan, U.S. 
support for Israel, British presence in Iraq or Afghanistan, 
and India's presence in Kashmir. However, it is important to 
note that the removal of any one or two of these issues would 
not eliminate the threat, and I call attention to the Madrid 
2004 train bombings. Clearly, the grievance that drove these 
individuals was to punish Spain for its participation in the 
coalition war in Iraq. However, the second rationale is not as 
well known. The individuals who conducted the attack cited the 
Spanish occupation, and this is the Spanish occupation of al-
Andalus going back to 1492 and the expulsion of the Moors by 
King Ferdinand and Queen Isabella--clearly a grievance that is 
unlikely to be resolved anytime soon.
    In conclusion, since September 11, 2001, U.S. authorities 
have uncovered homegrown jihadists in such varied locations as 
Lackawanna, New York; Northern Virginia; Portland, Oregon; Fort 
Dix; and New York City. These arrests, along with trends 
observed at the street level in New York City indicate that 
radicalization is taking place in the United States. Our fear 
is that even small conspiracies with limited capabilities could 
carry out attacks equivalent to the London subway bombings, the 
Madrid train bombings, or even a jihadist version of the 1995 
Oklahoma City bombing. Thank you very much.
    Chairman Lieberman. Thanks very much, Mr. Silber. That was 
very thoughtful and informative, and I appreciate that work 
very much.
    Let's do 7-minute opening rounds since there are three of 
us here.
    Let me go back to something I said in my opening statement, 
which is the previous testimony of Secretary Chertoff and 
Director Mueller, that there is a very real threat from 
homegrown violent Islamist extremism. A National Intelligence 
Estimate that came out in July said the same thing as your 
report, just to establish a basis of fact here. In your report, 
there is a section titled ``The New York City Experience,'' and 
you write, ``Radicalization continues permeating New York City, 
especially in Muslim communities.''
    I wonder if you would take a moment to just add a little 
bit and explain what that statement means, not just to New York 
but in terms of the real or potential threat from homegrown 
Islamist extremism in the United States.
    Mr. Sanchez. Well, I think, Senator, you can look at it 
from several different angles. One is that New York is not 
immune, just as any other city, and the amount of extremism 
available on the Internet has been growing logarithmically. It 
is available. It is easy to get. You do not have to go far to 
find an Internet cafe even if you do not have a computer. You 
can always be subjected to the extremism provided in the 
Internet and the virtual world.
    In the 34th Street case, we found this extremism in a 
bookstore that would sell extremist material. And not 
uncommonly, you will find other places of business where they 
do sell jihadist tapes, jihadist literature. So the 
availability of material that is extremist continues to grow, 
and it is made available in the regular business abodes that 
you would see in any city.
    Chairman Lieberman. Right. Would you say that the Internet 
today is the most significant factor in the radicalization that 
is occurring in America?
    Mr. Sanchez. I would, because I believe the Internet is 
usually the stepping stone where people go to look first. If 
you look across these phases of radicalization, there is an 
identity phase where people are really looking for an answer. 
When you look for an answer, people nowadays, especially in 
Western societies, go to the Internet. And, unfortunately, 
because the extremist message is the most popular, when you 
Google something like ``Islam,'' you are going to get the first 
15 sites all going to be extremist sites. So you get an 
immediate exposure to that.
    Then the Internet plays another role. When you move on to 
another phase, which is one of looking for other like-minded 
people so you can come out of the virtual world and meet real 
people, it has chat rooms. It talks about places. It talks 
about things you could do together. It talks about events that 
you can go and join and become part of it. So now it gives you 
indicators for the real world where you can meet real people 
rather than living in this virtual world.
    And then as you progress down these stages, the Internet 
then becomes a research tool for maybe things you want to do. 
If you want to research information on bomb-making material, 
the Internet, again, becomes a resource for that.
    So it really covers the breadth of a radicalization process 
and becomes a useful tool in each of its phases.
    Chairman Lieberman. One of the things in response to your 
report and a hearing earlier in the year as a result of an 
investigation on the role of the Internet that I have been 
thinking about is whether we should make a request of the 
Internet service providers to take some of the extremist Web 
sites off. They have got that capacity. They do it in some 
cases where there is dangerous material. None of us likes 
censorship, but insofar as this is a real threat to security, I 
wonder if you have thought about that as one response to what 
you found in your investigation.
    Mr. Sanchez. It would be, I think, a very important step if 
we were able to curb the amount of extremist sites available on 
the Web. But I am skeptical that we would, again, have a lot of 
traction in doing that because we have seen so many sites go 
down and we have seen so many sites go up. I mean, even in the 
world where there is a lot of law enforcement putting a lot of 
effort on cases of child pornography, they have not been able 
to curb it much. It stops and comes up. I think it is almost a 
futile attempt.
    Chairman Lieberman. Yes, I hear you, and that is a question 
I have asked myself, something we are exploring. Obviously, you 
would not knock off a Web site on Islam. You would have to find 
evidence on the site that it was quite literally fomenting, 
insurrection, violence, and that it was providing a chat room 
in which some things were happening which were going to lead 
potentially to radical action.
    Going beyond the Internet, I was struck by the NYPD report 
concluding that potential violent Islamist extremists, 
including those who go on to the Internet, still need what the 
report calls a ``spiritual sanctioner'' and an ``operational 
leader,'' which suggests that the Internet alone cannot 
complete--or even initiate in some cases the radicalization 
process. I wonder if you would talk about that a bit and also 
whether the Internet in some cases itself becomes the spiritual 
sanctioner.
    Mr. Sanchez. Let me give that one to Mr. Silber. I think he 
can do a good job on that.
    Mr. Silber. Right. One of the cases that we discussed was 
the Toronto 18 case from the summer of 2006, and that was 
really a demonstration of where a group of individuals met on 
the Internet and interacted on the Internet. But at the end of 
the day, before they could actually commit an act, they had to 
leave the virtual world and meet in the real world, and to some 
degree, that is maybe an intervention point for law 
enforcement.
    But more specifically in terms of these two archetypes that 
we highlighted, the spiritual sanctioner, I will talk about 
that one first, and that is really an important individual, and 
it is interesting that the individual is more often than not 
the imam in the mosque. This is really a self-appointed expert 
on Islam and may know just a little bit more than everybody 
else. But this person's role really cannot be underestimated 
because it is this individual who is giving this minority 
extremist view of Islam and making it legitimate to these 
individuals who do not have much knowledge of Islam to begin 
with. And in almost every one of the cases that we looked at, 
that individual played a key role in guiding the radicalization 
of the individuals and telling them what was a legitimate 
response, what was approved by Islam or not. And this really 
drove these groups' radicalization, and we really see that 
person as key for bringing people from stage two, self-
identification, where it is simply just a religious awakening 
and can be very benign, to step three, which is indoctrination, 
where clearly someone has adopted the fact that violence is a 
legitimate means to an end.
    And as far as the operational planner goes, that person has 
also a critical role, and often the difference between a group 
of individuals that is simply an aggrieved bunch of guys and a 
group that actually goes operational. And one could look at 
Mohammed Siddique Khan on July 7, 2005, in London, or even 
really Mohamed Atta from the Hamburg group as being the 
individual who took these disparate individuals who really did 
not have the backing in terrorism and made them an operational 
group.
    Chairman Lieberman. Excellent. Thank you. My time is up. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. As usual, you and 
I focused on exactly the same issues, so I am going to continue 
along that same line of questioning.
    In your report, you found that the individuals who go 
through this process are not on law enforcement's radar, that 
they are largely, your term was, ``unremarkable individuals.'' 
But in all 11 cases, there was, as the Chairman indicated, a 
spiritual sanctioner and an operational leader.
    There is no profile for the individual who may be recruited 
to go through this process, but is there a profile for the 
spiritual sanctioner and the operational leader? Mr. Silber.
    Mr. Silber. In terms of the spiritual sanctioner, really 
the only profile in terms of commonality was this was an 
individual who believed that they knew more about Islam and 
knew a little bit more than the rest of the group. So they had 
some claim to legitimacy. In the European cases, a few of these 
individuals actually had experience fighting in what they 
believed was a legitimate jihad overseas, so they had this 
veteran status. Specifically, in the Hamburg group of September 
11, 2001, there was an individual named Mohammed Haydar Zammar, 
and this was a person who had experience fighting in jihad in 
Bosnia. So when he claimed to know what the true Islam was, 
that carried more weight with this group of neophytes.
    And as far as the operational planner, it is really 
somebody with the mentality, discipline, and intellect to be 
able to lead the group. And, again, Mohammed Siddique Khan in 
the July 7, 2005, attack, this was a Leeds Metropolitan 
University graduate. Again, with September 11, 2001, with the 
Hamburg group, Mohamed Atta was an individual who was an 
engineering and architectural student. So these were people who 
were well educated, well informed, and had the knowledge to be 
that leader.
    Senator Collins. What your findings suggest to me is that 
it is almost impossible to try to figure out who is going to go 
through this process because they are average citizens or 
average residents, but that if we can figure out who is likely 
to be the spiritual sanctioner or the operational planner, that 
could lead us to the entire network, because it is really 
telling that in every one of the case studies that you looked 
at, you had those two roles. Is that a fair assessment of how 
we should target the efforts?
    Mr. Silber. I think certainly having those individuals is a 
necessary condition for a group to go forward, and actually one 
group that we profiled, the Hofstad group in Amsterdam, was a 
group where it was unclear who the operational leader was. And 
as a result, this group never actually went forward to fulfill 
their greater plans. One individual acted ahead of everybody 
else and assassinated Theo van Gogh. But that group did not 
have an operational planner and could not go forward.
    But certainly those two individuals are critical for the 
group to go through the whole process, and it may be worthwhile 
to try and identify those individuals as a first step.
    Senator Collins. Commissioner Sanchez, I was struck in 
reading about the department that you have an enormous number 
of individuals with foreign language capabilities that allows 
you to more easily do outreach to specific communities, and it 
really is in stark contrast to the lack of that capability at 
the Federal level.
    I am wondering whether it is because you have made an 
effort to recruit from those communities, or are you investing 
in significant language training for your police officers?
    Mr. Sanchez. Having spent over 20 years at the CIA before 
coming to the New York Police Department, I was overwhelmed by 
the resources they had as far as language and culture.
    I think being that New York City is 40-percent foreign 
born, the NYPD mimics that demographic breakdown. There are 
probably in the area of being between 25- to 40-percent foreign 
born, just by the typical average recruiting would have classes 
that would include quite a bit of both first- and second-
generation people from various countries. So it was not 
something--there was not a program we instilled. It was 
resources we found. And what we have done with it is rather 
than allowing it to just be part of the fabric of the NYPD, we 
sort of corralled it to be able to use it as best we can on 
this issue.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Voinovich, thanks for being here this morning.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, and thank you for following 
up on the hearings that Senator Collins started on this issue 
of radicalization. I think it is one of the most important 
issues that we need to be concerned about, and I congratulate 
you for the outstanding work that you have done in this report.
    As a former mayor, one of the things that I always was 
troubled about is too often the interface with the community is 
always through the police department. And I wonder, do you have 
any other vehicle where you are reaching out to the Muslim 
community besides the police department? Do you have a 
community relations board, for example, that has outreach into 
the neighborhoods where people live to develop an understanding 
and dialogue and a communications network?
    Mr. Sanchez. The department does have a community--whole 
community policing unit. The department is very big. The 
department is 53,000--37,000 in uniform, the people we have. 
Community outreach is a very important part of what we do. Yes, 
it is mainly a police-run community effort, but it is usually 
run from our little home stations called precincts that are 
within each of these communities. These are the actual first 
faces and the common faces that the people in those 
neighborhoods, be it if it is the Hassidics on two blocks and 
the Pakistanis three blocks over, see on a daily basis. So we 
do most of our work through the police and an outreach that 
includes civilians within that police department, but it is 
done through the police department.
    Senator Voinovich. We call them ``police-community 
relations.''
    Mr. Sanchez. Correct.
    Senator Voinovich. I had them out in the district, and they 
got the local people together with the department.
    Mr. Sanchez. Correct.
    Senator Voinovich. And beat cops to talk and dialogue with 
each other and get to understand each other.
    Mr. Sanchez. And they have picnics, and they do all kinds 
of events with them. It is very important that we always 
preserve that as a function without ever tainting it with any 
preconceived notions of anything that we know about terrorism, 
because they are dealing with people on a daily basis and the 
most important thing they do is to secure and develop 
confidence within those communities across every ethnicity that 
lives there.
    Senator Voinovich. What efforts are being made by the 
Muslim community? I recently met with Imam Rauf in my office, 
and if you are familiar with him, he is trying both, in the 
United States and internationally, to get Muslims to understand 
that you can be a good Muslim and you can believe in the 
Declaration of Independence and all of the things that we hold 
dear to us, and that they are not inconsistent.
    But is there any effort in the Muslim community to try and 
counteract the more radical elements who try to get people to 
do things that are inconsistent with the Koran. Because 
unfortunately, and I believe incorrectly, it casts a bad shadow 
over the entire Muslim community.
    Mr. Sanchez. It is a very tough issue, Senator, for various 
reasons. One is that, unfortunately, Islam is not a religion 
that has tenets, doctrines, and hierarchy. So you cannot have 
one spokesman to try to set a standard. Even when we looked 
across al-Qaeda, al-Zawahiri, and al-Zarqawi, they all emulated 
a different cleric.
    That said, the other problem we have is that it is not 
always about the religion, we have seen. It is a political 
ideology that cuts and pastes religion to fulfill conviction. 
And what I mean by that is the spiritual sanctions that we get 
in Western democracies, they are not like learned scholars with 
35 or 40 years of studying at al-Azhar University and others, 
and really studying the religion and becoming experts on this. 
These are 22- and 23-year-old kids that are coming out of some 
of the Muslim student associations who are very charismatic and 
become spiritual sanctioners.
    So, again, it just continues to justify that this is not so 
much about the religion, but they are skilled enough to provide 
this religion justification for a political conviction. We see 
many times where the moderate church is trying to influence the 
more extremist mosques. A moderate mosque influencing a more 
extremist mosque can actually polarize them. They do not want 
to listen to them. It is almost as if you had a charismatic 
Catholic Church trying to influence a conservative one, and we 
have that dynamic going on.
    So I do not know if the answer is going to be through the 
religion at the end of the day.
    Senator Voinovich. We talked about the Internet. What do 
European countries do? Are radical Web sites as available in 
France or Britain as in the United States? I mean, the Internet 
has become a dangerous source of propaganda and an even more 
dangerous source of terrorist training.
    Mr. Sanchez. It is a global phenomenon, but I will let Mr. 
Silber talk to you about that because he has actually sat with 
these people from the other countries and talked about that.
    Mr. Silber. Yes, Senator, they are as frustrated as we are 
in the fact that it is so difficult to regulate, and even if 
some attempt were to bring down a site, these people are very 
resilient, and individuals find other ways to bring these Web 
sites back in some type of other formula.
    The only thing that we have seen--and, really, I do not 
know if there is enough data to measure success or not--at 
least in the U.K. they raised the threshold in terms of what 
they can do a prosecution for in terms of the Internet, and 
probably within about the last month or so, they convicted an 
individual up in Scotland for incitement to violence, an 
individual who had downloaded significant data from the 
Internet about how to conduct attacks. And this was an 
individual who himself had not gone through a conspiracy stage, 
but at least the fact that he had downloaded this information, 
had spent an amount of time on the Web at these different Web 
sites, was ultimately convicted and received a sentence of 8 
years.
    So that is what the Brits are experimenting with, in a 
sense raising the threshold in terms of what you can do or not 
do on the Internet, and it still remains to be seen if that is 
going to be successful and discourage people from going to 
these Web sites.
    Senator Voinovich. Mr. Chairman, I know you talked about 
it, but Internet use in inciting violence may be something that 
we really ought to look into. The Internet has become a weapon 
that is being used to incite individuals to conduct that which 
they ordinarily would not be involved with or would be 
incapable of in the first place.
    I remember when I was a State legislator, and the police 
department came to me, and we had a lot of fire bombing going 
on in the late 1960s. Individuals would meet in the street at 3 
o'clock in the morning with a bottle of kerosene and a wick and 
they would have matches or some other device to ignite it. But 
they could not arrest them until they put it together and they 
were ready to go with it. We got a piece of legislation passed 
that said that under those circumstances law enforcement could 
act and not wait until it was too late. And, frankly, they did 
not use it very often, but the fact it was there and available 
to them meant a great deal in terms of dealing with some of the 
stuff they were confronted with on the street.
    So I think we have got to maybe look at some of these 
things differently than we would traditionally because of 
technology.
    Chairman Lieberman. Thanks, Senator Voinovich. I agree with 
you, and I appreciate your statement. We should work together 
to see if there is something we can do. I know there are some 
others on the Hill that are interested in this with the 
Internet service providers to try to bring down some of these 
violent Web sites, understanding that they can bounce up again 
somewhere else, but at least we will make it harder for them to 
do business, which is, I think, by extension, exactly what you 
were trying to do in the case that you described.
    Because this is so interesting, I am going to ask that we 
do another round, a shorter round, maybe 4 minutes each, just 
to subject you to a continuing cross-examination.
    I want to stress something Mr. Silber said, because for a 
long time I think we have felt that because America is such an 
open society, Muslim Americans, like every other wave of 
immigrants that have come to the country, have had opportunity 
unmatched elsewhere, including in Europe, that we would not 
face this problem. And it is, first, reassuring, based on your 
investigation on both sides of the Atlantic, that you agree 
that the problem is significantly less severe here than in 
Europe for exactly that reason, that the Muslim Americans who 
have come here from the various places they have worked their 
way up, and obviously the overwhelming majority are very loyal 
and proud American citizens. But you had a sentence that is 
worth remembering, which is that American Muslims are more 
resistant but not immune--and that is the point--to what you 
call the jihadi-Salafi ideology.
    Second, Commissioner Sanchez, I am paraphrasing, but I 
think you said that the aim of this investigation and of the 
NYPD was not just to prevent terrorist attacks, obviously, 
post-September 11, 2001, in New York City, but to try to 
understand and then prevent the radicalization that leads to 
terrorist attacks.
    So in the end, what are the steps that you come away with 
that you feel in this very unusual area, unremarkable people, 
not on the screen of law enforcement, how do you begin to try 
to prevent the radicalization that leads to terrorism?
    Mr. Sanchez. Let me try to answer it this way. The key to 
it was first to understand it and to start appreciating what 
most people would say would be non-criminal, would be 
innocuous, looking at behaviors that could easily be argued in 
a Western democracy, especially in the United States, to be 
protected by First and Fourth Amendment rights, but not to look 
at them in a vacuum, but to look across to them as potential 
precursors to terrorism.
    New York City, of course, has created its own methods to be 
able to understand them better, to be able to identify them, 
and to be able to make judgment calls if these are things that 
we need to worry about. In a closed forum, I could go into a 
lot more detail, Senator, as you have been briefed in the past 
on how we do business. But the understanding and appreciation 
and the acknowledgment of the dynamics of the issue are the 
first steps.
    Chairman Lieberman. I appreciate that and I thank you for 
it. This investigation by the Committee is ongoing, but I will 
tell you what I said at the outset, that your department 
obviously has done real pioneering work here. There is great 
work being done by the three other departments we will hear 
from in a minute. But these are the exceptions, not the rule. 
And, quite surprisingly, in some communities with significant 
Muslim-American populations, there is very little of the 
organized outreach that these four departments are involved in.
    I wanted to ask you whether you or anyone else is doing 
anything--your responsibilities are large enough in New York, 
but what has been the reaction of law enforcement around the 
country to this report that you have done and some of the law 
enforcement that you are working with?
    Mr. Sanchez. Mixed, Senator, at best, and for various 
reasons--and various reasons that are very understandable. The 
reality is that crime has dropped in New York City for the past 
15 to 16 years in a row. It is an unbelievable trend. Homicides 
this year might even come under 500, which would be unheard of. 
Because we have been attacked twice, we have been given 
tolerance by the public and the luxury to be very aggressive on 
this topic.
    The City of New York might be a No. 1 target, but as you 
point out, Senator, it is not unique to this phenomenon of 
radicalization, which worries us every single day, because at 
one point we have the Federal Government on the front lines for 
those attacks that are generated where people are radicalized 
from overseas and come to New York. We are hoping we have a 
handle on things that are incubating in the streets of Queens. 
But what we do not have confidence in is that things are 
incubating in the United States in another city which is not 
doing anything, and can come to New York City as a target city.
    That said, the motivations and incentives in many of the 
cities that have high crime--terrorism is not going to be the 
first issue, especially if the calculus at the end of the day 
is that the terrorist act by those potential extremists is not 
going to be in that city. So it makes it difficult to be able 
to create some kind of a comprehensive approach to this in the 
United States.
    That said, the New York Police Department has launched an 
Operation Sentry where we have started an outreach program to 
all the departments around us, as small as they might be, from 
Poughkeepsie to Newburgh to Suffolk County. And we are creating 
training, we are showing them how we do business in New York 
City, and basically trying to proliferate the way we do 
business and understand this phenomenon.
    Chairman Lieberman. Good. Thank you. Senator Collins.
    Senator Collins. Commissioner, what has been the reaction 
of the Department of Homeland Security and the FBI to your 
report?
    Mr. Sanchez. I guess that has sort of been mixed, too. Our 
relationship with the FBI has actually--and as you probably 
heard in a lot of different settings, become stronger and a lot 
closer. I will honestly tell you, when the NYPD got into this 
business, it was horrible. There were a lot of turf issues, as 
one might expect. There was a lot of hostility. But I guess the 
size of our department kept this alive, and our commitment that 
we are not going to go away kept this alive.
    Now, that said, I think we continue to depend on the Joint 
Terrorism Task Force (JTTF), and we continue providing over 125 
detectives to the JTTF to protect us from that threat that is 
coming from overseas where we cannot collect on it, we do not 
know when these people got radicalized, and we do not know 
where they are going. So we really depend on that, and we take 
direction from them there, and they know that.
    The reception, I think, on our paper has been mixed in that 
a lot of organizations would have rather put something out on 
this before we did. It was important for us to get this out 
quickly because every day we are fighting the war of civil 
liberties, one we are trying to protect, but one we are also 
trying to inform. And we could not be too politically correct 
on all of this and still preserve the program that we continue 
to be very aggressive on in New York City.
    So the short non-answer: It has been a mixed response. 
Sometimes it is just quiet. But it has not been volatile or 
hostile.
    Senator Collins. That is my assessment as well, based on 
our discussions with the FBI in particular.
    We held a hearing earlier this year that the Chairman 
referred to looking at the use of the Internet as a 
radicalization tool, and I had the uncomfortable feeling that 
perhaps some of the Federal agencies involved in this fight 
were not taking the threat of domestic radicalization through 
the Internet seriously enough.
    What is your assessment? Do you think the Federal response 
to the threat of homegrown terrorism is at the level it should 
be?
    Mr. Sanchez. Senator, it is tough to say because one of the 
problems I see that the Federal officials have--I said before 
that part of our mission drives the way we do business, and 
part of our mission is to protect New York City citizens from 
becoming the terrorists. The Federal Government does not have 
that mission, so automatically, by definition, their threshold 
is higher. So they are going to have a lot harder time having 
to deal with behaviors that run the gamut on First and Fourth 
Amendment rights and to be able to even look and scrutinize 
them without having even reached a standard of criminality that 
you need if your prime objective is you are going to lock them 
up. So it is difficult. Even though the will might be there, I 
think the limitations actually hinder the ability. And, of 
course, resources, think about New York City. The Intelligence 
Division is 600 strong, and we are only doing five boroughs.
    Senator Collins. Mr. Silber, my time is almost expired, but 
I want to bring up very quickly an issue that this Committee 
looked at a few years ago, and that was the financing of the 
spread of an extremist ideology by the Saudis through the 
financing of radical mosques and madrassas in this country. Are 
you seeing that in New York City as well? We looked at Northern 
Virginia in particular, which is where we saw it.
    Mr. Silber. Right. I think probably the biggest challenge 
that we see is probably the proliferation of the ideology that 
originates from Saudi Arabia. To date, NYPD has not pursued any 
terrorist financing cases. What we do see is the ideology. One 
of the things that we cite in our report were Noble Korans that 
were produced by al-Haramain Institute that ended up in the New 
York State prison system, and these were particular Korans that 
on the English side of the page had special footnotes and 
appendices that did not appear in the Arabic. And this, again, 
is a Koran that originated in Saudi Arabia.
    Much of the literature that we see being read by some of 
these student university groups is books that originate from 
Saudi Arabia about Muhammed ibn Abd-al-Wahhab. So we do see the 
ideological influence right now more so even than a financial 
role in proliferating the ideology.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Voinovich.
    Senator Voinovich. I have met on a couple of occasions with 
our Joint Terrorism Task Force, about 3 years ago and then more 
recently in Cleveland, and I was impressed with the fact that 
they felt that information was really being moved around from 
Federal agencies to local agencies and they had a really good 
network there that would never have existed when I was mayor 
because of all the turf business, even among the Federal 
agencies.
    Do you share that observation, that the communication 
between these agencies is a lot better than it was before? Or 
do you think it needs to be improved?
    Mr. Sanchez. Senator, I can tell you that in New York City, 
our relationship with the JTTF and as far as whatever 
information we need--and, believe me, in New York we have 
progressed way past being enamored with threat information. We 
have been more seized with a lot more deep, strategic thought 
pieces that the intelligence community has had. And I can tell 
you that we have access to any and all of those at our request.
    Senator Voinovich. And do they have the same thing? In 
other words, are you responding and sharing with them 
information that you pick up?
    Mr. Sanchez. Right, and the beauty of it is that the people 
who have the clearances can guide those that may not have 
clearances that are doing the work. You can always protect 
sources and methods and still guide direction and operations. 
And I think we have found a way to actually make that work.
    Senator Voinovich. In some areas around the world, we are 
seeing a rise of anti-Semitism. Do you see any of that in New 
York?
    Mr. Sanchez. We have started to, as you have seen from some 
of the events we had at the tail end of the U.N. General 
Assembly, where we had the swastikas being painted--something 
that has not happened in New York City for years. We moved very 
quickly on the hate crimes to try to stem it before it got any 
traction. We are hoping we have stemmed it, but we are hoping 
it is not a trend that is going to take any hold. But you do 
have instances of that. You just have to move quickly to nip it 
in the bud.
    Senator Voinovich. In Ohio, we are trying in certain 
places--I am particularly familiar with what we have done in 
Cleveland--to bring the Jewish and the Muslim community 
together. Is there any effort under way in New York City to do 
the same thing?
    Mr. Sanchez. I do not know if there is a strategic effort. 
There have been instances where on occasion there have been 
meetings set up where it involves Jewish leaders speaking to 
Muslims. But I am not aware of any strategic effort to do this 
on a consistent basis at this point.
    Senator Voinovich. In our 9/11 legislation, we included a 
Sense of the Senate in regards to the prevention of 
radicalization leading to ideologically based violence. And at 
the end of it, we talked about the Department of Homeland 
Security educating State, local, and community leaders in 
regard to radicalization.
    Do you think that the Department of Homeland Security has 
been aggressive enough in this area? Or have you pretty well 
taken it over because you are on the street and you are able to 
do it?
    Mr. Sanchez. A little of both, Senator, in that I think the 
Department of Homeland Security has a much larger job, which, 
of course, then dilutes what we really need. I mean, they have 
to look at the entire country. They are trying to get their 
hands around radicalization State by State. And at this point, 
because of where we are in this, they are going to be limited 
by the information that has already been gathered through 
investigations, and not by starting at the ground up and 
figuring out what the real source of radicalization or the 
significance of it is in each.
    So as we do our work in New York, we have become very 
specific to New York City, so our information has become a lot 
more detailed in what we need. So the DHS studies are still 
probably less detailed than we need at this time, but they have 
been supportive in everything else that we have wanted them to 
do, including creating ways of getting information easier, 
actually detailing people to help us on certain projects. So it 
is a mixed bag.
    Chairman Lieberman. Thanks, Senator Voinovich.
    Commissioner Sanchez and Mr. Silber, thanks for your 
testimony. Thanks for the investigation and research that led 
to your report. Thanks for your service in general. This 
Committee looks forward to continuing to work with you on this 
problem. We appreciate it very much.
    Mr. Sanchez. Thank you, Senator.
    Mr. Silber. Thank you.
    Chairman Lieberman. Thank you.
    We will now call our second panel to the table. That will 
be Deputy Chief Michael Downing, Counterterrorism and Criminal 
Intelligence Bureau of the Los Angeles Police Department; Major 
Michael Ronczkowski, Homeland Security Bureau, Miami-Dade 
Police Department; and Major Thomas Dailey, Homeland Security 
Division of the Kansas City Police Department.
    We thank you very much. You have traveled some distance to 
be here. But in each of your cases, based on the investigation 
our Committee has done, your departments are doing very 
important work that we both wanted to give some national 
attention to but, frankly, we also wanted to learn from.
    So we will begin now with Chief Downing. Thank you, Chief.

       TESTIMONY OF MICHAEL P. DOWNING,\1\ DEPUTY CHIEF, 
COUNTERTERRORISM AND CRIMINAL INTELLIGENCE BUREAU, LOS ANGELES 
                       POLICE DEPARTMENT

    Mr. Downing. Thank you, Mr. Chairman, Senators, and guests. 
It is a pleasure and an honor to be here to speak to you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Downing appears in the Appendix 
on page 627.
---------------------------------------------------------------------------
    I come from the Los Angeles Police Department (LAPD), which 
is a department of nearly 10,000 people, of which we have 
approximately 300 dedicated to this counterterrorism effort. 
But the real challenge is that while we may be No. 2 or No. 3 
in size, the 17,000 or 18,000 local law enforcement agencies 
spread throughout the United States probably have as an average 
less than a hundred people. And so while our initiatives and 
projects and themes may appear grand and best practices, the 
real goal is to try to instill this level of focus and strategy 
to these smaller agencies throughout the United States.
    I had the pleasure to work in England with the New Scotland 
Yard for 2 months last year, and the stories that were told 
when I got there--just a year and a half prior they believed 
the IRA threat was over, that there was no terrorism issue 
there, and that they were focusing too much attention on it. 
Days later, as you know, explosions rang out throughout London, 
52 British citizens were killed, and people were asking what 
happened.
    In November, the day I got on the plane to leave for 
England, the head of MI5 publicly stated that there were 1,600 
people under surveillance for counterterrorism-related 
activity. There were 200 cells and 16 active operations, and 
people asked, how could this be? How could this be happening 
right under our noses? So today I bring you lessons from both 
sides of the Atlantic that I learned and share with you.
    Unlike Federal agencies, local law enforcement is part of 
the community. Knowing the community is what we do, and the 
close relationship that we have is the key to prevention. No 
agency knows their landscape better than the local law 
enforcement, and we were built and designed to be the eyes and 
ears of communities or the first preventers of terrorism. And 
not only us, but we tried to instill that idea of being the 
first preventers of terrorism to private security, the private 
sector, the faith communities, the communities that we work 
with every day, the businesses, and the corporations. Everybody 
has a responsibility.
    But it is also our position that legitimacy and 
intelligence are equally important tools for U.S. law 
enforcement in this counterterrorism effort. Legitimacy starts 
with the organizational knowledge and pride in operating 
constitutionally and within the law. And we want to be 
recognized as sincerely honoring this principle in intelligence 
and counterterrorism activities and respect this community so 
that they can respect us.
    In the LAPD, we believe that no amount of enforcement or 
intelligence can ultimately prevent extremism if the 
communities are not committed to working with law enforcement 
to prevent it.
    My testimony is based on the following four principles: 
That American-Muslim neighborhoods and communities have a 
genuine responsibility in preventing any form of extremism and 
terrorism. If the broader communities are intolerant of such 
things, these ideologies cannot take root. We need to show our 
belief in human dignity, the family, and the value of the 
individual, and that community policing initiatives in Muslim 
communities should aim to create a shared sense of threat. 
Society as a whole fears the indiscriminate mass violence we 
are seeing around the world, and only when the community 
leaders support this effort will there be a flow of credible 
intelligence.
    We have tried to align our people, our purpose, and our 
strategy around the mission of building capacity to both hunt 
and disrupt operational capability, the recruiting, the 
funding, the planning, the surveillance, and the execution of 
operations; but just as important, equally important--maybe 
more important--we have aligned our resources to focus on the 
motivational side of the terrorist equation; great efforts at 
organizing and mobilizing in partnership, raising the moderate 
Muslim voice to prevent extremists from making inroads into 
this faith community. We have gone to great lengths to extend 
ourselves and extend an olive branch to that community so that 
we can stand with them, that they feel confident to resist the 
extremists from taking over mosques or taking over their youth.
    Local law enforcement can play a vital role in the fight 
against violent ideological extremism as the educator. We talk 
about this balance between soldier and educator. Teaching all 
communities about the dangers of extreme ideologies can dispel 
harmful rumors and myths that alienate already pressured 
communities. We have learned that Muslim communities in the 
United States are mistrustful of the mainstream media. 
Therefore, they may turn to other sources which they have for 
news and socialization, such as the Internet.
    We have learned from the European experience how these 
alienated communities become a breeding ground for violent 
extremism and also become safe havens for potential terrorists 
to hide among the population. We do not have the same kinds of 
problems as England, France, Israel, and Germany. The 
underlying motivations are unique to the host country. And we 
also do not have the same kind of response--the Building 
Identity and Resisting Radicalization (BIRR) Project in 
Australia, the Channel Project in northern England, the Jail 
Deradicalization Project in Malaysia. But we have pioneered 
outreach efforts in the Muslim and non-Muslim communities.
    For the past 18 months, LAPD has been involved in outreach 
and grassroots dialogue with the Muslim communities, bringing 
the entire command staff to observe, learn, engage, and, most 
importantly, listen. This has helped to build more robust trust 
networks at the divisional level of police service. And our 
outreach to the non-Muslim community has combined education and 
prevention. We now have terrorism liaison officers in all of 
our divisions, in all of our fire stations. We have public 
health involved, code enforcement involved, parking enforcement 
involved, and L.A. Unified School Police involved. We are 
trying to institutionalize this idea and create more awareness, 
orientation, and also public data collectors.
    LAPD has learned the hard way. Southern California was the 
birthplace of gang culture, and in Los Angeles, we are all too 
familiar with the threat of violent crime by street gangs.
    You mentioned homicides. As of today, we have had 335 year-
to-date. Last year-to-date at this time we had 399, and we hope 
to finish the year under 400. Normally, 65 to 70 percent of our 
homicides are gang related. But regardless of how many officers 
we deploy, we can only suppress specific incidents. Prevention 
is the lesson learned from the gang experience. And while more 
police are part of the answer, the real solution lies in the 
community, with the strengthening of family structure, economic 
base, the weakening of political power bases built on 
victimization, and a cultural tolerance of violence. Congress 
should ensure that DHS provides to local law enforcement the 
tools needed to establish this relationship and enlist the 
entire Muslim community in public safety.
    One of the biggest challenges for law enforcement in this 
environment is separating political jihadists, those who 
intentionally plant seeds of division in an effort to alienate 
and isolate Muslim citizens from the rest of society, from 
legitimate actors. The LAPD must also have the capability to 
hunt for signs of radicalization and terrorism activities on 
the Internet, and we have recently started a cyber 
investigations unit to do just that. The Internet is the 
virtual hangout for radicals and terrorists.
    In order to give our officers increased awareness of our 
local Muslim communities, the LAPD recently launched an 
initiative to conduct an extensive Community Mapping Project. 
We are also soliciting the input of local Muslim groups so the 
process can be transparent and inclusive.
    But this is not just a data set. It is the start of a 
longer conversation. We will identify with communities and the 
community identifying with its families, neighborhoods, city, 
State, country, and police. We probably have over 700,000 
American Muslims throughout the Los Angeles region, but we do 
not really know where they live or what they do or how they are 
structured. We have great outreach, and we have got great 
relationships, but the idea here is to actually map out, to 
find out where the Pakistani Muslims live, the Somalians, the 
Chechnyans, the Jordanians, and then identify risk factors, 
exposure to Wahhabi-Salafi preaching, socioeconomic conditions, 
age and gender demographics, and look at those, and on one side 
be the catalyst to infuse social services and governmental 
resources, and then on the other side possibly be involved in 
intelligence approaches so that we know what is going on in 
those communities.
    For the past 18 months, LAPD's outreach and grassroots 
dialogue with Muslim communities has helped the entire command 
staff to observe, learn, engage, and listen. This has helped to 
build more robust trust in the area. We need to show that 
behind the badges of American law enforcement are caring 
Americans doing law enforcement. But we also need to help them 
develop the counter narrative, to inspire the American-Muslim 
community to responsibly partner with law enforcement, to help 
us with our purpose, and that is, to protect American values. 
Thank you.
    Chairman Lieberman. Chief, thanks very much. Very 
impressive and helpful testimony. I have some questions I want 
to ask you, but will wait until the end of the testimony.
    Major--not Mayor. I did not want to declare your candidacy 
today.
    Mr. Ronczkowski. I would rather be a Major. [Laughter.]
    Chairman Lieberman. Yes. You are a smart man.
    Major Ronczkowski, thanks for coming up representing the 
Homeland Security Bureau of the Miami-Dade Police Department.

TESTIMONY OF MAJOR MICHAEL R. RONCZKOWSKI,\1\ HOMELAND SECURITY 
              BUREAU, MIAMI-DADE POLICE DEPARTMENT

    Mr. Ronczkowski. Chairman Lieberman, Senator Collins, and 
other distinguished Members, I appreciate the opportunity to 
come forth today to give you some insight to what the Miami-
Dade Police Department is doing in the realm of Islamist 
extremism as well as homeland security and the threat that may 
exist.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ronczkowski appears in the 
Appendix on page 635.
---------------------------------------------------------------------------
    We work with the simple premise of Merriam-Webster's 
definition of ``extremism'' as the advocacy of extreme measures 
or views. Nowhere in that definition does it point to any one 
particular group or segment of society that may exist. We are 
concerned with not only those of Islamist extremism but those 
which may exist in the homeland that will cause others to join 
them. It may be a white supremacist group. It may be other 
groups. There are many extremists that are out there. We are 
looking for the melding of them coming together.
    But we are going to focus on the Islamist extremist side of 
the house, and the role of local law enforcement is key, it is 
critical. What we are looking at--at the local law enforcement 
level--is a proactive posture. The Miami-Dade Police Department 
does not take a reactive--we want to be proactive. And in order 
to do that, we must get out there, work with the community, be 
aware of what is going on, and I am going to highlight some of 
those efforts.
    As you have noted, as well as other folks have noted, the 
Internet is a huge dilemma for us. We cannot police at the 
local level the Internet. Just go onto a very popular location, 
MySpace, that many teenagers are on. Type in the word 
``jihad,'' and you will get 45,600 results back. Type in 
``Islamist extremism,'' you are getting between 500 to 800 
results back. Why is that key? Are every one of those violent 
extremists? No. But the discussions are there. They are posting 
pictures. We are aware of a lot of what is going on. And there 
are many other forums. I do not want to single out any one. But 
we do have to look at all of them, from YouTube to MySpace, 
what Google will bring back. It is amazing what you can come up 
with.
    Miami-Dade County is a large area, larger than two States 
and about 17 countries, where more than half of our citizens 
are foreign born. Nearly two-thirds speak another language. 
That diversity is exemplified in the religious bodies that we 
have. We have over 900 congregations and 70 different 
theologies represented.
    It is in the past 10 years that the Muslim component has 
come into play. We have got about 70,000 folks that follow 
Islam within our region. Nothing near what New York and L.A. 
are encountering, but we have them from far different reaches. 
We have them from Iran, we have them from Pakistan, we have a 
small Somali component. We have varying degrees. And as noted 
in New York's study, as well as other studies that have been 
done, such as the one in the Netherlands, there are many 
factors that come into play, and we are seeing some of them 
down in our area.
    I will provide you some insight into what we have been 
doing with the Federal partners, some of which has been 
exemplary. We are fortunate to have an exceptional relationship 
with not only the FBI but also with DHS down in our area.
    As I noted before, we are taking a proactive posture. We do 
not look at counterterrorism. We look at it as antiterrorism, 
one that should be taken by all law enforcement. What we have 
been approaching is getting the local law enforcement officer 
on the street to be the eyes and ears. Federal law enforcement 
does a great job, but they are not out there 24/7/365, as the 
local law enforcement is. We have reached out to our local law 
enforcement and been giving them a fundamental understanding of 
not only what to look for but different cultures, different 
keys, different patterns of behavior that may exist that they 
should be aware of.
    But something is missing. We need to teach them about 
Sayyid Qutb, who had a presence here in the United States prior 
to going over to lead the Muslim Brotherhood, and Abdul Azam--
these are ideologues of al-Qaeda--as well as others that may 
exist. Few have hardly even heard of them.
    We have gone ahead, and we have put out classes that have 
reached out to our local law enforcement partners, not just in 
our department but the 109 different ones in our region. Yes, 
there are 109 law enforcement agencies, many small, many large.
    The traffic stop is a component that is experienced by 
every single law enforcement agency at the local level. Federal 
law enforcement does not do many. Local law enforcement may do 
50 to 100 within a week within an agency. That is key, because 
if you look at some of the main players that have been stopped 
since 1988 with the Japanese Red Army bomb maker in New Jersey, 
Timothy McVeigh, and most recently the individuals in South 
Carolina, they have not been stopped by Federal agents. They 
have been stopped by local law enforcement for traffic 
infractions.
    We keep talking about the criminal justice system. The 
criminal justice system is key. However, these are folks that 
are going under the radar screen, and something that in this 
country we rely upon heavily is not mass transit, it is local 
transportation, and that is the vehicle. That vehicle gets 
stopped, gets ticketed, has traffic crashes. Those are 
opportunities to uncover different pieces of the puzzle.
    It is time that local law enforcement starts acting locally 
and thinking globally. We have taken an approach that it is 
nice to know that you can go ahead and do things within a 
certain jurisdiction, but we are not an extension of 
necessarily the local government. We are an extension of the 
national effort, national law enforcement. We understand in 
South Florida what is going on in Cuba. We understand the tri-
border region. We understand what is going on in the Middle 
East. These are representations of our communities, so we have 
a need to understand what is taking place out there.
    The terrorist organizations that we are facing today are no 
longer hierarchical, top-down chain of command. They are very 
flat organizations as, through the Internet and through other 
means, the radicalization piece is huge. What we are going to 
find in the local law enforcement is material support. That is 
the financing and weapons that may be necessary to carry out a 
plot, as well as the recruitment. These are the three main 
pieces. We are not going to catch Osama bin Laden at the local 
level.
    Efforts that we have been working with Major Cities Chiefs 
Association and Federal partners have helped us reach out to 
Los Angeles, Kansas City, and New York on a continual basis, 
but those efforts need to continue to go forth. What we are 
starting to see is diffusing of the information. While 
diffusing of the information is great on a national level, it 
has got to start at the local level. As you pointed out, many 
agencies at the local level have a huge presence, have had 
radicalization, from Hancock, New York, to Bridgeview, 
Illinois, to Lodi, California. Nobody has been immune. South 
Florida has not. As you pointed out, Senator, the traffic stop, 
in South Florida, next county up--we have had many Islamist 
extremists that have come through the South Florida region.
    In November 2005, the Miami-Dade Police Department went to 
address some of the issues, and that was the identification of 
skills, knowledge, resource, accessibility, and motive--what I 
call ``SKRAM''--what we are trying to locate within these 
terrorist organizations. We started that by developing a 
Homeland Security Bureau in 2005. We are not as large as New 
York or L.A., but we have committed 65 dedicated, experienced 
investigators, as well as analysts, to go ahead and address 
this problem. Our mission is simple: We put together a 
component that addresses what the community represents. We have 
everything from Spanish-speaking officers to Polish, to 
Tagalog, to Arabic. We have covered everything that we can 
possibly think of.
    We have moved into a partnership with the HIDTA, the High-
Intensity Drug-Trafficking Area, with our own resources, 
$500,000, a $7 million general fund budget. Our department has 
taken this commitment. This commitment is from the top down, 
from Director Robert Parker, Chief Ricky Smith, Mayor Carlos 
Alvarez. It is a buy-in that has to go across all avenues.
    We are divided into three functional areas. That is our 
intelligence area, our operations area, as well as our 
infrastructure protection. There are many good programs that 
come about, but if we do not look at it as a whole, we are not 
doing much service.
    Our Intelligence Operations Center is the piece that fuses 
the information and, if you will, we are the fusion component 
for South Florida.
    We have started to have partnerships with our corrections 
folks as well as our partners in the fire department, and we 
are developing those relationships as we speak.
    As I said, most of what we have is done through the general 
fund, so we are limited in what we do and our approach. But the 
commitment was there. Our endeavor to pursue all avenues of 
homeland security were there. Our commitment is 100 percent 
homeland security and the threat not only from Islamist 
extremists but white supremacists, motorcycles, whatever the 
case may be.
    We have gone ahead, and we have become the model at the 
national level Department of Homeland Security by outfitting 
not only the National Operations Center (NOC) with a detective, 
we took a unique approach. We took the approach of the Regional 
Domestic Security Task Force. We have partnered with the 
Broward County sheriff and the Palm Beach County sheriff's 
office to put a rotational officer at the NOC to get 
situational awareness down so we can put it down to the road 
officers.
    Our Federal partners have been exemplary. We have been part 
of the JTTF from the early beginning. We have been part of the 
field intelligence group, the Department of Homeland Security, 
and ATF, some of which has helped us in the most recent case, 
what has been known as the Liberty City Seven case, where we 
had radicalized youth trying to go ahead and blow up the Sears 
Tower.
    We have worked with the Major Cities Chiefs Association, 
with Director Parker on the homeland security effort, and many 
other initiatives that have taken place.
    We have enlisted the public's help because this is not just 
a problem of law enforcement, it is not just a problem of the 
Miami-Dade Police Department. It is a problem for this Nation, 
and everyone has a responsibility to take an effort.
    We have come up with different programs. Programs are nice, 
but they do not address the overall issue, whether it is an 
866-58-ALERT number that they can call in tip lines, seven 
signs of terrorism, which I will provide your staff, we took a 
unique approach. We did it in black and white without faces 
because terrorism is faceless. We do not want people looking 
for colors. We do not want them looking for certain types of 
folks. And we put that out there, and we have had a huge 
response, not only from the local community, if you will, the 
Hispanic community, but we had a huge buy-in from the Muslim 
community when some of them did see it.
    We have gone ahead and we have worked with security, 
schools, shopping malls, many different folks. But the most 
important folks that we have reached out to in the past year, 
probably more than ever, has been the Muslim community. We only 
have 70,000 in the region, 50,000 in our area. They come from 
Guyana, Southeast Asia, Trinidad, Africa. We have Hispanics, we 
have Anglos, we have many converts. But we cannot overlook 
anybody. All you have to do is look at Jose Padilla as an 
example of that.
    We have worked with various organizations, from the 
American Muslim Association of North America (AMANA) to the 
Council on American-Islamic Relations (CAIR), and to many of 
the student organizations. We have 12 fully functional mosques 
in our area. There are another five that work in concert to 
these schools and universities. We have put on regional 
training. We have brought in the imams, the clerics, the 
instructors, and the teachers. They have shared their food with 
us. We have brought them in to the road officers as well as the 
investigators.
    These are things that have to be understood. There are many 
cultures out there. We are probably the greatest example of 
that in a small, tight-knit area. And even though this is a 
small component, we have had great success and great buy-in 
from publications to our awareness campaigns to our overall 
training where we have invited them as well as them talking to 
us, showing up at their trainings and their different meetings 
that they have.
    There are 750,000 local law enforcement officers. Please do 
not overlook one of them. They are far more powerful than 
anything possibly at the Federal level. Why? Because they are 
out there 24/7/365. But it is the small ones we cannot 
overlook. We are reaching out to our region. I know my partners 
are reaching out to theirs.
    I thank you and I look forward to answering your questions.
    Chairman Lieberman. Thanks very much, Major. I appreciate 
the testimony. Again, I appreciate all you are doing.
    Major Dailey, I appreciate your coming from Kansas City to 
tell us what the Homeland Security Division there is doing 
about the problem of homegrown Islamist terrorism.

    TESTIMONY OF MAJOR THOMAS DAILEY,\1\ HOMELAND SECURITY 
 DIVISION, KANSAS CITY POLICE DEPARTMENT, KANSAS CITY, MISSOURI

    Mr. Dailey. Thank you, Senators. Good to be here. Good to 
see a familiar face, Senator McCaskill.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dailey with an attachment appears 
in the Appendix on page 645.
---------------------------------------------------------------------------
    Senator McCaskill. Great to see you.
    Chairman Lieberman. Did she prosecute you or did you 
prosecute her? [Laughter.]
    Mr. Dailey. Actually, she was a great ally.
    Chairman Lieberman. I am sure she was. I know. She is a 
great addition to the Senate.
    Mr. Dailey. I have been accused of not being able to 
introduce myself in 10 minutes, so let me just try to hit the 
highlights of our concerns, our counterterrorism efforts.
    I will talk about and demonstrate the need for a national 
model for police agencies. We find violent Islamist extremism 
to be a fluid and ever evolving threat, and terrorist 
operations have become more subtle and sophisticated, and it 
necessitates a constant adaptation by police agencies and law 
enforcement, and there is no section of this country that is 
immune from the influence of Islamist extremism.
    We are centered in the middle of the Nation. We have a 
metropolitan area of about 1.7 million people, and our 
adversary is a silent, careful group disguised as legitimate 
Islamic organizations and charities. There is a high geographic 
concentration of refugees from East African countries who are 
predominantly Muslim. Within this group may be individuals who 
have stolen the identity of refugees to gain entry into this 
country. There is a possibility that exists that members of 
terrorist organizations and those posing as their family 
members are now residing in our community. And this issue is 
certainly complicated by the fact that deportation of a refugee 
is very difficult due to the refugee status.
    We have had more of a concentration of Middle Eastern 
immigrants and some refugees that are based around the Islamic 
religious centers. Many of them are intensely loyal to their 
homeland and their religious beliefs. They have established 
businesses and immersed themselves into the community, but they 
still may have sympathies with terrorist organizations as it 
relates to conflicts in their homeland. Some individuals have 
been identified that have ties back to terrorist organizations 
and may be conduits for fundraising, recruitment, or terrorist 
acts.
    One of the areas of concern in Kansas City includes an 
environment created for the support of terrorism through 
fundraising. It involves criminal predicates of acquiring money 
and material through activities such as fraud, forgery, money 
structuring and laundering. The Kansas City, Missouri, Police 
Department Intelligence Unit incorporates detectives trained in 
financial investigations, which adds an important component to 
our investigative capabilities. Our Counterterrorism Patrol 
Strategy that I will describe in a little bit incorporates the 
importance of recognizing and noting financial transaction 
records by patrol officers. Important also in this process is a 
very close working relationship with the U.S. Attorney's 
Office, which includes regular consultation with them.
    Another concern is the criminals that we know whose parole 
stipulations prohibit them from associating with each other are 
using freedom of religion to gather and may use this 
opportunity to further criminal endeavors and may offer a route 
to the radicalization process.
    We have talked at length already about the Internet, and I 
am going to skip over some of that. It certainly is the new 
recruitment and training camp and makes it a lot easier for 
this radicalization process to take place. But I would also add 
that the Internet and the media I believe provide a shortcut to 
the radicalization process, that was outlined for you, through 
imitation. I would just offer the recent campus shootings, 
school shootings, and I could spend an hour on the relationship 
of the gangs and what may evolve in the imitation process.
    We have worked very hard to develop counterterrorism 
strategies and to build bridges and enhance partnerships with 
the legitimate Muslim-American community.
    Many of the ideas and the initiatives for our strategy were 
a result of exposure to the successes, the failures, and the 
gaps in the counterterrorism efforts and strategies at the 
national level that I studied while attending the Naval 
Postgraduate School Center for Homeland Defense and Security, 
which is an outstanding program and it is a DHS-funded program.
    The prevention of terrorism is a result of a working 
intelligence cycle, and it is our goal to engage all our 
officers and citizens in this effort as a force multiplier, if 
you will. The foundation of our strategy is centered around the 
Kansas City Police Department Counterterrorism Patrol Strategy; 
the Kansas City Regional Terrorism Early Warning Center (TEW); 
the Kansas City Police Department Intelligence Unit; and the 
FBI Joint Terrorism Task Force. And I think it is important to 
just highlight how this patrol strategy came about as it 
relates to the need for a national model.
    In 2002, the National Strategy for Homeland Security 
outlined three strategic objectives, and two of the three had 
to do with prevention of terrorism and the deterrence of 
terrorism. In 2003, when we started looking at this, it was 
found that most local law enforcement efforts and funding were 
directed towards the response to terrorist attacks, and most 
prevention efforts were aimed at developing intelligence 
analysis centers. To my knowledge, there were no known 
prevention or deterrence models for law enforcement agencies to 
implement that standardized training or strategy for the 
detection, identification, reporting, or interdiction of 
potential terrorists.
    I developed this proposal and met with the chief and our 
Kansas City Police Department Executive Command staff, and they 
supported it wholeheartedly. And I think that it is an absolute 
key point that was brought out earlier, that any of these 
initiatives will fail without the continued support and 
encouragement of the chief and key decisionmakers. And that 
commitment to counterterrorism was further demonstrated when 
Chief Jim Corwin, who was my deputy chief when I brought this 
proposal to him, became chief. He initiated and created the 
Homeland Security Division in 2004.
    This project was initiated with the goal of translating 
current successful policing and investigative techniques into 
terrorism prevention tactics rather than try to reinvent the 
wheel. The basis of the strategy was a great document, ``The 
Office for Domestic Preparedness Guidelines for Homeland 
Security 2003,'' and it consisted of a booklet of key actions 
and tasks representing a framework for prevention. But it was 
written from a perspective for all agencies, all jurisdictions. 
And it is our belief that terrorism and the activities, by 
their nature, are a criminal act. Local police departments 
should look to the tactics and strategies that have proven 
effective in fighting crime as the basis for combating 
terrorism.
    We extracted the tasks out of this document that would 
apply to local law enforcement, and we had a whole wall full of 
sticky notes of tasks and activities, and we clustered them and 
framed them into general components. There were five areas we 
identified as components for the strategy. One was the 
prevention and deterrence activities and tactics. The second 
was community-oriented policing activities. The third was 
training for the officers and the community. The fourth was 
data collection and information sharing, and a fifth was a 
component for project evaluation.
    In those five component areas, we found traditional 
policing methods, skills, and tactics that we were already 
using that would carry out these project objectives. We are 
defining suspicious behaviors and activities; identifying and 
targeting possible suspects, associates, and organizations; 
consensual stops and specific questioning; collecting and 
analyzing intelligence information; deploying resources and 
hardening areas of vulnerability; using counter surveillance 
and the screening of people entering large public events; 
educating and enlisting the public's help in gathering suspect 
information; and using financial analysis techniques to 
investigate suspect organizations.
    In order to identify and incorporate the most successful 
policing tactics and take advantage of the collective expertise 
that already exists in most agencies, we identified various 
units within the police department, and representatives were 
designated, and we gave them the challenge to assist in 
developing these concepts; applying research results and 
translating their experience into the prevention and detection 
activities. And I will not go through all of them, but some of 
the people we incorporated were from the Border Patrol, the 
Joint Terrorism Task Force, Gang Unit, Career Criminal Unit, 
Narcotics Interdiction, our Community-Oriented Policing units, 
Training Division, Computer Unit, Planning and Research, and 
numerous others.
    Upon completion of this project, the information was put 
into training modules for pre-service, or the academy, and in-
service training for Kansas City Police Department officers and 
community groups.
    An understanding on how terrorists operate through pre-
incident indicators and characteristics we think are a key to 
preventing terrorism, and I have included a description of the 
module, and I certainly will not go through that. But the idea 
was to use case studies, and I was interested in the New York 
report because they did the same thing. We used that during the 
training as a means to understand terrorism acts that have 
occurred, what could have been done to prevent those acts at an 
earlier stage, in the identification stage, or case studies 
where terrorism was prevented and what they did. We 
incorporated those and culled patrol tactics from them.
    The patrol strategy establishes a clear structure for 
reporting, which was missing and is missing in most agencies. 
And, again, I will not go through the modules.
    A very important piece of this strategy is an outreach and 
applied community-oriented policing. Most police departments 
pooh-poohed community policing when it was introduced over a 
decade ago. It has been demonstrated since then that when the 
community and the police regularly join in problem solving that 
it does result in specific crime problem reduction, the fear of 
crime is reduced, and we believe this same philosophy can be 
implemented to counter the threat of radical Islamist terrorism 
and domestic terrorism.
    It is recognized that it is important to have members of 
the Muslim community and all communities as part of our 
efforts. We have had specific open forum meetings with members 
of the Muslim community. For example, after September 11, 2001, 
we had a city-wide forum to discuss the repercussions from the 
September 11, 2001, attacks, and how we can assist them and the 
whole community in coming together to prevent any 
repercussions. In areas where there is a high concentration of 
Muslim immigrants, especially most recently from East Africa, 
officers are in regular contact and conduct neighborhood 
meetings. We train the officers to build partnerships and 
trust, which has already been mentioned as a key, as well as 
methods for cultivating resources within those communities. And 
again, the community policing module is included in the 
information.
    One piece of it is worth mentioning. We have developed 
community presentations for community groups, business groups, 
security companies, and landlords. We have yet to have a 
community meeting where we did not have somebody come up 
afterwards with some kind of suspicious activity they wanted to 
relate to us.
    The culmination of this effort is the information 
gathering, analysis, and sharing process, and, of course, the 
single objective of this is to give advance warning of those 
who may be involved in the process leading up to committing 
acts of terror, what may happen, indications and warnings, and 
what may be done to prevent them. And for this to take place, 
it is critical for possible terrorism information gathered from 
all the sources to be routed to the regional information 
sharing or analysis agency, but also the State and the Federal 
Government. And right now, for example, currently when 
information is received through the Kansas City Police 
Department communications or from department personnel that 
requires immediate investigation, it is routed to our 
Intelligence Unit, who responds to where the call came from for 
investigation.
    Suspicious activity reports are routed to the Intelligence 
Unit and the Kansas City Regional Terrorism Early Warning (TEW) 
Center for analysis. Any information that is linked to an open 
case or that may be a credible threat is routed to the JTTF for 
follow-up. The Terrorism Early Warning is not an operational 
arm. We use the JTTF as the operational component.
    We operate in concert with the FBI, and we have personnel 
assigned to the JTTF, which includes the DHS agencies as part 
of the intelligence cycle. And the FBI in turn will, in the 
near future, have personnel assigned to our TEW.
    We belong to a nine-county Regional Homeland Security 
Coordinating Committee, and the TEW, which is partially funded 
through DHS, was established as a multi-agency, multi-
jurisdictional analysis center. The analysis center ensures a 
coordinated flow of intelligence to and from all sectors and 
levels of government. Of course, the desired end of this effort 
is the ability to view raw data from all sectors of the 
community and the provide analytical insights with specific and 
actionable informational products. The TEW distributes 
intelligence bulletins and training bulletins several times a 
week, or sooner if needed.
    The TEW Executive Committee, that establishes the policy is 
comprised of local and county first responders, Federal 
agencies, and private sector. This was done to reach as many 
segments of the community as possible and create an information 
conduit.
    Chairman Lieberman. Excuse me for interrupting. If you can 
bring it to a close pretty soon, because we are going to have 
votes later this morning, and I want to give everybody a chance 
to ask some questions.
    Mr. Dailey. I am almost done.
    Chairman Lieberman. OK.
    Mr. Dailey. The bottom line is this: It is critical to 
close these gaps between those who are gathering the 
information, those who connect the dots, and those who are on 
the street and are most likely to encounter terrorism. To date, 
this has resulted in numerous leads and contributed to the 
cases leading to indictments and furthered the effort of 
identifying those who constitute a terrorism threat.
    This Counterterrorism Patrol Strategy was very labor 
intensive. It took us over a year to complete. The Bureau of 
Justice states there are over 15,000 local, county, and State 
police agencies, and the smaller agencies do not have the 
resources to develop a comprehensive strategy, and it would be 
our recommendation that DHS collaborate with the FBI and police 
agencies to design a law enforcement counterterrorism patrol 
strategy model consisting of best practices. And this model 
could be tailored by existing regional training academies and 
made part--consideration could be given to making it part of 
the Peace Officer Standards and Training (POST) requirements 
that most States have.
    Chairman Lieberman. Thanks, Major, for that testimony. Your 
final point is actually the point that I wanted to begin my 
questioning on.
    You have each described thoughtful, progressive, practical 
outreach prevention programs to try to counter Islamist 
terrorist radicalization, obviously terrorist acts. I am going 
to ask you for a short answer at the outset. Were these 
programs self-initiated totally, or to any extent, were they 
encouraged by the Federal Government, particularly the 
Department of Homeland Security or the FBI?
    Mr. Downing. Well, in local law enforcement, we have been 
in this community policing mode for a long time and moving into 
this intelligence-led policing mode, so we are used to reaching 
out and creating partnerships and developing those 
partnerships. So this just focused the problem on another area, 
and especially as the counterterrorism expanded from 30 people 
to 300 people, we had more resources to do it, and that became 
a priority for us. So this was self-initiated.
    Chairman Lieberman. Self-initiated. Is there any Federal 
funding in the work you are doing?
    Mr. Downing. Not for the outreach.
    Chairman Lieberman. OK. Major Ronczkowski, how about Miami-
Dade?
    Mr. Ronczkowski. Yes, sir. Self-initiated. It is from the 
aspect of they were a different part of the community. It was a 
newly emerging component of the community. We took them on, 
just as we take on any other piece of the community. We were 
aware of what the FBI was doing as far as their outreach, their 
mosque outreach programs and things that they have. But we also 
understand they have a fundamentally different mission than we 
do. We are looking to work within the community. They have a 
different mission within the community on how they address 
issues. Our issues start at the ground level and work up. 
Theirs come from the top down sometimes. As far as Federal 
funding, absolutely not. Completely generally funded.
    Chairman Lieberman. OK. And, Major Dailey, how about Kansas 
City?
    Mr. Dailey. Yes, sir. Self-initiated, and the funding, the 
TEW is partially funded through DHS.
    Chairman Lieberman. It is. Do they have a specific program 
or is it just you applied and were able to get some funding?
    Mr. Dailey. It is through our Urban Area Security 
Initiative (UASI) region.
    Chairman Lieberman. Right. You made some suggestions at the 
end. Let me ask, generally speaking--Major Dailey, about this. 
Let me ask Chief Downing and Major Ronczkowski, if you had your 
druthers, what kind of assistance, apart from, obviously, some 
money--but that is OK to ask for, too--what kind of assistance 
would you hope for from DHS or the FBI? The points you are 
making and I am making here, too, is that you have self-
initiated this because you have seen it as part of your 
expanded responsibility to maintain public safety post-
September 11, 2001. But in doing so, as Commissioner Sanchez 
made clear in his testimony, you are performing a national 
function. He is making the point from the perspective of New 
York City, which is that people are going to be radicalized 
elsewhere in America, but they are going to come to New York to 
carry out plans because New York is New York. So let me ask you 
what thoughts you have about what we could do to ensure that 
State and local law enforcements have the direction that you 
need and the support to be full members of this national 
counterterrorism strategy.
    Mr. Downing. Well, I do think it is crucial to recognize 
that local law enforcement has been invited to this table, and 
only recently. We are still trying to fine-tune and make some 
adjustments so that the information sharing environment is 
truly authentic and that we are truly trusted partners and 
there is value in that.
    Chairman Lieberman. But you are not sure you are there yet?
    Mr. Downing. We are not quite there yet.
    Chairman Lieberman. Right.
    Mr. Downing. We have great relationships, no doubt, 100 
percent better than they were a few years ago. But we still 
have some low-hanging fruit to pick, and we still need to show 
that the 750,000 law enforcement officers who are out there 24 
hours a day, 7 days a week, have a different perspective than 
what Federal agencies have, which I know New York is criticized 
for having their people out in foreign lands. But I think it is 
a good idea because it gives a local perspective that the 
Federal Government does not have here. If they are in Jordan, 
what is the intelligence in Jordan telling them about the local 
community in New York? And that is what is so crucial to us.
    So if we had assistance in the area of outreach, this 
Community Mapping Project I am hoping could possibly be a pilot 
project for what the rest of the Nation could look like, 
because if we identify these communities and show where the 
communities are at risk, we could do a lot of prevention by 
infusing social services and governmental resources, and also 
it will help us with our intelligence-led strategy to prevent 
radicalization and prevent terrorism.
    Chairman Lieberman. Thank you. Thanks, Chief Downing and 
Major Ronczkowski.
    Mr. Ronczkowski. Well, seeing you said it, I will not be 
bashful. We could use more funding.
    Chairman Lieberman. Right.
    Mr. Ronczkowski. We actually have a very good relationship. 
We are working with major city chiefs, as well as my colleagues 
here, with a few different initiatives, and they have been 
working and bringing DHS to the table. It is a relationship 
that is continuing to grow. I will tell you, 2 or 3 years ago 
we had a decent relationship. South Florida is unique. We have 
had a very good Federal relationship. The FBI supervisor in 
charge down there has come to the table full boat with law 
enforcement welcomed at every angle. His staff has been meeting 
with our staff on a regular basis. The Department of Homeland 
Security has been helping us with everything from getting us a 
classification of a secure room facility to obtaining secure 
systems.
    As the chief has pointed out, it has to be a trusted 
partnership. I have a lot of information I would love to share 
with them, but if I do not know what it is that they need and 
they do not tell me what they need and why they need it, I 
cannot get it to them.
    We have an interest overseas. We are just not the local 
folks that only know about our neighborhoods. We know about 
other countries. We know other jurisdictions. The reason we do, 
we have a huge influx of people living within our communities 
that travel back and forth. They bring us the information. So 
as they pointed out, we need to know not only what is over 
there, but how it is impacting our communities. The only way we 
are going to do this is starting down at the bottom. What is 
being dictated from our communities is based on 20-, 25-, 30-
year investigators, officers that are on the street. Many of 
the Federal agents, they come down 2, 3, to 4 years. They are 
there, they are gone, they move on to another city. We are 
there for 20 to 30 years. We know what is going on, and we need 
to know what is also going on at other levels. But the 
partnership has been tremendous.
    Chairman Lieberman. Good. My time is up. I am going to 
yield to Senator Collins. I do want to point out that the 
second phase of legislation implementing the 9/11 Commission's 
recommendations that we adopted a few months ago, signed by the 
President, does for the first time specifically enable and 
encourage the Department of Homeland Security to use some of 
the State Homeland Security Grant money and the Urban Area 
Security Initiatives to fund local law enforcement 
counterterrorism programs. So hopefully there will be a flow of 
money beginning in this fiscal year, which, of course, has 
already begun, but we have not funded. But that is something 
you should be asking us questions about, instead of us asking 
you. [Laughter.]
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    As usual, the Chairman has given me the useful transition 
to my first question. The homeland security legislation which 
the Chairman mentioned, the Senate version also would have 
created within the Department of Homeland Security a new Office 
for the Prevention of Terrorism (OPT). We had already given it 
its acronym. And the whole purpose of this office, which was 
suggested to us by State and local law enforcements, was to 
have a single point of contact within the Department that would 
be tasked with working with State and local law enforcements. 
Now, unfortunately, from my perspective, that has been scaled 
down to just a coordinator. I would like to hear from each of 
you an assessment of the degree of cooperation you have with 
DHS and whether you think it would be helpful to create a 
specific office dedicated to the prevention of terrorism. We 
have FEMA to work on preparedness response, but prevention 
really is the key.
    We will start with you, Chief.
    Mr. Downing. I think so. We have a unique and productive 
relationship with DHS. We have a DHS representative in our 
Fusion Center, Joel Cohen, who is a tremendous asset to our 
whole intelligence-gathering operation. And we have had pretty 
good luck in the whole UASI process. In the last three UASI 
cycles, I think our police department received approximately 
$40 million to build infrastructure to help prevent terrorism 
from the Los Angeles Regional Common Operating Picture 
(LARCOP), to the regional video command centers and license 
plate recognition, and things that really detect that. But I 
think we are going a little bit deeper now. Now we are talking 
more about what we can do on the motivational side of the 
terrorist equation, and what DHS could assist us with in 
developing programs and funding to make our outreach really 
meaningful and bring value to that so that we not only 
identify--are able to identify this radicalization process that 
was so well discussed in the New York report, but also look for 
communities at risk and see what we can do to assist and 
support those communities.
    Senator Collins. Thank you. Major Ronczkowski.
    Mr. Ronczkowski. Yes, thank you. We have had a very good 
relationship with DHS, particularly in the past year. We, too, 
have a reports officer that has just been assigned down to the 
region, and he will be working out of our office--James Davies. 
We have been in discussion with Charles Allen with regards to 
getting an intelligence analyst down in our shop.
    My gap is not with the City of Miami or Hialeah Police 
Department. My gap is at the Federal level, and that is what I 
am trying to bridge.
    Some of the funding that has come in, whether it is UASI--
which we are part of. We have seen a decrease in funding in 
South Florida. When it comes to South Florida, it is rather 
unique. You take out and you impact South Florida, most people 
think you are impacting tourism. You are impacting the entire 
Caribbean Basin. What happens in South Florida will impact the 
entire Caribbean Basin because they are very dependent on us, 
from our shallow draft ports, our cruises, whatever the case 
may be. What comes from South Florida generally goes down 
there.
    Most of the equipment and the monies that have been out 
there have been going towards responding, reacting, and 
recovery. I agree there needs to be an office to prevent, work 
on the intelligence aspect, the interdiction, and the 
information flow. Those are key. Many people are trying, but 
there is no focal point that is out there.
    A lot of the money that is coming in is being absorbed in 
management and administration, going to the State level. We are 
the largest law enforcement agency in the Southeast, and our 
money has to go through the State. There should be 
opportunities to have some of that funding go directly to us 
where efforts of what we are already doing could be expanded. 
We will be inclusive of other agencies, including the State. 
However, you are talking millions of dollars that are being 
absorbed that could be used toward prevention.
    Senator Collins. Thank you. Major Dailey.
    Mr. Dailey. Yes, ma'am. The funding mechanism is getting 
very cumbersome because it has to go through a UASI region. It 
does not go from an individual police department. It has to go 
through the region and then through the State and then through 
DHS.
    One of the big issues that I think has got to be resolved 
before we can really truly attack this prevention problem as 
one is we have three streams of information: We have DHS, we 
have the FBI, and we have DOD. In our region, we have local 
FBI. The Joint Terrorism Task Force is represented by DHS 
agencies, Federal Protective Service, Secret Service, and 
Immigration and Customs Enforcement. But it does not solve the 
problem of the information streams going both ways.
    I think there are some good programs in place now. DHS is 
placing analysts in State Fusion Centers. We hope that will 
trickle down to where they will place analysts in regional 
Fusion Centers. Outside of the critical infrastructure 
protection guy in Kansas City, we do not have a DHS 
representative, a liaison, an Office of Terrorism Prevention, 
an officer who could help implement programs. There are 
numerous programs that come out of DHS on a regular basis.
    So I would say more of a presence from DHS, especially in 
the Fusion Centers, Regional Fusion Centers as opposed to State 
Fusion Centers--or in addition to State Fusion Centers. And the 
funding right now--and I will just give you one example of an 
interdiction project we had at terminals, hubs of people who 
were in this country illegally, their visas expired from 
countries that have origins of terrorist organizations. We are 
doing that with our interdiction folks that are working 
narcotics. When we tried to put this program in place for 
funding through the Federal Government, it was turned down, and 
it was the one thing that we have had measurable results in 
stopping people that had ties.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Voinovich.
    Senator Voinovich. First of all, I would like to say thank 
God for local government and what you are doing, because a lot 
of what you are doing, I think, should have been inspired by 
the Department of Homeland Security, but they have other things 
that they are doing.
    I am interested about the funding issue. I met yesterday 
with the head of the Ohio Department of Public Safety and his 
Office of Multicultural Affairs at the Ohio Division of 
Homeland Security, and they claim that there is not any money 
for the kind of thing that we are talking about here today. 
Apparently, you have found money or interpreted programs in 
such a way that you can get money.
    Mr. Downing. Well, in the UASI process, with our UASI 
partners, we are one of the six Tier 1 cities that developed 
investment justifications and projects which were preventative 
in nature, mostly protecting critical infrastructure, detecting 
surveillance and terrorist acts, and making sure that we had 
communication interoperability. And those are the kinds of 
projects that have run in our region.
    Senator Voinovich. Those are infrastructure projects 
primarily.
    Mr. Downing. Yes.
    Senator Voinovich. But in terms of the manpower that you 
would need to adequately maintain police-community relations; 
is there any pot of money that you can reach into that would 
help you get that job done?
    Mr. Downing. No, none of the UASI or State Homeland 
Security Grant Assistance Program money paid for personnel with 
the exception of intelligence analysts.
    Senator Voinovich. Do any of you do community relations 
other than through your police departments?
    Mr. Ronczkowski. Yes. Our department works in concert with 
the county's Community Relations Board. We do have one at the 
county level that we do work with.
    Senator Voinovich. How about in L.A.?
    Mr. Downing. We do. We have a Human Relations Commission, 
an organization that reaches out to the faith and non-faith 
communities.
    Senator Voinovich. Is that working out in terms of your 
Muslim community?
    Mr. Downing. It has an impact. It does play the table. We 
have faith forums that they help us coordinate and facilitate. 
It plays a role, I believe.
    Senator Voinovich. Is that the vehicle you are using in 
your public relations campaign to reach-out to the community? I 
was very impressed with some of the things that you are trying 
to do to create an infrastructure of better human 
understandings. Is that coming out primarily through the police 
department or through your community relations?
    Mr. Downing. That is the police department. That is the 
outreach efforts through the police department. Trying to 
really institutionalize, not making it the priority but a 
priority with the boots on the ground, so to speak, so that 
there is an orientation toward what we are trying to 
accomplish.
    Senator Voinovich. One of the things that I have picked up 
from meeting with some of the leaders in Ohio is that it seems 
like the only people that we are interfacing with are police 
personnel. There is a feeling that they would like to meet 
folks from the community, and there is an assumption that the 
reason we are reaching out to you, is that we have a problem 
with you; that we are getting to know you better because we 
want to use you to get better information.
    Mr. Downing. Right, when we began the dialogue, we were 
right up front. We said we are not out here to knock on your 
door and have you tell us about terrorism or who wants to do 
bad things to good people. We are here, we want to talk to you 
about what community problems can we solve in your 
neighborhood, getting the trees trimmed, the potholes filled, 
and the lighting good. We want to integrate you into some of 
our advisory boards, our Neighborhood Watch programs, the 
Business Chambers of Commerce. That is the kind of dialogue we 
are having.
    Senator Voinovich. An empowerment kind of effort on your 
part to get people involved in the community to kind of realize 
that they are not separate and apart, that they are part of the 
community and you would like them to be part of it.
    Mr. Downing. Absolutely.
    Mr. Ronczkowski. We did something similar where, prior to 
September 11, 2001, last year, we went out to meet with them, 
as the chief said, some agencies do go out there and try to 
solicit them to provide information. Our whole intention was 
you can be targeted because the September 11, 2001, anniversary 
is coming up. There are people that are in the community that 
are against you, and so what can we do to help you on that 
angle?
    So they were part of it. We were part of their issues, that 
they address on a regular basis. But we were not out there 
soliciting from them. We just wanted to be inclusive of them.
    Senator Voinovich. Have all of you started another 
dimension of your diversity training for your police officers 
that deal with this specifically in terms of the Muslim 
community?
    Mr. Ronczkowski. We have done a small version at the 
academy level. We do not have a huge Muslim community. We have 
reached out to the police academy that is under our direction, 
and we pointed out to them what to look for, what to encounter 
when somebody does not know something. There might be a reason 
for it. They may be elusive. It may be a cultural perception. 
You are not seeing the whole picture. And we tried to expand 
upon them the whole picture of what is out there.
    Senator Voinovich. How about Los Angeles?
    Mr. Downing. Yes, we have, and an expanded effort, as you 
may have heard, Chief Bill Bratton has expressed desire and 
thinks there is a big need to have a national counterterrorism 
academy directed at local law enforcement to train the mid-
level practitioners--this is going to be a generational 
problem, and local law enforcement needs to kind of shift into 
this area of intelligence-led policing.
    Senator Voinovich. I have not asked you this, but in terms 
of diversity training, you get the new cadets, and then, 
hopefully, you have an ongoing program of diversity training?
    Mr. Downing. Yes.
    Senator Voinovich Have you created a new element that deals 
with Muslims and the Muslim religion?
    Mr. Downing. We have. In the recruit training, the 
supervisor training, the watch commander training. And as I sit 
here today, the new command development training for our new 
command officers, and they are going through it as we speak.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich. Perfect 
timing. A vote has gone off. While we have some time, Senator 
McCaskill gets the last round of questions.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    First, I have got to welcome Major Dailey, and I remember 
when you were not a major.
    Mr. Dailey. You do.
    Senator McCaskill. It makes me feel old when I look at the 
command staff of the Kansas City, Missouri, Police Department, 
and I remember when all of us were not in charge of anything. 
So please tell everyone there--I say this sincerely--one of the 
highlights of my life was the working relationship I had with 
the police department when I was prosecutor. And pardon my 
parochial bias to both of you, but in terms of a professional, 
well-trained, dedicated police force, I do not think it gets 
any better than Kansas City, Missouri. And so please tell them 
all hello for me and that I am still in uniform withdrawal.
    Mr. Dailey. I will. Thank you.
    Senator McCaskill. As I look back on what we have done 
successfully in Kansas City over the years when we have dealt 
with crime problems, invariably there has been a component that 
has become institutionalized in the communities that are 
impacted by that crime. This is a little more difficult because 
you do not have a neighborhood-based problem as much as you 
have a specific kind of deeply hidden problem within a broad 
community. I think back to the days when the Ad Hoc Group 
Against Crime was formed, when we had a serious violent crime 
problem in a certain area of Kansas City, and the police 
department began something very unusual where the weekly 
meetings started, where the police were expected to be there, 
and it was a community-run meeting, where the community was 
really dictating the agenda of the meeting, and basically kind 
of taking the police department on in a way where they began to 
feel more empowered, and as a result, I think our tips got much 
stronger, our witnesses--and as I look at this issue, we spend 
so much time talking about the bad-guy radicals and we do not 
spend as much time talking about the good-guy Muslims that are 
American citizens, that want just what we want. They are deeply 
offended by the radical movement and what it implies for their 
religious beliefs. They are deeply offended at the violence and 
the loss of life that this radical movement has, in fact, 
caused.
    And so I know you all have talked about various things you 
are doing to reach out, and I know Senator Voinovich talked 
about recruitment. Have we been successful in Kansas City 
recruiting any members of the police department that are of the 
Muslim faith, to your knowledge, Major?
    Mr. Dailey. I am not aware. I do not know. I know we have 
some that are of the Muslim faith, but I do not know their 
heritage.
    Senator McCaskill. Well, I think that is something. Do you 
all do any kind of structure reach-out to the community in 
Kansas City? I know if I look at particularly health care, I 
have so many friends in Kansas City that are in the health care 
profession that are Muslim, they are all Americans, but their 
ancestors came from various countries, many in the Middle East. 
Have we kind of formalized a partnership with them in Kansas 
City where they are called upon to help us in terms of where 
there might be problems in the community?
    Mr. Dailey. We have a faith-based initiative that reaches 
out to that component. One of the things that was brought up is 
an excellent point about using people. We are very careful and 
sensitive to that, and I think we have to leverage the 
resources we have. This money is going to dry up. Homeland 
security money cannot last forever. So we are trying to 
leverage the resources we have that are already in place, and 
we have an extremely strong community policing outreach. And it 
is targeted towards neighborhoods, bad neighborhoods, but it 
can also be used for this purpose, new immigrants coming to 
this country.
    And as you said, there is an awful lot of people out there 
that are willing to share our concern and help in this effort, 
and we do reach out and form the neighborhood groups, the 
community groups, and stay in constant contact with them.
    Senator McCaskill. I think it is one of those things that 
the more that you all can do in that regard, I think that there 
are--I have talked to many American Muslims that are afraid to 
participate now because they are feeling so targeted. They are 
worried that if they begin to speak out and try to do more to 
help, that somehow they are going to bring attention to 
themselves, to their families, in a way that people in the 
community, as you mentioned, Major, that mistakenly believe 
that these loyal, patriotic Americans are somehow not good 
guys. And so, protecting the wonderful American-Muslim 
community that wants to help us in this regard seems to me--and 
whatever strategies you guys can focus on that would help do 
that I think would be really important, because that is where 
we are going to get our best info. Always, we get it from 
inside. I do not think ever in law enforcement you get your 
best information from people who do not have access to 
potentially information that would be helpful to preventing 
some of this horrible crime that we have to prevent.
    Mr. Dailey. And one of the things, going back to the 
question asked earlier, is in this training for this patrol 
strategy, we spend a great deal of time on cultural differences 
and learning how to build trust and relationships. And I think 
a key component is understanding Muslim culture from a policing 
perspective, how they have seen the police in the past and how 
not to offend them and these types of things.
    Senator McCaskill. Do all of you feel confident that the 
police that work for your departments know that the vast 
majority of Muslims in this country have the same view of 
America and law and order as they do? Do you feel comfortable 
that your police officers know that?
    Mr. Ronczkowski. I think in our community they do. We are 
such a diverse community, a lot of cultures are widely 
accepted. I do not think anybody singles out any one.
    Senator McCaskill. Right.
    Mr. Ronczkowski. I think one thing we do have to watch 
for--and I mentioned this earlier--is the commingling. There 
are many people that do not like this country, and they come 
from all walks of life, and there are many that are here in 
this country, and that is where that homegrown aspect--and I 
concur with the second- and third-generation--we have seen that 
in crime, second- and third-generation terrorists are going to 
probably be no different. But I think we have to watch out for 
what we are looking for is not always what we see.
    Senator McCaskill. Right.
    Mr. Ronczkowski. And there are a lot of pieces of this 
puzzle that are out there, that are already here and deep-
rooted into these various communities. Our officers are aware 
of that. As much as I like? No. Are we going to try to get it 
to them? Yes, but that comes with time, personnel, and money, 
of course.
    Senator McCaskill. Well, thank you, Mr. Chairman. And let 
me just say that--another bias--I think the best law 
enforcement work that is done in this country is done by local 
police departments and not by people that work for the Federal 
Government. So there it is. It is out on the table.
    Thank you all very much for being here.
    Mr. Ronczkowski. Thank you.
    Chairman Lieberman. She is that tradition of plainspoken 
elected officials from Missouri. Senator McCaskill says it like 
she means it, and she does.
    I share her admiration for local law enforcement. What you 
have done here is really quite impressive, I will start with 
the New York folks, then Los Angeles, Miami-Dade, and Kansas 
City. This was self-initiated. You took this on yourself at the 
local level because you felt it was now part of your expanded 
responsibility to provide for the public safety of the people 
of your local area. You are carrying out a national function in 
doing so.
    My conclusions from the testimony are pretty direct, which 
is that there is a problem here of homegrown Islamist 
terrorism. It is increasing. We do not want to overstate it 
because we want to just emphasize, all of us, what is the 
reality, that the overwhelming majority of Muslim Americans are 
law-abiding and patriotic and probably fear more than most 
anybody else the radicalization process going on, particularly 
as it may involve their children. But it is a problem. We have 
to deal with it, and we have to deal with it in exactly the 
methodical, community-based outreach and prevention approach 
that these four great law enforcement agencies are doing.
    I am going to take it on as my responsibility as Chairman 
of this Committee, working, obviously, with Senator Collins and 
the others, to push the Department of Homeland Security and the 
FBI to give both those of you who have self-started some more 
support in doing what you are doing to carry out a national 
function, but also to set a goal that in every community where 
there is a Muslim-American community of any size, that there 
ought to be exactly the kinds of local law enforcement outreach 
and community-based prevention programs that you four are 
carrying out.
    So I thank you very much for what you are doing. You have 
really set a national standard, and we are going to try to make 
sure that the rest of the country catches up with you.
    The normal proceeding here is that the hearing record stays 
open for 15 days if any of you want to submit additional 
testimony, and sometimes the Senators have additional questions 
that they will submit to you for answers for the record. But 
you have the very sincere gratitude of this Committee and the 
people of the communities that you serve.
    With that, I adjourn the hearing.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]




















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
